<html>
<title> - HEARING TO REVIEW THE OPPORTUNITIES AND BENEFITS OF AGRICULTURAL BIOTECHNOLOGY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






    HEARING TO REVIEW THE OPPORTUNITIES AND BENEFITS OF AGRICULTURAL
                             BIOTECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON RURAL DEVELOPMENT, RESEARCH, BIOTECHNOLOGY, AND
                          FOREIGN AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

                           Serial No. 112-19



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-284 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
TIMOTHY V. JOHNSON, Illinois         TIM HOLDEN, Pennsylvania
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              LEONARD L. BOSWELL, Iowa
K. MICHAEL CONAWAY, Texas            JOE BACA, California
JEFF FORTENBERRY, Nebraska           DENNIS A. CARDOZA, California
JEAN SCHMIDT, Ohio                   DAVID SCOTT, Georgia
GLENN THOMPSON, Pennsylvania         HENRY CUELLAR, Texas
THOMAS J. ROONEY, Florida            JIM COSTA, California
MARLIN A. STUTZMAN, Indiana          TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      KURT SCHRADER, Oregon
AUSTIN SCOTT, Georgia                LARRY KISSELL, North Carolina
SCOTT R. TIPTON, Colorado            WILLIAM L. OWENS, New York
STEVE SOUTHERLAND II, Florida        CHELLIE PINGREE, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOE COURTNEY, Connecticut
MARTHA ROBY, Alabama                 PETER WELCH, Vermont
TIM HUELSKAMP, Kansas                MARCIA L. FUDGE, Ohio
SCOTT DesJARLAIS, Tennessee          GREGORIO KILILI CAMACHO SABLAN, 
RENEE L. ELLMERS, North Carolina     Northern Mariana Islands
CHRISTOPHER P. GIBSON, New York      TERRI A. SEWELL, Alabama
RANDY HULTGREN, Illinois             JAMES P. McGOVERN, Massachusetts
VICKY HARTZLER, Missouri
ROBERT T. SCHILLING, Illinois
REID J. RIBBLE, Wisconsin
KRISTI L. NOEM, South Dakota

                                 ______

                           Professional Staff

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

Subcommittee on Rural Development, Research, Biotechnology, and Foreign 
                              Agriculture

                 TIMOTHY V. JOHNSON, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         JIM COSTA, California, Ranking 
MARLIN A. STUTZMAN, Indiana          Minority Member
AUSTIN SCOTT, Georgia                HENRY CUELLAR, Texas
RANDY HULTGREN, Illinois             PETER WELCH, Vermont
VICKY HARTZLER, Missouri             TERRI A. SEWELL, Alabama
ROBERT T. SCHILLING, Illinois        LARRY KISSELL, North Carolina

                Mike Dunlap, Subcommittee Staff Director

                                  (ii)













                             C O N T E N T S

                              ----------                              
                                                                   Page
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     4
Johnson, Hon. Timothy V., a Representative in Congress from 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2

                               Witnesses

Conner, Hon. Charles F., President and Chief Executive Officer, 
  National Council of Farmer Cooperatives, Washington, D.C.......     5
    Prepared statement...........................................     7
    Submitted questions..........................................
Beachy, Ph.D., Roger N., President Emeritus, Donald Danforth 
  Plant Science Center; Professor of Biology, Washington 
  University in St. Louis, St. Louis, MO.........................    10
    Prepared statement...........................................    12
Juma, Ph.D., Calestous, Professor of the Practice of 
  International Development, Belfer Center for Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University, Cambridge, MA..............................    17
    Prepared statement...........................................    19
        Attachment...............................................    39

                           Submitted Material

Biotechnology Industry Organization, submitted statement.........    33
CropLife America, submitted statement............................    36
National Corn Growers Association, submitted statement...........    37

 
    HEARING TO REVIEW THE OPPORTUNITIES AND BENEFITS OF AGRICULTURAL
                             BIOTECHNOLOGY

                              ----------                              


                        THURSDAY, JUNE 23, 2011

                  House of Representatives,
      Subcommittee on Rural Development, Research, 
            Biotechnology, and Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 1300, Longworth House Office Building, Hon. Timothy V. 
Johnson [Chairman of the Subcommittee] presiding.
    Members present: Representatives Johnson, Stutzman, 
Hultgren, Hartzler, Schilling, Costa, Cuellar, Welch, Sewell, 
and Kissell.
    Staff present: Mike Dunlap, John Goldberg, Tamara Hinton, 
DaNita Murray, Mary Nowak, Debbie Smith, Suzanne Watson, Andy 
Baker, Liz Friedlander, Keith Jones, John Konya, and Jamie 
Mitchell.

OPENING STATEMENT OF HON. TIMOTHY V. JOHNSON, A REPRESENTATIVE 
                   IN CONGRESS FROM ILLINOIS

    The Chairman. This hearing of the Subcommittee on Rural 
Development, Research, Biotechnology, and Foreign Agriculture 
to review the opportunities and benefits of agricultural 
biotechnology will come to order.
    This morning, I would like to welcome my colleagues, 
panelists, and the public participants to this important 
hearing.
    In our daily lives, we are inundated with statistics. Among 
the most poignant are those dealing with population projections 
and the resulting demand on our food production systems to 
provide food security into the future. The United Nations is 
predicting that our population will grow by \1/3\ by halfway 
through the century. Feeding the 9.1 billion people on the 
planet would require a 70 percent increase in ag production.
    Global population growth creates a pressing humanitarian 
challenge. We can either meet this demand by utilizing marginal 
lands and lands with fragile soils and poor water resources, or 
we can make the smart choice of increasing the production 
capacity of the plants and animals themselves. Innovation in ag 
science and technology is, in my judgment, the key.
    This Subcommittee will play, I believe, a critical role in 
the development of policy to address these global challenges; 
and among the most promising recent advances of agricultural 
research is the development and commercialization of biological 
technologies. The growth of biotech has provided many benefits 
that we are going to discuss today, including advantages for 
farmers, the environment, food and energy security, and 
competition in the global marketplace.
    American farmers have realized higher yields and increased 
profits in the widespread adoption of genetic engineering. But 
farmers are not the only ones who are benefiting from 
biotechnology. There are significant environmental advantages 
as well. For example, biotech crops require fewer pesticide 
applications. With the use of no-till and reduced-till 
practices on biotech crops, soil quality and carbon storage is 
improved, on-farm fuel demands decline, and greenhouse gas 
emissions have been reduced.
    Today, we have invited three prominent leaders in the 
agricultural biotechnology community to share their knowledge 
of biotechnology with our Subcommittee.
    The first panelist is a former Acting Secretary of 
Agriculture, Mr. Chuck Conner. He is a farmer from Indiana. 
Secretary Conner is here to represent the production center. He 
can speak to the challenges farmers face in meeting modern 
production demands in an environmentally sustainable manner, 
and how the tools of modern biotechnology play an instrumental 
role in fulfilling these objectives.
    Secretary Conner will discuss his firsthand knowledge of 
the production efficiency gained by utilizing biotech crops 
such as higher yields, more efficient use of croplands, reduced 
labor, and reduced crop rotation requirements.
    The second panelist is Dr. Roger Beachy, the former 
Director of the National Institute of Food and Agriculture and 
one the most preeminent scientists in the field. He will 
discuss current applications of biotech and offer a glimpse 
into what we can expect moving into the future.
    Last, we will hear from Dr. Calestous Juma from the Kennedy 
School of Government at Harvard University. His experience will 
tie another critical element of this Subcommittee's 
jurisdiction, that of foreign agriculture.
    I will bring to the attention that I believe most of us 
have, or should have, a copy of his book, The New Harvest: 
Agricultural Innovation in Africa, by Dr. Juma.
    Through his extensive research in Africa, Dr. Juma has seen 
three African countries adopt genetically modified crops which 
are already providing initial evidence of their long-run 
benefits.
    Each of our witnesses will share their unique perspectives.
    In the coming weeks, this Subcommittee will hear from the 
Administration regarding the regulatory framework in place 
today to address potential risks of biotechnology, both real 
and perceived.
    Once again, I appreciate everyone's participation in this 
hearing.
    [The prepared statement of Mr. Johnson follows:]

  Prepared Statement of Hon. Timothy V. Johnson, a Representative in 
                         Congress from Illinois
    Good morning. I would like to welcome my colleagues, our panelists 
and the public participants to this important hearing.
    In our daily lives, we are inundated with statistics. Among the 
most poignant are those dealing with population projections and the 
resulting demand on our food production systems to provide food 
security into the future. The UN is predicting that our population will 
grow \1/3\ by 2050. Feeding the 9.1 billion people on the planet would 
require a 70% increase in agricultural production.
    Global population growth creates a pressing humanitarian challenge. 
We may either meet this demand by utilizing marginal lands and lands 
with fragile soils and poor water resources, or we can make the smart 
choice of increasing the production capacity of the plants and animals 
themselves. Innovation in agricultural science and technology is the 
key.
    This Subcommittee will play a critical role in the development of 
policy to address these global challenges.
    Among the most promising recent advances of agricultural research 
is the development and commercialization of biological technologies.
    The growth of biotechnology has provided many benefits we will 
discuss today, including advantages for farmers, the environment, food 
and energy security, and competition in a global marketplace.
    American farmers have realized higher yields and increased profits 
from the widespread adoption of genetic engineering. But farmers are 
not the only ones benefiting from biotechnology. There are significant 
environmental advantages as well. For instance, biotech crops require 
fewer pesticide applications. With the use of no-till and reduced-till 
practices on biotech crops, soil quality and carbon storage has 
improved, on-farm fuel demand has declined, and greenhouse gas 
emissions have been reduced.
    Today, we have invited three prominent leaders in the agricultural 
biotechnology community to share their knowledge of biotechnology with 
our Subcommittee.
    Our first panelist is former Acting Secretary of Agriculture Chuck 
Conner. As a farmer from Benton County, Indiana, Secretary Conner is 
here representing the production sector. He can speak to the challenges 
farmers face in meeting production demands in an environmentally 
sustainable manner, and how the tools of modern biotechnology play an 
instrumental role in fulfilling these objectives. Secretary Conner will 
discuss his firsthand knowledge of the production efficiencies gained 
by utilizing biotechnology crops such as higher yields, more efficient 
use of cropland, reduced labor, and reduced crop rotation requirements.
    Our second panelist is Dr. Roger Beachy; the former Director of the 
National Institute of Food and Agriculture and one of the most pre-
eminent scientists in the field. Dr. Beachy will express the current 
applications of biotechnology and offer a glimpse of what we can expect 
moving into the future. Research in biotechnology has the potential for 
helping our agriculture industry to meet all the criteria for 
environmental safety and sustainability, promote economic growth, 
contribute to human health and well being, and provide global food 
security.
    Last, we will hear from Dr. Calestous Juma of the Kennedy School of 
Government at Harvard University. Dr. Juma's experience will tie in 
another critical element of the Subcommittee's jurisdiction; that of 
foreign agriculture. Dr. Juma will focus our attention on the critical 
role biotechnology will play in both foreign market development as well 
as meeting the food security needs of developing nations. Through his 
extensive research in Africa, Dr. Juma has seen three African countries 
(South Africa, Egypt and Burkina Faso) adopt genetically modified 
crops, which are already providing initial evidence of their long-term 
benefits.
    Each of our witnesses will share their unique perspectives in an 
overview of the benefits and opportunities of modern biotechnology. 
This is, however, the first in a series of hearings meant to examine 
this topic. In the coming weeks, the Subcommittee will hear from the 
Administration regarding the regulatory framework in place today to 
address potential risks of biotechnology, both real and perceived. It 
is during this next hearing where our oversight of biotechnology will 
be essential in identifying those obstacles--both regulatory 
inefficiencies as well as those resulting from frivolous litigation--
which are interfering with our realization of the full potential of the 
benefits of biotechnology.
    Once again, I appreciate everyone's participation in this hearing 
and now yield to the Ranking Member for any comments he would like to 
make.

    The Chairman. I would now yield to my good friend, the 
Ranking Member, Mr. Costa, for any comments that he would like 
to make.
    Thank you again, participants; and after Mr. Costa's 
initial remarks we will start our hearing.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman, for calling 
this important hearing.
    It is incumbent upon this Subcommittee to review the 
opportunities and the benefits for U.S. agriculture as it 
relates to our biotechnology development. As we look upon its 
application throughout the world, this Subcommittee certainly 
has a very important role to play. I look forward to hearing 
from our expert witnesses.
    We all know, that over the last 2 decades, the incredible 
role that biotechnology has played in the American farmers 
ability to feed a growing population not only in our nation but 
around the globe. American consumers have benefitted as well.
    In April, I traveled to Brussels, where I had the 
opportunity to speak with the European Union Commissioner of 
Agriculture and the Chair of the EU Parliament's Agriculture 
Committee. Our EU colleagues are curious how Americans have 
come to largely embrace agricultural biotechnology, while EU 
countries have challenges accepting the same important 
advancements.
    My observation is that this is due to the strong 
relationship between the research conducted for over a century 
at our land-grant universities and the private sector. It is an 
area where we have challenged our universities to be at the 
cutting edge of science and working together with the private 
sector. It is that uniquely American public-private 
partnership. We have faith and confidence with this academic 
model as it relates and delivers to the American consumer.
    We know that our technology companies and our farmers face 
increasing competition abroad, in South America and Canada, as 
it relates to developing and commercializing agriculture's 
biotechnology. Large commodity crops like corn, soybean, and 
cotton have already realized many of the benefits of 
biotechnology by creating higher-yielding crops, crops that are 
more drought tolerant, and crops, as the Chairman noted, that 
require fewer pesticides and herbicides.
    What I think holds great promise is the next generation of 
biotechnology for specialty crops around the country, but 
especially in California. Crops of fruits and vegetables, leafy 
greens, crops that can make better and healthier diets. Crops 
that fight plant diseases that our growers face not only in our 
country but around the world.
    Some of our witnesses will suggest the need for rethinking 
how we evaluate agricultural biotechnology so that it will not 
suffer. I look forward to hearing those comments.
    If Congress undertakes such an effort as a part of the 2012 
Farm Bill, we need to remember that our trading partners have 
already imposed barriers to U.S. agricultural products because 
of the use of biotechnology. We need to keep that in mind as we 
reform and refine our regulatory system.
    In the interim, we need to continue to aggressively push 
our trading partners to remove these barriers which generally 
have more to do with protecting their own domestic agriculture, 
in my opinion, than focusing on science-based concerns.
    The success of U.S. agriculture biotechnology depends on 
maintaining trust and confidence of American consumers, and our 
trading partners, to ensure that we are growing the safest 
products for American consumption and for export around the 
world.
    Why biotechnology? Well, let's think about it. Two hundred 
years ago, there were 1.5 billion people on the planet, 200 
years ago. Today, 200 years later, we have 6.7 billion people 
on the planet. By the end of this century, it is estimated we 
will have over nine billion people on the planet.
    Why biotechnology? We need to feed that growing population. 
We have finite supplies of water not just in our own country 
but in areas around the world. Drought-resistant seeds are 
critical to continuing to grow the food we need. We need to 
have crops that rely less on the use of pesticides and 
herbicides.
    And yields--yields are critical. We take for granted the 
green revolution that took place 40 years ago that again was 
advanced by many of our land-grant universities. We are 
standing on the shoulders and living off the benefits of that 
green revolution.
    Norman Borlaug, a great, noted U.S. scientist, went to 
India and took that green revolution with tremendous results to 
allow India to prosper today. We must not forget that is the 
heritage and the legacy that we come from, and we must continue 
that effort as we move forward.
    I yield back the balance of my time; and I look forward to 
hearing the testimony, Mr. Chairman.
    The Chairman. Thank you, Mr. Costa.
    I would request that other Members submit their opening 
statements, if any, for the record so that we can proceed with 
the testimony.
    So we would move to the witnesses, and call on the 
Honorable Charles F. Conner, President and CEO, National 
Council of Farmer Cooperatives here in D.C.
    Mr. Conner.

   STATEMENT OF HON. CHARLES F. CONNER, PRESIDENT AND CHIEF 
             EXECUTIVE OFFICER, NATIONAL COUNCIL OF
             FARMER COOPERATIVES, WASHINGTON, D.C.

    Mr. Conner. Chairman Johnson, Ranking Member Costa, and 
Members of this Subcommittee, on behalf of nearly 3,000 farmer-
owned cooperatives and the broader coalition of agricultural 
groups whose members produce much of this country's food and 
fiber, we thank you for holding today's hearing on the benefits 
of agricultural biotechnology.
    Our organizations and the people we represent support 
policies that enhance the ability of producers to use new 
practices and technologies to produce their crops. At the same 
time, we know these practices must be based on proven science, 
be economical and environmentally sound and, of course, ensure 
food safety.
    Additionally, we strongly support the safety and science-
based risk assessments conducted as part of the regulation of 
biotech crops.
    As stakeholders in the development, deregulation, and 
commercialization of these crops, the actions taken by 
government agencies have a direct and indirect impact on timely 
access to the future traits now under development.
    The widespread adoption of biotech-derived crops by farmers 
truly does demonstrate the value of this technology to American 
agriculture. The first generation of biotech crops engineered 
to be herbicide tolerant and insect resistant were first 
introduced in 1996. By 2010, U.S. farmers planted 86 percent of 
their corn acreage and 93 percent of their soybean acreage with 
these technologies. This is because biotech crops resulted in 
higher yields, more efficient use of cropland, reduced labor, 
and reduced crop rotation requirements.
    For example, biotech has increased corn yields by 40 
percent over the last 20 years, while increasing land use 
efficiency. Because of this, it now takes 37 percent less 
energy and 25 percent less water to produce a bushel of corn 
than what was the case 2 decades ago.
    In 2010, 93 percent of the U.S. cotton was genetically 
engineered, and cotton yields have increased approximately 33 
percent as compared to the period of time prior to the 
introduction of these traits.
    Without a doubt, the next generation of biotech crops will 
continue to increase crop yields helping U.S. producers feed 
and clothe the world. The U.S. must continue to lead the way 
with innovation, product development, and acceptance of biotech 
crops.
    An example for future potential for biotech crops is wheat. 
According to the U.N.'s Food and Agricultural Organization, 20 
percent of the calories consumed by the human race on this 
planet are derived from wheat. The U.N. estimates that the 
world's population, as you have noted, will reach 9.3 billion 
people by 2050. With only three percent of the Earth's surface 
suitable for food production, farmers will need to produce more 
using the same amount of land, less energy, and certainly fewer 
water resources. Innovation will be the key to our ability to 
improve wheat production and keep up with the growing world 
population.
    The need to support biotechnology, Mr. Chairman, is not in 
question. The question is how to enable biotechnology to move 
forward to meet those future food needs.
    There are currently over 20 biotech traits awaiting 
regulatory decisions. It is imperative that the USDA continue 
its science-based and safety-based regulatory process, and be 
allowed to make these judgments and decisions without undue 
legal interference.
    Court decisions not based on any science whatsoever put the 
U.S. at risk of missing out on opportunities provided by this 
technology. These legal challenges continue to hamper USDA's 
efforts to review and improve new products in a timely way.
    Another important issue is coexistence. Farmer cooperatives 
and their producer-members continue to support commercial 
decisions that are voluntary and determined by the marketplace. 
Marketing decisions should not be included as part of the 
government's safety- and science-based assessment of biotech-
derived agricultural products. I am hopeful that robust 
decisions regarding the issue will take place as part of USDA's 
newly reorganized AC-21 advisory committee.
    In closing, Mr. Chairman, we urge the Administration and 
Members of this Committee to maintain the integrity of the 
regulatory process with respect to biotech crops. Our 
organizations, in total, look forward to working with this 
Committee and seeing that come about.
    Thank you again for the opportunity to testify, and I will 
respond to your questions at the appropriate time.
    [The prepared statement of Mr. Conner follows:]

   Prepared Statement of Hon. Charles F. Conner, President and Chief
Executive Officer, National Council of Farmer Cooperatives, Washington, 
                                  D.C.
    Chairman Johnson, Ranking Member Costa, and Members of the 
Subcommittee, thank you for holding today's hearing on the benefits of 
agricultural biotechnology products.
    I am Chuck Conner, President and Chief Executive Officer of the 
National Council of Farmer Cooperatives (NCFC). Since 1929, NCFC has 
been the voice of America's farmer cooperatives. Our members are 
regional and national farmer cooperatives, which are in turn composed 
of over 2,500 local farmer cooperatives across the country. NCFC 
members also include 26 state and regional councils of cooperatives.
    Additionally, the American Farm Bureau Federation, American Soybean 
Association, American Sugarbeet Growers Association, National 
Association of Wheat Growers, National Corn Growers Association and 
National Cotton Council support the remarks I am making today. Also 
included in my statement for the record is information from one of our 
members, Land O'Lakes, regarding the status of Roundup Ready alfalfa.
    Farmer cooperatives--businesses owned, governed and controlled by 
farmers and ranchers--are an important part of the success of American 
agriculture. Like many in production agriculture, our members have had 
long and direct experience with biotechnology crops and have realized 
the many benefits they provide, including improvements in production 
efficiency while lessening the environmental impacts of food 
production.
    We support policies that enhance the ability of producers to use 
new practices and technologies to produce their crops, so long as the 
practices are based on proven science, are economically and 
environmentally sound and ensure food safety. Additionally, we strongly 
support the safety and science-based risk assessments conducted as part 
of the regulation of biotechnology crops. As stakeholders in the 
development, deregulation and commercialization of biotechnology crops, 
the actions taken by government agencies on these crops have a direct 
and indirect impact on timely access to future traits now under 
development.
    As part of my statement, I will highlight the key benefits that 
plant biotechnology has provided to U.S. agriculture, including 
production gains that will improve global food security and reduce the 
impact on our natural resources. I also will revisit several issues I 
raised at the Committee's forum on biotechnology in January.
    Additional crop-specific statistics along with other benefits of 
biotechnology crops are provided in the appendix of this testimony.
Improved Production Capabilities
    The benefits of biotechnology in agriculture are most readily 
demonstrated by the response from U.S. farmers in adopting 
biotechnology-derived crops. The first generation of biotech crops 
engineered to be herbicide tolerant (HT) and insect resistant using a 
Bacillius thuringiesis (Bt) soil gene were introduced in 1996. By 2010, 
86 percent of U.S. producers had adopted HT and Bt technology. For 
example, HT (glysophate-resistant) soybeans grew from 17 percent of 
production in 1997 to 68 percent in 2001 to 93 percent in 2010. During 
the same period, U.S. farmers increased adoption of HT and Bt 
technologies to 86 percent of all U.S. corn acreage.
    Biotechnology crops have improved the ability of producers to meet 
market demand, both domestic and international, while supporting their 
rural economies. Furthermore, production efficiencies gained by 
utilizing biotechnology crops have resulted in higher yields, more 
efficient use of cropland, reduced labor and reduced crop rotation 
requirements.
Meeting Global Demand
    In the words of Dr. Norman Borlaug, ``civilization as it is known 
today could not have evolved, nor can it survive, without an adequate 
food supply.''
    American agriculture has long been at the forefront in meeting the 
world's ever-expanding needs for food, feed and fiber. The availability 
of corn, cotton, soybean, sugarbeet, canola, alfalfa, and other crops 
enhanced through biotechnology will continue to assist the U.S. farmer 
in providing for the world's growing population. The development and 
adoption of these products, and the promise of new products, make 
possible the continued availability of abundant food, feed and fiber to 
consumers in the U.S. and worldwide. It is imperative that the U.S. 
agriculture industry continue to lead the way with innovation, product 
development and acceptance of biotechnology crops.
    Incredible strides have been made with the adoption of 
biotechnology. For example, in 2010 93 percent of U.S. cotton was 
genetically engineered, and cotton yields have increased approximately 
33 percent as compared to the average cotton yields prior to the 
introduction of biotech cotton in 1996. Without a doubt, the next 
generation of biotechnology crops will continue to increase crop 
yields, enabling U.S. producers to meet growing world demand for food, 
feed, and fiber.
    An example of future potential for biotechnology is wheat. 
According to the Food and Agriculture Organization (FAO) of the United 
Nations (UN), 20 percent of the calories consumed by the human race are 
derived from wheat. In recent years, droughts in Russia and Australia 
made global supplies uncertain, and this year U.S. farmers in some 
states are experiencing drought while other states are experiencing 
flooding. Innovation will be the key to the U.S.'s ability to improve 
wheat production, keep up with a growing global population and adapt to 
changing climatic conditions around the world.
    By now, we are all aware of the estimates made by the UN predicting 
the world population will reach 9.3 billion people by 2050. With only 
three percent of the Earth's surface suitable for food production, 
there will be intensified pressure for farmers to feed and clothe a 
growing population using the same amount of land with fewer energy and 
water resources.
Doing More with Less
    Biotechnology providers and seed companies, in partnership with 
grower groups and their farmer cooperatives, were at the forefront of 
creating valuable agriculture biotechnology products that benefit 
farmers, consumers and the environment. For instance, biotechnology 
products have helped increase corn yields by 40 percent per acre in the 
last 20 years. Land use efficiency has increased by 37 percent over the 
last 20 years, effectively decreasing fixed cost burdens on producers. 
It now takes 37 percent less energy and 25 percent less water to 
produce a bushel of corn than it did 2 decades ago.
    Farmers have rapidly adopted the new technology and have enjoyed 
more convenient and flexible crop management, lower cost of production, 
higher productivity and/or net returns per acre and numerous 
environmental benefits. Biotechnology developments have reduced 
pesticide use, improved conservation practices and afforded a more 
sustainable way for farmers to provide us with food, feed and fiber.
    For example, adoption of biotechnology products has encouraged the 
expansion of no-till cultivation. The increased use of no-till reduces 
herbicide costs by 20 to 50 percent, erosion by 90 percent, greenhouse 
gas emissions by 88 percent, and fuel use by 20 to 50 percent, while 
enhancing habitat for beneficial insects and birdlife. These benefits, 
in turn, reduce farm production costs, improve soil and water quality 
and conservation, increase carbon retention in the soil, and reduce 
fuel use and emissions.
Regulatory Certainty
    The need to support this technology is not in question. The 
question is how to enable biotechnology to move forward to meet future 
needs. Legal decisions not based in science put the U.S. at risk of not 
being able to capitalize on the opportunities and benefits provided by 
biotechnology. They also represent an unnecessary drain on the 
resources of the Federal Government, commodity organizations and 
biotechnology companies.
    In addition to the first generation crops, sugarbeet and alfalfa 
Roundup Ready products have been approved. After extensive 
environmental, health and human safety reviews, USDA determined these 
products were safe for commercialization. However, these crops were 
subsequently challenged in court on procedural National Environmental 
Policy Act (NEPA) issues. In the case of alfalfa, the U.S. Supreme 
Court concluded in a 7-1 decision that USDA had performed due diligence 
in making its non-regulated status decision on alfalfa. Although both 
crops were planted this year, under conditions imposed by USDA due to 
judicial rulings, the time and resources expended to litigate these 
needless legal challenges has been debilitating to USDA's efforts to 
review and approve new products.
    There are many other new products U.S. growers would like to 
utilize. For example, wheat farmers want technologies that will allow 
them to address multiple production challenges and improve yields and 
quality while using less water, fertilizer and pesticides. Other new 
traits in the pipeline for commodities, fruits and vegetables will 
provide additional benefits to consumers and farmers. With over twenty 
biotechnology traits pending regulatory decisions, it is important that 
USDA continue its science and safety-based regulatory process. USDA's 
Animal and Plant Health Inspection Service (APHIS) should make timely, 
safety- and science-based decisions on biotechnology crops.
    Another important issue is ``coexistence.'' At the forum in 
January, I spoke about the regulatory options proposed by USDA on 
Roundup Ready alfalfa. I stressed that the U.S. Government's definition 
of ``coexistence'' is critical to continued growth and expansion of new 
biotechnology-derived products. However, the understanding and scope of 
``coexistence'' remains unclear.
    I am hopeful that robust discussions regarding the issue will take 
place as part of USDA's newly reorganized AC-21 advisory committee. We 
are all committed to the principle of ensuring that all U.S. farmers 
are able to choose cropping systems based on their individual 
operations and situations.
    Farmer cooperatives and their producer members continue to support 
commercial decisions that are voluntary and determined in the 
marketplace. It is our view that marketing decisions should not be 
included as part of the government's safety- and science-based 
assessment of biotechnology-derived agricultural products.
    In closing, we urge the Administration and Members of this 
Committee to maintain the integrity of the regulatory process with 
respect to biotechnology crops. I look forward to working with this 
Committee on common sense approaches that allow for availability and 
future development and adoption of these tools to ensure we can meet 
the demands of our expanding population.
    Thank you again for the opportunity to testify. I am pleased to 
respond to your questions.
              Appendix--Additional Statistics and Benefits
Soybeans
  <bullet> Biotech soybeans currently account for 92 percent of total 
        U.S. soybean production. Since their introduction in 1996, the 
        vast majority of biotech soybeans have been genetically 
        modified to resist specific weed control products, including 
        glyphosate. Better weed control improves production 
        efficiencies by allowing narrower row planting, reducing the 
        number of field trips, and reducing the volume of foreign 
        material, including toxic weed seeds, by 33 percent.

  <bullet> The next generation of biotech products includes soybeans 
        with improved fatty acid profiles, including high oleic, low 
        saturated fat, higher omega-3 levels, and high stearic acid 
        content. New varieties will also be resistant to alternative 
        herbicides, allowing rotating usage of different chemistries, 
        and will include stacks of traits in the same seeds that are 
        resistant to herbicides, insects, diseases and nematodes.

  <bullet> The next generation of biotech products will also increase 
        soybean yields to enable U.S. producers to meet growing world 
        demand for food and feed.
Sugarbeets
  <bullet> Sugarbeets are raised on 1.2 million acres in 11 states and 
        processed by 22 farmer-owned facilities. The crop is typically 
        rotated with other crops over a 3 to 4 year period. In 2010, 60 
        percent of the sugar produced in the U.S. was from sugarbeets.

  <bullet> Weeds are one of the biggest problems in raising this crop. 
        With conventional sugarbeets, multiple applications of multiple 
        herbicides are required at precise times. Even then, weed 
        pressure often continues to exist, requiring scarce and costly 
        hand labor, or reduced yields due to weed competition for soil 
        nutrients and water.

  <bullet> Roundup Ready sugarbeets were deregulated in March 2005 and 
        growers anxiously awaited variety approvals and commercial seed 
        production produced by independent seed producers. By 2009, the 
        beet industry planted 95 percent of the acreage with the 
        Roundup Ready technology. It was the fastest adoption rate of 
        any biotech crop worldwide.

  <bullet> A Roundup Ready sugarbeet system requires less soil 
        disturbance for seed bed preparation and fewer herbicide 
        applications, which means fewer trips across the field. These 
        innovations result in reduced greenhouse gas emissions, soil 
        erosion and soil compaction, and enhanced water conservation.
Corn
  <bullet> Corn growers adopted biotechnology readily, growing from a 
        25 percent market share in 2000, to over 85 percent in 2010.

  <bullet> The yield-preserving benefits of biotechnology traits helped 
        limit production declines in extreme weather years such as 2009 
        and 2010.

  <bullet> The 35 year trend line projects corn farmers harvesting 170 
        bushels per acre by 2020, while the improvements seen in the 
        last 12 years indicate that farmers could be harvesting 180 
        bushels an acre by 2020, resulting in an extra 800 million 
        bushels of corn per year. While these are only estimates, when 
        taking into consideration what is in the biotechnology pipeline 
        yields could near 205 bushels per acre, with total production 
        exceeding 16.4 billion bushels.

  <bullet> Herbicide tolerance has allowed growers to use fewer 
        pesticides per acre in their weed management programs, enabling 
        greater adoption of no-till practices. As a result, soil loss 
        has been reduced by 69 percent while herbicide and insecticides 
        applications per acre have been reduced 20 percent and 65 
        percent respectively. In 2006, that amounted to approximately 
        110 million pounds of pesticide use displaced due to 
        biotechnology.
Cotton
  <bullet> Biotechnology cotton has resulted in a decreased in 
        pesticide usage by as much as 75 percent.

  <bullet> As of 2010, 93 percent of U.S. cotton was genetically 
        engineered, and cotton yields have increased approximately 33 
        percent as compared to the average cotton yields prior to the 
        introduction of biotech cotton in 1996.
Alfalfa
  <bullet> Alfalfa (forage) is the fourth largest crop in the United 
        States and a key component of the diet of dairy cows--alfalfa 
        acres have been declining over the past 20 years, due in part 
        to weed and quality issues. However, those issues can be 
        addressed by Roundup Ready alfalfa.

  <bullet> While most of the focus has been on ways to improve milk 
        prices and provide dairy farmers with additional revenues, we 
        also are concerned about how to help dairy farmers avoid being 
        squeezed by low prices and high costs in the future. A Land 
        O'Lakes survey suggests that farmers who utilize Roundup Ready 
        alfalfa enjoy a $100 to $110 per acre financial benefit.

  <bullet> Roundup Ready alfalfa was approved for sale in June 2005. In 
        June 2007, a Federal district court in California issued an 
        injunction halting sales of Roundup Ready alfalfa, instructing 
        USDA to issue an Environmental Impact Statement (EIS)--a 
        process estimated to take 18-24 months. The district court's 
        decision was upheld by the Ninth Circuit in September 2008.

  <bullet> The process took much longer than estimated, with the final 
        EIS issued in January 2011. As a result of procedural delays in 
        completing the EIS, farmer investment in this new technology 
        was put at risk.
Papaya
  <bullet> Until 1992, Hawaii enjoyed steady production of papaya with 
        greater than 80 percent of the crop being exported. However, in 
        1992 the papaya ringspot virus (PRSV) wiped out much of the 
        crop.

  <bullet> By 1995, PRSV was widespread and decimated the industry. 
        Production went from 53 million pounds in 1992 to 26 million 
        pounds in 1998.

  <bullet> Thanks to the development of a transgenic (biotechnology) 
        PRSV-resistant papaya developed by Cornell University and 
        approved by USDA, production has recovered to its previous 
        levels.

  <bullet> Biotechnology saved the Hawaiian papaya industry. Today, it 
        is the state's second-largest fruit crop, valued at $18 
        million.

    The Chairman. Thank you, Mr. Conner.
    Our next panelist is Dr. Roger Beachy, President Emeritus, 
Donald Danforth Plant Science Center, Saint Louis, Missouri.
    Dr. Beachy.

         STATEMENT OF ROGER N. BEACHY, Ph.D., PRESIDENT
 EMERITUS, DONALD DANFORTH PLANT SCIENCE CENTER; PROFESSOR OF 
   BIOLOGY, WASHINGTON UNIVERSITY IN ST. LOUIS, ST. LOUIS, MO

    Dr. Beachy. Thank you, Chairman Johnson, Mr. Costa, and 
Members of the Subcommittee, for holding this hearing today.
    My goal is to convey to you the importance of research that 
brings innovation to agriculture and the regulatory processes 
that are put in place to ensure safety.
    I come with a background as a teacher and as a scientist 
and inventor of some of the technologies that are being used 
today in agriculture; a former director of an institute 
established in part as a mechanism to stimulate innovation and 
local economy; and as a former director of NIFA. I have been an 
advisor to several venture capital funds who have invested in 
biotech. I have sat on boards of several multinational 
companies as well as a number of not-for-profit research and 
education organizations. It has been a privilege to have 
participated in such a breadth of activities, each of which has 
brought me to this table today.
    The discoveries made in the plant and agricultural sciences 
and the laboratories of universities, private and public 
research centers, and laboratories of the private sector have 
been nothing short of amazing, remarkable in agriculture in the 
last 50 years, as Congressman Costa has mentioned.
    Genetic engineering recently has brought farmers insect-
resistant crops that require far fewer chemical inputs and 
tolerance to environmentally friendly herbicides that enable 
farmers to increase no-till agriculture. This saves the farmer 
fuel and labor costs and increases profits.
    Similarly, virus-resistant crops have reduced the need for 
insecticides that control aphids.
    This is true sustainability of agriculture. This is 
sustainability that is quantifiable. It is defined by science. 
It is not a philosophy. It is marked and measured.
    Yet this is only the beginning of reaching the potential 
for agriculture, an agriculture which must feed more people not 
just more calories but better calories; agriculture and 
agriforestry that requires fewer chemicals to protect them from 
insects and diseases and delivers more and better biofuels.
    Furthermore, in the future, agriculture will meet the 
growing demands for natural chemicals that will fuel our 
pharmaceutical and industrial engines, our factories.
    There are a growing number of examples of new inventions 
developed through genetic engineering that have good likelihood 
of success and continue to be delayed in reaching the 
marketplace because of regulatory processes that are ill-
defined and/or unpredictable, sometimes irrational, always 
costly. This is an area of significant concern to venture 
capitalists, to inventors, to entrepreneurs and is worthy of 
attention and reform.
    Plants and plant products that are developed with the aid 
of genetic engineering are subjected to regulations and 
oversight through a process developed in the mid-1980s and 
finalized in 1986 in the Coordinated Framework for Regulation 
of Biotechnology. The success of the original plan is reflected 
in the positive impacts on agriculture production in the U.S., 
as well as on millions of smallholder farmers in developing 
economies while reducing the use of chemical insecticides that 
have caused health problems in those poor rural communities.
    Today, the regulatory structures are much like they were in 
1987. There have been modest adjustments in the process since 
that time, but the regulatory process has not adapted to the 
experience of the past 24 years, or to the new knowledge 
generated during this period. It has adapted poorly in response 
to the proven safety record and absence of adverse effects on 
the environment or on animal or human health. It has not 
adapted to changes that have further enhanced the safety of the 
technologies per se, and it has not adapted to the needs of the 
market.
    The system needs attention, modification, and improvement 
if the U.S. and global agriculture communities and its 
consumers are to benefit from the investment that this 
government has made in the past in science and technology that 
will impact agriculture and agriforestry.
    Now GE seeds for the commodity crops are produced by large 
companies that tend to be less constrained by cost and by time 
but some impact. In contrast, researchers and innovators in the 
academic community and in small companies have considerably 
more difficulty in producing or delivering a genetically 
engineered crop to the market than do the large corporations. 
Indeed, there are fewer than a handful of such products since 
the technology was invented in the mid-1980s.
    There have been no new products released to the market from 
universities for more than 10 years, in part because of the 
time and the cost necessary to bring new products forward. The 
cost of regulatory approval of products is between $5 and $25 
million, and the time can be as much as 10 years.
    And there are lots of examples of the burdens, and I won't 
go through them. They are in my written testimony. But I am 
glad you are taking on this challenge of how asking how it can 
be changed, and ask that if I can be of any further assistance 
in the future to the Subcommittee or to the Administration or 
the regulatory process, I will be glad to be of service.
    Thank you.
    [The prepared statement of Dr. Beachy follows:]

   Prepared Statement of Roger N. Beachy, Ph.D., President Emeritus, 
 Donald Danforth Plant Science Center; Professor of Biology, Washington
                 University in St. Louis, St. Louis, MO
    Thank you, Chairman Johnson, Mr. Costa, and Members of the 
Subcommittee, for holding this hearing. The topic is one of great 
interest and importance to agriculture and agriforestry, in particular 
the science and biotechnologies that work to ensure the success of this 
sector of the American economy while preserving the natural resources 
that make the industry possible. Our goal is to convey to you the 
importance of research that brings innovation to agriculture, and of 
the regulatory processes that are in place to ensure safety of products 
of biotechnology. I will address most of my remarks to the plant 
sciences and the technologies and products that are derived from 
biotechnology.
    I come with a background as a teacher and scientist, as an inventor 
of technologies that are used in agricultural biotechnology, as a 
former director of the Donald Danforth Plant Science Center, 
established in part as a mechanism to stimulate innovation and local 
economy, and as a former director of a Federal research agency: I was 
appointed by President Obama to be Founding Director of the National 
Institute of Food and Agriculture that was established by the 2008 Farm 
Bill. I have been an advisor to several venture capital funds, have sat 
on the boards of two multinational companies, as well as a number of 
not-for-profit research and education organizations. It has been a 
privilege to have participated in such a breadth of activities, each of 
which had a role in bringing me to this table today.
    Since the middle of the last century biologists, chemists and 
biochemists have worked diligently to understand the fundamentals of 
plants--how they grow and develop, and the nature of the proteins, 
oils, carbohydrates and the hundreds of thousands of natural products 
that they produce. The results of these and derivative studies have 
been used to enhance and improve the agriculture that peoples in 
America and around the world rely upon for sustenance and livelihood, 
indeed for their very survival. As agriculture continues to be pressed 
to be ever more productive and economically and environmentally 
sustainable, the targets of research are to increase crop yields, 
develop more nutritious and safer foods, to reduce requirements for 
water, nitrogen and other inputs, to develop disease resistant crops 
that require fewer chemical protectants, crops that are used to produce 
more and better biofuels, and crops that produce useful and valuable 
materials that will fuel the industrial and pharmaceutical sectors of 
the future. The goals will result in an agriculture that meets all the 
criteria for environmental safety and sustainability, ensures rural and 
urban wealth, contributes to human health and well being, and that 
seeks to provide global food security. While such goals may seem lofty 
and far afield from what is often referred to as `agriculture', they 
are achievable through science and development of the human potential 
to exploit the knowledge provided through discovery, innovation, and 
invention.
    The discoveries made in the plant and agricultural sciences in the 
laboratories of universities, private and public research centers, and 
in laboratories of the private sector have been nothing short of 
remarkable. They have led to understanding how and why some plants 
produce large amounts of oils, or proteins, or carbohydrates while 
others cannot; how and why some plants are resistant to certain insects 
or diseases, but not to others; and how some plants make certain types 
of molecules such as pain killers and cancer-fighting anti-oxidants 
while other plants do not. As these and other discoveries were made 
scientists began to look for ways to `genetically instruct' some plants 
to have specific traits that will increase their value to producers, or 
to consumers of agriculture products. In many cases researchers have 
used genetic engineering to accomplish their goal.
    While many of the advances in agriculture in the past 25 years have 
come through classical methods of genetics and breeding, chemical and 
radiation mutagenesis, and cell and tissue culture-based 
biotechnologies, some of the most remarkable advances have come through 
the biotechnologies that comprise genetic engineering. Genetic 
engineering (GE) brought farmers insect resistant crops that require 
far fewer chemical inputs than did parental varieties, and tolerance to 
environmentally friendly herbicides that reduce the use of less safe 
herbicides and enable farmers to increase no-till agriculture. This can 
save the farmer fuel and labor costs and increase profits, while 
increasing the quality and fertility of the land. Similarly, virus 
resistant crops have reduced the need for the insecticides that control 
the aphids that transmit the viruses from plant to plant. These 
discoveries, breakthroughs if you like, have increased the profits of 
producers, reduced the use of harsh chemicals that can cause illness in 
farmers and their families as well as to consumers, and enhanced the 
environmental quality of farming ecosystems. Furthermore, each of the 
technologies and products that have come to market has an outstanding 
record of safety for the farmer and consumer as well as the 
environment.
    This is true sustainability of agriculture; this is sustainability 
that is quantifiable, is defined by science-based criteria, not a 
`sustainability' based on a philosophical approach that critics and the 
media too often bandy about in criticizing conventional agriculture. It 
is an agriculture that is the goal of many scientists around the globe, 
and those around this table today. These applications of biotechnology 
to agricultural are thus bringing to life the vision Rachel Carson put 
forward in the last chapter of Silent Spring:

        ``A truly extraordinary variety of alternatives to the chemical 
        control of insects is available. Some are already in use and 
        have achieved brilliant success. Others are in the stage of 
        laboratory testing. Still others are little more than ideas in 
        the minds of imaginative scientists, waiting for the 
        opportunity to put them to the test. All have this in common: 
        they are biological solutions, based on understanding of the 
        living organisms they seek to control, and of the whole fabric 
        of life to which these organisms belong. Specialists 
        representing various areas of the cast field of biology are 
        contributing--entomologists, pathologists, geneticists, 
        physiologists, biochemists, ecologists--all pouring their 
        knowledge and their creative inspirations into the formation of 
        a new science of biotic controls.'' \1\
---------------------------------------------------------------------------
    \1\ Rachel Carson, ``The Other Path'', Silent Spring, Houghton 
Miflin, New York. 1962. p. 278.

    Scientists and technicians have in past decades made discoveries 
through the use of genetic engineering that will, if approved for 
commercial release, produce crops that are even more remarkable: for 
example crops that require less irrigation under drought conditions, 
and that have higher nutrient value than the parent varieties, among 
other traits.
    Yet this is only the beginning of reaching the potential for 
agriculture--an agriculture which must feed more people not just more 
calories, but more nutrient-rich calories; agriculture and agriforestry 
that requires fewer chemicals to protect them from insects and 
diseases; agriculture that delivers more and better biofuels; and 
agriculture that meets the growing demands for the natural chemicals 
that will fuel our pharmaceutical and industrial factories, all while 
fulfilling conservation pioneer Wallace Stegner's command that we learn 
to ``tread more gently on the land.''
    Science-driven agriculture can be the means through which the 
United States remains competitive with the rest of the world. U.S. 
agriculture will increasingly be challenged by scientific advances 
being made by talented scientists and innovators in other countries, 
including in Brazil and China, whose work is projected to contribute 
half of the new biotech plant varieties brought to market between now 
and 2015.\2\ Furthermore, many of the discoveries represent the 
underpinning structure of global food security as scientists in 
advanced countries share breakthroughs in with those in developing 
economies whose local crops need similar advances to meet the growing 
food and nutrition needs of their communities. Productivity of crops 
such as cassava, sweet potato, sorghum, millets, and pulse grains, 
which provide nutrition for hundreds of millions in developing 
economies, will be increased via advanced technologies. It is a moral 
imperative to assist in achieving global food security by building 
local capacity in agriculture in order to meet the needs of a growing 
and demanding world population.
---------------------------------------------------------------------------
    \2\ Alexander J. Stein & Emilio Rodriguez-Cerezo, 2009. The global 
pipeline of new GM crops: Implications of asyncrhonous approval for 
international trade. European Commission Joint Research Centre, 
Institute for Prospective Technological Studies. EUR 23486 EN-2009.
---------------------------------------------------------------------------
    This is an exciting period of time in discovery and innovation. 
Unfortunately, it is not an exciting time for delivering new products 
of agriculture biotechnology to consumers or to those who would invest 
in the future of agriculture. While not all discoveries lead to 
innovation and new products, there are a growing number of examples of 
new inventions developed through genetic engineering that have good 
likelihood of success and that continue to be delayed in reaching the 
marketplace because of regulatory processes that are ill-defined and/or 
unpredictable, sometimes irrational, and always costly. This is an area 
for significant concern to inventors and entrepreneurs, and is worthy 
of attention and reform. These are delays that are not imposed on crops 
that are improved by chemical or radiation mutagenesis or through 
mutagenic cell cultures, or through advanced molecular breeding.
    Some of the discoveries that fall in this category have been made 
in our land-grant colleges and universities; others have been made in 
the elite universities and research institutions that previously 
focused on achieving breakthroughs in biomedical sciences. Others are 
made in the start-up companies that are attempting to turn discoveries 
into innovations, such as those that will fuel the bio-based economy of 
the future. Many of the discoveries are made with horticultural crops 
such as tomato, cucumbers, lettuce, potato, and other fruits and 
vegetables. Other examples include applications that are relevant to 
industrial crops such as the perennial grasses and rapidly growing 
trees that will provide the 2nd and 3rd generation biofuels and 
biopower for energy. Still others would result in specialty and 
industrial chemical feedstocks that will feed a green economy.
    Plants and plant products (but not products developed via food 
processing) that are developed with the aid of genetic engineering are 
subjected to regulations and oversight through a process developed in 
the mid-1980s, and finalized in 1986 in the Coordinated Framework for 
Regulation of Biotechnology. Existing processes and authorities of the 
USDA, EPA, and FDA were brought together to address concerns and 
potential risks about this new technology: because the types of hazards 
anticipated with these new products were the same as those with which 
we were long familiar from other types of agricultural innovation, the 
determination was made that existing statues were adequate, and no 
legislative authorities were required by regulators. The history and 
success of the regulatory process and the products that were released 
as a consequence of the coordinated framework are now storied in terms 
of the positive impacts that such products have had on U.S. and global 
agriculture. It is also reflected in the positive impacts on production 
agriculture in the U.S. as well as on millions of small holder farmers 
in developing countries. Genetically engineered cotton, and to a lesser 
extent maize/corn, have increased yields in India, China, So. Africa 
and other countries, while reducing the use of chemical insecticides 
that have caused health problems in poor rural communities.
    Today, the regulatory structures that control the production of GE 
crops are much like they were in 1987--there have been modest 
adjustments in the process since that time. And, given sufficient time, 
financial resources and patience, the process results in the release of 
some new technologies to the marketplace. The regulatory process has 
not, however, adapted to the experiences of the past 24 years or to new 
knowledge generated during this period; as a consequence many other 
useful products have not made their way to the marketplace. It has 
adapted poorly in response to the proven safety record and absence of 
adverse affect on the environment or on animal and human health of GE 
crops. It has not adapted to changes that have further enhanced the 
safety of the technologies; and it has not adapted to the needs of the 
market. The system needs attention, modification, and improvement if 
the U.S. and global agriculture communities and its consumers are to 
benefit from the investment in past and current science and technology 
that can impact agriculture and agriforestry.
    Let me put it very simply: Since regulations were first put in 
place for the products of agricultural biotechnology in 1987, more than 
2 billion acres of crops have been grown and harvested in at least 29 
countries around the world.\3\ These crops have been grown by 15.4 
million farmers, 14.4 million of whom are small, resource poor farmers 
in developing countries. The harvests of these crops have been consumed 
in billions upon billions of meals by humans and livestock around the 
world for the better part of 2 decades now. In all this vast experience 
we have not a single consequence of a novel, negative consequence for 
health or the environment--not one. In fact, we have seen some of the 
well known risks of conventional or organic agriculture dramatically 
reduced: the potential for contamination of food with cancer-causing 
compounds like aflatoxin in corn has been dramatically reduced through 
biotechnology; exposure of farmers to potentially dangerous neurotoxins 
used to control pests has been dramatically reduced, as have been the 
cases of unintentional exposure with all their health consequences; the 
quality of runoff from agricultural lands has improved with the 
widespread adoption of biotech crops as no-till methods of weed 
control, as carbon sequestration in soils and greenhouse gas emitting 
consumption of fossil fuels have been significantly reduced. Indeed, as 
even the Europeans admit,
---------------------------------------------------------------------------
    \3\ Clive James, 2011. ISAAA Brief 42: Global Status of 
Commercialized Biotech/GM Crops: 2010.

        ``. . . the use of more precise technology and the greater 
        regulatory scrutiny probably make them even safer than 
        conventional plants and foods; and if there are unforeseen 
        environmental effects--none have appeared as yet--these should 
        be rapidly detected by our monitoring requirements. On the 
        other hand, the benefits of these plants and products for human 
        health and the environment become increasingly clear.'' \4\
---------------------------------------------------------------------------
    \4\ European Commission, Press Release of 8 October 2001, 
announcing the release of 15 year study incl. 81 projects/=70M, 400 
teams (http://ec.europa.eu/research/fp5/eag-gmo.html and http://
ec.europa.eu/research/fp5/pdf/eag-gmo.pdf).

    There are several consequences if the regulatory burdens faced by 
innovators are not brought back more closely into alignment with a 
realistic view of the potential hazards. First, innovation will suffer 
because of the lack of clarity of the process of regulation and its 
increasing costs. Currently, the system is geared to big agriculture 
and to relatively low margin products grown on large acreages. Improved 
seeds of the major commodity crops corn, soybeans, cotton and canola 
are the major beneficiaries to date: these GE technologies have 
benefitted the technology companies, the farmers, the environment and 
consumers. The few examples of GE crops now on the market that were not 
developed by a large company include varieties of papaya and squash 
that were engineered to have resistance to certain viruses. The latter 
were developed early in the development of genetic engineering 
technologies when costs and time of deregulation (approval) were less 
than they are today.
    GE seeds for the commodity crops are produced by large companies 
that tend to be less constrained by cost and time. In contrast, 
researchers and innovators in the academic community, including those 
that serve agriculture productivity, and in small companies, have 
considerably more difficulty in producing or delivering a genetically 
engineered crop to the market than do large corporations. Indeed, there 
are fewer than a handful of such products. Researchers in universities 
and small companies have, since the mid-1980s made discoveries that are 
relevant to the less lucrative vegetable seed market, and in cutting 
edge areas that have potential to revolutionize the biofuels and 
biomaterials industry. Yet, there have been no new products released to 
the market from universities for more than 10 years, in part because of 
the time and cost necessary to bring the new product forward.
    The of cost for regulatory approval GE products that carry a new 
trait introduced via genetic engineering have been estimated at between 
$5 million to more $25 million in the U.S.; time to market can be as 
much as 10 years from product development. Some costs are, of course, 
related to technology development per se; however, the bulk of the 
costs deal with the regulation process and achieving deregulated or 
partially deregulated status for a new product.
     Several examples of unjustifiably burdensome hurdles created by 
the current processes that are required for deregulation can illustrate 
the problem. One of the steps requires full biochemical 
characterization of the location of the gene in the DNA of the plant 
that is genetically engineered. While such characterization no longer 
has a prohibitive cost, scientific evidence accumulated during the past 
20 years indicates that such case-by-case characterization is generally 
not relevant to the performance or safety of the crops themselves. 
Indeed, performance is still only meaningfully judged in the old 
fashioned way, that is, by testing the new variety under field 
conditions. A second example is the use of genes from Bacillus 
thuringiensis (Bt) to confer resistance to certain insects, such as 
larvae of certain beetles or caterpillars. Bt proteins from many 
sources have been tested and shown to be safe for the environment, and 
for animal (except for the target insects, of course!) and human 
consumption. It is logical therefore, to begin to exempt from 
regulation, or at least reduce the review process, for Bt genes. A 
similar logic can be applied to genes that confer tolerance to the 
herbicides glyphosate and glufosinate, and to genes for virus 
resistance.
    New technologies that have been developed since the regulations 
were established raise additional questions about the relevance of some 
of the regulatory reviews. For example, the use of endogenous host 
genes to confer a new trait, and genes that produce small interfering 
RNAs, many of which are naturally found widely in plants, could be 
exempted from costly approval processes, or considered for reduced 
regulatory oversight. Endogenous genes and genes that produce small 
interfering RNAs are used to develop crops and agriforestry varieties 
with increased resistance to pests and diseases, resistance to heat and 
drought conditions, improved productivity/yield, improved efficiency in 
use of water and nitrogen fertilizers, and improved biomass that will 
serve our biofuels and biomaterials industries of the future.
    Other novel technologies, such as use of synthetic chromosomes, and 
specific proteins that target genetic changes even more precisely than 
does the older technology, have been developed and tested and proven to 
be useful to developing new products. It is not known how new 
technologies such as these, and others of the future, will be 
regulated, and what the cost of regulatory approval that contain the 
technologies. It seems likely, from our experience to date, that the 
costs imposed will not likely be matched by any commensurate increase 
in safety of the new products. And the lack of clarity as to the 
regulatory barriers they will have to surmount itself can diminish the 
prospect of innovation per se, by reducing the incentives for investors 
to fund such innovations through the R&D process to the marketplace.
    What modifications are necessary to change the process of 
regulation and secure the United States in a position of pre-eminence 
in the agriculture and agriforestry? The Committee is urged to consider 
the following amongst the changes that it may recommend.

    1. Return to a firm commitment to base regulations on science, in 
        particular science that addresses issues related to the safety 
        of the product and independent of the process by which it was 
        developed. Regulators need to discipline themselves to focus on 
        what they need to know to ensure safety, and not allow 
        themselves to be distracted into musings on many of the 
        fascinating issues about which it would be nice to know more; 
        questions to which no conceivable answer would shift a 
        regulators' decision one way or another, and thus irrelevant to 
        safety assurance. This will have the effect of reducing the 
        necessity of conducting certain types of analyses of new 
        products and reduce the amount of time and the costs associated 
        with regulation.

    2. Redefine the basis by which products of biotechnology are 
        subjected to regulatory oversight. The role of APHIS in 
        regulating GE crops is important to maintaining confidence in 
        an approval process; however, the characteristics of the 
        products that would trigger regulation and a relevant mechanism 
        to trigger regulatory oversight should be redefined.

    3. Identify categorical exemptions that can streamline and reduce 
        burdens for products/characteristics experience has shown to be 
        safe. A process should be developed to thoroughly review the 
        technologies and products that have been developed and 
        commercialized to date and identify those technologies that can 
        be exempted, requiring minimal or reduced oversight. This will 
        reduce the cost of regulation of many new products.

    4. Distinguish between real and perceived risks and focus on those 
        that are real. Processes and methods should be developed to 
        distinguish between real versus perceived risks in establishing 
        safety recommendations; and to consider costs and benefits in 
        risk analysis, including potential costs to the ecological 
        environment from the continuation of conventional agricultural 
        practices. A change such as this will require action by 
        Congress. In providing such guidance to APHIS, Congress should 
        weigh the opportunity costs of regulatory policies that 
        discourage innovations that actually reduce the risks attendant 
        on conventional agricultural production techniques that are 
        already widely used. In this context, it may be helpful to 
        consider the way that current NEPA statues are applied to 
        agricultural biotechnology and to establish specific mechanisms 
        for NEPA compliance in the case of these products that are 
        appropriate for the characteristics and the risks being 
        evaluated.

    In concluding these comments, I ask that you consider some of the 
`unintended consequences' of the overly stringent regulation of 
products that are developed by genetic engineering. First, by the use 
of terminologies that falsely imply risk and potential lack of safety, 
we have created the perception that the technology itself is unsafe and 
that products derived from the technology are therefore unsafe. 
Scientific consensus over the past 20+ years has indicated otherwise. 
It is time to change the verbiage, some of which is embodied in the 
laws under which we regulate these products.
    Second, as a consequence of what many consider overly cautious 
regulations based on process rather than the safety of the product, 
many developing countries are reluctant to adopt the technologies and 
products developed from the technologies. This has the effect of 
limiting acceptance of products of American agriculture and the 
development of crops that could benefit those countries; and, it 
reduces the opportunity of meeting the goals of global food security, 
and thus our national security.
    We can and must do better.
            Respectfully submitted,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Roger N. Beachy,
June 21, 2010.

    The Chairman. Thank you, Dr. Beachy.
    Our final witness, Dr. Calestous Juma, Professor of the 
Practice of International Development, Belfer Center for 
Science and International Affairs, JFK School of Government, 
Harvard University.
    Doctor.

 STATEMENT OF CALESTOUS JUMA, Ph.D., PROFESSOR OF THE PRACTICE 
  OF INTERNATIONAL DEVELOPMENT, BELFER CENTER FOR SCIENCE AND 
 INTERNATIONAL AFFAIRS, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, 
                            HARVARD
                   UNIVERSITY, CAMBRIDGE, MA

    Dr. Juma. Chairman Johnson, Mr. Costa, Members of the 
Subcommittee, I am very grateful to have the opportunity to 
speak to you this morning and talk to you about the 
implications of the work of this Subcommittee for African 
countries.
    Writing exactly 130 years ago, Robert Louis Stevenson 
acknowledged in his essay entitled, A Plea for Gas Lamps, that 
``Cities given, the problem was to light them.'' He then 
proceeded to demonize electricity, saying that the ``urban star 
now shines out nightly, horrible, unearthly, obnoxious to the 
human eye; a lamp for a nightmare! Such a light should shine 
only on murders and public crime, or along the corridors of 
lunatic asylums, a horror to heighten horror.''
    Today, growing human numbers given, the problem is to feed 
them. However, skeptics cast a dark shadow over the prospect of 
using biotechnology to address the global food crisis.
    The United States has been a leading light in agricultural 
biotechnology and continues to serve as an important role model 
for countries around the world seeking to address the challenge 
of food security. A key source of this leadership has been the 
commitment of the United States to using science-based 
approaches in regulation.
    The world needs this demonstrated leadership now more than 
ever, given the rising food prices and the associated threats 
to public order. America's failure to champion agricultural 
biotechnology will undermine the global community's confidence 
to confront the challenge.
    Skeptics have sought to halt or slow down adoption of 
biotechnology. This has affected Africa's ability to include 
biotechnology in the package of options needed to enhance food 
security.
    However, the tide is now turning. The European Commission 
recently published a report and concluded that 
``biotechnologies could provide us with useful tools in sectors 
such as agriculture, fisheries, food production, and industry. 
. . . These alternatives include genetically modified organisms 
(GMO) and their potential use.''
    But, more importantly, the report stressed ``that 
biotechnology, and in particular GMOs, are not per se more 
risky than, e.g., conventional plant breeding technologies.''
    The promise of biotechnology for rural development is 
inspiring African nations that seek to complement existing 
practices with new genetic techniques. South Africa, Egypt, and 
Burkina Faso have already adopted genetically modified crops. 
The evidence from these countries is informing efforts among 
other countries to continue to explore ways by which they can 
build up their capacity to participate in this important 
technological revolution. We saw this just recently with 
enthusiasm at a recent conference in Addis Ababa, Ethiopia, 
that attracted nearly 250 people from 35 countries.
    Africa's nutritional needs are not limited to crops. 
Aquaculture is emerging as an important substitute for wild 
fish whose stocks are dwindling at alarming rates.
    I am informed that recently this House had passed an 
amendment to the agriculture appropriations bill that would 
effectively prevent the FDA from completing its safety 
assessment of the first food fish derived from biotechnology. 
This sends a very negative signal to developing countries, 
particularly in Africa, that are looking to the United States 
in providing leadership. It also signals to other countries 
that there is room for them, in fact, to take the leadership 
which appears at the moment that the United States is willing 
to cede.
    I would like to urge this country and this Committee to put 
emphasis on enhancing the leadership that has already been 
demonstrated. By doing so, the United States will continue to 
serve as a role model in the use of science-based regulation. 
It is only by working with countries around the world to adopt 
modern biotechnology can we hope for a brighter agricultural 
future. Through such leadership, Africa and other regions can 
avoid being seduced by the dim light of technological 
stagnation.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Juma follows:]

Prepared Statement of Calestous Juma, Ph.D., Professor of the Practice 
      of International Development, Belfer Center for Science and 
 International Affairs, John F. Kennedy School of Government, Harvard 
                              University,
                             Cambridge, MA
Introduction \1\
---------------------------------------------------------------------------
    \1\ This testimony is derived from Juma, C. The New Harvest: 
Agricultural Innovation in Africa. New York: Oxford University Press, 
2011. A full digital copy (http://belfercenter.ksg.harvard.edu/files/
the_new_harvest_complete_text.pdf) of this study is made available as 
an optional annex to this testimony.
---------------------------------------------------------------------------
    Writing exactly 130 years ago, Robert Louis Stevenson acknowledged 
in A Plea for Gas Lamps that ``Cities given, the problem was to light 
them.'' Then he proceeded with his indictment of electricity saying the 
``urban star now shines out nightly, horrible, unearthly, obnoxious to 
the human eye; a lamp for a nightmare! Such a light as this should 
shine only on murders and public crime, or along the corridors of 
lunatic asylums, a horror to heighten horror.'' Today we acknowledge 
that given growing human numbers, the problem is to feed them. However, 
we also cast dark shadow over the prospects of using biotechnology to 
address the global food crisis.
    The United States has been a leading light in agricultural 
biotechnology as a platform technology and continues to serve as an 
important role model for countries around the seeking to address global 
food challenges. A key source of this leadership has been its 
commitment to using a science-led regulatory system for determining the 
approval of new products. The rest of the world needs this demonstrated 
leadership now more than ever given rising food prices and related 
political unrests around the world. Failure on the part of the United 
States to champion agricultural biotechnology will undermine confidence 
in the ability of the global community to confront the challenges of 
food security. Retracting from using science and technology to address 
emerging challenges will not result in any savings; it will only defer 
problems and future costs are likely to be higher.
    In the 1970s skeptics argued that new technologies were generally 
more expensive, less reliable, more complicated, controlled by 
corporate monopolies and therefore inaccessible to the poor. They went 
further and claimed that a ``technology divide'' would emerge between 
industrialized and developing countries. This ideological framing was 
applied to emerging information and telecommunications technologies and 
the word ``digital divide'' became a template for international debates 
on innovation, human rights and the quest for prosperity.
    In effect, the skeptics sought to slow down the adoption of new 
technologies in developing countries and advocated the use of what they 
called ``appropriate technology''. They sought to freeze technology in 
time and by doing so they also compromised improvements in human 
welfare and the spread of prosperity. Some international organizations 
advocated policies aimed at curbing the introduction of 
microelectronics in developing countries with the objective of 
protecting workers against labor displacement.
    Reality has turned out to be different. Information and 
communications technologies are now a key source of economic 
productivity and a platform for socioeconomic transformation worldwide. 
Many African countries, for example, have been able to ``leapfrog'' 
into the modern information age through the mobile phone and the stage 
is now set for a move into mobile broadband that will see many rural 
areas move to transform education, health, governance and many aspects 
of socioeconomic life. The spread of this technology has been possible 
because of the sovereign leaders provided by a few countries to 
reforming their national policies to create space for mobile 
technologies.
Benefits of Biotechnology
    Biotechnology--technology applied to biological systems--has the 
promise of leading to increased food security and sustainable forestry 
practices, as well as improving health in developing countries by 
enhancing food nutrition. In agriculture, biotechnology has enabled the 
genetic alteration of crops, improved soil productivity, and enhanced 
weed and pest control. Unfortunately, such potential has largely been 
left untapped by African countries.
    In addition to increased crop productivity, biotechnology has the 
potential to create more nutritious crops. An example of this is rice 
engineered to provide additional vitamin A whose deficiency affects 
about 250 million children worldwide. Other vitamins, minerals, and 
amino acids are necessary to maintain healthy bodies, and a deficiency 
will lead to infections, complications during pregnancy and childbirth, 
and impaired child development. Biotechnology has the potential to 
improve the nutritional value of crops, leading both to lower health 
care costs and higher economic performance (due to improved worker 
health).
    Skeptics have sought over the last 20 years to slow down the 
application of agricultural biotechnology. International collaboration 
on biotechnology for African agriculture has also been uncertain. But 
the tide is turning. For example, a recent study prepared by the 
European Commission, A Decade of EU-Funded GMO Research (2001-2010) 
(http://ec.europa.eu/research/biosociety/pdf/a_decade_of_eu-
funded_gmo_research.pdf), concluded:

        ``Biotechnologies could provide us with useful tools in sectors 
        such as agriculture, fisheries, food production and industry. 
        Crop production will have to cope with rapidly increasing 
        demand while ensuring environmental sustainability. 
        Preservation of natural resources and the need to support the 
        livelihoods of farmers and rural populations around the world 
        are major concerns. In order to achieve the best solutions, we 
        must consider all the alternatives for addressing these 
        challenges using independent and scientifically sound methods. 
        These alternatives include genetically modified organisms (GMO) 
        and their potential use.''

    The study drew its conclusions from the work of more than 130 
research projects, covering a period of more than 25 years of research 
involving more than 500 independent research groups. Its most important 
conclusion was ``that biotechnology, and in particular GMOs, are not 
per se more risky than e.g., conventional plant breeding technologies. 
Another very important conclusion is that today's biotechnological 
research and applications are much more diverse than they were 25 years 
ago . . .'' The conclusions are similar to those reached by the United 
States National Academies and reinforce the science-based practices 
that inform the work of Unites States regulatory agencies.
    The promise of the technology and evidence of its contributions to 
rural development around the world is serving as a source of 
inspiration for emerging nations to complement existing practices with 
agricultural biotechnology. Three African countries (South Africa, 
Egypt and Burkina Faso) have adopted genetically modified crops and are 
providing initial evidence of their long-term implications. The 
scientific and technical community is being embolden by these 
developments and is working with governments to explore ways to build 
up the much needed capacity in these fields. Other African countries 
have started conducting field trials and plan to adopt biotechnology 
crops in the coming years.
    The uptake of genetically modified (GM) crops is the fastest 
adoption rate of any crop technology, increasing from 1.7 million 
hectares in 1996 to 148 million hectares in 2010, and an 87-fold 
increase over the period. In 2010, there were 15.4 million farmers 
growing GM crops in 29 countries around the world, of whom over 90% 
were small and resource-poor farmers from developing countries. Most of 
the benefits to such farmers have come from cotton. For example, over 
the 2002-09 period, the insect resistant Bacillus thuringiensis (Bt) 
cotton added US$7 billion worth of value to Indian farmers, cut 
insecticide use by half, helped to double yield and turned the country 
from a cotton importer into a major exporter.
    Africa is steadily joining the biotechnology revolution. South 
Africa's GM crop production stood at 2.0 million hectares in 2010. 
Burkina Faso grew 260,000 hectares of Bt cotton the same year, up from 
115,000 in 2009. This was the fastest adoption rate of a GM crop in the 
world that year. In 2010, Egypt planted nearly 2,000 hectares of Bt 
maize, an increase of 100% over 2009.
    African countries, by virtue of being latecomers, have had the 
advantage of using second-generation GM seed. Akin to the case of 
mobile phones, African farmers can take advantage of technological 
leapfrogging to reap high returns from transgenic crops while reducing 
the use of chemicals. In 2010 Kenya and Tanzania announced plans to 
start growing GM cotton in view of the anticipated benefits of second-
generation GM cotton. The door is now open for revolutionary adoption 
of biotechnology that will extend to other crops as technological 
familiarity and economic benefits spread.
Opportunities for International Biotechnology Cooperation
    The United States has been an important leader in promoting plant 
biotechnology. It is for this reason that African countries are 
starting to adopt GM crops. But their nutritional requirements are not 
limited to crops. Another important area of interest to Africa is 
protein derived from livestock and fish. Advances in genomics provide 
tools that can help countries to farm breeds that confer health 
benefits to the population and help address emerging challenges such as 
obesity. But little of this will happen without the kind of sovereign 
leadership that the United States has been providing on science-based 
regulatory approaches.
    One of the most sustainable forms of meat protein to farm is fish. 
For every pound of meat produced, fish consume less than 15% of the 
feed required by land animals such as cattle. Farmed fish are a staple 
not just for industrialized countries, but even more so for emerging 
nations of the world. Aquaculture is emerging as an important 
substitute for wild fish whose stocks are being depleted at an alarming 
rate.
    The role of biotechnology in aquaculture represents one of the key 
tools that could enable humanity to expand protein production in a 
sustainable way. The United States needs follow its own lead in 
agriculture and provide regulatory support to sustainable aquaculture. 
I understand this House passed an amendment to the Agriculture 
Appropriations Bill that would effectively prevent the Food and Drug 
Administration (FDA) from completing its safety assessment of the first 
food fish that makes use of this technology, an Atlantic salmon that 
reaches full size rapidly and consumes less feed than other fish of its 
kind.
    It is not this particular fish that is at stake. It is the 
principle behind the amendment and its wider ramifications. It sends 
the message to the rest of the world that the science-based regulatory 
oversight as embodied in the FDA review process is subject to political 
intervention. Furthermore, it signals to the world that the United 
States may cede its leadership position in the agricultural use of 
biotechnology. Biotechnology is vital to feeding the world in the 
present and even more so in future, and I believe it is imperative that 
the United States stay the course it has set in not letting politics 
interfered with its science-based regulatory system that is truly the 
envy of the world.
    The changing outlook was recently demonstrated by the outcomes of 
the ``International Conference on Agricultural Biotechnology in Africa: 
Fostering Innovation'' held on May 13-14 in Addis Ababa, Ethiopia. It 
stressed the urgency to build capacity in Africa to facilitate the 
application of biotechnology in agriculture (covering crops, fisheries, 
livestock and conservation of biological diversity). The conference 
also underscored the importance of pursuing biotechnology in a safe and 
sustainable manner in keeping with enabling biosafety laws.
    Events like this demonstrate the growing commitment and interest 
among African countries to contribute to global efforts to address food 
security. The impact of their dedication will be limited unless they 
are able to benefit from prior knowledge and expertise accumulated in 
other countries. This is where the United States can serve as a role 
model in the use of biotechnology in agricultural transformation and 
science-based approaches in regulation. It is only by helping countries 
around the world to adopt modern biotechnology can we hope for a 
brighter agricultural future. America's leadership in this field can 
help humanity avoid being seduced by the dim light of technological 
stagnation.
                               Attachment
    Editor's note: due to the length of Dr. Juma's attached document 
entitled, The New Harvest it will be printed at the end of the hearing 
on p. 39.

    The Chairman. Thank you, Doctor.
    We will now proceed with questions for the panel. We have 
been joined by several other of our distinguished Members, and 
I would like to start the questioning by addressing a question 
to Secretary Connor.
    Mr. Secretary, as a former official at USDA, what is your 
specific and general viewpoint regarding the best way for your 
former department to move forward with its goals of increasing 
food production? In particular, how do you view biotechnology 
as playing a role in that objective?
    Mr. Conner. Well, I think the technology is critical to our 
ability to meet these future food needs that Mr. Chairman, Mr. 
Costa, and all of the panelists have outlined today; and I 
think USDA's role in this is substantial.
    I will tell you it is my view that the regulatory approval 
process is extremely sound. They do the highest quality work in 
assessing the safety and soundness of these products, and my 
encouragement to them is to continue to do that.
    And we have some legal obstacles to overcome in that 
process, but I would note, Mr. Chairman, that none of those 
legal obstacles have ever, in any way, raised any concern about 
the safety and soundness of these products, none whatsoever. 
And so USDA needs to continue to do that great job, that great 
assessment, but work with us, work with this Committee in 
providing greater certainty in terms of development of these 
products so that producers will know what kind of technology 
they are going to have access to and technology providers will 
know whether or not these products have a chance at being 
approved in a reasonable amount of time and available for 
commercialization.
    The Chairman. Thank you, sir.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I have questions for all of the witnesses.
    Mr. Conner, you talked about the risk assessment, risk 
management effort to ensure food safety. As that relates to 
biotechnology and genetically modified foods, are there 
additional efforts that you think we ought to be considering to 
ensure that risk-based assessments create greater confidence 
among the consumers? I think there is a generally greater 
acceptance here, as I said in my statement, than in Europe 
certainly. I am not so sure it is the case elsewhere.
    Mr. Conner. Mr. Costa, let me answer the question this way; 
and if I don't answer your question, come back at me.
    Internationally, certainly, we have had problems with some 
regions of the world being less receptive to these products. 
But I will note that the data we quote with regard to U.S. 
farmers adopting this technology can be used on all of the 
major grain-producing regions on the planet. This technology is 
being adopted everywhere----
    Mr. Costa. Would you say maintaining the regulatory 
framework is key to that risk assessment and risk management 
effort?
    Mr. Conner. Well, there is no question that the current 
regulatory framework needs to be maintained, that that 
regulatory framework be 100 percent focused on the safety and 
the soundness of these products, not upon approval, not upon 
what a particular group of consumers may think, but USDA's job 
has got to be is it safe.
    Mr. Costa. My time is expiring, so I want to get on quickly 
to the other two witnesses. Thank you.
    Dr. Beachy, you talked about the regulatory process needing 
to be improved. Quickly, because I have another question, how 
do you believe that can be done?
    Dr. Beachy. Thank you, sir.
    I think we need to learn from the past 20 years of 
regulatory science that we have used. We have learned a lot 
about the safety of Bt genes and the safety of DNA and safety 
of RNA, yet we have agencies that still consider those to be 
pesticidal. That is not acceptable scientifically.
    Mr. Costa. And they don't make a distinction between 
naturally occurring carcinogens versus manmade occurring 
carcinogens.
    Dr. Beachy. Yes. The issue is whether or not there is good 
safety oversight. And I would say that the progress that we 
have had in the last 20 years has shown that technology that 
has been developed for insect resistance and so forth has been 
magnified.
    On the other hand, we have gotten rid of a lot of chemical 
insecticides at the same time, which should be seen as a 
positive.
    Mr. Costa. It should, and we take it for granted.
    Dr. Beachy. Because we don't talk about risk-benefit 
analysis. In contrast to the organophosphates, for example, we 
know what those organophosphates can do.
    Mr. Costa. It always frustrates me. Because the risk-
benefit is clear, it seems to me, and evident for anyone who 
understands the issue.
    Dr. Beachy. And that is correct. And the unwillingness, the 
risk-benefit of not imposing a new technology at the same time 
to get rid of chemicals should be considered----
    Mr. Costa. That is how you have to look at it, not in a 
vacuum. Absolutely.
    My time is expiring.
    You talked about the lag in terms of the research with 
universities. I am a big promoter of the land-grant 
universities. We have some excellent institutions in 
California. Why do you believe the lag exists, lack of 
government support either at the Federal or state level?
    Dr. Beachy. I think the things that make it onerous are the 
time commitment, the inability to say how many years it is 
going to take to get something through the regulatory process, 
and the cost involved in doing so.
    Second, the lack of knowledge of the university professors 
and scientists to know how to get the process along. It needs 
to be more friendly. There needs to be a better way that they 
can enter the system and find a way and exit out. Because, if 
you don't, we won't have the innovation that we expect out of 
the new products.
    Mr. Costa. Mr. Chairman, I think this is an area we ought 
to continue to spend some time on. I would like to have 
university witnesses discuss that in the future.
    Dr. Juma, finally, you talk about the role in Africa. The 
U.N. indicates we have 700 million folks every night that go to 
bed hungry, 10,000 children that die of malnutrition a week 
around the world.
    Where do you think we could target our best resources? You 
talk about the role that the U.S. has to play.
    Dr. Juma. I think the first step is to look at utilizing 
technologies that have already been demonstrated--first of all, 
to look at the use of technologies that have already been 
demonstrated to show economic benefits. And at this particular 
moment, most African countries are thinking of starting off 
with fiber, which is essentially cotton, and then moving into 
feed, fuel, and food. And the reason why the fiber part is 
important is because it generates domestic revenue which then 
allows the farmers to be able to, in fact, to purchase more 
food. In fact, the majority of the hungry people in Africa are 
also farmers, and it is mainly because of the low-income 
levels.
    And so I think the first entry point is to apply those 
technologies that exist today.
    In terms of food, there is a strong interest in using Bt 
corn that reduces the use of chemicals, and quite a number of 
African countries are already exploring this and carrying out 
field trials.
    And the third area that relates to your earlier question 
has to do with building strong linkages between American 
universities and African universities to be able to build up 
the scientific competence for Africans to be actively engaged 
in research as well.
    Mr. Costa. Thank you.
    The Chairman. Thank you, Mr. Costa.
    I turn next to the lady from Missouri, Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman; and it is good to 
see everyone here on the panel. I appreciate all the good work 
you are doing.
    I would like to start out of with Dr. Beachy, first of all, 
from Missouri. We are just so proud of the Danforth Center and 
appreciate what you are doing there; and I am looking forward 
to come visiting sometime, hopefully.
    But I am also an MU grad from MSU and supporter of our 
land-grant universities and have the same type of thinking that 
Mr. Costa was questioning you about and concerns about that 
there haven't been any discoveries from a university in 10 
years and due to the $5 to $25 million in regulatory costs or 
whatever.
    My question is, what can we do to reduce the regulatory 
costs? I know you mentioned the professors might need to be 
more knowledgeable about the process. I see that maybe is 
something where USDA could provide some assistance. Maybe that 
might be a solution. I don't know. But why does it cost $5 to 
$25 million to get through the approval process, and what 
changes in the regulations do we need to know about that we can 
make or encourage to happen to expedite this process?
    Dr. Beachy. Thank you for the question, Congresswoman.
    I think the issues about how we look at this, to retrofit 
it, to make it better, can be judged well if we look at the 
past history and ask ourselves what are the ones that are 
relevant to the next application and then to the next 
application?
    Mr. Conner has talked about the safety, the proven safety 
of the process, and we can learn from that process and yet 
shortcut it if there is an opportunity to do so.
    There are new technologies that are being used in 
universities today that are science-based that I won't need to 
talk about today that are so close as to be identical to the 
processes that nature uses. And we are learning from nature how 
seeds germinate, how they grow, how they make chemicals, and 
developing from that knowledge about the kind of new materials 
that will make agriculture way different in the future than it 
is today.
    What we need, though, is some way to link government 
support and the private sector in a way that is not here now. 
There are examples in Australia that might be looked at about 
how they work with their agriculture research service, the 
sister agency. And there are other organizational mechanisms 
that could help to make this happen and where the public sector 
and the private sector in fact work together.
    And this would help to build the confidence of those who 
would invest in the technology to take it forward in new 
products; and it would give that faculty member the issue of--I 
mean, the sense that he or she can, in fact, accomplish 
something that would benefit the American public.
    There are also changes inside academics that has to happen. 
Tenure is one of these things that require certain sort of 
things, and they are not rewarded necessarily for getting 
products out. That is sort of contrary to the way it was 40 
years ago in the land-grant university system.
    So we need to maybe go back to the future a bit and look 
forward as well to do science in new technologies as the 
universities come to grips with what their future can be in 
service to the community.
    Mrs. Hartzler. I look forward to visiting with you more 
about that specifically, because I think that is definitely 
something we need to move forward on.
    There are many who oppose biotechnology, and we hear that 
continually. And, of course, being a farm girl, I am not in 
that camp. But have there been any credible third-party, peer-
reviewed studies or findings that show that agriculture 
production using biotechnology makes any food less safe?
    Dr. Beachy. None at all. That is the point. That is the end 
of the sentence. There have been no credible studies. There 
have been one-offs that have claimed things but no credible 
studies that have scientific consensus around them.
    Mrs. Hartzler. I wanted to ask that to get that on the 
record here, to have the opportunity to say that. Because I 
think that is something the American public needs to know; and 
when we are facing the huge population growth that we are and 
need to double our food supply, this is certainly a good answer 
to that.
    In the final time I have I wanted to ask Dr. Juma, I 
commend you for what you are doing. And I don't think we have 
mentioned to everyone, but you have written a book here about 
all the wonderful advances there in Africa. So I commend you 
for that.
    But there is a lot of resistance in the European Union to 
biotechnology. I was just wondering, what are the major 
international hurdles that we have to global acceptance of 
biotechnology?
    Dr. Juma. Thank you very much for that question.
    Africa, as you know, is historically connected to Europe 
and therefore responds very much to diplomatic pressure coming 
out of Europe. So every time Europe needs partners, especially 
to fight diplomatic battles, it finds it easy to recruit 
African countries. And the reason is because of the trade 
connections between Europe and Africa. I think the best way to 
deal with this issue is, in fact, to expand trade links between 
the U.S. and African countries.
    I work a lot with the African leaders on this issue, and 
they are interested to see closer trade relations building on 
the use of new technologies. That is the way to, in my view, to 
address it, is to take a positive approach and strengthen trade 
relations between Africa and the U.S., as opposed to fighting 
Europe.
    In fact, there is a good precedent for this, which is the 
profusion of mobile phones in Africa which has been really 
revolutionary. And this has happened because, at a time when 
Africa initially was resisting the adoption of mobile phones, 
this has happened because of trade connections.
    The Chairman. Thank you, Doctor.
    Moving on to the next witness--if you are willing, Doctor, 
I think that we have a couple copies of that book up here, but 
I am sure that is an exception to our ethical rules with 
respect to the gift ban. So I am sure that other Members of the 
Committee will be educated by and appreciative of seeing or 
receiving a copy of your book. It looks really useful and full 
of tremendous information.
    I would next call on the Member from North Carolina, Mr. 
Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. I, too, would like to 
welcome the panel here and thank you for examining this most 
important area of study.
    I want to talk a little bit about what we are doing in 
North Carolina. We have a gentleman, Mr. David Murdock, who has 
invested a half billion dollars of his own money into a 
research campus in North Carolina, located in my district.
    It incorporates a lot of the things that our witnesses have 
been talking about, the need to come at this approach a little 
bit differently.
    There are seven universities there, land-grant and private; 
there are private enterprises there; and we also have an 
agriculture research station there. These entities look not 
only at how can we do more with less but how we can increase 
the nutrition in what we grow so that you have a plant that 
doesn't occupy any more land. And when it grows it does so with 
more nutritional value.
    I offer the opportunity for any of you to come there. It is 
a beautiful campus. It has some of the most advanced research 
equipment in the world. It is one-of-a-kind in this hemisphere, 
and it is all so we can see what we are talking about today.
    My colleagues have asked some good questions. I want to 
follow up on that a little bit. My concern is that according to 
your testimony we have gone 10 years without major advancement 
coming out of our universities. I am sure they just haven't 
been sitting around, just saying, woe is me, so is there the 
possibility that there are things there ready to go, and it is 
just a matter of how can we get these things to market?
    Dr. Beachy. That is a good question, Congressman Kissell.
    By the way, I have visited the center, and it is an 
outstanding example of the cooperation between medical schools 
and agriculture schools and research stations. It really is an 
example for the way we need to move forward in public-private 
relationships, something that NIFA believes strongly.
    With regard to how scientists and universities are 
proceeding, you are right. They are not just leaving them on 
the shelf, not always, but many are. But if the regulatory 
science needs to be done by a larger company, the question is, 
what is the value of that discovery?
    So if the value is, let's say, less than $10 million 
annually for a new variety of broccoli or lettuce and it costs 
$10 to $25 million to bring it out, then there is not an 
economic incentive to do so, and so we would continue 
production in the old ways with chemistries and not genetics.
    So I think that hurdle of cost is affecting negatively the 
low-cost or the low-value crops such as the vegetable crops 
that we heard about in California and in most of our states. 
And, as you know, it is those crops that use the highest levels 
of fungicides and insecticides. They are the biggest user of 
agricultural chemicals. Yet we are not moving into that sector; 
and, as a consequence, we are not using the knowledge that 
could, in fact, make our food safer and our environment safer.
    So there is this balance between value of the product and 
the cost to get things out regulatively. And that is a 
challenge I think that we will face and need to put together 
more with perhaps taking university knowledge and linking it 
with those who know how to take product to market in the public 
sector, which we don't have, by the way. There is nothing like 
it there.
    That kind of a cooperation is happening in China, is 
happening in India, in which university scientists, with the 
help of government, learns how to carry new products forward. 
That is a model that could be used. Or perhaps down at the 
center in North Carolina you would, in fact, develop such a 
skill set that would allow the scientists in North Carolina to 
be able to take things forward.
    So we need this partnership between the private sector and 
public sector and government sector to reduce the barrier to 
entry.
    Mr. Kissell. Thank you, sir.
    And, Mr. Chairman, I know we all have things we are proud 
of in our districts, but this is an exceptional opportunity in 
North Carolina, the research campus. I would love to have a 
field hearing down there sometime.
    Thank you. I yield back.
    The Chairman. Thank you, Mr. Kissell.
    The chair would recognize the gentleman from Indiana, Mr. 
Stutzman.
    Mr. Stutzman. Thank you, Mr. Chairman.
    And, first of all, I would like to thank the Chairman for 
having this hearing. I think this is one that is very 
beneficial and the use of biotechnology is something of great 
importance today.
    As a farmer from Indiana, we raise seed corn and know the 
importance of hybrid and genetics and developing better quality 
and yields and all of those things that play into the 
technology that we are so fortunate to have in today's world, 
and especially pertaining biotechnology which has been a huge 
benefit to agriculture but, also, obviously, to the consumer 
and to the rest of the world in producing food, which is of 
vital importance.
    First of all, I would like to thank you for being here and 
for your expertise and your willingness to share with us your 
experiences. I think this is one of the great challenges that 
we have, is to overcome the public perception of biotechnology 
and what the benefits actually are, the usefulness, with 
emerging markets around the world. And, Dr. Juma, you are 
seeing it in Africa, and we are seeing it in China and India. 
Economies are growing, people are experiencing better foods, 
and they enjoy it, and they want to continue to have that.
    And I think that that is why biotechnology is such an 
important part, and it is great for us as Americans to take 
advantage of but, obviously, doing it in the right way.
    Dr. Beachy, my question to you is you talked quite a bit in 
your statement about the role of the regulatory system and the 
cost of bringing new products to market, which I agree is 
something that can be a detriment and slowing down the benefits 
of biotechnology. Can you suggest ways in which the regulatory 
costs could be reduced and other efficiencies and other ways of 
approaching a regulatory system?
    Dr. Beachy. I thank you for the question.
    I have made a couple of suggestions in my written testimony 
about learning from the past but also about looking forward to 
the new technologies that are being implemented. I think our 
regulatory system is, perhaps, not as well prepared for the new 
technologies coming forward as they should be.
    So as new technology comes out, let's say, for example, the 
change of the cellulose content of a biomass crop that would be 
used either by biopower or biofuels as we look forward to 
cellulosic ethanol. We don't know how to regulate the changes 
in the chemistry of the plant. Or let's say the changes in 
methods of a site-specific muted genesis, there is not the 
capability to take these new sciences, these new technologies 
to the next level of exposure.
    So we need to continue to refresh our attitude about 
regulation as well as perhaps the science of those individuals 
who would look for--who would be part of that regulatory 
process, in other words, those that would look over pamphlets 
and portfolios. We need to make sure there is the most up-to-
date science in those agencies and then look for ways that we 
can assess potential risk, potential benefit and include that 
in our discussions of how to move things along.
    Mr. Stutzman. Thank you.
     Mr. Conner, my question to you is, what are other 
countries doing? Are they advancing faster than we are? Are 
they behind us? Could you kind of give us a global perspective?
    Mr. Conner. Well, Congressman Stutzman, let me just say the 
U.S. continues to be the largest exporter of biotech products, 
and certainly we have talked about the difficulties they face, 
but it is probably worth noting that we continue to export 
record amounts of products improved through biotechnology and 
need to keep that in mind. But the rest of the world is not 
sitting idle, either. You are seeing biotech crops adopted 
really all over the planet, most of the major grain-exporting 
nations are using these products extensively.
    So this is a competitive issue for U.S. farmers. We need to 
provide them the tools, give them access to this technology, 
once determined to be safe, because others on the planet are 
moving forward very, very rapidly. Dr. Beachy has many good 
examples about what is going on in China in terms of those 
competitive actions.
    We need--in addition to the humanitarian side of needing to 
produce the food, we need to give our producers the tools to 
compete in that food production as well.
    Mr. Stutzman. Dr. Beachy or Dr. Juma, would you like to 
touch on that real quick?
    Dr. Beachy. Just briefly, just to say it is estimated that 
as much as half of the new seeds, the new traits that will be 
developed by 2015 will come from China and Brazil.
    Dr. Juma. I just wanted to add that 29 countries now 
produce genetically modified crops that have approved their 
use, and this is I think a very significant group of countries 
for which there is no clear diplomatic leadership to champion 
the issue globally and this is where the U.S. could play a 
role.
    Mr. Stutzman. Thank you very much. I yield back.
    The Chairman. The chair recognizes the gentlelady from 
Alabama, Ms. Sewell.
    Ms. Sewell. Thank you, Mr. Chairman.
    I want to, first, commend you for assembling this wonderful 
hearing. I think it is very pertinent. And I thank all the 
panelists for being here today.
    I represent a very rural part of Alabama, a lot of small 
farmers, and they get along with very limited resources. What I 
wanted you guys to touch on--and specifically Mr. Conner--if 
you could elaborate on the tangible benefits and results that 
biotechnology have produced for smaller farmers.
    Mr. Conner. Congresswoman, thank you for a great question.
    In my written testimony, the attachments to that provide a 
great deal of individual commodity data in terms of the value 
of biotech for each of those individual commodities, including 
many commodities that are going to be grown in your state.
    Let me just say that, earlier, the full House Agriculture 
Committee had a forum to talk about biotechnology; and I was a 
participant in that forum focused primarily on alfalfa. And it 
is a great example, alfalfa, a crop grown by many, many small 
producers across this country. They estimate that biotech 
alfalfa can improve a producer's return by as much as $110 an 
acre. This is substantial. This is real money out there for 
small farmers. So they see great benefit by adopting this 
technology which explains why most everybody is doing it.
    Ms. Sewell. Thank you.
    We haven't talked about the environmental setbacks, if any, 
that relate to biotechnology. Dr. Beachy can you talk a little 
bit about whether or not there are environmental setbacks, and 
how do we seek to overcome them?
    Dr. Beachy. Thank you for the question.
    There have been accusations of environmental setbacks when, 
in fact, there have not--for example, we have not seen a 
sustained development of an insect variety that overcomes the 
Bt gene. Because, in advance of planting the crop, the farmers 
were asked to plant refugia, and so that helped out. And then 
they had a second technology that they introduced which made it 
nearly impossible to overcome resistance.
    But one challenge has been the development of herbicide-
tolerant weeds which has produced some challenges down in some 
parts--in fact, Alabama is one of them. And it makes it--it 
sets back a little bit and asks the question how could that of 
been managed differently?
    On the other hand, there are solutions to it. And, going 
forward, one of the things that we need to be ready for in new 
technology is just--are things like that. It is nothing--not 
everything is going to be as rosy as the Bt gene or others. But 
it is, in fact, the safest of the technologies that has ever 
been adopted in agriculture; and, as a consequence, we should 
continue to develop those and new technologies through similar 
applications that would continue to increase the safety of our 
food and the safety of the environment in which the farmers 
live.
    I take great offense when people say there are no benefits. 
In fact, the farmers don't have to spray the bloody chemicals, 
and that ought to be seen as a benefit. And yet it is not.
    So, let's look at the benefits to all, all the parties, 
including the farmers and their children. So there are ways 
that we need to look at this in the holistic sense of a system 
of agriculture and food.
    Ms. Sewell. Great.
    Dr. Juma, I wanted to ask you, I know that you have great 
knowledge on Africa. I really would like you to just choose one 
lesson learned that would be beneficial to the U.S. as we 
review regulations.
    Dr. Juma. I think one important lesson is the importance of 
executive leadership. In almost every country that has adopted, 
it has been a very clear focus on the part of the chief 
executive of the country to make it happen. This was the case 
with South Africa, it has been the case with Burkina Faso, and 
conversations going on about it in Africa right now involving 
various presidents. And the main reason is because of the 
coordination that is needed across a wide range of agencies. 
Only presidents have the political capital to do that.
    So that, in my view, is the first, most important lesson.
    The second is that all of the legislatures--because it has 
to be embodied in legislation, and so legislative bodies have a 
very important role to play in this.
    Ms. Sewell. Thank you. I yield back the rest of my time.
    The Chairman. Thank you, Congresswoman Sewell; and I turn 
to the gentleman from Vermont, Mr. Welch.
    Mr. Welch. Thank you very much, Mr. Chairman. I thank the 
witnesses.
    I want to ask a couple of questions that reflect concerns 
from the organic farming community that is a growing part of 
our economic base in Vermont.
    Dr. Beachy, we have about a thousand dairy farms, many of 
them certified organic or non-GE. One of their concerns, as I 
know you know, is contamination from genetically engineered 
crops, contamination meaning affecting their organic brand. 
Farmers who sell to the non-GE markets have the burden of 
preventing contamination and the associated cost. I want you, 
if you could briefly, to discuss strategies for decreasing both 
the incidence of contamination and the cost to farmers who sell 
to non-GE markets?
    Dr. Beachy. Thank you. Those are indeed important 
questions, especially for a market segment that has value--it 
has created its value based on a definition of agriculture, one 
that is called organic and non-GE. They made that definition 
nearly 12 years ago, and, as a consequence, it is important 
that there be an alternative for them to purchase.
    If you are a dairy farmer producing your own corn, of 
course, it is one thing, because you can control that because 
you know you will find the alfalfa seed to grow. That is what 
alfalfa seed growers do. They grow it for organic growers and, 
likewise, for maize, for corn.
    So if they don't grow it themselves, however, they are 
restricted to what the market can provide them; and then they 
need to identify a provider of non-GE corn or non-GE alfalfa. 
And, in some cases, this is a post-farm-gate issue, it happens 
in the marketplace where seeds get mixed together or in the 
processing of seeds after the farm gate.
    In some cases, there is a claim that pollen from one 
variety will move over to another variety. And those are often 
taken care of by the farmers themselves, who realize that if 
they plant their corn, let's say, a week apart, the pollination 
time will be different. And so you produce the kind of seeds 
that are necessary for a market based upon what you know about 
the plant. And by understanding the agriculture, the crop, and 
the source of the seeds, that farmer who demands a certain kind 
of product for his dairy cattle will find his or her material. 
But it is done often at the post-farm-gate level.
    As to whether or not----
    Mr. Welch. I have a couple of other questions.
    Dr. Beachy. Okay. Well, I heard about there is a claim that 
pollen from a GE alfalfa would contaminate the leaves of an 
organic alfalfa. That is so rare as to be non-impactful.
    Mr. Welch. Okay, thank you.
    Dr. Juma, what types of protections can be offered to 
American farmers and ranchers when identity-preserved organic 
products are contaminated by genetically modified organisms and 
rejected by the growing international market for identity-
preserved organic products? Organic farmers also want to have 
good access to the export market. Many of our exporting 
countries are much tougher, restrictive on genetically modified 
products. I wonder if you could address that question?
    Dr. Juma. Yes, this has been a subject of international 
trade law, and it has been very extensively discussed through 
the Codex Alimentarious Commission of the Food and Agriculture 
Organization. And, as I understand it, in fact the talks 
collapsed a few weeks ago, and the work of that committee was 
discontinued. I think that the reason it has been discontinued 
is because there aren't ideas that are coming from member 
states that are informing the international community on how to 
label products and how to separate them.
    And this is, again, coming to the question of leadership, 
that if that leadership comes from this country and they are 
lacking methods from this country, they will be shared by the 
international community. At the moment there aren't very good 
ideas that are being shared with the international community.
    Mr. Welch. Thank you. I yield back.
    The Chairman. Thank you, Mr. Welch.
    Since Mr. Welch and I are remaining, I would like to thank 
the members of the panel, thank the Members of the Committee. 
Since Mr. Costa has had to attend another hearing, I will waive 
his closing statement and make mine.
    It is clear to me from the testimony here today that 
biotechnology varieties helped us to achieve substantial gains 
in production. But, even those advances and gains will be 
outstripped by global demand.
    It is also evident from the comments today that a thorough 
review of the obstacles, both regulatory and legal, to the full 
realization of these benefits is almost certainly necessary and 
that regulations have to be science-based, predictable, and 
defensible. Our farmers, as well as those in developing 
countries, can continue to benefit from the efficiency found in 
new crop varieties.
    Biotech is an important tool toward meeting the world's 
food and nutrition needs. As this Subcommittee continues--and 
we shall--to review agricultural biotechnology over the coming 
weeks, we will have a comprehensive review of the current 
barriers of developing these critical food crops.
    Under the rules of Committee, the record of today's hearing 
will remain open for 10 calendar days to receive additional 
material and supplementary written responses from witnesses to 
any questions posed by a Member.
    I now declare that the hearing of the Subcommittee on Rural 
Development, Research, Biotechnology, and Foreign Agriculture 
is hereby adjourned. Thank you for your attendance.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
       Submitted Statement by Biotechnology Industry Organization
    The Biotechnology Industry Organization, or BIO, is the world's 
largest biotechnology organization, providing advocacy, business 
development and communications services for more than 1,100 members 
worldwide. BIO members are involved in the research and development of 
innovative healthcare, agricultural, industrial and environmental 
biotechnology products. Corporate members range from entrepreneurial 
companies developing a first product to Fortune 500 multinationals. The 
organization also represents state and regional biotech associations, 
service providers to the industry, and academic centers. The mission of 
BIO is to be the champion of biotechnology and the advocate for its 
member organizations--both large and small. As the subcommittee 
examines the benefits and opportunities of agricultural biotechnology, 
it is important for BIO to share its views.
    Agricultural biotechnology is essential for American producers and 
producers around the world who seek to feed and fuel a rapidly growing 
population. Through years of research and successful use, biotechnology 
has revolutionized modern agriculture and forestry producing benefits 
to producers, the environment, consumers, animals, forests, and the 
agricultural economy, while enhancing food and energy security for the 
American people and our international neighbors.
    Since the first crop developed through modern biotechnology was 
commercialized more than 15 years ago, U.S. producers have embraced the 
technology and grown increasing acres of biotech products. According to 
2010 figures from USDA's Economic Research Service, 93 percent of 
soybean and cotton and 86 percent of corn grown in the U.S. were 
biotech varieties.\1\
---------------------------------------------------------------------------
    \1\ The primary biotech crops grown today are insect-resistant and 
herbicide tolerant varieties of soybean, cotton, corn and canola.
---------------------------------------------------------------------------
    Producers outside of the U.S. have also successfully utilized 
biotechnology: in 2010 more than 15 million farmers in 29 countries 
grew 365 million acres of biotech crops and trees. Nearly 50 percent of 
these crops and trees were grown by small producers in developing 
countries where rates of biotech adoption have been steeper than in 
industrialized nations. The expanding use of agricultural biotechnology 
throughout the world has made biotechnology the most rapidly adopted 
agricultural innovation in history.\2\
---------------------------------------------------------------------------
    \2\ By way of comparison, 10% of the corn acres in the U.S. were 
planted in hybrid corn 5 years after its introduction; within 5 years, 
over 50% of the soybean and cotton acres in the U.S. were biotech 
varieties.
---------------------------------------------------------------------------
    The message is clear: where producers have been allowed to choose 
biotech varieties, they have embraced the technology and stuck with it.
Proven Benefits of Biotechnology for Health, the Economy and the 
        Environment
    The rapid and persistent expansion of agricultural biotechnology 
can be explained, in part, by its outstanding safety record. Science 
has shown biotech crops, trees and animals to be as safe as 
conventional varieties. Through the years, there have been no 
documented adverse effects to human health or the environment from 
biotech crops.
    Because science and experience have demonstrated biotech crops are 
as safe as conventional varieties, producer preference for these 
products must be related to differences in benefits seen on the land, 
including economic benefits. Scores of international studies have 
compared the economics of various biotech products with their 
conventional counterparts. The results show that producers switch from 
conventional to biotech varieties because of their economic benefits. 
The magnitude of the gain varies from study to study, crop to crop, and 
country to country, but the fundamental finding is that producers, like 
other business owners, act in their own best economic interest when 
determining whether to plant biotech varieties in their fields.
    For example, a 2010 National Academy of Sciences (NAS) study found 
that U.S. producers who grow biotech crops ``are realizing substantial 
economic and environmental benefits . . . compared with conventional 
crops.'' \3\ In their most recent study of global impacts, Graham 
Brookes and Peter Barfoot demonstrate substantial net economic benefits 
for producers of $10.8 billion in 2009 and $64.7 billion from 1996 to 
2009, in spite of higher seed costs.\4\ Interestingly, the shares of 
the global farm income gains, both in 2009 and cumulatively (1996-
2009), have been split equally between farmers in developing and 
developed countries, but the economic gains to individual producers in 
developing countries exceed that for producers in developed countries. 
Carpenter's 2010 meta-analysis of 49 peer-reviewed studies on the 
economic benefits of biotech versus conventional varieties in 12 
countries also demonstrated that the gains for small producers in 
developing countries exceed those for producers in industrialized 
countries.\5\
---------------------------------------------------------------------------
    \3\  National Research Council. 2010. The Impact of Genetically 
Engineered Crops on Farm Sustainability in the United States. http://
www.nap.edu.
    \4\ Brookes, G. and P. Barfoot. 2011. GM crops: global 
socioeconomic and environmental impacts 1996-2009. PG Economics. United 
Kingdom. PG Economics has published a series of similar studies. 
www.pgeconomics.co.uk.
    \5\ Carpenter, J. 2010. www.guardian.co.uk/commentisfree/cif-green/
2010/apr/21/gm-crops-benefit-farmers.
---------------------------------------------------------------------------
    The gains that matter most to growers are not global figures, but 
the improved incomes they experience in their own operations. Studies 
have shown producer-level gains ranging from a few dollars per acre to 
significantly more than $200/acre depending on the product, year, 
current and previous pest levels and control practices, country and 
region.
    Economic gains producers enjoy result from higher yields, lower 
input costs, or both. The 2010 NAS study cites these as the sources of 
economic gain: ``lower production costs, fewer pest problems, reduced 
use of pesticides and better yields.'' In terms of specific numbers, 
since 1996 biotech traits have:

  <bullet> Increased yields by 83.5 million tons for soybeans; 130.5 
        million tons for corn; 10.5 million tons for cotton lint; 5.5 
        million tons for canola (Brookes and Barfoot, 2011). Increased 
        yields accounted for 57 percent ($36.6 billion) of the $64.7 
        billion economic gain observed from 1996 to 2009.

  <bullet> Reduced use of pesticides spraying by 865 million pounds. 
        This and other lower production costs contributed $28.1 billion 
        to the global ag economy.

    For a single year (2009) James \6\ found approximately 25 percent 
of global producer-level income increase ($2.7 billion) was due to 
reduced production costs (lower fuel costs, less pesticides used, lower 
labor costs), and the remainder to yield gains for biotech varieties: 9 
million tons of soybeans, 29 million tons of maize, 2 million tons of 
cotton lint and .67 million tons of canola. This doesn't account for 
animal biotechnology, forest crops or fruit and nut trees, like the 
papaya.
---------------------------------------------------------------------------
    \6\ James, C. 2010. Global status of commercialised biotech/GM 
crops: 2010, ISAAA brief No 42. www.isaaa.org.
---------------------------------------------------------------------------
    The follow-on environmental benefits of growing biotech products 
are substantial and include preservation of biodiversity \7\ and 
topsoil,\8\ while reducing greenhouse gas emissions, fuel use and water 
loss from soil.
---------------------------------------------------------------------------
    \7\ Carpenter, J. 2011. Impacts of GM crops on biodiversity. GM 
Crops: 2:1-17.
    \8\  http://www.ctic.purdue.edu/resourcedisplay/293/; http://
www.ctic.purdue.edu/resource
display/281/.

  <bullet> Without biotech crops, the 2009 production increases would 
        have required clearing 31 million acres of land for crop 
---------------------------------------------------------------------------
        production and, as a result, decrease biodiversity.

  <bullet> Herbicide tolerant biotech crops have facilitated the 
        adoption of no/reduced tillage production systems in many 
        regions, which reduces soil erosion and improves soil moisture 
        levels.

  <bullet> In 2009 alone, less fuel use and additional soil carbon 
        storage from reduced tillage reduced greenhouse gas emissions 
        by an amount equivalent to removing 17.7 billion kg of carbon 
        dioxide from the atmosphere or removing 7.8 million cars from 
        the road for one year.

  <bullet> The development of disease resistant trees, salvaged the 
        Hawaiian papaya industry and may resurrect significant species 
        like the American Chestnut Tree.

  <bullet> Improved growth rates and processing through biotechnology 
        may significantly contribute to U.S. biomass harvests, making 
        sustainable energy production a realizable goal. In addition to 
        increasing the amount of biomass produced per acre, 
        biotechnology-based conversions require less harsh chemicals to 
        process tree fiber into economically valuable pulp and fiber 
        for paper, fuel and energy.
Doing More with Less, Sustainably
    Throughout history, as human population growth increased the demand 
for food, animal feed, fuel and fiber, our agricultural and forest 
production systems kept pace. In the mid-20th century, fears of a 
population-driven food crisis, primarily in the developing world, led 
to research and investment to intensify crop production there. From 
1960 to 2000, the Green Revolution increased food production in 
developing countries by nearly 200 percent from 800 million tons to 2.2 
billion tons and global food production by 150 percent from 1.8 billion 
tons to 4.6 billion tons through the use of high yielding varieties 
that could resist herbicides and disease, irrigation, insecticides and 
fertilizers. As a result, the Green Revolution (1) saved one billion 
from famine; (2) halved the global percentage of undernourished people; 
(3) improved rural economies; and (4) protected approximately 2.2-3.8 
billion acres of land from being cleared for crop production.
    We still face the relentless challenge of feeding and fueling an 
ever-expanding population, which will reach nine billion by 2050 and 
require at least a 70 percent increase in food, feed and fuel 
production. However, this time the challenge of increasing per acre 
productivity is exacerbated by a confluence of interacting pressures in 
addition to population growth: increased competition for water and 
land; rising energy prices; a dietary shift from cereals to animal 
products; diminishing supplies of fossil fuels--the source of most 
agrochemicals; resources degraded from past activities; and the global 
effects of climate change.
    The Green Revolution allowed us to produce more with more inputs, 
most of which are derived from nonrenewable resources. Our current 
challenge is to produce more with less and to do so in a sustainable 
fashion. Biotechnology provides a set of precise yet flexible tools for 
meeting that challenge.
    As described above, biotech crops and trees have already provided 
more with less, sustainably, by improving yields without clearing new 
land, while conserving soil, saving water, using less fossil fuel, both 
directly and indirectly, and enhancing biodiversity. In addition to 
environmental sustainability, biotechnology has contributed to 
sustainability by improving land-based incomes and both preserving and 
creating jobs in rural communities.
    However, the past achievements of biotech crops pale in comparison 
to what agricultural biotechnology could provide in light of the 
necessity of doing more with less.
    The ``less'' we have already experienced with the existing 
agricultural biotechnology--less fuel, land, pesticides, soil erosion--
could be extended to many more crops, including orphan crops essential 
to subsistence agriculture in developing countries. For example, genes 
for the insect-resistance trait developed for corn and cotton, which 
come from a naturally occurring microbe found in soils worldwide, 
Bacillus thuringiensis or Bt, have been donated to African institutions 
for use in cowpea, a staple crop in West Africa. This flexibility is 
one of biotechnology's greatest untapped potentials: a genetic 
innovation developed for commodity crops grown in affluent countries 
can be used in any crop, because all plants know how to translate and 
use genetic information.
    The tools of biotechnology are also being used to develop new crops 
that use less of other essential resources: water and fertilizers. 
Drought tolerant corn varieties developed through biotechnology are 
awaiting approval in the U.S. and other countries, and drought tolerant 
genes have been incorporated into African corn varieties. A number of 
crops with the NUE trait (nitrogen utilization efficiency) are also in 
the pipeline.
    In addition to improving crop plants, the ability to use 
biotechnology to improve the productivity of animal agriculture, 
including aquaculture, is enormous. Existing technologies include fish 
that are 15 percent more efficient in feed utilization and pigs that 
are better able to use the phosphorous in plants (50 to 75 percent more 
efficient). Both will allow us to meet the growing demand for animal 
protein with fewer inputs.
    Many of the foods we enjoy today come from overseas. Food 
transportation is energy demanding, and 97 percent of the farmed salmon 
we consume is produced overseas. Biotechnology gives us the tools to 
grow the salmon here in the U.S., which not only would conserve fuels, 
but would also improve food security and ensure a safer food supply. 
Imported seafood does not receive the same level of inspection as 
domestic production. Only \1/10\ of 1 percent of imported seafood is 
inspected for drug residues.\9\
---------------------------------------------------------------------------
    \9\ A recent GAO report documented several instances of farmed 
salmon from Chile using non-approved drugs for treatment of fish.
---------------------------------------------------------------------------
    Biotechnology also can improve the processing capability of various 
industrial processes, unlocking cellulose for conversion to fuels or 
chemicals, or to paper using fewer environmentally harsh chemicals. A 
recent study by the National Renewable Energy Lab has discovered the 
altering the amount of lignin in trees, which may unlock higher degrees 
of cellulose for use in producing fuel.\10\ The Environmental 
Protection Agency has also stated that biotechnology is key to 
achieving the goals of the Federal Renewable Fuel Standard by enabling 
the conversion of cellulosic biomass to fuels and other chemicals.
---------------------------------------------------------------------------
    \10\ Presented by DOE National Renewable Energy Laboratory 
scientists at 33rd Symposium on Biofuels and Chemicals. Seattle, Wash. 
May 5, 2011.
---------------------------------------------------------------------------
    ``Less'' means not only lower amounts of agricultural inputs, but 
also less severe environmental impacts. The pest control traits of 
current biotech varieties have had less severe environmental impacts 
than their predecessors, and therefore less of an impact on 
biodiversity. The Bt gene is toxic only to a handful of insects, and in 
order to exert its effect, the insect must eat the crop. As a result, 
insects that are not crop pests or are beneficial, such as bees and 
ladybird beetles, are not harmed. The herbicide tolerance traits added 
to biotech crops have allowed producers to switch to herbicides with 
fewer environmental and health impacts. This same thinking could be 
applied to crops to control disease, such as those caused by fungi and 
virus. There has long existed the technology to create many virus-
resistant crop varieties, but the economics of product development, 
primarily the costs of regulatory approval, make it unlikely that these 
will be developed for any but the largest commodity crops.
    Just as ``less'' means more than less inputs, the ``more'' provided 
by past and future advances in biotechnology encompasses more than just 
``more'' product. More land-based income, with its concomitant impacts 
on rural economic development, could be provided to many more 
producers, including those growing small acreage crops in the U.S., if 
existing biotech traits were incorporated into additional crops.
    The ``more'' provided by biotechnology also entails more 
nutritious, thus enhancing agricultural biotechnology's contribution to 
public health. A few crop varieties, nutritionally-enhanced through 
biotechnology, have been commercialized in the U.S. and could help to 
address the obesity epidemic by shifting the proportion of various oils 
to healthier types. Similar work is being done with animal food 
products in which the levels of omega-3 fatty acids, which have many 
health benefits, in meat and milk are increased. However, much more 
could be done to improve the vitamin and mineral content, as well as 
local availability of fruits, vegetables and other crops, both in the 
U.S. and globally. Some of these ``biofortified'' products are 
currently being field-tested in developing countries, and more are 
under development by their public sector research institutions.
    We already have the know-how to develop the biotech varieties just 
described that would allow ``more'' to be done with ``less.'' The 
necessary genes have been identified, and well-established techniques 
can be used to provide these genes to many different agricultural 
products. But having the genes and transformation techniques is not 
sufficient. There must also be in place government policies that allow 
both the public and private sectors to develop these crops, trees and 
animals.
                                 ______
                                 
                Submitted Statement by CropLife America
    CropLife America (CLA) is pleased to present our perspective on the 
opportunities and benefits of agricultural biotechnology. CLA is the 
premier national association for the crop protection industry. We 
represent the companies that develop, manufacture, formulate and 
distribute crop protection chemicals and plant science solutions for 
agriculture and pest management, including products used as and in 
conjunction with plant incorporated protectants. CLA's member companies 
(http://www.croplifeamerica.org/about/association-members) produce, 
sell and distribute virtually all the crop protection (http://
www.croplifeamerica.org/crop-protection) and biotechnology products 
(http://www.croplifeamerica.org/what-we-do/crop-biotechnology) used by 
American producers.
    Our primary concern in any discussion on biotechnology is and 
always will be to support the best interests of our customer--the 
modern American farmer and rancher. CropLife views our role in this 
debate as one of ensuring modern agriculture is provided the 
opportunity to thrive. ``Modern agriculture'' most accurately describes 
the wide range of practices employed by the majority of America's 
producers. It embodies farmers, ranchers and agribusiness commitment to 
innovation, stewardship and meeting the global food challenge. There is 
nothing `conventional' about modern agriculture.
    CLA believes that a strong, responsible U.S. farm policy must 
encourage and support modern agriculture by enabling producers to 
utilize new technologies, research and science to produce safe, 
sustainable, affordable food and fiber. Over 90% of farmers today 
already embrace the modern production practices and technologies to 
feed, fuel and clothe a growing world: all while minimizing 
agriculture's environmental footprint.
    As the Committee considers policy relating to agriculture and 
biotechnology, CLA asks that you consider the following facts about our 
industry and the critical role crop protection and biotechnology play 
in advancing modern agriculture:

  <bullet> Crop protection products comprise a wide range of goods for 
        both professional and home applications, including 
        insecticides, fungicides, herbicides, sanitizers, growth 
        regulators, rodenticides, and soil fumigants that help control 
        insects, diseases, weeds, fungi and other undesirable pests 
        that would otherwise threaten our food supply.

  <bullet> Each acre of U.S. cropland contains 50 to 300 million buried 
        weed seeds.

  <bullet> Crop plants must compete with 30,000 species of weeds, 3,000 
        species of nematodes and 10,000 species of plant-eating 
        insects. Despite the use of modern crop protection products, 
        20-40% of potential food production is still lost every year to 
        pests.

  <bullet> Herbicide tolerant biotech crops, using plant incorporated 
        protectants, have facilitated the adoption of no/reduced 
        tillage production systems, which reduces soil erosion and 
        improves soil moisture levels. The primary biotech crops grown 
        today are insect-resistant and herbicide tolerant varieties of 
        soybean, cotton, corn and canola.

  <bullet> It is estimated that, in 2009 alone, less fuel use and 
        additional soil carbon storage from reduced tillage reduced 
        greenhouse gas emissions by an amount equivalent to removing 
        17.7 billion kg of carbon dioxide from the atmosphere or 
        removing 7.8 million cars from the road for one year.

  <bullet> Biotech crops and trees are sustainable. They allow for 
        improving yields without clearing new land, all while 
        conserving soil, saving water, using less fossil fuel, both 
        directly and indirectly, and enhancing biodiversity.

  <bullet> Crop protection products increase crop productivity by 20-
        50%, thereby making it possible for consumers to choose from an 
        abundant supply of fresh, high-quality foods that are 
        affordable and accessible year-round.

  <bullet> Globally, over 900 million people--\1/6\ of the world 
        population--suffer from malnutrition. Agricultural output has 
        to double in the next 20-30 years in order to feed the world's 
        population, which the United Nations predicts will grow by 1.7 
        billion more people by 2030.

  <bullet> Intensive scientific research and robust investment in 
        technology during the past 50 years helped farmers double food 
        production while essentially freezing the footprint of total 
        cultivated farmland. Crop protection is one of the most 
        research-intensive industries in existence, with companies 
        investing about 12% of their turnover in research and 
        development (R&D). The top 10 plant science companies invest an 
        estimated $3.75 billion in R&D per year to discover, conduct 
        tests to ensure safety and develop new products.

  <bullet> Crop protection and biotechnology products keep the price of 
        food in America less expensive. Without the use of pesticides 
        and biotech crops, the price of food goes up as a direct result 
        of crop loss due to weeds, insects, rodents, diseases, and the 
        costs of added input.

    The U.S. must be a leader in ensuring that farmers have access to 
crop protection and biotechnology solutions that support modern 
agriculture. CLA and our members look forward to the opportunity to 
work with the Committee and our allies on advancing modern agriculture 
through the use of biotechnology, and we offer the full breadth of our 
expertise and resources to assist in anyway necessary with informing 
the policy discussion.
                                 ______
                                 
        Submitted Statement by National Corn Growers Association
    The National Corn Growers Association (NCGA) appreciates the 
opportunity to provide testimony as part of the Subcommittee's hearing 
regarding the opportunities and benefits of agricultural biotechnology. 
NCGA represents 35,000 corn farmers from 48 states, as well as the 
interests of more than 300,000 growers who contribute through corn 
check-off programs in their states. NCGA was supportive of the 
testimony delivered by Chuck Connor, President and Chief Executive 
Officer of the National Council of Farmer Cooperatives.
    America's corn growers are taking on new roles. As technology 
evolves, farming operations do, too. Meeting demand, improving 
processes, and minimizing environmental impacts are what make modern 
corn growing a dynamic industry. Corn growers adopted biotechnology 
readily, growing from 25 percent of the corn market in 2000 to 88 
percent of U.S. acres in 2011.
    Agricultural biotechnology offers corn growers a unique solution: 
increasing yields while decreasing water and fertilizer rates. 
Moreover, it provides improved pest control practices that are more 
environmentally friendly, including drastic reductions in the need for 
pesticides. The introduction of herbicide-tolerant corn hybrids did not 
simply mean better weed control and higher yields. Farmers are using 
significantly fewer pesticides and make fewer trips across their 
fields. In fact, the benefits of biotechnology translate into a cost 
savings of $8-$13 per acre on equipment, fuel and labor.
    While corn growers have benefited from the commercialization of 
numerous biotechnology traits, we recognize that improvements can be 
made in the regulatory process. NCGA strongly supports a regulatory 
system based on sound science. Legal challenges not based on science 
are draining United States Department of Agriculture's (USDA) capacity 
to evaluate new products and make them available to producers.
    We commend you for holding this hearing and laying the groundwork 
for additional discussions about the challenges facing our industry. 
Should that opportunity present itself, NCGA supports a comprehensive 
approach that maintains the integrity of the USDA's science-based 
system allowing farmers to choose cropping systems based on their 
individual operations and fostering future development and adoption of 
biotechnology traits to feed and fuel the future.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Charles F. Conner, President and Chief Executive 
        Officer, National Council of Farmer Cooperatives
Questions Submitted by Hon. Robert T. Schilling, a Representative in 
        Congress from Illinois
    Question 1. Mr. Conner, I'd like to hear about your experience at 
USDA and how you think the Department can achieve the goal of more food 
production. Specifically, can you tell the story of biotech's role in 
feeding the world?
    Answer. To achieve those goals, and at the same time do it in an 
environmentally sensitive way, we need to be more productive on the 
farmland we have. Biotechnology provides a valuable tool in increasing 
productivity, not only in producing higher yielding varieties, but also 
minimizing losses due to weather variability. We now routinely see high 
yields even in years of poor growing seasons. I believe biotechnology 
will make it possible to continue along the path of increasing 
productivity much faster than otherwise would be the case.
    However, this is not just an issue for the United States to develop 
and adapt new agricultural biotechnology products, but rather is a 
world-wide issue. Obviously the United States alone cannot meet the 
demands of feeding a growing world population. The acceptance and 
adaption of this technology in countries around the world, and in 
particular developing countries, will be critical. Given my experience 
at USDA, I believe the Department can play a constructive role in 
helping gain that needed acceptance, especially in countries with 
significant production challenges that stand to benefit from the 
technology.

    Question 2. Mr. Conner, in the 1940's the average U.S. corn yields 
were 34 bushels per acre. Today, yields of 200 bushels an acre or 
greater can be common. The American farmer has come a long way. Can you 
elaborate on the economic gains directly attributable to these biotech 
varieties?
    Answer. Due to biotechnology, along with better agronomic practices 
adopted in recent years, crop yields for American farmers have 
increased and allowed farmers to produce more on the same number of 
acres without cultivating additional land. According to USDA's most 
recent data, the United States planted 94 percent of soybeans, 90 
percent of cotton, and 88 percent of corn of that were of varieties 
that had biotech traits. Since these biotech crops were first 
introduced in 1996, soybean yields have increased roughly 20 percent, 
cotton yields have increased approximately 33 percent, and corn yields 
are about 30 percent higher.
    Studies have indicated that biotech crops have, between 1996 and 
2009, enhanced U.S. farm income by $29.8 billion. For example, a 2010 
National Academy of Sciences (NAS) study found that U.S. producers who 
grow biotech crops ``are realizing substantial economic and 
environmental benefits . . . compared with conventional crops.'' \1\ 
Farm-level economic impacts of that study can be found at:
http://www.nap.edu/openbook.php?record_id=12804&page=135.
---------------------------------------------------------------------------
    \1\ National Research Council. 2010. The Impact of Genetically 
Engineered Crops on Farm Sustainability in the United States. http://
www.nap.edu.
---------------------------------------------------------------------------
    This study cites these economic gains of ``lower production costs, 
fewer pest problems, reduced use of pesticides and better yields.'' 
Specifically cited from the study:

        The incomes of those who have adopted genetic-engineering 
        technology have benefited from some combination of yield 
        protection and lower costs of production. HR crops have not 
        substantially increased yields, but their use has facilitated 
        more cost-effective weed control, especially on farms where 
        weeds resistant to glyphosate have not yet been identified. 
        Lower yields were sometimes observed when HR crops were 
        introduced, but the herbicide-resistant trait has since been 
        incorporated into higher-yielding cultivars, and technological 
        improvement in inserting the trait has also helped to eliminate 
        the yield difference. In areas that suffer substantial damage 
        from insects that are susceptible to the Bt toxins, IR crops 
        have increased adopters' net incomes because of higher yields 
        and reduced insecticide expenditures. Before the introduction 
        of Bt crops, most farmers accepted yield losses to European 
        corn borer rather than incur the expense and uncertainty of 
        chemical control. Bt traits to address corn rootworm problems 
        have lowered the use of soil-applied and seed-applied 
        insecticides. In areas of high susceptible insect populations, 
        Bt cotton has been found to protect yields with fewer 
        applications of topical insecticides. More effective management 
        of weeds and insects also means that farmers may not have to 
        apply insecticides or till for weeds as often, and this 
        translates into cost savings--lower expenditures for pesticides 
        and less labor and fuel for equipment operations.
                                 ______
                                 
        Attachment to Calestous Juma, Ph.D.'s Prepared Statement
The New Harvest
        ``This book presents a timely analysis of the importance of 
        infrastructure in improving Africa's agriculture. Leaders at 
        national and state levels will benefit immensely from its 
        evidence-based recommendations.''

        --Goodluck Jonathan, President of the Federal Republic of 
        Nigeria

        ``This book is a forceful reminder of the important role that 
        African women play in agriculture on the continent. It is 
        critical that they are provided with equal educational 
        opportunity as a starting point for building a new economic 
        future for the continent.''

        --Ellen Johnson Sirleaf, President of the Republic of Liberia

        ``New technologies, especially biotechnology, provide African 
        countries with additional tools for improving the welfare of 
        farmers. I commend this book for the emphasis it places on the 
        critical role that technological innovation plays in 
        agriculture. The study is a timely handbook for those seeking 
        new ways of harnessing new technologies for development, 
        including poor farmers, many of whom are women.''

        --Blaise Compaore, President of Burkina Faso

        ``The New Harvest underscores the importance of global learning 
        in Africa's agricultural development. It offers new ideas for 
        international cooperation on sustainable agriculture in the 
        tropics. It will pave the way for improved collaboration 
        between Africa and South America.''

        --Laura Chincilla, President of Costa Rica
                               The New Harvest                     Agricultural Innovation In Africa                              Calestous Juma                          Oxford University Press                                   2011    Oxford University Press, Inc., publishes works that further Oxford
   University's objective of excellence in research, scholarship, and
                               education.                              Oxford New York
            Auckland Cape Town Dar es Salaam Hong Kong Karachi
             Kuala Lumpur Madrid Melbourne Mexico City Nairobi
                     New Delhi Shanghai Taipei Toronto                               With offices      in Argentina Austria Brazil Chile Czech Republic France Greece
   Guatemala Hungary Italy Japan Poland Portugal Singapore South Korea
                               Switzerland
                     Thailand Turkey Ukraine Vietnam.             Copyright  2011 by Oxford University Press, Inc.    Published by Oxford University Press, Inc., 198 Madison Avenue, New
                             York, NY 10016
                                www.oup.com
        Oxford is a registered trademark of Oxford University Press
    All rights reserved. No part of this publication may be reproduced,
   stored in a retrieval system, or transmitted, in any form or by any
  means, electronic, mechanical, photocopying, recording, or otherwise,
        without the prior permission of Oxford University Press.            Library of Congress Cataloging-in-Publication Data
                             Juma, Calestous.
   The new harvest: agricultural innovation in Africa / Calestous Juma.
                                  p. cm.              Includes bibliographical references and index.
       ISBN 978-0-19-978319-9 (pbk.)--ISBN 978-0-19-978320-5 (cloth)
                 1. Agriculture--Economic aspects--Africa.
          2. Agricultural innovations--Economic aspects--Africa.
                3. Economic development--Africa. I. Title.
                             HD9017.A2J86 2011
                              338.1'6096-dc22
                                2010030674
                             1 3 5 7 9 8 6 4 2        Printed in the United States of America on acid-free paper                     In memory of Christopher Freeman
       Father of the field of science policy and innovation studies
Contents
    Acknowledgments
    Introduction
    Selected Abbreviations and Acronyms

          1 The Growing Economy
          2 Advances in Science, Technology, and Engineering
          3 Agricultural Innovation Systems
          4 Enabling Infrastructure
          5 Human Capacity
          6 Entrepreneurship
          7 Governing Innovation
          8 Conclusions and the Way Ahead

    Appendix I Regional Economic Communities
    Appendix II Decisions of the 2010 COMESA Summit on Science and 
Technology for Development
    Notes
    Index
Agricultural Innovation in Africa Project
Project Director and Lead Author
    Calestous Juma, Harvard Kennedy School, Harvard University, 
Cambridge, USA
International Advisory Panel and Contributing Authors
    John Adeoti, Nigerian Institute of Social and Economic Research, 
Ibadan, Nigeria
    Aggrey Ambali, NEPAD Planning and Coordinating Agency, Tshwane, 
South Africa
    N'Dri Assie-Lumumba, Cornell University, Ithaca, USA
    Zhangliang Chen, Guangxi Zhuang Autonomous Region, Nanning, 
People's Republic of China
    Mateja Dermastia, Anteja ECG, Ljubljana, Slovenia
    Anil Gupta, Society for Research and Initiatives for Sustainable 
Technologies and Institutions, and Indian Institute of Management, 
Ahmedabad, India
    Daniel Kammen, University of California, Berkeley, USA
    Margaret Kilo, African Development Bank, Tunis, Tunisia
    Hiroyuki Kubota, Japan International Cooperation Agency, Tokyo
    Francis Mangeni, Common Market for Eastern and Southern Africa, 
Lusaka, Zambia
    Magdy Madkour, Ain Shams University, Cairo, Egypt
    Venkatesh Narayanamurti, School of Engineering and Applied 
Sciences, Harvard University, USA
    Robert Paarlberg, Wellesley College and Harvard University, USA
    Maria Jose Sampaio, Brazilian Agricultural Research Corporation, 
Brasilia, Brazil
    Lindiwe Majele Sibanda, Food, Agriculture and Natural Resources 
Policy Analysis Network, Tshwane, South Africa
    Greet Smets, Biotechnology and Regulatory Specialist, Essen, 
Belgium
    Botlhale Tema, African Creative Connections, Johannesburg, South 
Africa
    Jeff Waage, London International Development Centre, London
    Judi Wakhungu, African Centre for Technology Studies, Nairobi, 
Kenya
Project Coordinator
    Greg Durham, Harvard Kennedy School, Harvard University, Cambridge, 
USA
Acknowledgments
    This book is a product of the Agricultural Innovation in Africa 
(AIA) project funded by the Bill and Melinda Gates Foundation. Its 
production benefited greatly from the intellectual guidance and written 
contributions of the members of the AIA International Advisory Panel. 
In addition to providing their own contributions, the panel members 
have played a critical role in disseminating AIA's preliminary findings 
in key policy and scholarly circles. The production of this book would 
not have been possible without their genuine support for the project 
and dedication to the cause of improving African agriculture.
    We are deeply grateful to the information provided to us by Juma 
Mwapachu (Secretary General), Alloys Mutabingwa, Jean Claude 
Nsengiyumva, Phil Klerruu, Moses Marwa, Flora Msonda, John Mungai, 
Weggoro Nyamajeje, Henry Obbo, and Richard Owora at the Secretariat of 
the East African Community (Arusha, Tanzania) on Africa's Regional 
Economic Communities (RECs). Sam Kanyarukiga, Frank Mugyenyi, Martha 
Byanyima, Jan Joost Nijhoff, Nalishebo Meebelo, and Angelo Daka (Common 
Market for Eastern and Southern Africa, Zambia) provided additional 
contributions on regional perspectives. We have benefited from critical 
insights from Nina Fedoroff and Andrew Reynolds (U.S. Department of 
State, Washington, DC), Andrew Daudi (Office of the President, 
Lilongwe, Malawi), Norman Clark (African Centre for Technology Studies, 
Nairobi, Kenya), Daniel Dalohoun (AfricaRice, Cotonou, Benin), Andy 
Hall (UNU-MERIT, Maastricht, the Netherlands), and Peter Wanyama 
(Mohammed Muigai Advocates, Nairobi, Kenya). Additional information for 
the book was provided by John Pasek (Iowa State University, USA), 
Stephanie Hanson (One Acre Fund, Bungoma, Kenya), S.G. Vombatkere 
(Mysore, India), Akwasi Asamoah (Kwame Nkrumah University of Science 
and Technology, Kumasi, Ghana), Jonathan Gressel (Weizmann Institute 
and Trans-Algae Ltd., Israel), Will Masters (Tufts University, USA), 
Martha Dolpen (African Food and Peace Foundation, USA), and C. Ford 
Runge (University of Minnesota, USA).
    We would like to thank our dedicated team of researchers who 
included Edmundo Barros, Daniel Coutinho, Manisha Dookhony, Josh Drake, 
Emily Janoch, Beth Maclin, Julia Mensah, Shino Saruti, Mahat Somane, 
and Melanie Vant at the Harvard Kennedy School, and Yunan Jin, Jeff 
Solnet, Amaka Uzoh, and Caroline Wu at Harvard College, Harvard 
University.
    Much inspiration for the structure of this book came from the 
results of a meeting of experts, ``Innovating Out of Poverty,'' 
convened by the Organisation for Economic Co-operation and Development 
(OECD) in Paris on April 6-7, 2009. It gathered state-of-the-art 
knowledge on agricultural innovation systems. We are particularly 
grateful to Richard Carey, Kaori Miyamoto, and Fred Gault (OECD 
Development Centre, Paris). Further input was provided by David Angell 
(Ministry of Foreign Affairs, Ottawa), Jajeev Chawla (Survey 
Settlements and Land Records Department, India), David King 
(International Federation of Agricultural Producers, Paris), Raul 
Montemayor (Federation of Free Farmers, Manila), Charles Gore (United 
Nations Conference on Trade and Development, Geneva), Paulo Gomes 
(Constelor Group, Washington, DC), Ren Wang (Consultative Group on 
International Agricultural Research, Washington, DC), David Birch 
(Consult Hyperion, London), Laurens van Veldhutzen (ETC Foundation, the 
Netherlands), Erika Kraemer-Mbula (Centre for Research in Innovation 
Management, Brighton University, UK), Khalid El-Harizi (International 
Fund for Agricultural Development, Rome), Adrian Ely (University of 
Sussex, UK), Watu Wamae (The Open University, UK), Andrew Hall (United 
Nations University, the Netherlands), Rajendra Ranganathan (Utexrwa, 
Kigali), Alfred Watkins (World Bank, Washington, DC), Eija Pehu (World 
Bank, Washington, DC), and Wacege Mugua (Safaricom, Ltd., Nairobi).
    Our ideas about the role of experiential learning has been enriched 
by the generosity of Jose Zaglul and Daniel Sherrard at EARTH 
University and their readiness to share important lessons from their 
experience running the world's first ``sustainable agriculture 
university.'' We drew additional inspiration and encouragement from 
Alice Amsden (Massachusetts Institute of Technology, USA), Thomas Burke 
(Harvard Medical School, USA), Gordon Conway (Imperial College, 
London), David King (University of Oxford, UK), Yee-Cheong Lee (Academy 
of Sciences, Malaysia), Peter Raven (Missouri Botanical Garden, USA), 
Ismail Serageldin (Library of Alexandria, Egypt), Gus Speth (Vermont 
Law School, USA), and Yolanda Kakabadse (WWF International, 
Switzerland).
    I am grateful to the Bill and Melinda Gates Foundation and in 
particular to Gwen Young, Sam Dryden, Brantley Browning, Lawrence Kent, 
Corinne Self, Prabhu Pingali, and Greg Traxler for continuing support 
to the Agricultural Innovation in Africa Project at the Belfer Center 
for Science and International Affairs of the Harvard Kennedy School. I 
am also indebted to my colleagues at the Harvard Kennedy School who 
have given me considerable moral and intellectual support in the 
implementation of this initiative. We want to single out Graham 
Allison, Venkatesh Narayanamurti, Bill Clark, Nancy Dickson, Eric 
Rosenbach, and Kevin Ryan for their continuing support.
    Special credit goes to Greg Durham (AIA Project Coordinator, 
Harvard Kennedy School) who provided invaluable managerial support and 
additional research assistance. Finally, we want to thank Angela 
Chnapko and Joellyn Ausanka (Oxford University Press) and anonymous 
reviewers for their constructive editorial support and guidance.
    New ideas need champions. We would like to commend Sindiso Ngwenya 
(Secretary General of the Common Market for Eastern and Southern 
Africa, Lusaka) for taking an early lead to present the ideas contained 
in this book to African heads of state and government for 
consideration. The results of his efforts are contained in Appendix II. 
We hope that others will follow his example.
Introduction
    In his acceptance speech as Chairman of the Assembly of the African 
Union (AU) in February 2010, President Bingu wa Mutharika of Malawi 
said:

        One challenge we all face is poverty, hunger and malnutrition 
        of large populations. Therefore achieving food security at the 
        African level should be able to address these problems. I would 
        therefore request the AU Assembly to share the dream that five 
        years from now no child in Africa should die of hunger and 
        malnutrition. No child should go to bed hungry. I realize that 
        this is an ambitious dream but one that can be realized. We all 
        know that Africa is endowed with vast fertile soils, favourable 
        climates, vast water basins and perennial rivers that could be 
        utilized for irrigation farming and lead to the Green 
        Revolution, and mitigate the adverse effects of climate change. 
        We can therefore grow enough food to feed everyone in Africa. I 
        am, therefore, proposing that our agenda for Africa should 
        focus on agriculture and food security. I propose that our 
        slogan should be: ``Feeding Africa through New Technologies: 
        Let Us Act Now.'' \1\

    This statement lays out a clear vision of how to approach Africa's 
agricultural challenge. This book builds on this optimistic outlook 
against a general background of gloom that fails to account for a wide 
range of success stories across the continent.\2\ African agriculture 
is at the crossroads. Persistent food shortages are now being 
compounded by new threats arising from climate change. But Africa faces 
three major opportunities that can help transform its agriculture to be 
a force for economic growth. First, advances in science, technology, 
and engineering worldwide offer Africa new tools needed to promote 
sustainable agriculture. Second, efforts to create regional markets 
will provide new incentives for agricultural production and trade. 
Third, a new generation of African leaders is helping the continent to 
focus on long-term economic transformation. This book provides policy-
relevant information on how to align science, technology, and 
engineering missions with regional agricultural development goals.\3\
    This book argues that sustaining African economic prosperity will 
require significant efforts to modernize the continent's economy 
through the application of science and technology in agriculture. In 
other words, agriculture needs to be viewed as a knowledge-based 
entrepreneurial activity.\4\ The argument is based on the premise that 
smart investments in agriculture will have multiplier effects in many 
sectors of the economy and help spread prosperity. More specifically, 
the book focuses on the importance of boosting support for agricultural 
research as part of a larger agenda to promote innovation, invest in 
enabling infrastructure, build human capacity, stimulate 
entrepreneurship and improve the governance of innovation.
    The emergence of Africa's Regional Economic Communities (RECs) 
provides a unique opportunity to promote innovation in African 
agriculture in a more systematic and coordinated way.\5\ The launching 
of the East African Common Market in July 2010 represented a 
significant milestone in the steady process of deepening Africa's 
economic integration. It is a trend that complements similar efforts in 
other parts of Africa. It also underscores the determination among 
African leaders to expand prospects for prosperity by creating space 
for economic growth and technological innovation.
    One of the challenges facing Africa's RECs has been their perceived 
overlap and duplication of effort. Part of this concern has been 
overstated. The RECs evolved based on local priorities. For example, 
the Economic Community of West African States (ECOWAS) is by far the 
most advanced in peace-keeping while the Common Market for Eastern and 
Southern Africa (COMESA) has made significant strides in trade matters. 
In the meantime, the East African Community (EAC)--one of the oldest 
regional integration bodies in the world--has made significant advances 
on the social, cultural, and political fronts. It has judicial and 
legislative organs and aspires to create a federated state with a 
single president in the future.
    Probably the most creative response to concerns over overlap and 
duplication was the 2008 communique of October 22 by the heads of state 
and government of COMESA, EAC, and the Southern African Development 
Community (SADC), agreeing to form a tripartite free trade area 
covering the 26 countries in the region, and to cooperate in various 
areas with SADC. This move will go a long way in helping achieve the 
African Union's continental integration objectives. The agreement 
provides for free movement of businesspeople, joint implementation of 
inter-regional infrastructure programs, and institutional arrangements 
that promote cooperation among the three RECs. The agreement calls for 
immediate steps to merge the three trading blocs into a single REC with 
a focus on fast-tracking the creation of the African Economic 
Community.
    Drawing on the experience of the EAC, the Tripartite Task Force, 
made up of the secretariats of the three RECs, will develop a road map 
for the implementation of the merger. The new trading bloc will have a 
combined GDP of US$625 billion and a population of 527 million. It is 
estimated that exports among the 26 countries rose from US$7 billion in 
2000 to US$27 billion in 2008, and imports jumped from US$9 billion in 
2000 to US$32 billion in 2008. This impressive increase was attributed 
to the efforts of the three RECs to promote free trade.
    The heads of state and government directed the three RECs to 
implement joint programs: a single airspace; an accelerated, seamless 
inter-regional broadband infrastructure network; and a harmonized 
policy and regulatory framework to govern information and communication 
technology (ICT) and infrastructure development. The RECs were also 
expected to effectively coordinate and harmonize their transport, 
energy, and investment master plans. The three secretariats were asked 
to prepare a joint financing and implementation mechanism for 
infrastructure development within a year. It was also agreed that a 
Tripartite Summit of heads of state and government shall meet once 
every two years.
    There are other regional developments in Africa that project a 
different scenario. The Euro-Mediterranean Partnership with the Maghreb 
countries (Algeria, Morocco, and Tunisia) resembles hub-and-spoke 
bilateral networks. The agreements signaled interest in facilitating 
free trade and promoting foreign direct investment. They also 
represented innovations in international cooperation that defied 
classical ``north-south'' relations.\6\ While the arrangements have 
helped to safeguard access by the Maghreb countries to the European 
Union (EU) countries, they have yet to show strong evidence of foreign 
direction investment (FDI) flows.\7\ A more generous interpretation is 
that FDI flows are more complex to arrange outside the general domain 
of natural resource extraction. It may take time for such flows to 
occur, and some of the decisions might be linked to access critical 
resources such as solar energy from the Sahara Desert. This topic 
continues to attract attention in business and technical circles.\8\
    It would appear for the time being that regional integration in 
eastern and southern Africa is driven more by regional trade dynamics 
while the Maghreb has to endure the pressures of being close to the 
European Union, with attendant uncertainties on the extent to which 
Euro-Mediterranean relations can maintain a dependable path.\9\ A 
series of missteps and false starts in EU integration have resulted in 
a more precautionary approach that is needed to foster policy learning. 
These dynamics are likely to influence the types of technological 
trajectories that the various regions of Africa pursue.
    The Economic Community of West African States, for example, might 
end up developing new southern transatlantic trade relations with the 
United States and South America while eastern and southern Africa may 
turn east. These scenarios will influence the kinds of technologies and 
strategies that the regions adopt.
    This book builds on the findings of the report, Freedom to 
Innovate: Biotechnology in Africa's Development, prepared by the High 
Level African Panel on Modern Biotechnology of the African Union (AU) 
and the New Partnership for Africa's Development (NEPAD).\10\ The 
panel's main recommendations include the need for individual countries 
in central, eastern, western, northern, and southern Africa to work 
together at the regional level to scale up the development of 
biotechnology. This book aims to provide ideas on how to position 
agriculture at the center of efforts to spur economic development in 
Africa. It outlines the policies and institutional changes needed to 
promote agricultural innovation in light of changing ecological, 
economic, and political circumstances in Africa.
    This book explores the role of rapid technological innovation in 
fostering sustainability, with specific emphasis on sustainable 
agriculture. It provides illustrations from advances in information 
technology, biotechnology, and nanotechnology. It builds on recent 
advances in knowledge on the origin and evolution of technological 
systems. Agricultural productivity, entrepreneurship, and value 
addition foster productivity in rural-based economies. In many poor 
countries, however, farmers, small and medium-sized enterprises, and 
research centers do not interact in ways that accelerate the move 
beyond low value-added subsistence sustainable agriculture. 
Strengthening rural innovation systems, developing effective clusters 
that can add value to unprocessed raw materials, and promoting value 
chains across such diverse sectors as horticulture, food processing and 
packaging, food storage and transportation, food safety, distribution 
systems, and exports are all central to moving beyond subsistence 
sustainable agriculture, generating growth, and moving toward 
prosperity.
    Developed and emerging economies can do much more to identify and 
support policies and programs to assist Africa in taking a 
comprehensive approach to agricultural development to break out of 
poverty. This requires rethinking the agenda to create innovation 
systems to foster interactions among government, industry, academia, 
and civil society--all of which are critical actors.
    The book is guided by the view that innovation is the engine of 
social and economic development in general and agriculture in 
particular. The current concerns over rising food prices have 
compounded concerns about the state and future of African agriculture. 
This sector has historically lagged behind the rest of the world. Part 
of the problem lies in the low level of investment in Africa's 
agricultural research and development. Enhancing African agricultural 
development will require specific efforts aimed at aligning science and 
technology strategies with agricultural development efforts. 
Furthermore, such efforts will need to be pursued as part of Africa's 
growing interest in regional economic integration through its Regional 
Economic Communities.
    African leaders have in recent years been placing increasing 
emphasis on the role of science and innovation in economic 
transformation. The Eighth African Union Summit met in January 2007 and 
adopted decisions aimed at encouraging more African youth to take up 
studies in science, technology, and engineering education; promoting 
and supporting research and innovation activities and the related human 
and institutional capacities; ensuring scrupulous application of 
scientific ethics; revitalizing African universities and other African 
institutions of higher education as well as scientific research 
institutions; promoting and enhancing regional as well as south-south 
and north-south cooperation in science and technology; increasing 
funding for national, regional, and continental programs for science 
and technology; and supporting the establishment of national and 
regional centers of excellence in science and technology.\11\ The 
decisions are part of a growing body of guidance on the role of science 
and innovation in Africa's economic transformation. These decisions 
underscore the growing importance that African leaders place on science 
and innovation for development.
    However, the translation of these decisions into concrete action 
remains a key challenge for Africa. This study is guided by the view 
that one of the main problems facing African countries is aligning 
national and regional levels of governance with long-term technological 
considerations. This challenge is emerging at a time when African 
countries are seeking to deepen economic integration and expand 
domestic markets. These efforts are likely to affect the way 
agricultural policy is pursued in Africa.
    The 2007 African Union Summit decisions paid particular attention 
to the role of science, technology, and innovation in Africa's economic 
transformation, and they marked the start of identifying and building 
constituencies for fostering science, technology, and innovation in 
Africa. They focused on the need to undertake the policy reforms 
necessary to align the missions and operations of institutions of 
higher learning with economic development goals in general and the 
improvement of human welfare in particular.
    These decisions represent a clear expression of political will and 
interest in pursuing specific reforms that would help in making 
science, technology, and innovation relevant to development. However, 
the capacity to do so is limited by the lack of informed advice on 
international comparative experiences on the subject. The central focus 
of this book is to provide high-level decision makers in Africa with 
information on how to integrate science and technology into 
agricultural development discussions and strategies. Specific attention 
will be placed on identifying emerging technologies and exploring how 
they can be adapted to local economic conditions.
    The book is divided into seven chapters. Chapter 1 examines the 
critical linkages between agriculture and economic growth. The current 
global economic crisis, rising food prices, and the threat of climate 
change have reinforced the urgency to find lasting solutions to 
Africa's agricultural challenges. The entire world needs to find ways 
to intensify agricultural production while protecting the 
environment.\12\ Africa is largely an agricultural economy, with the 
majority of the population deriving their income from farming. Food 
security, agricultural development, and economic growth are 
intertwined. Improving Africa's agricultural performance will require 
deliberate policy efforts to bring higher technical education, 
especially in universities, to the service of agriculture and the 
economy. It is important to focus on how to improve the productivity of 
agricultural workers, most of whom are women, through technological 
innovation.
    Chapter 2 reviews the implications of advances in science and 
technology for Africa's agriculture. The Green Revolution played a 
critical role in helping to overcome chronic food shortages in Latin 
America and Asia. The Green Revolution was largely a result of the 
creation of new institutional arrangements aimed at using existing 
technology to improve agricultural productivity. African countries are 
faced with enormous technological challenges. But they also have access 
to a much larger pool of scientific and technical knowledge than was 
available when the Green Revolution was launched. It is important to 
review major advances in science, technology, and engineering and 
identify their potential for use in African agriculture. Such 
exploration should include an examination of local innovations as well 
as indigenous knowledge. It should cover fields such as information and 
communication technology, genetics, ecology, and geographical sciences. 
Understanding the convergence of these and other fields and their 
implications for African agriculture is important for effective 
decision making and practical action.
    Chapter 3 provides a conceptual framework for defining agricultural 
innovation in a systemic context. The use of emerging technology and 
indigenous knowledge to promote sustainable agriculture will require 
adjustments in existing institutions. New approaches will need to be 
adopted to promote close interactions between government, business, 
farmers, academia, and civil society. It is important to identify novel 
agricultural innovation systems of relevance to Africa. This chapter 
examines the connections between agricultural innovation and wider 
economic policies. Agriculture is inherently a place-based activity and 
so the book outlines strategies that reflect local innovation clusters 
and other characteristics of local innovation systems. Positioning 
sustainable agriculture as a knowledge-intensive sector will require 
fundamental reforms in existing learning institutions, especially 
universities and research institutes. Most specifically, key functions 
such as research, teaching, extension, and commercialization need to be 
much more closely integrated.
    In Chapter 4 the book outlines the critical linkages between 
infrastructure and agricultural innovation. Enabling infrastructure 
(covering public utilities, public works, transportation, and research 
facilities) is essential for agricultural development. Infrastructure 
is defined here as facilities, structures, associated equipment, 
services, and institutional arrangements that facilitate the flow of 
agricultural goods, services, and ideas. Infrastructure represents a 
foundational base for applying technical knowledge in sustainable 
development and relies heavily on civil engineering. The importance of 
providing an enabling infrastructure for agricultural development 
cannot be overstated. Modern infrastructure facilities will also need 
to reflect the growing concern over climate change. In this respect, 
the chapter will focus on ways to design ``smart infrastructure'' that 
takes advantage of advances in the engineering sciences as well as 
ecologically sound systems design. Unlike other regions of the world, 
Africa's poor infrastructure represents a unique opportunity to adopt 
new approaches in the design and implementation of infrastructure 
facilities.
    The role of education in fostering agricultural innovation is the 
subject of Chapter 5. Some of Africa's most persistent agricultural 
challenges lie in the educational system. Much of the focus of the 
educational system is training young people to seek employment in urban 
areas. Much of the research is carried out in institutions that do not 
teach, while universities have limited access to research support. But 
there is an urgency to identify new ways to enhance competence 
throughout the agricultural value chain, with emphasis on the role of 
women as farm workers and custodians of the environment. It is 
important to take a pragmatic approach that emphasizes competence 
building as a key way to advance social justice. Most of the strategies 
to strengthen the technical competence of African farmers will entail 
major reforms in existing universities and research institutions. In 
this respect, actions need to be considered in the context of 
agricultural innovation systems.
    Chapter 6 presents the importance of entrepreneurship in 
agricultural innovation. The creation of agricultural enterprises 
represents one of the most effective ways to stimulate rural 
development. The chapter will review the efficacy of the policy tools 
used to promote agricultural enterprises. These include direct 
financing, matching grants, taxation policies, government or public 
procurement policies, and rewards to recognize creativity and 
innovation. It is important to learn from examples that helped to 
popularize modern technology in rural areas and has spread to more than 
90% of the country's counties. Inspired by such examples, Africa should 
explore ways to create incentives that stimulate entrepreneurship in 
the agricultural sector. It is important to take into account new tools 
such as information and communication technologies and the extent to 
which they can be harnessed to promote entrepreneurship.
    The final chapter outlines regional approaches for fostering 
agricultural innovation. African countries are increasingly focusing on 
promoting regional economic integration as a way to stimulate economic 
growth and expand local markets. Considerable progress has been made in 
expanding regional trade through regional bodies such as COMESA, SADC, 
and the EAC. There are eight other such RECs that have been recognized 
by the African Union as building blocks for pan-African economic 
integration. (See Appendix I for details on the Regional Economic 
Communities [RECs].)
    So far regional cooperation in agriculture is in its infancy and 
major challenges lie ahead. Africa should intensify efforts to use 
regional bodies as agents of agricultural innovation through measures 
such as regional specialization. The continent should factitively 
explore ways to strengthen the role of the RECs in promoting common 
regulatory standards.
    It is not possible to cover the full range of agricultural 
activities in one volume. This book does not address the important 
roles that livestock and aquaculture play in Africa. Similarly, it does 
not deal with innovation in agricultural machinery. But we hope that 
the systems approach adopted in the book will help leaders and 
practitioners to anticipate and accommodate other sources of 
agricultural innovation.\13\

                   Selected Abbreviations and Acronyms         AMU   Arab Maghreb Union
         AU   African Union
    BecANet   Biosciences Eastern and Central Africa Network
      CAADP   Comprehensive Africa Agriculture Development Programme
    CEN-SAD   Community of Sahel Sahara States
     CIMMYT   International Centre for the Improvement of Maize and
               Wheat
     COMESA   Common Market for Eastern and Southern Africa
       DFID   Department for International Development
        EAC   East African Community
      ECCAS   Economic Community of Central African States
     ECOWAS   Economic Community of West African States
    ICRISAT   International Crops Research Institute for the Semi-Arid
               Tropics
       IGAD   Intergovernmental Authority for Development
       IRRI   International Rice Research Institute
     NABNet   North Africa Biosciences Network
       NCDC   National Cocoa Development Committee
      NEPAD   New Partnership for Africa's Development
       RECs   Regional Economic Communities
       SADC   Southern African Development Community
     WABNet   West African Biosciences Network
The New Harvest
1  The Growing Economy
    The current global economic crisis, rising food prices, and the 
threat of climate change have reinforced the urgency to find lasting 
solutions to Africa's agricultural challenges. Africa is largely an 
agricultural economy with the majority of the population deriving their 
income from farming. Agricultural development is therefore intricately 
linked to overall economic development in African countries. Most 
policy interventions have focused on ``food security,'' a term that is 
used to cover key attributes of food such as sufficiency, reliability, 
quality, safety, timeliness, and other aspects of food necessary for 
healthy and thriving populations. This chapter outlines the critical 
linkages between food security, agricultural development, and economic 
growth and explains why Africa has lagged behind other regions in 
agricultural productivity. Improving Africa's agricultural performance 
will require significant political leadership, investment, and 
deliberate policy efforts.
The Power of Inspirational Leadership
    In a prophetic depiction of the power of inspirational models, Mark 
Twain famously said: ``Few things are harder to put up with than the 
annoyance of a good example.'' Malawi's remarkable efforts to address 
the challenges of food security were implemented against the rulebook 
of economic dogma that preaches against agricultural subsidies to 
farmers. Malawi's President Bingu wa Mutharika defied these teachings 
and put in place a series of policy measures that addressed 
agricultural development and overall economic development. He serves as 
an example for other African leaders of how aggressive agricultural 
investment (16% of government spending) can yield increased production 
and results.
    His leadership should be viewed against a long history of neglect 
of the agricultural sector in Africa. The impact of structural 
adjustment policies on Malawi's agriculture was evident from the late 
1980s.\1\ Mounting evidence showed that growth in the smallholder 
sector had stagnated, with far-reaching implications for rural welfare. 
The focus of dominant policies was to subsidize consumers in urban 
areas.\2\ This policy approach prevailed in most African countries and 
was associated with the continued decline of the agricultural sector.
    In 2005, over half of the population in Malawi lived on less than a 
dollar a day, a quarter of the population lacked sufficient food daily, 
and a third lacked access to clean water. This started to change when 
Malawi's wa Mutharika took on food insecurity, a dominant theme in the 
history of the country.\3\ His leadership helped to revitalize the 
agricultural sector and provides an inspiring lesson for other figures 
in the region who wish to enable and empower their people to meet their 
most basic needs.
    In 2005, Malawi's agricultural sector employed 78% of the labor 
force, over half of whom operated below subsistence. Maize is Malawi's 
principal crop and source of nutrition, but for decades, low rainfall, 
nutrient-depleted soil, inadequate investment, failed privatization 
policies, and deficient technology led to low productivity and high 
prices.\4\ The 2005 season yielded just over half of the maize required 
domestically, leaving five million Malawians in need of food aid.
    The president declared food insecurity his personal priority and 
set out to achieve self-sufficiency and reduce poverty, declaring, 
``Enough is enough. I am not going to go on my knees to beg for food. 
Let us grow the food ourselves.'' \5\ The president took charge of the 
ministry of agriculture and nutrition and initiated a systematic 
analysis of the problem and potential solutions. After a rigorous 
assessment, the government designed a program to import improved seeds 
and fertilizer for distribution to farmers at subsidized prices through 
coupons.
    This ambitious program required considerable financial, political, 
and public support. The president engaged in debate and consultation 
with Malawi's parliament, private sector, and civil society, while 
countering criticism from influential institutions.\6\ For example, the 
International Monetary Fund and the United States Agency for 
International Development (USAID) had fundamentally disagreed with the 
subsidy approach, claiming that it would distort private sector 
activities. Other organizations such as the South Africa-based Regional 
Hunger and Vulnerability Programme questioned the ability of the 
program to benefit resource-poor farmers.\7\ On the other hand the UK 
Department for International Development (DFID) and the European Union, 
Norway, Ireland, and later the World Bank, supported the program. 
Additional support came from China, Egypt, and the Grain Traders and 
Processors Association. The president leveraged this support and 
several platforms to explain the program and its intended benefits to 
the public and their role in the system.\8\ With support increasing and 
the ranks of the hungry swelling, the president devoted approximately 
US$50 million in discretionary funds and some international sources to 
forge ahead with the program.\9\
    The president's strategy attempted to motivate the particularly 
poor farmers to make a difference not only for their families, but also 
for their community and their country. Recognizing the benefits of the 
program, people formally and informally enforced the coupon system to 
prevent fraud and corruption. The strategy sought to target smallholder 
farmers, who face the biggest challenges but whose productivity is 
essential for improving nutrition and livelihoods.\10\
    In 2005-06, the program, coupled with increased rainfall, 
contributed toward a doubling of maize production, and in 2006-07, the 
country recorded its highest surplus ever. Prices fell by half, and 
Malawi began exporting maize to its food insecure neighbors. Learning 
from experience, the government made a number of adjustments and 
improvements to the program in its first few years, including stepped-
up enforcement of coupon distribution, more effective targeting of 
subsidies, private sector involvement, training for farmers, irrigation 
investments, and post-harvest support.
    President wa Mutharika's commitment to tackling his nation's most 
grave problem and development opportunity is a model for channeling 
power to challenge the status quo. Following an integrated approach, 
the government is devoting 16% of its national budget to agriculture, 
surpassing the 10% target agreed to in the 2003 Maputo Declaration.\11\ 
His all-too-rare approach to study an issue, develop a solution, and 
implement it with full force, despite a hostile international 
environment, demonstrates the difference political will can make. In 
2010 he handed over the agriculture portfolio to a line minister.
Linkages Between Agriculture and Economy
    Agriculture and economic development are intricately linked. It has 
been aptly argued that no country has ever sustained rapid economic 
productivity without first solving the food security challenge.\12\ 
Evidence from industrialized countries as well as countries that are 
rapidly developing today indicates that agriculture stimulated growth 
in the nonagricultural sectors and supported overall economic well-
being. Economic growth originating in agriculture can significantly 
contribute to reductions in poverty and hunger. Increasing employment 
and incomes in agriculture stimulates demand for nonagricultural goods 
and services, boosting nonfarm rural incomes as well.\13\ While future 
trends in developing countries are likely to be affected by the forces 
of globalization, the overall thesis holds for much of Africa.
    Much of our understanding of the linkages between agriculture and 
economic development has tended to use a linear approach. Under this 
model agriculture is seen as a source of input into other sectors of 
the economy. Resources, skills, and capital are presumed to flow from 
agriculture to industry. In fact, this model is a central pillar of the 
``stages of development'' that treat agriculture as a transient stage 
toward industry phases of the economy.\14\ This linear view is being 
replaced by a more sophisticated outlook that recognizes the role of 
agriculture in fields such as ``income growth, food security and 
poverty alleviation; gender empowerment; and the supply of 
environmental services.'' \15\ A systems view of economic evolution 
suggests continuing interactions between agriculture and other sectors 
of the economy in ways that are mutually reinforcing.\16\ Indeed, the 
relationship between agriculture and economic development is 
interactive and associated with uncertainties that defy causal 
correlation.\17\
    The Green Revolution continues to be a subject of considerable 
debate.\18\ However, its impact on agricultural productivity and 
reductions in consumer prices can hardly be disputed. Much of the 
debate over the impact of the Green Revolution ignores the issue of 
what would have happened to agriculture in developing countries without 
it. On the whole, without international research in developing 
countries, yields in major crops would have been higher in 
industrialized countries by up to 4.8%. This is mainly because lower 
production in the developing world would have pushed up prices and 
given industrialized country farmers incentives to boost their 
production. It is estimated that crop yields in developing countries 
would have been up to 23.5% lower without the Green Revolution and that 
equilibrium prices would have been between 35% and 66% higher in 2000. 
But in reality prices would have remained constant or risen marginally 
in the absence of international research. This is mainly because real 
grain prices actually dropped by 40% from 1965 to 2000.\19\
    Higher world prices would have led to the expansion of cultivated 
areas, with dire environmental impacts. Estimates suggest that crop 
production would have been up to 6.9% higher in industrialized 
countries and up to 18.6% lower in developing countries. Over the 
period, developing countries would have had to increase their food 
imports by nearly 30% to offset the reductions in production. Without 
international research, caloric intake in developing countries would 
have dropped by up to 14.4% and the proportion of malnourished children 
would have increased by nearly 8%. In other words, the Green Revolution 
helped to raise the health status of up to 42 million preschool 
children in developing countries.\20\
    It is not a surprise that African countries and the international 
community continue to seek to emulate the Green Revolution or recommend 
its variants as a way to address current and future challenges.\21\ 
More important, innovation-driven agricultural growth has pervasive 
economy-wide benefits as demonstrated through India's Green Revolution. 
Studies on regional growth linkage have shown strong multiplier effects 
from agricultural growth to the rural nonfarm economy.\22\
    It is for this reason that agricultural stagnation is viewed as a 
threat to prosperity. Over the last 30 years, agricultural yields and 
the poverty rate have remained stagnant in sub-Saharan Africa. 
Prioritizing agricultural development could yield significant, 
interconnected benefits, particularly in achieving food security and 
reducing hunger; increasing incomes and reducing poverty; advancing the 
human development agenda in health and education; and reversing 
environmental damage.
    In sub-Saharan Africa, agriculture directly contributes to 34% of 
GDP and 64% of employment.\23\ Growth in agriculture is at least two to 
four times more effective in reducing poverty than in other 
sectors.\24\ Growth in agriculture also stimulates productivity in 
other sectors such as food processing. Agricultural products also 
compose about 20% of Africa's exports. Given these figures it is no 
surprise that agricultural research and extension services can yield a 
35% rate of return, and irrigation projects a 15%-20% return in sub-
Saharan Africa.\25\
    Even before the global financial and fuel crises hit, hunger was 
increasing in Africa. In 1990, over 150 million Africans were hungry; 
as of 2010, the number had increased to nearly 239 million. Starting in 
2004, the proportion of undernourished began increasing, reversing 
several decades of decline, prompting 100 million people to fall into 
poverty. One-third of people in sub-Saharan Africa are chronically 
hungry--many of whom are smallholders. High food prices in local 
markets price out the poorer consumers--forcing them to purchase less 
food and less nutritious food, as well as divert spending from 
education and health and sell their assets. This link of hunger and 
weak agricultural sector is self-perpetuating. As a World Bank study 
has shown, caloric availability has a positive impact on agricultural 
productivity.\26\
    Half of African countries with the highest levels of hunger also 
have among the highest gender gaps. Agricultural productivity in sub-
Saharan Africa could increase significantly if such gaps were reduced 
in school and in the control of agricultural resources such as land. In 
addition to this critical gender dynamic, the rural-urban divide is 
also a key component of the agricultural and economic pictures.
    Over the last 25 years, growth in agricultural gross domestic 
product (GDP) in Africa has averaged approximately 3%, but there has 
been significant variation among countries. Growth per capita, a proxy 
for farm income, was basically zero in the 1970s and negative from the 
1980s into the 1990s. Six countries experienced negative per capita 
growth. As such, productivity has been basically stagnant over 40 
years--despite significant growth in other regions, particularly Asia, 
thanks to the Green Revolution.\27\ Different explanations derive from 
a lack of political prioritization, underinvestment, and ineffective 
policies. The financial crisis has exacerbated this underinvestment, as 
borrowing externally has become more expensive, credit is less 
accessible, and foreign direct investment has declined.
    Only 4% of Africa's crop area is irrigated, compared to 39% in 
South Asia. Much of rural Africa is without passable roads, translating 
to high transportation costs and trade barriers. Over 40% of the rural 
population lives in arid or semi-arid conditions, which have the least 
agricultural potential. Similarly, about 50 million people in sub-
Saharan Africa and 200 million people in North Africa and the Middle 
East live in areas with absolute water scarcity. Cropland per 
agricultural population has been decreasing for decades. Soil 
infertility has occurred due to degradation: nearly 75% of the farmland 
is affected by excessive extraction of soil nutrients.
    One way that farmers try to cope with low soil fertility and yields 
is to clear other land for cultivation. This practice amounts to 
deforestation, which accounts for up to 30% of greenhouse gas emissions 
globally. Another factor leading to increased greenhouse gas emissions 
is limited access to markets: more than 30% of the rural population in 
sub-Saharan Africa, the Middle East, and North Africa live more than 
five hours from a market; another 40% live between two to four hours 
from a market.
    Fertilizer use in Africa is less than 10% of the world average of 
100 kilograms per hectare. Just five countries (Ethiopia, Kenya, South 
Africa, Zimbabwe, and Nigeria) account for about two-thirds of the 
fertilizer applied in Africa. On the average, sub-Saharan African 
farmers use 13 kilograms of nutrients per hectare of arable and 
permanent cropland. The rate in the Middle East and North Africa is 71 
kilograms. Part of the reason that fertilizer usage is so low is the 
high cost of imports and transportation; fertilizer in Africa is two to 
six times the average world price. This results in low usage of 
improved seed; as of 2000, about 24% of the cereal-growing area used 
improved varieties, compared to 85% in East Asia and the Pacific. As of 
2005, 70% of wheat crop area and 40% of maize crop area used improved 
seeds, a significant improvement.
    Africa's farm demonstrations show significantly higher average 
yields compared to national yields and show great potential for 
improvement in maize. For example, Ethiopia's maize field 
demonstrations yield over five tons per hectare compared to the 
national average of two tons per hectare for a country plagued by 
chronic food insecurity. This potential will only be realized as 
Africans access existing technologies and improve them to suit local 
needs.
    China's inspirational success in modernizing its agriculture and 
transforming its rural economy over the last 30 years provided the 
basis for rapid growth and a substantial improvement in prosperity. 
From 1978 to 2008 China's economy grew at an annual average rate of 
about 9%. Its agricultural GDP rose by about 4.6% per year, and 
farmers' incomes grew by 7% annually. Today, just 200 million small-
scale farmers each working an average of 0.6 hectares of land feed a 
population of 1.3 billion. In the meantime, China was able to limit 
population growth at 1.07% per year using a variety of government 
policies. Even more remarkable has been the rate of poverty reduction. 
China's poverty incidence fell from 31% in 1978 to 9.5% in 1990 and 
then to 2.5% in 2008. Food security has been dramatically enhanced by 
the growth and diversification of food production, which outstripped 
population growth. Agriculture's role in reducing poverty has been 
three times higher than that of other sectors. Agriculture has 
therefore been the main force in China's poverty reduction and food 
security.\28\
    Lessons from China show that detailed and sustained focus on small-
scale farmers by unleashing their potential and meeting their needs can 
lead to growth and poverty reduction, even when the basic agricultural 
conditions are unfavorable. But a combination of clear public policies 
and institutional reforms are needed for this to happen. The policies 
and reforms need to be adjusted in light of changing circumstances to 
bolster the rural economy (through infrastructure services, research 
support, and farmer education), stimulate off-farm employment, and 
promote rural-urban migration as rural productivity rises and urban 
economies expand.
    With population in check, China's grain production soon outstripped 
direct consumption, and policy attention shifted to agricultural 
diversification and improvement of rural livelihoods. The process was 
driven by a strong, competent, and well-informed developmental state 
that could set clear medium and long-term goals and support their 
implementation.
    Despite the historical, geographic, political, social, educational, 
and cultural differences between China and Africa, there are still many 
lessons from China's agricultural transformation that can inspire 
Africa's efforts to turn around decades of low agricultural investment 
and misguided policies. An African agricultural revolution is within 
reach, provided the continent can focus on supporting small-scale 
farmers to help meet national and regional demand for food, rather than 
rely on expansion of export crops.
    While prospects for Africa's global agricultural commodities 
markets (including cocoa, tea, and coffee) are likely to be brighter 
than in recent decades, the African food market will grow from US$50 
billion in 2010 to US$150 billion by 2030. Currently, food imports are 
estimated at US$30 billion, up from US$13 billion in the 1990s. Meeting 
this market with local production will generate the revenue needed to 
attract additional foreign investment and help in overall economic 
diversification. Such a transformation will also help expand overall 
economic development through linkages with urban areas.
    China and the OECD's Development Assistance Committee are helping 
to disseminate lessons from China's experience among African 
policymakers and practitioners. But they can go further by contributing 
to the implementation of agricultural strategies developed by African 
leaders through the Regional Economic Communities (RECs) and other 
political bodies. At the very least, they should support efforts to 
strengthen Africa's capacity for evidence-based policy-making and 
implementation. This will help to create national and regional capacity 
for strategic thinking and implementation of specific agricultural 
programs.\29\
The State of African Agriculture
    Africa has abundant arable land and labor which, with sound 
policies, could be translated into increased production, incomes, and 
food security. This has not materialized because of lack of consistent 
policies and effective implementation strategies arising from the 
neglect of the sector. Thus, even though agriculture accounts for 64% 
of the labor force, over 34% of GDP, and over 20% of businesses in most 
countries, it continues to be given low priority.\30\
    Over the past 40 years, there has been remarkable growth in 
agricultural production, with per capita world food production growing 
by 17% and aggregate world food production growing by 145%.\31\ 
However, in Africa, food production is 10% lower today than it was in 
1960 because of low levels of investment in the sector. The recent 
advances in aggregate world productivity have therefore not brought 
reductions in the incidence of hunger in African countries. Of the 800 
million people worldwide lacking adequate access to food, a quarter of 
them are in sub-Saharan Africa. The number of hungry people has in fact 
increased by 20% since 1990.
    Strategies for transforming African agriculture have to address 
such challenges as low investment and productivity, poor 
infrastructure, lack of funding for agricultural research, inadequate 
use of yield-enhancing technologies, weak linkages between agriculture 
and other sectors, unfavorable policy and regulatory environments, and 
climate change.
    The path to productivity growth in sub-Saharan Africa will differ 
considerably from that in irrigated Asian rice and wheat farming 
systems. Sub-Saharan African agriculture is 96% rain fed and highly 
vulnerable to weather shocks. And diverse agroecological conditions 
produce a wide range of farming systems based on many food staples, 
livestock, and fisheries.
    Most agriculture-based countries are small, making it difficult for 
them to achieve scale economies in research and training. Unless 
regional markets are better integrated, markets will also be small. 
Nearly 40% of Africa's population lives in landlocked countries that 
face transport costs that, on average, are 50% higher than in the 
typical coastal country.
    Vast distances and low population densities in many countries in 
sub-Saharan Africa make trade, infrastructure, and service provision 
costly and slow down the emergence of competitive markets. Conversely, 
areas of low population density with good agricultural potential 
represent untapped reserves for agricultural expansion.
    More than half the world's conflicts in 1999 occurred in sub-
Saharan Africa. Although the number of conflicts has declined in recent 
years, the negative impacts on growth and poverty are still 
significant. Reduced conflict offers the scope for rapid agricultural 
growth as demonstrated by Mozambique's recent experience.\32\
    The human capital base of the agriculture profession is aging as a 
result of the decline in support for training during the past 20 years 
and the HIV/AIDS epidemic. But major accomplishments in rural primary 
education are ensuring a future generation of literate and numerate 
African smallholders and nonfarm entrepreneurs. Nevertheless, education 
has been slow to play a key role in the capacity of farmers to 
diversify into nonfarm activities.\33\
    Despite these common features, the diversity across sub-Saharan 
African countries and across regions within countries is huge in terms 
of size, agricultural potential, transport links, reliance on natural 
resources, and state capacity. The policy agenda will have to be 
carefully tailored to country-specific circumstances.
    Many African governments have treated agriculture as a way of life 
for farmers who in most cases have no voice in lobbying for an adequate 
share of public expenditure. Following the Maputo Summit, African 
countries agreed to devote at least 10% of their public expenditure to 
agriculture. By 2008 only 19% of African countries had allocated more 
than 10% of their national expenditure to agricultural development. 
Many countries hardly reached 4% of GDP and have depended on official 
development assistance for funding agriculture and other sectors.
    Sub-Saharan Africa ranks the lowest in the world in terms of yield-
enhancing practices and techniques. Yield-enhancing practices include 
mechanization, use of agro-chemicals (fertilizers and pesticides), and 
increased use of irrigated land. The use of these practices and 
technologies is low in Africa even in comparison to other developing 
regions. This at least partly explains why crop yields in Africa in 
general are far below average yields in other parts of the world.
    Mechanization is very low, with an average of only 13 tractors per 
100 square kilometers of arable land, versus the world average of 200 
tractors per 100 square kilometers.\34\ In the UK, for example, there 
are 883 tractors per 1,000 farm workers, whereas in sub-Saharan Africa 
there are now two per 1,000, which is actually a 50% drop from the 1980 
level of three.\35\ In Africa, tractor plowing and use of other modern 
inputs are confined to areas with high market demand or large-scale 
farms. Therefore, there is considerable variation in the use of these 
technologies across the continent's RECs. Irrigated land is only 3.6% 
of total cropland on the continent compared with the world average of 
18.4%, while the use of fertilizers is minimal at nine kilograms per 
hectare compared with the world average of 100 kilograms per hectare. 
The development of irrigated agriculture is highest in the Common 
Market for Eastern and Southern Africa (COMESA)--14.4% of arable land--
possibly due to the large irrigation projects in Egypt and the Sudan.
    Undercapitalization of agriculture as discussed above has given 
rise to an agricultural sector with a weak knowledge base, resulting in 
low-input, low-output, and low-value-added agriculture in most cases. 
Land productivity in Africa is estimated at 42% and 50% of that in Asia 
and Latin America, respectively. Asia and Latin America have more 
irrigated land and use more fertilizers and machinery than Africa.
    Africa has 733 million hectares of arable land (27.4% of world 
total) compared with 570 million hectares for Latin America and 628 
million hectares for Asia. Only 3.8% of Africa's surface and 
groundwater is harnessed, while irrigation covers only 7% of cropland 
(3.6% in sub-Saharan Africa). Clearly, there is considerable scope for 
both horizontal and vertical expansion in African agriculture.\36\
    However, area expansion should not be a priority in view of 
increased environmental degradation on the continent. Currently, Africa 
accounts for 27% of the world's land degradation and has 500 million 
hectares of moderately or severely degraded land. Degradation affects 
65% of cropland and 30% of pastureland. Soil degradation is associated 
with low land productivity. It is mainly caused by loss of vegetation 
and land exploitation, especially overgrazing and shifting cultivation.
    African agriculture is weakly integrated with other sectors such as 
the manufacturing sector. By promoting greater sectoral linkages, value 
chain development can greatly enhance job creation, agricultural 
transformation, and broad-based growth on the continent. Therefore, 
Africa should take the necessary measures to confront its challenges in 
this area.
Trends in Agricultural Renewal
    Future trends in African agriculture are going to be greatly 
influenced by developments in the global economy as well as emerging 
trends in Africa itself. Despite recent upheavals in the global 
financial system, Africa continues to register remarkable growth 
prospects. While African economies currently face serious challenges, 
such as poverty, diseases, and high rates of infant mortality, Africa's 
collective GDP (at US$1.6 trillion in 2008) is almost equal to that of 
Brazil or Russia--two emerging markets.\37\
    Furthermore, Africa is among the most rapidly growing economic 
regions in the world today. Its real GDP grew approximately 4.9% per 
year from 2000 to 2008, and major booming sectors include telecom, 
banking, and retail, followed by construction and foreign investment. 
While each African nation faces a unique growth path, a framework for 
such development has been created by McKinsey Global Institute to 
address the opportunities and challenges facing various countries in 
Africa. From 2002 to 2007, the sector share of real GDP growth was 
spread out. While the resources consist of 24% of the share of GDP, the 
rest came from other sectors including wholesale (13%), retail trade 
(13%), agriculture (12%), transportation (10%), and manufacturing 
(9%).\38\
    As agricultural growth has a huge potential for companies across 
the value chain, overcoming various barriers to raising productivity 
(such as a lack of advanced seeds, inadequate infrastructure, trade 
barriers, unclear land rights, lack of technical assistance, and 
finance for farmers) is a key to increasing the agricultural output 
from US$280 billion to a projected US$880 billion by 2030.\39\
    The picture is therefore promising though uncertain. Several recent 
successes demonstrate that the link between farm productivity and 
income growth for the poor indeed operates in Africa. Several countries 
have exhibited higher agricultural growth rates per capita over the 
last 10 years. These recent gains in agriculture can be attributed to a 
better policy environment, increased usage of technology, and higher 
commodity prices. There are numerous cases that illustrate the 
ingenious and innovative ways that Africans are overcoming the 
constraints identified above to strengthen their agricultural 
productivity and livelihoods.
    For example, Ghana has made consistent progress in reducing poverty 
and hunger. Between 1991-92 and 2006, Ghana nearly halved its poverty 
rate from over 51% to 28%. Ghana is also the only African country to 
reduce its Global Hunger Index by more than 50%. The success can be 
attributed to a better investment climate, policies, and commodity 
prices. The agricultural sector's rate of growth was higher than both 
overall GDP and the service sector between 2001 and 2005. Increased 
land use and productivity among smallholders and cash crop growers in 
cocoa and horticulture--particularly pineapples--drove growth and 
welfare improvement.
    With success come challenges and lessons learned: inequality has 
increased, suggesting that the benefits of this growth have not been 
evenly distributed and that more attention needs to be paid to the 
rural north. Also, unsustainable environmental degradation and natural 
resource usage threatens to reverse progress in agriculture and affect 
other sectors. But the global financial, food, and fuel crises are 
negatively impacting the agricultural sector and the poor. Prices of 
inputs and crops have risen by anywhere from 26% to 51% between 2007 
and 2008 in real terms. Although cocoa prices are still high for 
exporters, shea nut prices have fallen--a major source of income for 
women in the Savannah region.
    Social safety net programs (such as cash transfers, school feeding, 
and national insurance), though, are providing some buffer against the 
current crises' effects on income and consumption. Ghana's story helps 
show the importance of locally owned policies and political commitment 
to sustain agricultural gains and welfare improvement.
Enabling Policy Environment
    Although still hindered by unfair international terms of trade, a 
more favorable policy and macroeconomic environment has helped spur 
agricultural development in recent years. Countries that have relaxed 
constraints (such as over-taxation of the agricultural sector) have 
been able to increase agricultural productivity. For example, a 10% 
increase in coffee prices in Uganda has helped reduce the number of 
people living in poverty by 6%.
    For less than a few dollars, land-use certificates can be 
implemented to reduce encroachment and improve soil conservation. For 
example, Ethiopia's system for community-driven land certification has 
been one effective way to improve land practices and a potential step 
toward the much broader reform of land policy that is needed in many 
African countries.
    Here is how it works: communities learn about the certification 
process and then elect land-use committees. These voluntary committees 
settle conflicts and designate unassigned plots through a survey, 
setting up a system for inheritable rights. In a nationwide survey, 
approximately 80% felt that this certification process effectively 
fulfilled those tasks as well as encouraged their personal investment 
in conservation and women's access to resources. The certificates 
themselves cost US$1 per plot but increase to less than US$3 with 
mapping and updating using global position system (GPS). Between 2003 
and 2005, six million households were issued certificates, 
demonstrating the scalability.\40\ Documenting land rights in this 
participatory and locally owned way can serve as a model for 
governments ready to take on meaningful reform.
    The initiation of the African-led Comprehensive Africa Agriculture 
Development Programme (CAADP) by the African Union's NEPAD constitutes 
a significant demonstration of commitment and leadership. Since 2003, 
CAADP has been working with the RECs and through national roundtables 
to promote sharing, learning, and coordination to advance agriculture-
led development. CAADP focuses on sustainable land management, rural 
infrastructure and market access, food supply and hunger, and 
agricultural research and technology. As of June 2010, CAADP had signed 
``compacts'' with 26 countries. The compacts are products of national 
roundtables at which priorities are set and roadmaps for implementation 
are developed. The compacts are signed by all the key partners.
    In eastern and southern Africa, COMESA coordinates the CAADP 
planning and implementation processes at country and regional levels. 
In doing so, it also collaborates with regional policy networks, such 
as the Food, Agriculture and Natural Resources Policy Analysis Network) 
and subregional knowledge systems such as the Regional Strategic 
Analysis and Knowledge Support Systems, and it utilizes analytical 
capacity provided through various universities in the region, supported 
by Michigan State University.
    In close coordination with national CAADP processes, a regional 
CAADP compact is being developed. Its aim is to design a Regional 
Investment Program on Agriculture that will focus on developing key 
regional value chains and integrating value chain development into 
corridor development programs. At a national level, the priority 
programs developed include those in the area of research and 
dissemination of productivity-enhancing technologies to promote 
knowledge-based agricultural practices applying the innovation systems 
approach to develop and strengthen linkages between generators, users, 
and intermediaries of technological knowledge.
Regional Imperatives
    The facilitation of regional cooperation is emerging as a basis for 
diversifying economic activities in general, and leveraging 
international partnerships in particular. Many of Africa's individual 
states are no longer viable economic entities; their future lies in 
creating trading partnerships with neighboring countries.
    Many African countries are either relatively small or landlocked, 
thereby lacking the financial resources needed to invest in major 
infrastructure projects. Their future economic prospects depend on 
being part of larger regional markets. Increased regional trade in 
agricultural products can help them stimulate rural development and 
enhance their technological competence through specialization. Existing 
RECs offer them the opportunity to benefit from rationalized 
agricultural activities. They can also benefit from increased 
harmonization of regional standards and sanitary measures.\41\
    African countries have adopted numerous regional cooperation and 
integration arrangements, many of which are purely ornamental. The 
roles of bigger markets in stimulating technological innovation, 
fostering economies of scale arising from infrastructure investments, 
and the diffusion of technical skills into the wider economy are some 
of the key gains Africa hopes to derive from economic integration. In 
effect, science and innovation are central elements of the integration 
agenda and should be made more explicit.
    The continent has more than 20 regional agreements that seek to 
promote cooperation and economic integration at subregional and 
continental levels. They range from limited cooperation among 
neighboring states in narrow political and economic areas to the 
ambitious creation of an African common market. They focus on improving 
efficiency, expanding the regional market, and supporting the 
continent's integration into the global economy. Many of them are 
motivated by factors such as the small size of the national economy, a 
landlocked position, and poor infrastructure. Of all Africa's regional 
agreements, the African Union (AU) formally recognizes eight RECs. 
These RECs represent a new economic governance system for Africa and 
should be strengthened.
    The Common Market for Eastern and Southern Africa, in particular, 
illustrates the importance of regional integration in Africa's economic 
development and food security. The 19-member free trade area was 
launched in 2000 and at 420 million people accounts for nearly half of 
Africa's population. It has a combined GDP of US$450 billion and is the 
largest and most vibrant free trade area in Africa, with intra-COMESA 
trade estimated at US$14.3 billion in 2008. COMESA aims to improve 
economic integration and business growth by standardizing customs 
procedures, reducing tariffs, encouraging investments, and improving 
infrastructure. COMESA launched its customs union on June 7, 2009, in 
Victoria Falls Town and has initiated work on a Common Investment Area 
to facilitate cross-border and foreign direct investment. COMESA plans 
to launch its common market in 2015, and in this regard it already has 
a program for liberalization of trade in services. The program 
prioritizes liberalization of infrastructure services, namely, 
communication, transport, and financial services. Other subsectors will 
be progressively liberalized.
    The strength of the RECs lies in their diversity. Their objectives 
range from cooperation among neighboring states in narrow political and 
economic areas to the ambitious creation of political federations. Many 
of them are motivated by factors such as the small size of the national 
economy, a landlocked position, or poor infrastructure. Those working 
on security, for example, can learn from the Economic Community of West 
African States (ECOWAS) which has extensive experience dealing with 
conflict in Ivory Coast, Liberia, and Sierra Leone.\42\
    Other RECs have more ambitious plans. The EAC, for example, has 
developed a road map that includes the use of a common currency and 
creation of single federal state. In July 2010 the EAC launched its 
Common Market by breaking barriers and allowing the free movement of 
goods, labor, services, and capital among its member states. The EAC 
Common Market has a combined GDP of US$73 billion. Through a process 
that began with the establishment of the EAC Customs Union, the Common 
Market is the second step in a four-phase roadmap to make the EAC the 
strongest economic, social, cultural, and political partnership in 
Africa. EAC's economic influence extends to neighboring countries such 
as Sudan, Democratic Republic of the Congo, and Somalia. The Common 
Market will eliminate all tariff and nontariff barriers in the region 
and set up a common external tax code on foreign goods. It will also 
enhance macroeconomic policy coordination and harmonization as well as 
the standardization of trade practices. It is estimated that East 
Africa's GDP is will grow 6.4% in 2011, making it the fastest growing 
region in Africa.\43\
    The region has already identified agriculture as one of its 
strategic areas. In 2006 the EAC developed an Agriculture and Rural 
Development Policy that provides a framework for improving rural life 
over the next 25 years by increasing productivity output of food and 
raw materials, improving food security, and providing an enabling 
environment for regional and international trade. It also covers the 
provision of social services such as education, health and water, 
development of support infrastructure, power, and communications. The 
overall vision of the EAC is to attain a ``well developed agricultural 
sector for sustainable economic growth and equitable development.'' 
\44\ Its mission is to ``support, promote and facilitate the 
development, production and marketing of agricultural produce and 
products to ensure food security, poverty eradication and sustainable 
economic development.'' \45\ Such institutions, though nascent, 
represent major innovations in Africa's economic and political 
governance and deserve the fullest support of the international 
community.
Conclusion
    This chapter has examined the critical linkages between agriculture 
and economic development in Africa. It opened with a discussion of the 
importance of inspirational leadership in effecting change. This is 
particularly important because much of the large body of scientific and 
technical knowledge needed to promote agricultural innovation in Africa 
is available. It is widely acknowledged that institutions play an 
important role in shaping the pace and direction of technological 
innovation in particular and economic development in general. Much has 
been written on the need to ensure that the right democratic 
institutions are in place as prerequisites for agricultural growth.\46\ 
But emerging evidence supports the importance of entrepreneurial 
leadership in promoting agricultural innovation as a matter of urgency 
and not waiting until the requisite institutions are in place.\47\ This 
view reinforces the important role that entrepreneurial leadership 
plays in fostering the co-evolution between technology and 
institutions.
    Fundamentally, ``it would seem that one can understand the role of 
institutions and institutional change in economic growth only if one 
comes to see how these variables are connected to technological 
change.'' \48\ This is not to argue that institutions and policies do 
not matter. To the contrary, they do and should be the focus of 
leadership. What is important is that the focus should be on 
innovation. The essence of entrepreneurial leadership of the kind that 
President wa Mutharika has shown in Malawi points to the urgency of 
viewing institutions and economic growth as interactive and co-
evolutionary. The rest of this book will examine these issues in 
detail.
2  Advances in Science, Technology, and Engineering
    The Green Revolution played a critical role in helping to overcome 
chronic food shortages in Latin America and Asia. The Green Revolution 
was largely a result of the creation of new institutional arrangements 
aimed at using existing technology to improve agricultural 
productivity. African countries are faced with enormous technological 
challenges. But they also have access to a much larger pool of 
scientific and technical knowledge than was available when the Green 
Revolution was launched in the 1950s. The aim of this chapter is to 
review major advances in science, technology, and engineering and 
identify their potential for use in African agriculture. This 
exploration will also include an examination of local innovations as 
well as indigenous knowledge. It will cover fields such as information 
and communications technology, genetics, ecology, and geographical 
sciences. It will emphasize the convergence of these and other fields 
and their implications for African agriculture.
Innovation and Latecomer Advantages
    African countries can utilize the large aggregation of knowledge 
and know-how that has been amassed globally in their efforts to improve 
their access to and use of the most cutting-edge technology. While 
Africa is currently lagging in the utilization and accumulation of 
technology, its countries have the ability not only to catch up to 
industrial leaders but also to attain their own level of research 
growth.
    Advocates of scientific and technical research in developing 
countries have found champions in the innovation platforms of 
nanotechnology, biotechnology, information and communication technology 
(ICT), and geographic information systems (GIS). Through these four 
platform technologies, Africa has the opportunity to promote its agenda 
concurrent with advances made in the industrialized world. This 
opportunity is superior to the traditional catching-up model, which has 
led to slower development and kept African countries from reaching 
their full potential. These technologies are able to enhance 
technological advances and scientific research while expanding storage, 
collection, and transmission of global knowledge. This chapter explores 
the potential of ICT, GIS, nanotechnology, and biotechnology in 
Africa's agricultural sector and provides examples of where these 
platform technologies have already created an impact.
    Contemporary history informs us that the main explanation for the 
success of the industrialized countries lies in their ability to learn 
how to improve performance in a variety of fields--including 
institutional development, technological adaptation, trade, 
organization, and the use of natural resources. In other words, the key 
to success is putting a premium on learning and improving problem-
solving skills.\1\
    Every generation receives a legacy of knowledge from its 
predecessors that it can harness for its own advantage. One of the most 
critical aspects of a learner's strategy is using that legacy. Each new 
generation blends the new and the old and thereby charts its own 
development path within a broad technological trajectory, making 
debates about potential conflicts between innovation and tradition 
irrelevant.\2\
    At least three key factors contributed to the rapid economic 
transformation of emerging economies. First, these countries invested 
heavily in basic infrastructure, including roads, schools, water, 
sanitation, irrigation, clinics, telecommunications, and energy.\3\ The 
investments served as a foundation for technological learning. Second, 
they nurtured the development of small and medium-sized enterprises 
(SMEs).\4\ Building these enterprises requires developing local 
operational, repair, and maintenance expertise, and a pool of local 
technicians. Third, government supported, funded, and nurtured higher 
education institutions as well as academies of engineering and 
technological sciences, professional engineering and technological 
associations, and industrial and trade associations.\5\
    The emphasis on knowledge should be guided by the view that 
economic transformation is a process of continuous improvement of 
productive activities, advanced through business enterprises. In other 
words, government policy should focus on continuous improvement aimed 
at enhancing performance, starting with critical fields such as 
agriculture for local consumption and extending to international trade.
    This improvement indicates a society's capacity to adapt to change 
through learning. It is through continuous improvement that nations 
transform their economies and achieve higher levels of performance. 
Using this framework, with government functioning as a facilitator for 
social learning, business enterprises will become the locus of 
learning, and knowledge will be the currency of change.\6\ Most African 
countries already have in place the key institutional components needed 
to make the transition to being a player in the knowledge economy. The 
emphasis should therefore be on realigning the existing structures and 
creating new ones where they do not exist.
    The challenge is in building the international partnerships needed 
to align government policy with the long-term technological needs of 
Africa. The promotion of science and technology as a way to meet human 
welfare needs must, however, take into account the additional need to 
protect Africa's environment for present and future generations.
    The concept of ``sustainable development'' has been advanced 
specifically to ensure the integration of social, economic, and 
environmental factors in development strategies and associated 
knowledge systems.\7\ Mapping out strategic options for Africa's 
economic renewal will therefore need to be undertaken in the context of 
sustainable development strategies and action plans.
    There is widespread awareness of rapid scientific advancement and 
the availability of scientific and technical knowledge worldwide. This 
growth feeds on previous advances and inner self-propelling momentum. 
In fact, the spread of scientific knowledge in society is eroding 
traditional boundaries between scientists and the general public. The 
exponential growth in knowledge is also making it possible to find low-
cost, high-technology solutions to persistent problems.
    Life sciences are not the only areas where research could 
contribute to development. Two additional areas warrant attention. The 
continent's economic future crucially depends on the fate and state of 
its infrastructure, whose development will depend on the contributions 
of engineering, materials, and related sciences. It is notable that 
these fields are particularly underdeveloped in Africa and hence could 
benefit from specific missions that seek to use local material in 
activities such as road construction and maintenance. Other critical 
pieces involve expanding the energy base through alternative energy 
development programs. This sector is particularly important because of 
Africa's past investments, its available human resources, and its 
potential to stimulate complementary industries that provide parts and 
services to the expansion of the sector. Exploiting these opportunities 
requires supporting policies.
    Advances in science and technology will therefore make it possible 
for humanity to solve problems that have previously been in the realms 
of imagination. This is not a deterministic view of society but an 
observation of the growth of global knowledge and the feasibility of 
new technical combinations that are elicited by social consciousness. 
This view would lead to the conclusion that Africa has the potential to 
access more scientific and technical knowledge than the more advanced 
countries had in their early stages of industrialization.
    Recent evidence shows the role that investment in research plays in 
Africa's agricultural productivity. For example, over the past three 
decades Africa's agricultural productivity grew at a much higher rate 
(1.8%) than previously calculated, and technical progress, not 
efficiency change, was the primary driver of this crucial growth.\8\ 
This finding reconfirms the critical role of research and development 
(R&D) in agricultural productivity. The analysis also lends further 
support for the key role pro-trade reforms play in determining 
agricultural growth.
    Within North Africa, which has experienced the highest of the 
continent's average agricultural productivity growth (of 3.6% per 
year), Egypt stands out as a technology leader, as the gross majority 
of its agricultural growth has been attributable to technical 
investments and progress, not efficiency gains. A similar trend 
stressing the importance of technical progress and R&D has been seen in 
an additional 20 African countries that have experienced annual 
productivity growth rates over 2%.
    This evidence shows that the adaptive nature of African 
agricultural R&D creates shorter gestation lags for the payout from R&D 
when compared to basic research. This makes the case for further 
investment even more important.\9\ On the whole, African agricultural 
productivity increased on net by 1.4% in the 1970s, 1.7% in the 1980s, 
and 2.1% in the 1990s. While growth in these decades can be attributed 
largely to major R&D investments made in the 1970s, declines in 
productivity growth in the 2000s are attributed to decreased R&D 
investments in the late 1980s and 1990s. With an average rate of return 
of 33% for 1970-2004, sustained investment in adaptive R&D is 
demonstrated to be a crucial element of agricultural productivity and 
growth.
    Evidence from other regions of the world tells the same story in 
regard to specific crops. For example, improvements in China's rice 
production illustrate the significant role that technical innovation 
plays in agricultural productivity. Nearly 40% of the growth in rice 
production in 13 of China's rice growing provinces over the 1978-84 
period can be accounted for by technology adoption. Institutional 
reform could explain 35% of the growth. Nearly all the growth in the 
subsequent 1984-90 period came from technology adoption. These findings 
suggest that the impact of institutional reform, though significant, 
has previously been overstated.\10\ The introduction of new 
agricultural technologies went hand in hand with institutional reform.
    Chinese agriculture has grown rapidly during the past several 
decades, with most major crops experiencing increased yield, area 
harvested, and production. Between 1961 and 2004, maize, cotton, wheat, 
and oilseed production had an average growth rate of 4% per annum, 
while rice production growth was 2.8% per annum. However, the growth 
rates for wheat crops in terms of area harvested, yield, and production 
were less than 1% per annum between 1961 and 2004. A decomposition of 
the sources of wheat production growth indicates that growth between 
1961 and 2004 was primarily driven by yield growth, with modest 
contribution from crop area. In the case of North Korea, achieving 
self-sufficiency in food production has been one of the most important 
objectives of its economic strategy. Even so, the period between 1961 
and 2004 saw minimal growth in area harvested for rice and soybeans and 
negative growth for maize and wheat.\11\
    Since the early 1960s, South Korea has transformed itself from a 
low-income agrarian economy into a middle-income industrialized 
``miracle,'' and the agricultural sector in South Korea has not been 
immune to the tremendous structural change. The decline in production 
in South Korea has continually been driven by area contraction, whereas 
increased production was driven primarily by yield change in some cases 
and by area change in other instances. In an environment of poor 
natural resources and subsequent encroachment of the industrial and 
services sector on agriculture, Taiwan has experienced negative growth 
rates of rice, wheat, and oilseed area harvested from 1961 until 2004. 
In most cases, production growths were due to increased yields and 
production decreases were due to contractions in crop area.
Generic or Platform Technologies
Information and Communications Technologies
    While information and communication technologies in industrialized 
countries are well developed and historically established, ICTs in 
developing countries have traditionally been ``based on indigenous 
forms of storytelling, song and theater, the print media and radio.'' 
\12\ Despite Africa's current deficiency in more modern modes of 
communication and information sharing, the countries benefit greatly 
from the model of existing technologies and infrastructure.
    In addition to the specific uses that will be explored in the rest 
of this section, ICTs have the extremely significant benefit of 
providing the means for developing countries to contribute to and 
benefit from the wealth of knowledge and research available in, for 
example, online databases and forums. The benefits of improved 
information and communication technologies range from enhancing the 
exchange of inter- and intra-continental collaborations to providing 
agricultural applications through the mapping of different layers of 
local landscapes.
Mobile Technology
    Sub-Saharan Africa has 10 times as many mobile phones as landlines 
in operation, providing reception to over 60% of the population. Much 
of this growth in cell phone use--as much as 49% annually from 2002 
through 2007--coincided with economic growth in the region. It is 
estimated that every 10% growth in mobile phones can raise up to 1.5% 
in GDP growth. There are five ways in which mobile phone access boosts 
microeconomic performance: reducing search costs and therefore 
improving overall market efficiency, improving productive efficiency of 
firms, creating new jobs in telecommunications-based industries, 
increasing social networking capacity, and allowing for mobile 
development projects to enter the market.\13\
    Mobile phones cut out the opportunity costs, replacing several 
hours of travel with a two-minute phone call and also allow firms and 
producers to get up-to-date information on demand. They also 
redistribute the economic gains and losses per transaction between 
consumers and producers. This reduction in the costs of information 
gathering creates an ambiguous net welfare gain for consumers, 
producers, and firms. Similarly, mobile phones make it easier for 
social networks to absorb economic shocks. Family and kinship 
relationships have always played an important role in African society, 
and mobile phones strengthen this already available ``social 
infrastructure,'' allowing faster communication about natural 
disasters, epidemics, and social or political conflicts.
    The use of more mobile phones creates a demand for additional 
employment. For instance, formal employment in the private transport 
and communications sector of Kenya rose by 130% between 2003 and 2007, 
as mobile phone use rose about 49% annually during that period. While 
there is a measurable growth in formal jobs, such as hotline operators 
who deliver information on agricultural techniques, there is also 
growth in the informal sector, including the sale of phone credit and 
``pay-as-you-go'' phones, repair and replacement of mobile phone 
hardware, and operation of phone rental services in rural areas. New 
employment opportunities also come through the mobile development 
industry.
    Africa's advantage over countries like the United States in 
avoiding unnecessary infrastructure costs is especially exemplified in 
the prevalence of mobile technologies, which have replaced outdated 
landline connectivity. Mobile phones have a proven record in 
contributing to development, as illustrated by the associated rise in 
the rate of mobile phone use, averaging 65% annually over the last five 
years.\14\ Because mobile phones are easy to use and can be shared, 
this mobility has revolutionized and facilitated processes like banking 
and disease surveillance.
    The potential and current uses of mobile technology in the 
agricultural sector are substantial and varied. For instance, local 
farmers often lacked the means to access information regarding weather 
and market prices making their job more difficult and decreasing their 
productivity. With cellular phones comes cheap and convenient access to 
information such as the cost of agricultural inputs and the market 
prices for crops.
    The desire for such information has led to the demand for useful 
and convenient mobile phone-based services and applications: ``New 
services such as AppLab, run by the Grameen Foundation in partnership 
with Google and the provider MTN Uganda, are allowing farmers to get 
tailored, speedy answers to their questions. The initiative includes 
platforms such as Farmer's Friend, a searchable database of 
agricultural information, Google SMS, a question and answer texting 
service and Google Trader, a SMS-based `marketplace' application that 
helps buyers and sellers find each other.'' \15\ Applications such as 
these coupled with the increased usage of cellular phones have reduced 
the inefficiencies and unnecessary expenses of travel and 
transportation.
    Simple services like text messaging have likewise led to an 
expansion of access and availability of knowledge. This service has 
been enhanced by nonprofit Kiwanja.Net's development of a software 
package allowing the use of text message services where there is no 
Internet, so long as one has a computer. Other advantages include the 
ability to set up automatic replies to messages using keywords (for 
example, in the case of a scheduled vaccination). Nongovernmental 
organization (NGO) managers, doctors, and researchers around the world 
have enthusiastically picked up this technology and used it to solve 
their communication challenges--from election monitoring, to 
communicating health and agricultural updates, to conducting surveys, 
to fund-raising--the list is endless.
    From opening access to research institutes to facilitating business 
transactions, few technologies have the potential to revolutionize the 
African agricultural sector as much as the Internet. The demand for 
Internet service in Africa has been shown in the large increases in 
Internet usage (over 1,000% between 2000 and 2008) and through the 
fiber-optic cable installed in 2009 along the African east coast by 
Seacom. In 2010 MaIN OnE launched a new cable to serve the west coast 
of Africa. Just as with mobile phones, the Internet will have a 
transformative impact on the operations of businesses, governments, 
NGOs, farmers, and communities alike.
    Until recently Africa was served by an undersea fiber-optic cable 
only on the west coast and in South Africa. The rest of the continent 
relied on satellite communication. The first undersea fiber-optic 
cable, installed by Seacom, reached the east African coast in July 
2009. The US$600 million project will reduce business costs, create an 
e-commerce sector, and open up the region to foreign direct investment.
    New industries that create content and software are likely to 
emerge. This will in turn stimulate demand for access devices. A decade 
ago it cost more than US$5,000 to install one km of standard fiber-
optic cable. The price has dropped to less than US$300. However, for 
Africa to take advantage of the infrastructure, the cost of bandwidth 
must decline. Already, Internet service providers are offering more 
bandwidth for the same cost. For example, in 2009 MTN Business in South 
Africa cut the cost of bandwidth by up to 50%.
    Access to broadband is challenging Africa's youth to demonstrate 
their creativity and the leaders to provide a vision of the role of 
infrastructure in economic transformation. The emergence of Safaricom's 
M-PESA service--a revolutionary way to transmit money by mobile 
phones--is an indicator of great prospects for using new technologies 
for economic improvement.\16\ In fact, these technologies are creating 
radically new industries such as branchless banks that are 
revolutionizing the service sector.\17\
    The diffusion of GIS is creating new opportunities for development 
in general and Africa in particular, with regard to agriculture.\18\ An 
example of the potential GIS has for agriculture is the digitalization 
of more than 20 million land records under the Bhoomi Project in 
India's State of Karnataka, which led to improved and more available 
information on land rights and land use innovation. But the 
implications of the Bhoomi Project did not just stop here. Because of 
the availability of such geospatial information, bankers became more 
inclined to provide crop loans and land disputes began declining, 
allowing farmers to invest in their land without fear. The success of 
this project has inspired the government of India to establish the 
National Land Records Modernisation Programme to do the same for the 
entire country.\19\ Not only does this show the applicability and 
usefulness of information technologies in agriculture, but it also 
provides an option to be considered by African countries.
    Unlike biotechnology and nanotechnology, ICT and GIS do not have as 
much risk of being overregulated or reviled for being a great unknown. 
However, regulation of ICT and GIS will be necessary--and keeping 
clients and users secure will be a challenge as more and more of Africa 
becomes connected to the international network. Balancing privacy with 
the benefits of sharing knowledge will probably be one of the largest 
challenges for these sectors, especially between countries and 
companies.
    When introducing new technologies in the field, policy makers 
should consider ones that are low cost and easily accessible to the 
farmers who will use them. They should ideally capitalize on techniques 
that farmers already practice and involve support for scaling up and 
out, rather than pushing for expensive and unfamiliar practices.
    New technologies should also allow farmers to be flexible according 
to their own capacities, situations, and needs. They should require 
small initial investments and let farmers experiment with the 
techniques to decide their relative success. If farmers can achieve 
success with a small investment early on, they are likely to devote 
more resources to the technique later as they become committed to the 
practice. An example of this type of technological investment is the 
planting pits that increased crop production and fostered more 
productive soil for future years of planting.
    Mobile technologies are poised to influence a wide range of 
sectors. For example, by 2011 the One Laptop per Child (OLPC) 
Foundation had provided about two million rugged, low-cost, low-power 
XO laptops to school children around the world. The laptops come with 
software and content designed to foster collaborative and interactive 
child-centered learning. Advances in complementary technologies and 
increased availability of digital books will make education more 
mobile. Learning will no longer be restricted to classrooms. Emerging 
trends in mobile technology will also transform heath care. Portable 
ultrasound devices produced by firms such as General Electric, 
SonoSite, and Masimo will help to reduce the cost of health care. 
Technological convergence will also simplify the use of new 
technologies and make them more widely accessible.
Biotechnology
    Biotechnology-technology applied to biological systems--has the 
promise of leading to increased food security and sustainable forestry 
practices, as well as improving health in developing countries by 
enhancing food nutrition. In agriculture, biotechnology has enabled the 
genetic alteration of crops, improved soil productivity, and enhanced 
natural weed and pest control. Unfortunately, such potential has 
largely remained untapped by African countries.
    In addition to increased crop productivity, biotechnology has the 
potential to create more nutritious crops. About 250 million children 
suffer from vitamin A deficiency, which weakens their immune systems 
and is the biggest contributor to blindness among children.\20\ Other 
vitamins, minerals, and amino acids are necessary to maintain healthy 
bodies, and a deficiency will lead to infections, complications during 
pregnancy and childbirth, and impaired child development. Biotechnology 
has the potential to improve the nutritional value of crops, leading 
both to lower health care costs and higher economic performance (due to 
improved worker health).
    Tissue culture has not only helped produce new rice varieties in 
Africa but has also helped East Africa produce pest- and disease-free 
bananas at a high rate. The method's ability to rapidly clone plants 
with desirable qualities that are disease-free is an exciting prospect 
for current and future research on improved plant nutrition and 
quantities. Tissue culture has also proved to be useful in developing 
vaccines for livestock diseases, especially the bovine disease 
rinderpest. Other uses in drug development are currently being 
explored.
    Tissue culture of bananas has had a great impact on the economy of 
East African countries since the mid-1990s. Because of its 
susceptibility to disease, banana has always been a double-edged sword 
for the African economies like that of Uganda, which consumes a per 
capita average of one kilogram per day. For example, when the Black 
Sigatoka fungus arrived in East Africa in the 1970s, banana 
productivity decreased as much as 40%. Tissue culture experimentation 
allowed for quick generation of healthy plants and was met with great 
success. Since 1995, Kenyan banana production has more than doubled, 
from 400,000 to over one million tons in 2004, with average yield 
increasing from 10 tons per hectare to 30-50 tons.
    Marker-assisted selection helps identify plant genome sections 
linked to genes that affect desirable traits, which allows for the 
quicker formation of new varieties. This technique has been used not 
only to introduce high-quality protein genes in maize but also to breed 
drought-tolerant plant varieties. An example of a different application 
of this method has been the development of maize resistant to Maize 
streak virus. While the disease has created a loss of 5.5 million tons 
per year in maize production, genetic resistance is known and has the 
potential of greatly raising production. The uptake of genetically 
modified (GM) crops is the fastest adoption rate of any crop 
technology, increasing from 1.7 million hectares in 1996 to 134 million 
hectares in 2009, and an 80-fold increase over the period.\21\
    Recent increases among early adopting countries have come mainly 
from the use of ``stacked traits'' (instead of single traits in one 
variety or hybrid). In 2009, for example, 85% of the 35.2 million 
hectares of maize grown in the United States was genetically modified, 
and three-quarters of this involved hybrids with double or triple 
stacked traits. Nearly 90% of the cotton growth in the United States, 
Australia, and South Africa is GM and, of that, 75% has double-stacked 
traits.
    In 2009, there were 14 million farmers growing GM crops in 25 
countries around the world, of whom over 90% were small and resource-
poor farmers from developing countries. Most of the benefits to such 
farmers have come from cotton. For example, over the 2002-08 period, 
Bacillus thuringiensis (Bt) cotton added US$5.1 billion worth of value 
to Indian farmers, cut insecticide use by half, helped to double yield 
and turned the country from a cotton importer into a major 
exporter.\22\
    Africa is steadily joining the biotechnology revolution. South 
Africa's GM crop production in corn stood at 2.1 million hectares in 
2009, an increase of 18% over the previous year. Burkina Faso grew 
115,000 hectares of Bt cotton the same year, up from 8,500 in 2008. 
This was the fastest adoption rate of a GM crop in the world that year. 
In 2009, Egypt planted nearly 1,000 hectares of Bt maize, an increase 
of 15% over 2008.\23\
    African countries, by virtue of being latecomers, have had the 
advantage of using second-generation GM seed. Monsanto's 
Genuity<SUP>TM</SUP> Bollgard II<SUP>'</SUP> (second generation) cotton 
contains two genes that work against leaf-eating species such as 
armyworms, budworms, bollworms, and loopers. They also protect against 
cotton leaf perforators and saltmarsh caterpillars. Akin to the case of 
mobile phones, African farmers can take advantage of technological 
leapfrogging to reap high returns from transgenic crops while reducing 
the use of chemicals. In 2010 Kenya and Tanzania announced plans to 
start growing GM cotton in view of the anticipated benefits of second-
generation GM cotton. The door is now open for revolutionary adoption 
of biotechnology that will extend to other crops as technological 
familiarity and economic benefits spread.
    There is also a rise in the adoption of GM crops in Europe. In 
2009, six European countries (Spain, Czech Republic, Portugal, Romania, 
Poland, and Slovakia) planted commercial Bt maize. Trends in Europe 
suggest that future decisions on GM crops will be driven by local needs 
as more traits become available. For example, crops that tolerate 
various stresses such as drought are likely to attract interest among 
farmers in Africa. The Water Efficient Maize for Africa project, 
coordinated by the African Agricultural Technology Foundation in 
collaboration with the International Centre for the Improvement of 
Maize and Wheat (CIMMYT) and Monsanto and support from the Howard 
Buffett Foundation and the Bill and Melinda Gates Foundation, is an 
example of such an initiative that also brings together private and 
public actors.\24\
    This case also represents new efforts by leading global research 
firms to address the concerns of resource-poor farmers, a subtheme in 
the larger concern over the contributions of low-income consumers.\25\ 
Other traits that improve the efficiency of nitrogen uptake by crops 
will also be of great interest to resource-poor farmers. Other areas 
that will attract interest in developing new GM crops will include the 
recruitment of more tree crops into agriculture and the need to turn 
some of the current grains into perennials.\26\
    Trends in regulatory approvals are a good indicator of the future 
of GM crops. By 2009, some 25 countries had planted commercial GM crops 
and another 32 had approved GM crop imports for food and feed use and 
for release into the environment. A total of 762 approvals had been 
granted for 155 events (unique DNA recombinations in one plant cell 
used to produce entire GM plants) for 24 crops. GM crops are accepted 
for import in 57 countries (including Japan, the United States, Canada, 
South Korea, Mexico, Australia, the Philippines, the European Union 
(EU), New Zealand, and China). The majority of the events approved are 
in maize (49) followed by cotton (29), canola (15), potato (10), and 
soybean (9).\27\
    Because of pest attacks, cotton was, until the early 1990s, the 
target of 25% of worldwide insecticide use.\28\ Recombinant DNA 
engineering of a bacterial gene that codes for a toxin lethal to 
bollworms resulted in pest-resistant cotton, increasing profit and 
yield while reducing pesticide and management costs.\29\ Countries like 
China took an early lead in adopting the technology and have continued 
to benefit from reduced use of pesticides.\30\
    While GM crops have the potential to greatly increase crop and 
livestock productivity and nutrition, a popular backlash against GM 
foods has created a stringent political atmosphere under which tight 
regulations are being developed. Much of the inspiration for 
restrictive regulation comes from the Cartagena Protocol on Biosafety 
under the United Nations Convention on Biological Diversity.\31\ The 
central doctrine of the Cartagena Protocol is the ``precautionary 
principle'' that empowers governments to restrict the release of 
products into the environment or their consumption even if there is no 
scientific evidence that they are harmful.
    These approaches differ from food safety practices adopted by the 
World Trade Organization (WTO) that allow government to restrict 
products when there is sufficient scientific evidence of harm.\32\ 
Public perceptions are enough to trigger a ban on such products. Those 
seeking stringent regulation have cited uncertainties such as 
horizontal transfer of genes from GM crops to their wild relatives. 
Others have expressed concern that the development of resistance to 
herbicides in GM crops results in ``super-weeds'' that cannot be 
exterminated using known methods. Some have raised fears about the 
safety of GM foods to human health. Other concerns include the fear 
that farmers would be dependent on foreign firms for the supply of 
seed.\33\
    The cost of implementing these regulations could be beyond the 
reach of most African countries.\34\ Such regulations have extended to 
African countries, and this tends to conflict with the great need for 
increased food production. As rich countries withdraw funding for their 
own investments in agriculture, international assistance earmarked for 
agricultural science has diminished.\35\
    In June 1999, five European Union members (Denmark, Greece, France, 
Italy, and Luxembourg) formally declared their intent to suspend 
authorization of GM products until rules for labeling and traceability 
were in place. This decision followed a series of food-related 
incidents such as ``mad cow disease'' in the UK and dioxin 
contamination in Belgium. These events undermined confidence in 
regulatory systems in Europe and raised concerns in other countries. 
Previous food safety incidents tended to shape public perceptions over 
new scares.\36\ In essence, public responses reactions to the GM foods 
were shaped by psychological factors.\37\ Much of this was happening in 
the early phases of economic globalization when risks and benefits were 
uncertain and open to question, including the very moral foundations of 
economic systems.\38\
    Much of this debate occurred at a time of increased awareness about 
environmental issues and there had been considerable investment in 
public environmental advocacy to prepare for the 1992 United Nations 
Conference on Environment and Development in Rio de Janeiro. These 
groups teamed up with other groups working on issues such as consumer 
protection, corporate dominance, conservation of traditional farming 
practices, illegal dumping of hazardous waste, and promotion of organic 
farming to oppose the introduction of GM crops. The confluence of 
forces made the opposition to GM crops a global political challenge, 
which made it easier to try to seek solutions through multilateral 
diplomatic circles.
    The moratorium was followed by two important diplomatic 
developments. First, the EU used its influence to persuade its trading 
partners to adopt similar regulatory procedures that embodied the 
precautionary principle. Second, the United States, Canada, and 
Argentina took the matter to the WTO for settlement in 2003.\39\ Under 
the circumstances, African countries opted for a more restrictive 
approach partly because they had stronger trade relations with the EU 
and were therefore subject to diplomatic pressure. Their links with the 
United States were largely through food aid programs.\40\
    In 2006, the WTO issued its final report on the dispute; the 
findings were largely on procedural issues and did not resolve the root 
cause of the debate such as the role of the ``precautionary principle'' 
in WTO law and whether GM foods were substantially equivalent to their 
traditional counterparts.\41\ But by then a strong anti-biotechnology 
culture had entrenched itself in most African countries.\42\ For 
example, even after developing a GM potato resistant to insect damage, 
Egypt refused to approve it for commercial use. This resistance grew to 
the point that Africa ceased to accept unmilled GM maize from the 
United States as food aid. A severe drought in 2001-02 left 15 million 
Africans with severe food shortages; countries like Zimbabwe and Zambia 
turned down shipments of GM maize, fearing that the kernels would be 
planted instead of eaten. Unlike the situation in rich countries, GM 
foods in developing countries have the potential to revolutionize the 
lots of suppliers and consumers. In order to take full advantage of the 
many potentials of biotechnology in agriculture, Africa should consider 
whether aversion to and overregulation of GM production are 
warranted.\43\
    In Nigeria, the findings of a study on biotechnology awareness 
demonstrate that while respondents have some awareness of biotechnology 
techniques, this is not the case for biotechnology products.\44\ Most 
of the respondents are favorably disposed to the introduction of GM 
crops and would eat GM foods if they are proven to be significantly 
more nutritious than non-GM foods. The risk perception of the 
respondents suggests that although more people are in favor of the 
introduction of GM crops, they, however, do not consider the current 
state of Nigeria's institutional preparedness satisfactory for the 
approval and release of genetically modified organisms (GMOs).
    However, it is important to consider that African farmers will not 
grow successful crops if prices are low or dropping. Additionally, 
complications with regulation and approval of GM crops make obtaining 
commercial licenses to grow certain crops difficult. Also, neighboring 
countries must often approve similar legislation to cover liabilities 
that might arise from cross-pollination by wind-blown pollen, for 
example. Biosafety regulations often stall developments in the research 
of GM crops and could have negative impacts on regional trade.\45\
    For these reasons, approval and use of potentially beneficial crops 
are often difficult. However, despite potential setbacks, biotechnology 
has the potential to provide both great profits and the means to 
provide more food to those who need it in Africa. Leaders in the food 
industry in parts of Africa prefer to consider the matter on a case-by-
case basis rather adopt a generic approach to biosafety.\46\ In fact, 
the tendency in regulation of biotechnology appears to follow more 
divergence paths reflecting unique national and regional 
attributes.\47\ This is partly because regulatory practices and trends 
in biotechnology development tend to co-evolve as countries seek a 
balance between the need to protect the environment and human safety 
and fostering technological advancement.\48\
    Advancements in science have allowed scientists to insert 
characteristics of other plants into food crops. Since the introduction 
of GM crops in 1996, over 80%-90% of soybean, corn, and cotton grown in 
the United States today comes from GM crops. Despite their widespread 
use, there are limited data on their environmental, economic, and 
social impact.\49\
    Herbicide-resistance GM crops have fewer adverse effects on the 
environment than natural crops, but often at the cost of farming 
efficiency. The growth of most crops requires the use of toxic chemical 
herbicides, but GM crops utilize an organic compound called 
glyphosphate to combat weeds. While less dangerous toxins are entering 
the environment, weeds are developing a resistance to glyphosphate in 
soybean, corn, and cotton crops, reducing farming efficiency and 
raising prices on these goods.
    GM corn and cotton have helped reduce the amount of insecticides 
entering the environment. Insecticides are harmful to most insects, 
regardless of their impact, positive or negative, on crops. Genetically 
engineered corn and cotton produce Bacillus thuringiensis (Bt) toxins, 
which kill the larvae of beetles, moths, and flies. New genetic hybrids 
are introduced frequently to reduce the threat of a Bt resistant pest. 
Since 1996, insecticide use has decreased while Bt corn use has grown 
considerably. While the environmental benefits are clear, GM crops pose 
a threat to farmers who rely on nonengineered crops. Interbreeding 
between crops is difficult to stop, so regulatory agencies must set 
clear standards on how much GM material is allowed to be present in 
organic crops.
    The rapid adoption of GM crops seems to indicate that they offer 
great economic benefits for farmers. In general, farmers experience 
lower production costs and higher yields because weed control is 
cheaper and fewer losses are sustained from pests. GM crops are safer 
to handle than traditional chemical pesticides and herbicides, 
increasing worker safety and limiting the amount of time workers spend 
in the field. While the supply-side benefits for farmers are clear, it 
is not completely understood how genetic modification affects the 
market value for these crops. Holding technological achievement 
constant, any gains tend to dissipate over time.
    The United States has benefited by being among the first adopters 
of GM crops. In a similar vein, it is not clear what economic effects 
planting GM crops will have on farmers who do not adopt the technology. 
Livestock farmers are one of the largest customers of corn and soybean 
for feed and should receive the largest benefits of the downward 
pressure on prices from transgenic crops, yet no study has been 
conducted on such effects. Similarly, it is possible that the growing 
use of GM crops leaves many pests resistant to chemicals to ravage the 
fields of nonadopters, forcing them to use higher concentrations of 
dangerous chemicals or more expensive forms of control. In the future, 
new public policy will be needed to develop cost-effective methods of 
controlling the growing weed resistance to glyphosphate.
    It is important to recognize that developing countries face a 
separate set of risks from those of industrialized countries. For 
example, new medicines could have different kinds and levels of 
effectiveness when exposed simultaneously to other diseases and 
treatments. Similarly, ``new technologies may require training or 
monitoring capacity which may not be locally available, and this could 
increase risks associated with the technology's use.'' \50\ This has 
been demonstrated where a lack of training in pesticide use has led to 
food contamination, poisoning, and pesticide resistance. In addition, 
the lack of consistent regulation, product registration, and effective 
evaluation are important factors that developing Africa will need to 
consider as it continues its exploration of these platform 
technologies. Probably the most significant research and educational 
opportunities for African countries in biotechnology lie in the 
potential to join the genomics revolution as the costs of sequencing 
genomes drop. When James Watson, co-discover of the DNA double-helix, 
had his genome sequenced in 2008 by 454 Life Sciences, the price tag 
was US$1.5 million. A year later a California-based firm, Applied 
Biosystems, revealed that it has sequenced the genome of a Nigerian man 
for under US$60,000. In 2010 another California-based firm, Illumina, 
announced that it had reduced the cost to about US$20,000.
    Dozens of genomes of agricultural, medical, and environmental 
importance to Africa have already been sequenced. These include human, 
rice, corn, mosquito, chicken, cattle, and dozens of plant, animal, and 
human pathogens. The challenge facing Africa is building capacity in 
bioinformatics to understanding the location and functions of genes. It 
is through the annotation of genomes that scientists can understand the 
role of genes and their potential contributions to agriculture, 
medicine, environmental management, and other fields. Bioinformatics 
could do for Africa what computer software did for India. The field 
would also give African science a new purpose and help to integrate the 
region into the global knowledge ecology. This opportunity offers 
Africa another opportunity for technological leapfrogging.
Nanotechnology
    Of the four platform technologies discussed in this chapter, 
nanotechnologies are the least explored and most uncertain. 
Nanotechnology involves the manipulation of materials and devices on a 
scale measured by the billionths of a meter. The results of research in 
nanotechnology have produced substances of both unique properties and 
the ability to be targeted and controlled at a level unseen previously. 
Thus far, applications to agriculture have largely been theoretical, 
but practical projects have already been explored by both the private 
and public sectors in developed, emerging, and developing 
countries.\51\
    For example, research has been done on chemicals that could target 
one diseased plant in a whole crop. Nanotechnology has the potential to 
revolutionize agriculture with new tools such as the molecular 
treatment of diseases, rapid disease detection, and enhancement of the 
ability of plants to absorb nutrients. Smart sensors and new delivery 
systems will help to combat viruses and other crop pathogens. Increased 
pesticide and herbicide effectiveness as well as the creation of 
filters for pollution create more environmentally friendly agriculture 
process. While countries like the United States and China have been at 
the forefront of nanoscience research expenditure and publications, 
emerging countries have engaged in research on many of the 
applications, from water purification to disease diagnosis.
    Water purification through nanomembranes, nanosensors, and magnetic 
nanoparticles have great, though currently cost prohibitive, potential 
in development, particularly in countries like Rwanda, where 
contaminated water is the leading cause of death. However, the low 
energy cost and high specificity of filtration has lead to a push for 
research in water filtration and purification systems like the Seldon 
WaterStick and WaterBox. Developed by U.S.-based Seldon Laboratories, 
these products require low energy usage to filter various pathogens and 
chemical contaminants and are already in use by aid workers in Rwanda 
and Uganda.\52\
    One of the most promising applications of nanotechnology is low-
cost, energy-efficient water purification. Nearly 300 million people in 
Africa lack access to clean water. Water purification technologies 
using reverse osmosis are not available in much of Africa, partly 
because of high energy costs. Through the use of a ``smart plastic'' 
membrane, the U.S.-based Dias Analytic Corporation has developed a 
water purification system that could significantly increase access to 
clean water and help to realize the recent proclamation by the United 
Nations that water and sanitation are fundamental human rights.
    The capital costs of the NanoClear technology are about half the 
cost of using reverse osmosis water purification system. The new system 
uses about 30% less energy and does not involve toxic elements. The 
system is modular and can be readily scaled up on demand. A first-
generation pilot plant opened in Tampa, Florida, in 2010 to be followed 
later in the year by the deployment of the first fully operational 
NanoClear water treatment facility in northern China. The example of 
NanoClear illustrates how nanotechnology can help provide clean water, 
reduces energy usage, and charts an affordable course toward achieving 
sustainable development goals.\53\
    The potential for technologies as convenient as these would 
revolutionize the lifestyles of farmers and agricultural workers in 
Africa. Both humans and livestock would benefit from disease-free, 
contaminant-free water for consumption and agricultural use.
    The cost-prohibitive and time-intensive process of diagnosing 
disease promises to be improved by nanotechnological disease 
diagnostics. While many researchers have focused on human disease 
diagnosis, developed and developing countries alike have placed an 
emphasis on livestock and plant pathogen identification in the interest 
of promoting the food and agricultural industry. Nanoscience has 
offered the potential of convenient and inexpensive diagnosis of 
diseases that would otherwise take time and travel. In addition, the 
convenient nanochips would be able to quickly and specifically identify 
pathogens with minimal false diagnoses. An example of this efficiency 
is found in the EU funded Optolab Card project, whose kits allows a 
reduction in diagnosis time from 6-48 hours to just 15 minutes.
Technology Monitoring, Prospecting, and Research
    Much of the debate on the place of Africa in the global knowledge 
economy has tended to focus on identifying barriers to accessing new 
technologies. The basic premise has been that industrialized countries 
continue to limit the ability of developing countries to acquire new 
technologies by introducing restrictive intellectual property rights. 
These views were formulated at a time when technology transfer channels 
were tightly controlled by technology suppliers, and developing 
countries had limited opportunities to identify the full range of 
options available to them. In addition, they had limited capacity to 
monitor trends in emerging technologies. But more critically, the focus 
on new technologies as opposed to useful knowledge hindered the ability 
of developing countries to create institutions that focus on harnessing 
existing knowledge and putting it to economic use.
    In fact, the Green Revolution and the creation of a network of 
research institutes under the Consultative Group on International 
Agricultural Research (CGIAR) represented an important example of 
technology prospecting. Most of the traits used in the early breeding 
programs for rice and wheat were available but needed to be adapted to 
local conditions. This led to the creation of pioneering institutions 
such as CIMMYT in Mexico and the International Rice Research Institute 
(IRRI) in the Philippines.\54\
    Other countries have used different approaches to monitor, 
identify, and harness existing technologies, with a focus on putting 
them to commercial use. One such example is the Fundacion Chile, 
established in 1974 by the country's Minister for Economic Cooperation, 
engineer Raul Saez. The Fundacion Chile was set up as joint effort 
between the government and the International Telephone and Telegraph 
Corporation to promote research and technology acquisition. The focus 
of the institution was to identify existing technologies and match them 
to emerging business opportunities. It addressed a larger goal of 
helping to diversity the Chilean economy and created new enterprises 
based on imported technologies.\55\
    But unlike their predecessors who had to manage technological 
scarcity, Africa's challenge is managing an abundance of scientific and 
technological knowledge. The rise of the open access movement and the 
growing connectivity provided by broadband Internet now allows Africa 
to dramatically lower the cost of technology searches. But such 
opportunities require different technology acquisition strategies. 
First, they require the capacity to assess the available knowledge 
before it becomes obsolete. Second, such assessments have to take into 
account the growing convergence of science and technology.\56\ There is 
also an increasing convergence between different disciplines.
    Moreover, technology assessments must now take into account social 
impacts, a process that demands greater use of the diverse 
disciplines.\57\ Given the high rate of uncertainty associated with the 
broader impact of technology on environment, it has become necessary to 
incorporate democratic practices such as public participation in 
technology assessments.\58\ Such practices allow the public to make 
necessary input into the design of projects. In addition, they help to 
ensure that the risks and benefits of new technologies are widely 
shared.
    Reliance on imported technology is only part of the strategy. 
African countries are just starting to explore ways to increase support 
for domestic research. This theme should be at the center of Africa's 
international cooperation efforts.\59\ These measures are an essential 
aspect of building up local capacity to utilize imported technology. 
This insight is important because the capacity to harness imported 
technology depends very much on the existence of prior competence in 
certain fields. Such competence may lie in national research 
institutes, universities, or enterprises. The pace of technology 
absorption is likely to remain low in countries that are not making 
deliberate efforts to build up local research capacity, especially in 
the engineering sciences. One way to address this challenge is to start 
establishing regional research funds that focus on specific technology 
missions.
Conclusion
    The opportunities presented by technological abundance and 
diversity as well as greater international connectivity will require 
Africa to think differently about technology acquisition. It is evident 
that harnessing existing technologies requires a more detailed 
understanding of the convergence between science and technology as well 
the various disciplines. In addition, it demands closer cooperation 
between the government, academia, the private sector, and civil society 
in an interactive process. Such cooperation will need to take into 
account the opportunities provided by the emergence of Regional 
Economic Communities as building blocks for Africa's economic 
integration. All the RECs seek to promote various aspects of science, 
technology and innovation in general and agriculture in particular. In 
effect, it requires that policy makers as well as practitioners think 
of economies as innovation systems that evolve over time and adapt to 
change. The next chapter will elaborate the idea of innovation systems 
and their implications for agricultural development and regional 
integration in Africa.
3  Agricultural Innovation Systems
    The use of emerging technology and indigenous knowledge to promote 
sustainable agriculture will require adjustments in existing 
institutions.\1\ New approaches will need to be adopted to promote 
close interactions between government, business, farmers, academia, and 
civil society. The aim of this chapter is to identify novel 
agricultural innovation systems of relevance to Africa. It will examine 
the connections between agricultural innovation and wider economic 
policies. Agriculture is inherently a place-based activity and so the 
chapter will outline strategies that reflect local needs and 
characteristics. Positioning sustainable agriculture as a knowledge-
intensive sector will require fundamental reforms in existing learning 
institutions, especially universities and research institutes. Most 
specifically, key functions such as research, teaching, extension, and 
commercialization need to be much more closely integrated.
The Concept of Innovation Systems
    Agriculture is considered central to African economies, but it is 
treated like other sectors, each with their own distinctive 
institutions and with little regard for their relationship with the 
rest of the economy.\2\ This view is reinforced by traditional 
approaches, which argue that economic transition occurs in stages that 
involve the transfer of capital from the agricultural to the industrial 
sector. Both the sector and stage approaches conceal important linkages 
between agriculture and other sectors of the economy.
    A more realistic view is to treat economies as ``systems of 
innovation.'' The process of technological innovation involves 
interactions among a wide range of actors in society, who form a system 
of mutually reinforcing learning activities. These interactions and the 
associated components constitute dynamic ``innovation systems.'' \3\ 
Innovation systems can be understood by determining what within the 
institutional mixture is local and what is external. Open systems are 
needed, in which new actors and institutions are constantly being 
created, changed, and adapted to suit the dynamics of scientific and 
technological creation.\4\ The concept of a system offers a suitable 
framework for conveying the notion of parts, their interconnectedness, 
and their interaction, evolution over time, and emergence of novel 
structures. Within countries the innovation system can vary across 
localities. Local variations in innovation levels, technology adoption 
and diffusion, and the institutional mix are significant features of 
all countries.
    An innovation system can be defined as a network of organizations, 
enterprises, and individuals focused on bringing new products, new 
processes, and new forms of organization into economic use, together 
with the institutions and policies that affect their behavior and 
performance. The innovation systems concept embraces not only the 
science suppliers but the totality and interaction of actors involved 
in innovation. It extends beyond the creation of knowledge to encompass 
the factors affecting demand for and use of knowledge in novel and 
useful ways.\5\
    Government, the private sector, universities, and research 
institutions are important parts of a larger system of knowledge and 
interactions that allows diverse actors with varied strengths to come 
together to pursue broad common goals in agricultural innovation. In 
many African countries, the state still plays a key role in directing 
productive activities. But the private sector is an increasingly 
important player in adapting existing knowledge and applying it to new 
areas.
    The innovation systems concept is derived from direct observations 
of countries and sectors with strong records of innovation. It has been 
applied to agriculture in developing countries only recently, but it 
appears to offer exciting opportunities for understanding how a 
country's agricultural sector can make better use of new knowledge and 
for designing alternative interventions that go beyond research system 
investments.\6\
    Systems-based approaches to innovation are not new in the 
agricultural development literature. The study of technological change 
in agriculture has always been concerned with systems, as illustrated 
by applications of the national agricultural research system (NARS) and 
the agricultural knowledge and information system (AKIS) approaches. 
However, the innovation systems literature is a major departure from 
the traditional studies of technological change that are often used in 
NARS- and AKIS-driven research.\7\
    The NARS and AKIS approaches, for example, emphasize the role of 
public sector research, extension, and educational organizations in 
generating and disseminating new technologies. Interventions based on 
these approaches traditionally focused on investing in public 
organizations to improve the supply of new technologies. A shortcoming 
of this approach is that the main restriction on the use of technical 
information is not just supply or availability but also the limited 
ability of innovative agents to absorb it. Even though technical 
information may be freely accessible, innovating agents have to invest 
heavily to develop the ability to use the information.
    While both the NARS and AKIS frameworks made critical contributions 
to the study of technological change in agriculture, they are now 
challenged by the changing and increasingly globalized context in which 
sub-Saharan African agriculture is evolving. There is need for a more 
flexible framework for studying innovation processes in developing-
country agriculture--a framework that highlights the complex 
relationships between old and new actors, the nature of organizational 
learning processes, and the socioeconomic institutions that influence 
these relationships and processes.
    The agricultural innovation system maps out the key actors and 
their interactions that enable farmers to obtain access to 
technologies. The ``farm firm'' is at the center of the agricultural 
innovation system framework, and the farmer as the innovator could be 
made less vulnerable to poverty when the system enables him to access 
returns from his innovative efforts. The agricultural innovation system 
framework presents a demand-driven approach to agricultural R&D. This 
transcends the perception of the role of public research institutions 
as technology producers and farmers as passive users by viewing the 
public laboratory-farmer relationships as an interactive process 
governed by several institutional players that determine the generation 
and use of agricultural innovation. There is opportunity for a 
participatory and multi-stakeholders approach to identifying issues for 
agricultural R&D, and agricultural technology could thus be developed 
with active farmers' participation and understanding of the application 
of new technologies. The agricultural innovation system approach as an 
institutional framework can be fostered depending on the institutional 
circumstances and historical background of the national agricultural 
development strategies.\8\
    This brings us to the agricultural innovation system (AIS) 
framework. The AIS framework makes use of individual and collective 
absorptive capabilities to translate information and knowledge into a 
useful social or economic activity in agriculture. The framework 
requires an understanding of how individual and collective capabilities 
are strengthened, and how these capabilities are applied to 
agriculture. This suggests the need to focus far less on the supply of 
information and more on systemic practices and behaviors that affect 
organizational learning and change. The approach essentially unpacks 
systemic structures into processes as a means of strengthening their 
development and evolution.
    Recent discussions of innovation capacity have argued that capacity 
development in many countries involves two sorts of tasks. The first is 
to create networks of scientific actors around research themes such as 
biotechnology and networks of rural actors around development themes 
such as dryland agriculture. The second is to build links between these 
networks so that research can be used in rural innovation. A 
tantalizing possibility is that interventions that unite research-led 
and community-based capacity could cost relatively little, add value to 
existing investments, meet the needs of the poor, and achieve very high 
returns.
Innovation Systems in Action
University-Industry Linkages
    Trends in university-industry linkages (UILs) in Nigeria illustrate 
three ways in which university-industry collaboration has been 
experienced in the Nigerian agro-food processing sector. They are 
principal agent demand-driven, multi-stakeholder problem based, and 
arms-length consultancy. The examples of university-industry 
interactions in these three modes are regarded as glimpses of hope 
demonstrating that universities and firms in Nigeria can be made to 
work together to build capacity for innovation. However, while the 
first two modes have contributed to innovative outcomes involving the 
diffusion and commercialization of local R&D results, the third mode 
has not engendered innovation.\9\
    The first mode of UIL identified as ``principal agent demand-
driven'' is the UNAAB-Nestle Soyabean Popularization and Production 
Project which has been a case of interaction between the University of 
Agriculture Abeokuta (UNAAB) and Nestle Nigeria since 1999. In this 
case Nestle employed UNAAB to help address its challenges in demand for 
soybeans. Due to its research and extension activities, UNAAB 
presumably has a knowledge advantage over Nestle in the area of local 
sourcing of soybeans. Nestle Nigeria employs about 1,800 people and 
soybeans are one of its major raw materials used especially for baby 
foods. The firm has been the only major external donor and industrial 
partner with UNAAB. It is thus plausible to consider the principal 
agent in this case of UIL as Nestle, and the driver of the UIL as 
demand for soybeans.
    The main objective of the UIL is to stimulate sustainable interest 
of farmers in soybean production with a view to increasing their 
capacity to produce seeds of industrial quality and consequently to 
improving their socioeconomic status. The three specific objectives of 
the project include ensuring that the soybean becomes acceptable and 
properly integrated into the existing farming systems in the 
southwestern part of Nigeria; promoting massive production of high 
quality grains that would meet the needs and quality standards required 
by Nestle Nigeria on a continuous basis; and improving the welfare of 
the farmers through the income that could be generated from soybean 
production.
    The university-industrial linkage can be initially traced to an R&D 
partnership under a tripartite agreement for soybean breeding between 
UNAAB, the International Institute of Tropical Agriculture (IITA), 
Ibadan, and Nestle Nigeria in the early 1990s. Nestle Nigeria financed 
the soybean breeding project. The aim of the project was to obtain 
soybeans of high quality that fit Nestle Nigeria's requirements and 
also to produce significantly improved yields. The research team 
achieved this objective with the breeding of Soya 1448-2E. This initial 
partnership ended in 1996.
    Around 1999, Nestle Nigeria came back to ask UNAAB if there could 
be ways of further partnership. UNAAB told Nestle that the previous 
research collaboration had established that soybeans can also be grown 
in southwest Nigeria. UNAAB thus started a project with Nestle Nigeria 
on popularization of soybeans in southwest Nigeria. Nestle Nigeria had 
previously believed that soybeans can be grown only in northern Nigeria 
as it was thought that rain was damaging to soybeans just before 
harvest. Though this is generally true, UNAAB had demonstrated that 
soybeans could be profitably harvested in spite of the rains in the 
southwest.
    There are a number of benefits for such university-industry 
linkages. Learning by interaction between UNAAB scientists and Nestle 
Nigeria farm managers and farmers contributed significantly to building 
capacity for innovation especially at the farm level. It produced 
improved quality seeds and grains and a new process for growing 
soybeans. Nestle Nigeria saved costs by finding alternative to the 
inefficient Nestle Nigeria farms located in northern Nigeria and 
secured a regular supply of high-quality soybeans from farmers in the 
UIL. The system boosted UNAAB's extension activities resulting in the 
popularization of its model of soybean cultivation in southwest 
Nigeria, which in turn became an important soybean producing region. 
Overall, the linkages improved the livelihoods of the people in the 
region and enhanced technology adoption for soybean processing, 
especially threshing technology.
    The second mode of UIL identified as ``multi-stakeholder problem 
based'' is the Cassava Flash Dryer Project. The project involved one 
large privately owned integrated farm (Godilogo Farm, Ltd.) that had an 
extensive cassava plantation and a cassava processing factory; three 
universities including the University of Agriculture, Abeokuta, the 
University of Ibadan, and the University of Port Harcourt; the IITA; 
and the Raw Material Research and Development Council (RMRDC).
    Cassava is Africa's second most important food staple, after maize, 
in terms of calories consumed, and it is widely acknowledged as a crop 
that holds great promise for addressing the challenges of food security 
and welfare improvement. Nigeria is currently the world largest 
producer of cassava. The Presidential Initiative on Cassava Production 
and Export (PICPE) was officially launched in 2004. Under PICPE the 
government promotes the diversification of the economy through 
industrial processing of cassava to add value and achieve significant 
export of cassava products. Support for research on cassava processing 
and cassava products was a major aspect of PICPE. Through IITA, PICPE 
brought together cassava stakeholders to address the challenge of 
cassava production and industrial processing, which included the design 
and fabrication of a cassava flash dryer.
    Though the principle of flash drying is well known in engineering 
theory and practice, the principle has so far not been applied in the 
design of engineering equipment used in processing indigenous 
agricultural crops in Nigeria. This design gap is perhaps because the 
engineering properties of most of the Nigerian crops are yet to be 
determined. The flash dryers available in the market are designed for 
agricultural products that are grown in industrialized countries that 
manufacture flash dryers. For example, flash dryers commonly used in 
Nigeria were originally designed for drying Irish potatoes or maize. 
They are usually modified with the help of foreign technical partners 
for use in cassava processing. Attempts to adapt foreign flash dryers 
have resulted in considerably low performance and frequent equipment 
breakdowns. This was the experience of Godilogo Farms, Ltd. that had 
used a flash dryer imported from Brazil, because the design was unable 
to handle the drying of cassava to required moisture or water content. 
It was not originally designed to handle cassava but temperate root 
crops such as Irish potatoes. Efforts by a Brazilian engineer invited 
from abroad to adapt the flash dryer to effectively process cassava 
failed.
    The farm's cassava plantation could supply its cassava processing 
factory 250 days of cassava inputs. The farm also has an engineering 
workshop or factory for equipment maintenance and components 
fabrication.
    The main objective of the cassava flash dryer project was to design 
and fabricate an efficient cassava flash dryer that can withstand the 
stress of the local operating environment. The frustration of Godilogo 
Farm with its imported flash dryer motivated the farm's management to 
support the cassava flash dryer project. After the farm management was 
convinced that the flash dryer research team constituted under the 
PICPE-IITA cassava processing research project had a feasible design, 
Godilogo Farm made available its engineering facilities and funds for 
building a cassava flash dryer in situ at the farm's cassava processing 
factory.
    The new locally designed and fabricated cassava flash dryer can 
produce 250 kilograms of cassava flour per hour. The RMRDC funded the 
official commissioning of the new flash dryer at Godilogo Farms, Obudu, 
Cross Rivers State, on August 19, 2008. IITA and PICPE provided the 
initial funding under the IITA Integrated Cassava Project; the Root and 
Tuber Extension Program supported the design team's visit to collect 
data from existing flash drying centers; Godilogo paid for the 
fabrication of the plant and part sponsorship of the researchers' 
living costs; and RMRDC provided logistical support for several trips 
by the design team including sponsorship of the commissioning.
    The main outcome of the UIL is the celebrated local design and 
fabrication of the first medium-sized cassava flash dryer in Nigeria. 
The technological learning generated was unprecedented in local 
fabrication of agro-food processing equipment, and there is evident 
improvement in capacity for innovation in agro-food processing. In the 
course of the project, there was interactive learning through 
experimentation by the research team. The impact of government policy 
through PICPE and government support for the project through RMRDC 
demonstrated the crucial role of government as a mediator or catalyst 
for UIL and innovation. Knowledge flows and user feedbacks also played 
important roles in the success of the university-industry linkage.
Wider Institutional Linkages
    Understanding the network relationships and institutional 
mechanisms that affect the generation and use of innovation in the 
traditional sector is critical for enhancing the welfare of the poor 
and overall economic development. Nigeria's development policy 
emphasizes making agriculture and industrial production the engine of 
growth. In recent years the revitalization of the cocoa industry 
through the cocoa rebirth initiative launched in February 2005 has been 
a major focus of government.\10\
    The program essentially aimed at generating awareness of the wealth 
creation potentials of cocoa, promoting increases in production and 
industrial processing, attracting youth into cocoa cultivation, and 
helping to raise funds for the development of the industry. By applying 
the analytical framework of the agricultural system of innovation it is 
easier to trace the process of value-addition in the cocoa agro-
industrial system, examining the impact of the cocoa rebirth initiative 
and identifying the actors critical for strengthening the cocoa 
innovation system in Nigeria.
    Cocoa production is a major agricultural activity in Nigeria; and 
R&D aimed at improving cocoa production and value-addition has long 
existed at the Cocoa Research Institute of Nigeria (CRIN) and notable 
faculties of agriculture in Nigerian universities and colleges of 
agriculture. However, while the export of raw cocoa beans has continued 
to thrive, innovation in cocoa production and the industrial processing 
of cocoa into intermediate and consumer products have been limited.
    The cocoa innovation system in Nigeria is still relatively weak. 
There is a role for policy intervention in stimulating interaction 
among critical agents in this agricultural innovation system. In 
particular, linkages and interactions between four critical actors 
(individual cocoa farmers, cocoa processing firms, CRIN, and the 
National Cocoa Development Committee) in the cocoa rebirth program were 
identified as being responsible for the widespread adoption of CRIN's 
newly developed genetically improved cocoa seedlings capable of a yield 
exceeding 1.8 tonnes per hectare per year. This is in stark contrast to 
previous experiences of CRIN, which has been unable to commercialize 
many of its research findings. Periodic joint review of the activities 
of each of these actors and active participation in specific projects 
that are of common interest may further innovation especially in value-
addition to cocoa beans.
    The adoption and diffusion of improved cocoa seedlings under the 
cocoa rebirth initiative thrives on subsidies provided by government. 
While subsidies for agricultural production in a developing country 
such as Nigeria may not be discouraged, it is important to have a 
phased program of subsidy withdrawal on the cocoa seedlings program 
when it is certain that farmers have proven the viability and economic 
importance of the new variety. This should result in a market-driven 
diffusion that will be healthy for the sustainable growth of the cocoa 
industry.
    Despite success with the diffusion of cocoa seedlings, the findings 
show that although export is a major concern of the cocoa processing 
firms, and this appeared to have led to close interactions of the firms 
with the National Export Promotion Council (NEPC), the export strategy 
has not been effectively linked with the cocoa rebirth initiative. In 
order to further encourage export by the cocoa processing firms, it 
would be good to integrate the NEPC export incentives into the cocoa 
rebirth initiative within the cocoa innovation system framework. 
Moreover, the NEPC should also adopt an innovation system approach to 
export strategy. This would essentially begin by emphasizing 
demonstrable innovative activities of firms as an important requirement 
for the firms to benefit from export incentives.
    The involvement of the financial sector in the cocoa innovation 
system is identified as a main challenge. Though the financial sector 
is aware of the significance of innovation for a competitive economy, 
its response to the cocoa rebirth initiative has been slow due to 
perceived relatively low return on investments. It is suggested that 
the publicly owned Bank of Industry and the Central Bank of Nigeria 
(CBN) should provide leadership in investing in innovative new start-
ups in cocoa processing and in carefully identified innovative ideas or 
projects in existing cocoa processing firms. This demonstration should 
be carried out in partnership with interested commercial banks with the 
CBN guaranteeing the banks' investment in the project. Once the banks 
are convinced that innovative initiatives in firms are able to provide 
satisfactory returns on investment, they should be open to investing in 
such projects.
    Skills deficiency is a major constraint on the cocoa innovation 
system. The result suggests that skills development in the areas of 
cocoa farm management and the operation of modern cocoa processing 
machinery would be particularly useful in enhancing cocoa output and 
the performance of cocoa processing firms. In this respect, renewed 
efforts are needed by the educational and training institutions to 
improve on the quality and quantity of skills being produced for cocoa 
processing firms.
    As part of the cocoa rebirth initiative, special training programs 
should be organized for skills upgrading and new skills development 
relevant to the cocoa industry. Another important constraint on the 
cocoa innovation system arises from the difficulty in implementing the 
demand-side aspects of the cocoa rebirth initiative, such as serving 
free cocoa beverages in primary schools and using cocoa-based beverages 
in government offices, practices that should stimulate innovative 
approaches to increased local processing of cocoa and manufacture of 
cocoa-based products.
Clusters as Local Innovation Systems
    Theory, evidence, and practice confirm that clusters are important 
source of innovation.\11\ Africa is placing considerable emphasis on 
the life sciences. There is growing evidence that innovation in the 
life sciences has a propensity to cluster around key institutions such 
as universities, hospitals, and venture capital firms.\12\ This logic 
could be extended to thinking about other opportunities for clustering 
which include agricultural regions. Essentially, clusters are 
geographic concentrations of interconnected companies and institutions 
in a particular field. Clusters encompass an array of linked industries 
and other entities important to competition. They include, for example, 
suppliers of specialized inputs such as components, machinery, and 
services, and providers of specialized infrastructure.
    Often clusters extend downstream to channels and customers and 
laterally to manufacturers of complementary products, as well as to 
companies in related industries either by skills, technologies, or 
common inputs. Finally, many clusters include governmental and other 
institutions--such as universities, standard-setting agencies, think 
tanks, vocational training providers, and trade associations--that 
provide specialized training, education, information, research, and 
technical support.\13\ The co-evolution of all actors supports the 
development of dynamic innovation systems, which accelerate and 
increase the efficiency of knowledge transfer into products, services, 
and processes and promote growth. As clusters enable the flow of 
knowledge and information between enterprises and institutions through 
networking they form a dynamic self-teaching system and they speed up 
innovation. Local knowledge develops that responds to local needs--
something that rivals find hard to imitate.
    Although much of the recent literature on clusters focuses on 
small- to medium-sized high-tech enterprises in advanced industrial 
countries, a smaller school of literature has already begun expanding 
the study of clusters to include agricultural innovation. Clusters can 
and often do emerge anywhere that the correct resources and services 
exist. However, central to the idea of clusters is that positive 
``knowledge spillovers'' are more likely to occur between groups and 
individuals that share spatial proximity, language, culture, and other 
key factors usually tied to geography.
    Contrary to scholars who argue that the Internet and other 
information technologies have erased most barriers to knowledge 
transfer, proponents of cluster theory argue that geography continues 
to dominate knowledge development and transfer, and that governments 
seeking to spark innovation in key sectors (including agriculture) 
should therefore consider how to encourage the formation and growth of 
relevant clusters. A key in tuition in this argument is that informal 
social interactions and institutions play a central role in building 
trust and interpersonal relationships, which in turn increase the speed 
and frequency of knowledge, resource, and other input sharing.
    In developing countries, clusters are present in a wide range of 
sectors and their growth experiences vary widely, from being stagnant 
and lacking competitiveness to being dynamic and competitive. This 
supports the view that the presence of a cluster does not automatically 
lead to positive external effects. There is therefore a need to look 
beyond the simple explanation of proximity and cultural factors, and to 
ask why some clusters prosper and what specifically explains their 
success.
Shouguang Vegetable Cluster, China
    China has a long history of economic clusters in sectors as diverse 
as silk, porcelain, high technology, and agriculture.\14\ One of 
China's most successful agricultural clusters is the vegetable cluster 
in Shandong Province. This ``Vegetable City,'' is a leading vegetable 
production, trading, and export center. Its 53,000-hectare vegetation 
plantation produces about four million tons annually. Shouguang was one 
of the poorest areas in the Shandong province until the early 1980s, 
when vegetable production started. Today five state- and provincial-
level agricultural demonstration gardens and 21 nonpolluted vegetable 
facilities have been established. More than 700 new vegetable varieties 
have been introduced from over 30 countries and regions. Shouguang also 
hosts China's largest vegetable seed facility aimed at developing new 
variety. The facility is co-sponsored by the China Agricultural 
University. Over the years, vegetable production increased, leading to 
the emergence of an agro-industrial cluster that has helped to raise 
per capita income for Shouguang's previously impoverished rural 
poor.\15\ The cluster evolved through four distinctive phases.
    In the first emergence phase (1978 to 1984) Shouguang authorities 
launched programs for massive vegetable planting as a priority for the 
local development agenda. Shouguang had three main advantages that 
helped it to emerge as a leading vegetable cluster. These included a 
long history and tradition of vegetable production, rising domestic and 
international demand for vegetables, and higher profits exceeding 
revenue from crops such as rice and wheat. In 1983 Shouguang's 
vegetable production exceeded 450 tonnes. The local market could not 
absorb it all, so about 50 tonnes went to waste. The loss prompted 
Shouguang to construct a vegetable market the following year, thereby 
laying the foundation for the next phase.
    In the second phase of the development of the cluster, local 
government officials used their authority to bring more peasants and 
clients into the new market. For example, the officials persuaded the 
Shengli Oil Field, China's second largest oil base, to become a 
customer of Shouguang vegetables. This procurement arrangement 
contributed to the market's early growth. The authorities also helped 
to set up more than 10 small agricultural product markets around the 
central wholesale market, creating a market network in the city. The 
markets directly benefited thousands of local farmers. Despite these 
developments, high demand for fresh vegetables in winter exceeded the 
supply.
    The third phase of the development of the cluster was associated 
with rapid technological improvements in greenhouses and increased 
production. In 1989, Wang Leyi, chief of a village in Shouguang, 
developed a vegetable greenhouse for planting in the winter, 
characterized by low cost, low pollution, and high productivity. This 
inspired peasants to adopt the technology and led to incremental 
improvements in the construction and maintenance of greenhouses. 
Communication among peasants and the presence of local innovators 
helped to spread the new technology. By the end of 1996, Shouguang had 
210,000 greenhouses, and the vegetable yield had grown to 2.3 million 
tons. The Shouguang government focused on promoting food markets. It 
helped to create more than 30 large specialized markets and 40 large 
food-processing enterprises. In 1995 the central government authorized 
the creation of the ``Green Channel,'' an arrangement for transporting 
vegetables from Shouguang to the capital, Beijing. The transportation 
and marketing network evolved to include the ``Green Channel,'' the 
``Blue Channel'' (ocean shipping), the ``Sky Channel'' (air 
transportation), and the ``Internet Channel.''
    After 1997 the cluster entered its fourth development phase, which 
involved the establishment of international brand names. The 
internationalization was prompted by the saturation of domestic markets 
and rising nontariff trade barriers such as strict and rigorous 
standards. International safety standards and consumer interest in 
``green products'' prompted Shouguang to establish 21 pollution-free 
production bases. Foreign firms such as the Swiss-based Syngenta 
Corporation played a key role in upgrading planting technologies, 
providing new seed and offering training to peasants. This was done 
through the Shouguang Syngenta Seeds Company, a joint venture between 
Syngenta and the local government. Syngenta signed an agreement with 
the Ministry of Agriculture's National Agricultural Technical Extension 
and Service Center to train farmers in modern techniques. Since 2000, 
the one-month (starting April 20) Shouguang vegetable fair has 
encapsulated and perpetuated this cluster's many successes and has 
become one of China's premier science and technology events.
Rice Cluster in Benin
    Entrepreneurship can spur innovations, steer innovation processes, 
and compel the creation of an innovation-enabling environment while 
giving rise to and sustaining the innovation system. Entrepreneurial 
venture is an embedded power that steers institutions, stimulates 
learning, and creates or strengthens linkages that constitute the 
pillars of innovation systems. The dissemination of New Rices for 
Africa (NERICA) in Benin illustrates what can be considered a ``self-
organizing innovation system.'' \16\ Through the unique approach 
combining the innovation systems approach and entrepreneurship theory, 
this section describes the process by which a class of entrepreneurs 
took the lead in the innovation process while creating the basis for a 
NERICA-based system of innovation to emerge.
    Benin, which is located in West Africa, covers an area of 112,622 
square kilometers and has nearly 8.2 million inhabitants. Its landscape 
consists mostly of flat to undulating plains but also includes some 
hills and low mountains. Agriculture is the predominant basis of the 
country's weak economy; although only contributing 32% of the GDP (as 
compared to 53.5% of the service sector and 13.7% of the industrial 
sector), it employs about 65% of the active population.
    Despite relatively favorable production environments, Benin's 
domestic production is weak and meets only 10%-15% of the country's 
demand for rice. Different people attribute this to different causes, 
such as policies and institutions that are not suited to supporting 
domestic production against importations or low quality of products. 
Irrigation possibilities are not fully exploited, despite the fact that 
rice production is traditionally rain-fed. There is also minimum input, 
with improper seeding and lack of fertilizers, pesticides, and 
herbicides.
    NERICA is the brand name of a family of improved rice varieties 
specially adapted to the agroecological conditions of Africa. It is a 
hybrid that combines the best traits of two rice species: the African 
Oryza glaberrima and the Asian Oryza sativa. It has certain advantages 
over other species such as high yields, quick maturity, and resistance 
to local biotic and abiotic stresses such as droughts and iron 
toxicity. It also has 25% higher protein content than international 
standard varieties. And it is more responsive to fertilizers. Due to 
these advantages, different groups that wanted to change the status quo 
of Benin's agriculture sought to introduce NERICA. They included the 
government of Benin, the Banque Regionale de Solidarite (BRS), agro-
industrial firms such as Tunde Group and BSSSociete Industrielle pour 
la Production du Riz (BSS-SIPRi), as well as nongovernmental entities 
such as Songhai, Projet d'Appui au Developpement Rural de l'Oueme 
(PADRO), and Vredeseilanden (VECO). These organizations worked closely 
together to bring to the task skills, knowledge, and interests that 
could not be found in one entity.
    A simple introduction of all of these organizations helps to 
clarify how they converged on NERICA in their pursuit of agricultural 
innovation. Songhai is a socioeconomic and rural development NGO 
specializing in agricultural production, training, and research. It 
supports an integrated production system that promotes minimal inputs 
and the use of local resources. Songhai was one of the first pioneers 
of NERICA production in Benin, largely because it was challenged to 
endorse a framework conducive to rice production as a profitable 
commodity.
    Songhai came in contact with BRS as it was seeking to fund skilled, 
competent, and innovative economic agents with sound business plans. 
Songhai fit the bill perfectly. Tunde Group was NERICA's production hub 
and BSS-SIPRi is an enterprise specializing in NERICA seed and paddy 
production. PADRO and VECO are NGOs from France and Belgium, 
respectively. PADRO worked with the extension agency, farmer 
organizations, and micro-finance establishments, and indirectly with 
the Ministry of Agriculture. VECO focused on culture, communication, 
sustainable agriculture, and food security.
    All of these separate organizations came together through NERICA to 
challenge Benin's agricultural status quo. Their entrepreneurism not 
only directly helped the dissemination of NERICA but also pushed the 
Benin government toward policies for agricultural business development. 
In February 2008, the government issued a new agricultural development 
strategy plan aiming to establish an institutional, legal, regulatory, 
and administrative environment conducive to agricultural activities.
    What can be learned from the NERICA case is that the dissemination 
of this new technology did not follow the conventional process of 
assistance programs and government adoption. There was a process of 
self-organization through various nongovernmental organizations. Self-
motivated economic entrepreneurs started the process and propelled 
innovation. As a result, the private sector was able to push the 
government to adopt new policies that would be conducive to these 
innovations. These conditions then created more economic opportunities 
that drew more self-organized entrepreneurs to the program and thereby 
completed a healthy cycle of economic and technological improvement. 
This process as a whole can be understood as a ``self-organizing system 
of innovation.''
Industrial Clusters in Slovenia
    Slovenia has made substantial economic progress since gaining its 
independence in 1991. At the end of the 1990s, Slovenia had a stable 
macroeconomic environment, with an average annual GDP growth rate of 
4.3% and US$15,000 GDP per capita. Today Slovenia has nearly doubled 
that GDP per capita to US$27,000 and has jumped ahead of some of the 
``old'' EU member state members such as Portugal and Greece. Despite 
favorable macroeconomic indicators, in the 1990s the economy depended 
on traditional industries with small profit margins and slow growth. 
Productivity was more than three times lower than the average 
productivity in the EU countries, while economic growth 
disproportionately depended on investments in physical assets, not 
knowledge or technology. Low education, weak public institutions, and 
insufficient social capital led to a shortage of competency, trust, and 
willingness to take risks.
    In order to speed up the process of change and to stimulate 
business innovation, in 1999 the Slovenian Ministry of Economy launched 
an entrepreneurship and competitiveness policy.\17\ Clustering was 
encouraged between similar and symbiotic firms as a way to increase 
knowledge creation and dissemination in key sectors. An initial mapping 
of potential clusters was conducted to analyze the geographic 
concentration of industries and the existing degree of networking and 
innovation systems, including linkages with universities, research 
centers, and other traditional centers of innovation.
    Although the study revealed generally weak linkages and low levels 
of geographic concentration, 10 industries were nonetheless identified 
as having potential for cluster development. The cluster development 
program was articulated based on three interlinked measures: 
encouraging cooperation and networking between companies and R&D 
institutions; strengthening the knowledge, skills, and expertise 
required by key development actors (people and institutions) to promote 
the development and functioning of clusters; and forming clusters in 
practice.
    The ministry began by co-financing projects involving companies and 
support institutions such as universities in the fields of marketing, 
product development, technology improvements, and specialization in 
supply chains. Three pilot clusters were supported with the objective 
of gaining knowledge and experience before any large-scale program was 
launched. The pilots followed a three-phase cluster development 
process: the initiation phase in which actors develop a common vision 
and devise an action plan for its implementation; an early growth phase 
when they implement the action plan and develop the platforms needed 
for the final phase; a final phase focused on R&D and 
internationalization. The model developed by pilots proved to be 
acceptable to the Slovenian environment, and a full-scale program was 
launched. Government financing was provided for the first year and then 
extended for two more years to those clusters with the best strategies. 
The government financial support was mainly used for R&D activities and 
training.
    The government eventually supported 17 clusters. More than 400 
firms and 100 business support institutions, universities, and research 
institutions participated with more than 66,500 employees. A total of 
240 innovative projects have been launched as part of cluster 
initiatives in the areas of R&D between small and medium-sized 
enterprises (SMEs) and academic institutions, specialization in the 
value chain, internationalization, standardization, and training. At 
the beginning, the most important projects were focused on 
strengthening the cooperation between companies along the value chain 
and later on research and innovation. Almost all the clusters have 
internationalized and connected with foreign networks and clusters in 
less than two years. In 2006, the cluster program was completed. More 
demanding technology and research-oriented programs were launched to 
target specific technology, research, and science fields. Almost all of 
these post-2006 projects emerged from clustering activities.
    Clusters provide crucial formal and informal linkages that increase 
trust among diverse actors, leading to greater exchange of individuals 
and ideas and key cooperation in areas no single firm or institution 
could achieve on its own. Despite advances in telecommunications, 
innovation in many sectors continues to be generated by and most easily 
transmitted between geographically proximate actors.
    As farmer productivity is often constrained by lack of appropriate 
technology or access to best practice knowledge, inputs, and services, 
clusters may be able to provide pronounced benefits in the agro-sector. 
Certain types of clusters may have a more direct impact on poverty. 
These are the clusters in rural areas and in the urban informal 
economy; clusters that have a preponderance of SMEs, micro-enterprises, 
and home workers; clusters in labor-intensive sectors in which barriers 
to entry for new firms and new workers are low; and clusters that 
employ women, migrants, and unskilled labor.
    In many African countries the agricultural sector is dominated by 
family-based small-scale planting. This structure slows down the 
diffusion and adoption of information and modern technology, a key 
driver of agricultural productivity and net growth. One of the main 
challenges is therefore to enhance technology transfer from knowledge 
producers to users in the rural regions where small-scale household 
farming dominates. Clusters can overcome these shortcomings by creating 
the linkages and social capital needed to foster innovation and 
technology transfer. However, clusters are not a cure-all for African 
agricultural innovation, and we must therefore look closely at the 
conditions under which clusters can work, the common stages of their 
development, and key factors of their success.
    Clusters cannot be imposed on any landscape. They are most likely 
to form independently or to succeed once seeded by government when they 
are collocated with key inputs, services, assets, and actors. Clusters 
are most likely to form and succeed in regions that already possess the 
proper input, as well as in industries that have a dividable production 
process and a final product that can be easily transported. Clusters 
are also more likely in knowledge or technology-intensive businesses 
(like agriculture), where breakthroughs can instigate quick and 
significant increases in productivity. Clusters also benefit from 
preexisting tightly knit social networks, which provide fertile ground 
for more complex knowledge generation and sharing infrastructure.
Policies for Cluster Development
    Cluster development could benefit from the experiences outlined 
above. In the first phase, governments should lead the formation of 
clusters by identifying strategic regions with the right human, 
natural, and institutional resources to establish a competitive 
advantage in a key sector. Governments can then nurture a quick flow of 
investment, ideas, and even personnel from the public sector to private 
firms. As government-funded initiatives deliver proof of concept, 
governments should make way for private enterprise and give up their 
ownership stakes in the burgeoning agro-industries they helped create.
    As government involvement decreases, clusters move to formalize the 
connections between key actors through producer associations and other 
cooperative organizations. Strong bonds formed in the early phases of 
cluster formation allow diverse actors to come together on common sets 
of standards in key areas of health, safety, and environment. Quality 
control and enhanced production are critical for clusters to move 
beyond their local markets and into more lucrative national or 
international export markets. Despite their decreasing role, 
governments can continue to play a key part in this process by putting 
in place regulations that ease, rather than obstruct, firms' efforts to 
meet complex international health, environmental, and labor standards.
    This strong foundation in place, clusters can move to additional 
cooperative efforts focused on international marketing and export, and 
complex partnerships with large multinational companies. Firms can band 
together to accomplish what none of them can do individually: achieve 
national and international brand recognition.
    Innovation systems likewise cannot be imposed by outside actors and 
must have substantial buy-in from local government, business groups, 
and citizen groups. Additionally, governments must wrestle with the 
possibility that although clusters enhance knowledge generation and 
transmission within themselves, strong social and practical connections 
within clusters may actually make communications between them less 
likely.\18\ Linkages between clusters are therefore critical, and this 
is an area in which regional organizations can play a particularly 
important role.
    Local governments played a critical role in determining initial 
potential for clustering by evaluating natural and human resources, 
already existing clusters, and markets in which their area might be 
able to deliver a competitive advantage. Local governments also 
assessed and in many cases fueled popular citizen, business, and public 
institutional support for enhanced cooperation, a key precursor for 
clusters. As clusters depend on physical and cultural proximity to 
encourage knowledge creation and sharing, local governments can 
encourage these exchanges between firms, individual producers, NGOs, 
and research and academic institutions even before funding has been set 
aside for a specific cluster.
    While local authorities are best placed to determine the potential 
for clusters in specific areas, national governments may be better 
positioned (particularly in Africa) to provide the financial and 
regulatory support necessary for successful clusters. National 
governments use state-owned banks, tax laws, and banking regulations to 
encourage loans to businesses and organizations in these key clusters. 
They also help finance investments by constructing key infrastructure, 
including ports, roads, and telecommunications. Finally, governments 
play a key role in responding to pressure from the clusters to create 
regulatory frameworks that help them to meet stringent international 
environmental, health, and labor standards. National governments can 
also play a central role in convincing nationally funded research and 
academic institutions to participate actively in clusters with 
businesses and individual producers.
    While clusters lower barriers to knowledge creation and sharing 
within themselves, the opposite may be true across different national 
or regional economic activities. This isolation may limit innovation 
within clusters, or worse could lead to negative feedback cycles based 
on the phenomenon of ``lock-in,'' whereby clusters increasingly focus 
on outdated or noncompetitive sectors or strategies.\19\ Regional 
institutions and linkages can play a key role in making and maintaining 
these external links by supporting the exchange of information, and in 
particular personnel, between clusters. In Africa, regional 
institutions could also support the idea of regional centers of 
excellence based around key specialties--for example, livestock in East 
Africa.
The Role of Local Knowledge
    Strengthening local innovation systems or clusters will need to 
take into account local knowledge, especially given emerging concerns 
over climate change.\20\ Farming communities have existed for a 
millennium, and long before there were modern agricultural innovations, 
these communities had to have ways to manage their limited resources 
and keep the community functioning. Communities developed local 
leadership structures to encourage participation and the ideal use of 
what limited resources were available. In the past few centuries, 
colonial intervention and the push for modern methods have often caused 
these structures to fail as a result of neglect or active destruction. 
However, these traditional organizational mechanisms can be an 
important way to reach a community and cause its members to use 
innovations or sustainable farming techniques.\21\
    While governments and international organizations often overlook 
the importance of traditional community structures, they can be a 
powerful tool to encourage community members in the use of new 
technologies or the revival of traditional methods that are now 
recognized as more effective.\22\ Communities retain the knowledge of 
and respect for these traditional leadership roles and positions in a 
way that outside actors can not, and they will often adopt them as a 
way to manage community agricultural practices and learning. It is this 
place-based innovation in governance that accounts to a large extent 
for institutional diversity.\23\
    India's recent reintroduction of the Vayalagams as a means of water 
management serves as a good example of how traditional systems can 
still serve the local communities in which they originated as a means 
of agricultural development and economic sustainability. A long-
standing tradition in India in the pre-colonial period was the use of 
village governance structures called Vayalagams to organize and 
maintain the use of village water tanks. These tanks were an important 
component of rain-fed agriculture systems and provided a reservoir that 
helped mitigate the effects of flooding and sustain agriculture and 
drinking-water needs throughout the dry season by capturing rainwater.
    The Vayalagams were groups of community leaders who managed the 
distribution of water resources to maximize resources and 
sustainability, and to ensure that the whole community participated in, 
and benefited from, the appropriate maintenance of the tanks. Under 
British colonial rule, and later under the independent Indian 
government, irrigation systems became centralized and communities were 
no longer encouraged to use the tanks, so both the physical structures 
and the organizations that managed them fell into disrepair.
    As the tank-fed systems fell apart and agricultural systems 
changed, rural communities began to suffer from the lack of sufficient 
water to grow crops. One solution to this problem has been to 
revitalize the Vayalagam system and to encourage the traditional 
community networks to rebuild the system of tanks. Adopting traditional 
methods of community organization has tapped into familiar resources 
and allowed the Development of Humane Action (DAHN) Foundation--an 
Indian NGO--to rally community ownership of the project and gain 
support for rebuilding the system of community-owned and managed water 
tanks. The tanks were a defunct system when the DHAN Foundation 
incorporated in 2002. Now, the Tank-Fed Vayalagam Agricultural 
Development Programme works in 34 communities and has implemented 1,807 
micro finance groups that comprise 102,266 members. It funds the 
program with a 50% community contribution and the rest from the 
foundation. This redeployment of old community organizations has 
resulted in rapid proliferation of ideas and recruitment of farmers.
Reforming Innovation Systems
    As African countries seek to promote innovation regionally, they 
will be forced to introduce far-reaching reforms in their innovation 
systems to achieve two important goals. The first will be to 
rationalize their research activities in line with the goals of the 
Regional Economic Communities (RECs). The second will be to ensure that 
research results have an impact on the agricultural productive sector. 
Many emerging economies have gone through such reform processes. 
China's reform of its innovation system might offer some insights into 
the challenges that lie ahead.
    Partnerships between research institutes (universities or 
otherwise) and industries are crucial to encourage increased research 
and promote innovation. Recent efforts in China to reform national 
innovation systems serve to demonstrate the importance of ``motivating 
universities and research institutes (URIs), building up the innovative 
capacities of enterprises, and promoting URI-industry linkages.'' \24\ 
Before the most recent reforms, China's model mimicked the former 
Soviet Union's approach to defense and heavy industry R&D, in which the 
system was highly centralized. Reforms allowed for increased 
flexibility, providing incentives to research institutes, universities, 
and business enterprises to engage in research. The case study of 
China's science and technology (S&T) reforms demonstrates the efficacy 
of using policy and program reform to increase research, patents, 
publications, and other innovations
    During the pre-reform period from 1949 to the 1980s, China focused 
on military research, carried out for the most part by public research 
institutes and very sparingly by universities. Almost all research was 
planned and funded by the government with individual enterprises (which 
often had their own S&T institutes and organizations) engaging in 
little to no research and development.
    With the hope of developing the country through education and 
research, China created the slogan ``Building the nation through 
science and education'' to underscore their 1985 reforms. Efforts were 
made to increase university and research institution collaboration with 
related business industries, and in the 1990s this was furthered by 
motivating universities and institutions to establish their own 
enterprises.
    Reforms occurred in three stages, the first of which spanned 1985 
to 1992. Here, the government initiated reform by encouraging 
universities and research institutes (URIs) to bolster their 
connections with industry--one method used was to steeply cut the 
research budget for universities and other institutes with the goal of 
causing the URIs to turn to industry for support and thus facilitate 
linkages and partnerships. Additional laws and regulations regarding 
patent and technology transfer were passed, and by the end of 1992, 52 
high-tech development zones had been set up, with 9,687 enterprises and 
a total turnover of renminbi (RMB) 56.3 billion.
    From 1992 to 1999, the second stage of reform saw the creation of 
the ``S&T Progress Law'' and the ``Climbing Program'' to encourage 
research as well as the increased autonomy regarding research given to 
URIs. A breakthrough that strengthened partnerships between URIs and 
industry was the 1991 endorsement of enterprises that were affiliated 
with URIs. Linkages that were encouraged included technical services, 
partnerships in development, production, and management, as well as 
investment in technology. Vast improvements were seen immediately: from 
1997 to 2000, university-affiliated enterprises experienced average 
annual sales income growth of 32.3%, with 2,097 high-tech ones emerging 
in China with a total net worth of US$3.8 billion by 2000.
    During the third stage, starting in 1999, China sought to both 
strengthen the national innovation systems and facilitate the 
commercialization of R&D results. One key measure was the 
transformation of state-owned applied research institutes into high-
tech firms or technical service firms. Of 242 research institutes that 
were to be transformed from the former State Committee for Economics 
and Trade, 131 merged with corporations (groups), 40 were transformed 
into S&T corporations under local governments, 29 were transformed into 
large S&T corporations owned by the central government, 18 were 
transformed into agencies, and the remaining 24 turned into 
universities or were liquidated. A total of 1,149 transformations were 
carried out by the end of 2003.
    New policies and programs helped bring about changes during the 
reform period. The ``Resolution on the Reform of the S&T System,'' 
released in 1985, aimed to improve overall R&D system management, 
including encouraging research personnel mobility and integration of 
science and technology into the economy through the introduction of 
flexible operating systems. Peer review of projects and performance 
brought about a degree of transparency. Reform policies promoted more 
flexible management of R&D, technology transfer, linkages between URIs 
and industry, and commercialization of high-tech zones.
    The many new programs were meant to serve different purposes and 
have been shown to be effective in general. One particular program was 
extremely important in the high-tech area. The ``863 Program,'' which 
was launched in 1986, sought to move the country's overall R&D capacity 
to cutting-edge frontiers in priority areas such as biotechnology, 
information, automation, energy, advanced materials, marine, space, 
laser, and ocean technology. Another goal of the 863 Program was to 
promote the education and training of professionals for the 21st 
century by mobilizing more than 10,000 researchers for 2,860 projects 
every year. An example of another program was ``The Torch Program,'' 
launched in 1988. By reducing regulation, building support facilities, 
and encouraging the establishment of indigenous high-tech firms in 
special zones, the program aimed to establish high-tech firms. Success 
is evident: ``From 1991 to 2003, 53 national high-tech zones had been 
established'' especially in the information technology, biotechnology, 
new materials, and new energy technologies industries. ``The national 
high-tech zones received RMB 155 billion investments in infrastructure 
and hosted 32,857 companies in 2003.'' \25\ It appears that these early 
but critical reform efforts have put China on a path that could enable 
it to catch up with the industrialized countries in science and 
innovation.\26\
    Because the ultimate goal of the science and technology reforms in 
China were meant to strengthen national innovation systems and promote 
innovation activities among the key players in the system, it was 
necessary for URIs, industry, and the government to interact. The 
impact of the reforms is seen in the stark contrast between the years 
1987 and 2003. In 1987, government-funded public research institutes 
dominated R&D research, with universities carrying out education and 
enterprises involved in restricted innovations in ``production and 
prototyping.'' For this reason, URIs found no reason to conduct applied 
research or to commercialize their research results.
    By 2003, R&D expenditure had risen by more than eightfold. Most 
distinctive was the large increase in R&D units, employees, and 
expenditures of enterprises. This was brought about in part from the 
transformation of 1,003 or 1,149 public research institutes into 
enterprises or parts of enterprises. Additionally, after the 1991 
endorsement of university-affiliated enterprises, a great expansion 
occurred such that by 2004, 4,593 of them existed with annual income of 
RMB 97 billion. Another factor was increased competition that created 
incentive to engage in R&D. Finally, in general the R&D potential of 
the firms has increased as a result of the more supportive environment 
resulting from S&T reform.
    The increased R&D expenditure from enterprises demonstrates the 
overall success of the science and technology reforms. This success is 
also seen in the improved URI-industry linkages, as is shown in the 
decrease in government spending from 79% in 1985 to 29.9% in 2000. URIs 
(either transformed or public ones) have forged close links with the 
private sector ``through informal consulting by university researchers 
to industry, technology service contracts, joint research projects, 
science parks, patent licensing, and URI-affiliated enterprise.'' \27\ 
Another success from the S&T reform is the great increase in patents 
from domestic entities as well as the larger number of publications.
    Science and technology reform in China demonstrated the importance 
of creating linkages between industry and institutes for research and 
education. Despite the great success, there are a few cautionary 
lessons to be learned from China's actions. For example, while great 
improvements were found in the linkages between URIs and industries, 
there has been a lack of focus on science and technology 
administration. Because the many governmental and nongovernmental 
bodies work independently, there is a danger of inefficiency in the 
form of redundancy or misallocation of R&D resources. The reform's 
focus on commercializing S&T has also prevented further development of 
basic research and other research aimed at public benefit (with such 
research stuck at 6% of all research funding). A final concern is the 
controversy surrounding university-affiliated enterprises that 
emphasize the operation, ownership structure, and the de-linking of 
such enterprises from their original parent universities. Critics 
believe that commercial goals may hinder other university mandates 
about pure academics. When creating comprehensive reform of such 
magnitude, one must be careful to take into account these potential 
issues.
    China's science and technology reforms demonstrate the potential 
for expanding research by supporting the formation of URI-industry 
partnerships and linkages. The benefits are clear and developing 
countries should greatly consider using China's case as a model for the 
establishment of similar programs and policies.
    African countries can rationalize their research activities through 
an entity that can draw lessons from the Brazilian Agricultural 
Research Corporation (EMBRAPA). This successful institutional 
innovation was designed to respond to a diversity of agricultural needs 
over a vast geographical area. It has a number of distinctive features 
that include the use of a public corporation model; national scale of 
operations in nearly all states; geographical decentralization; 
specialized research facilities (with 38 research centers, 3 service 
centers, and 13 central divisions); emphasis on human resource 
development (74% of 2,200 researchers have doctoral degrees while 25% 
have master's training); improvements in remuneration for researchers; 
and strategic outlook that emphasizes science and innovation as well as 
commercialization of research results.\28\
Conclusion
    Agricultural innovation has the potential to transform African 
agriculture, but only if strong structures are put in place to help 
create and disseminate critical best practices and technological 
breakthroughs. In much of Africa, linkages between farmers, fishermen, 
and firms and universities, schools, and training centers could be much 
stronger. New telecommunications technologies such as mobile phones 
have the potential to strengthen linkages, but cluster theory suggests 
that geography will continue to matter regardless of new forms of 
communication. Groups that are closer physically, culturally, and 
socially are more likely to trust one another, exchange information and 
assets, and enter into complex cooperative production, processing, 
financing, marketing, and export arrangements.
    Local, national, and regional authorities must carefully assess 
where clusters may prove most successful and lay out clear plans for 
cluster development, which can take years if not decades. Local 
authorities should focus on identifying potential areas and industries 
for successful clusters. National governments should focus on providing 
the knowledge, personnel, capital, and regulatory support necessary for 
cluster formation and growth. And regional authorities should focus on 
linking national clusters to one another and to key related global 
institutions. Throughout these processes, public and private 
institutions must work cooperatively, with the latter being willing to 
transfer knowledge, funding, and even personnel to the private sector 
in the early stages of cluster development.
    To promote innovation, the public sector could further support 
interactions, collective action, and broader public-private partnership 
programs. The country studies suggest that from a public sector 
perspective, improvements in agricultural innovation system policy 
design, governance, implementation, and the enabling environment will 
be most effective when combined with activities to strengthen 
innovation capacity. Success stories in which synergies were created by 
combining market-based and knowledge-based interactions and strong 
links within and beyond the value chain point to an innovation strategy 
that has to be holistic in nature and focus, in particular, on 
strengthening the interactions between key public, private, and civil 
society actors.
4  Enabling Infrastructure
    Enabling infrastructure (public utilities, public works, 
transportation, and research facilities) is essential for agricultural 
development. Infrastructure is defined here as facilities, structures, 
associated equipment, services, and institutional arrangements that 
facilitate the flow of agricultural goods, services, and ideas. 
Infrastructure represents a foundational base for applying technical 
knowledge in sustainable development and relies heavily on civil 
engineering. This chapter outlines the importance of providing an 
enabling infrastructure for agricultural development.\1\ Modern 
infrastructure facilities will need to reflect the growing concern over 
climate change. In this respect, the chapter will focus on ways to 
design ``smart infrastructure'' that takes advantage of advances in the 
engineering sciences as well as ecologically sound systems design. 
Unlike other regions of the world, Africa's poor infrastructure 
represents a unique opportunity to adopt new approaches in the design 
and implementation of infrastructure facilities.
Infrastructure and Development
    Poor infrastructure and inadequate infrastructure services are 
among the major factors that hinder Africa's sustainable development. 
This view has led to new infrastructure development approaches.\2\ 
Without adequate infrastructure, African countries will not be able to 
harness the power of science and innovation to meet sustainable 
development objectives and be competitive in international markets. 
Roads, for example, are critical for supporting rural development. 
Emerging evidence suggests that in some cases low-quality roads have a 
more significant impact on economic development than high-quality 
roads. In addition, all significant scientific and technical efforts 
require reliable electric power and efficient logistical networks. In 
the manufacturing and retail sectors, efficient transportation and 
logistical networks allow firms to adopt process and organizational 
innovations, such as the just-in-time approach to supply chain 
management.
    Infrastructure promotes agricultural trade and helps integrate 
economies into world markets. It is also fundamental to human 
development, including the delivery of health and education services. 
Infrastructure investments further represent untapped potential for the 
creation of productive employment. For example, it has been suggested 
that increasing the stock of infrastructure by 1% in an emerging 
country context could add 1% to the level of GDP. But in some cases the 
impact has been far greater: the Mozal aluminum smelter investment in 
Mozambique not only doubled the country's exports and added 7% to its 
GDP, but it also created new jobs and skills in local firms.
    Reducing public investment in infrastructure has been shown to 
affect agricultural productivity. In the Philippines, for example, 
reduction in investment in rural infrastructure led to reductions in 
agricultural productivity.\3\ This decline in investment was caused by 
cutbacks in agricultural investments writ large, as well as by a shift 
in focus from rural infrastructure and agricultural research to 
agrarian reform, environment, and natural resource management. Growth 
in Philippine agriculture in the 1970s was linked to increased 
investments in infrastructure, just as declines in the same sector in 
the 1980s were linked to reduced infrastructure investment (caused by a 
sustained debt crisis).
    Evidence from Uganda suggests that public investment in 
infrastructure-related projects has contributed significantly to rural 
development.\4\ Uganda's main exports are coffee and cotton; hence, the 
country depends heavily on its agricultural economy. Political and 
economic turmoil in the 1970s and 1980s in Uganda led to the collapse 
of the economy and agricultural output. Reforms in the late 1980s 
allowed Uganda to improve its economic growth and income distribution. 
In spite of economic growth ranging between 5% and 7%, the growth of 
the agricultural sector has been very low, averaging 1.35% per annum. 
Even if the Ugandan government has made great strides in welfare 
improvement, the rural areas still remain relatively poor. In addition, 
due to the disparity between male and female wages in agriculture, 
women are more affected by poverty than men.
    The Ugandan government has been spending on a wide variety of 
sectors including agriculture, research and development, roads, 
education, and health (data in other sectors such as irrigation, 
telecommunications, and electricity are limited). Previous studies have 
mostly measured the effectiveness of government spending based on 
budget implementation.
    Government spending on agricultural research and extension improved 
agricultural production substantially in Uganda. Growth in agricultural 
labor productivity, rural wages, and nonfarm employment have emerged as 
important factors in determining rural poverty, so much so that the 
public expenditure on agriculture outweighs the education and health 
effect. Investment in agriculture has been shown to increase food 
production and reduce poverty. Roads linking rural areas to markets 
also serve to improve agricultural productivity and increase nonfarm 
employment opportunities and rural wages. Having a high HIV/AIDS 
prevalence, a large share of Uganda's health expenditure goes toward 
prevention and treatment. Despite the high expenditure in health 
services, there does not seem to be a high correlation between health 
expenditure and welfare improvement.
Infrastructure and Agricultural Development
Transportation
    Reliable transportation is absolutely critical for growth and 
innovation in African agriculture and agribusiness. Sufficient roads, 
rail, seaports, and airports are essential for regional trade, 
international exports, and the cross-border investments that make both 
possible. Innovation in other areas of agriculture such as improved 
genetic material, better access to capital, and best farming practices 
will produce results only if farmers and companies have a way to get 
their products to market and get critical inputs to farms.
    Transportation is a key link for food security and agribusiness-
based economic growth. Roads are the most obvious and critical element, 
but modern seaports, airports, and rail networks are also important, 
particularly for export-led agricultural innovation such as cut flowers 
or green beans in Kenya, neither of which would be possible without an 
international airport in Nairobi. To that end, many African countries 
have reprioritized infrastructure as a key element in their 
agricultural development strategies. This section will examine the role 
roads have played in China's rural development and poverty alleviation, 
as well as two cases in African transportation investment: Ghana's 
rural roads project and Mali's Bamako-Senou airport improvement 
project.
    Ghana's Rural Roads Project is expected to open new economic 
opportunities for rural households by lowering transportation costs 
(including travel times) for both individuals and cargo to markets and 
social service delivery points. The project will include new 
construction, as well as the improvement of over 950 kilometers of 
feeder roads, which, along with the trunk roads, will benefit a total 
population of more than 120,000 farming households with over 600,000 
members. These activities will increase annual farm incomes from 
cultivation by US$450 to about US$1,000. For many of the poor, the 
program will represent an increase of one dollar or more in average 
income per person per day. In addition to sparking growth in 
agriculture, the feeder roads will also help facilitate transportation 
linkages from rural areas to social service networks (including, for 
instance, hospitals, clinics, and schools).
    The Airport Improvement Project will expand Mali's access to 
markets and trade through improvements in the transportation 
infrastructure at the airport, as well as better management of the 
national air transport system. However, Mali is landlocked and heavily 
dependent on inadequate rail and road networks and port facilities in 
countries whose recent instability has cost Mali dearly. Before the 
outbreak of the Ivorian crisis, 70% of Malian exports were leaving via 
the port of Abidjan. In 2003, this amount dwindled to less than 18%. 
Mali cannot control overland routes to international and regional 
markets. Therefore, air traffic has become Mali's lifeline for 
transportation of both passengers and export products.
    Malian exports are predominantly agriculture based and depend on 
rural small-scale producers, who will benefit from increased exports in 
high-value products such as mangoes, green beans, and gum arabic. The 
Airport Improvement Project is intended to remove constraints to air 
traffic growth and increase the airport's efficiency in both passenger 
and freight handling through airside and landside infrastructure 
improvements, as well as the establishment of appropriate institutional 
mechanisms to ensure effective management, security, operation, and 
maintenance of the airport facilities over the long term.
    In response to requirements for safety and security audits by the 
International Civil Aviation Organization and the United States 
Federation Aviation Administration, Mali is in the process of 
restructuring and consolidating its civil aviation institutional 
framework. One major result has been the establishment of the new civil 
aviation regulatory and oversight agency in December 2005, which now 
has financial and administrative independence. The Airport Improvement 
Project will reinforce the agency by providing technical assistance to 
establish a new organizational structure, administrative and financial 
procedures, staffing and training, and provision of equipment and 
facilities. Additionally, the project will rationalize and reinforce 
the airport's management and operations agency by providing technical 
assistance to establish a model for the management of the airport and 
the long-term future status and organization of agency.
    Since 1985 the government of China has given high priority to road 
development, particularly the construction of high-quality roads such 
as highways and freeways. While the construction of high-quality roads 
has taken place at a remarkably rapid pace, the construction of lower-
quality and mostly rural roads has been slower. Benefit-cost ratios for 
lower-quality roads (mostly rural) are about four times larger than 
those for high-quality roads when the benefits are measured in terms of 
national GDP.\5\
    In terms of welfare improvement, for every yuan invested, lower-
quality roads raised far more rural and urban poor people above the 
poverty line than did high-quality roads. Without these essential 
public goods, efficient markets, adequate health care, a diversified 
rural economy, and sustainable economic growth will remain elusive. 
Effective development strategies require good infrastructure as their 
backbone. The enormous benefit of rural roads in China likely holds 
true for other countries as well. Investment in rural roads should be a 
top priority for reducing poverty, maximizing the positive effects of 
other pro-poor investments, and fostering broadly distributed economic 
growth. Although highways remain critical, lower-cost, often lower-
quality rural feeder roads are of equal and in some cases even greater 
importance.
    As far as agricultural GDP is concerned, in today's China 
additional investment in high-quality roads no longer has a 
statistically significant impact while low-quality roads are not only 
significant but also generate 1.57 yuan of agricultural GDP for every 
yuan invested. Investment in low-quality roads also generates high 
returns in rural nonfarm GDP. Every yuan invested in low-quality roads 
yields more than 5 yuan of rural nonfarm GDP. Low-quality roads also 
raise more poor people out of poverty per yuan invested than high-
quality roads, making them a win-win strategy for growth in agriculture 
and poverty alleviation. In Africa, governments can learn from the 
Chinese experience and make sure their road programs give adequate 
priority to lower-quality and rural feeder roads.
Irrigation
    Investment in water management is a crucial element of successful 
agricultural development and can be broken into two principal areas: 
policy and institutional reforms on the one hand and investment, 
technology, and management practices on the other. Water is also a 
critical input beyond agriculture, and successful irrigation policies 
and programs must take into account the key role of water in energy 
production, public health, and transportation. For small farmers, low-
cost technology is available, and there are cost-efficient technical 
solutions in even some of Africa's most difficult and arid regions. 
Despite the availability of these technologies, Africa has not seen 
widespread adoption of these techniques and technologies. Part of the 
problem is the availability of finance and the slow spread of 
knowledge, but equally important is the role of government regulations 
and subsidies.
    Successful strategies for improved water management and irrigation 
must therefore not only focus on new technologies but also on creating 
policies and regulations that encourage investment in irrigation, not 
just at the farm but also at the regional level. Access to reliable 
water supplies has proven a key determinant not just in the enhancement 
of food security but also in farmers' ability to climb higher up the 
value chain toward cash crops and processed foods. Innovative farmers 
involved in profitable agro-export may represent a new constituency for 
the stewardship of water resources, as they earn significantly higher 
incomes per unit of water than conventional irrigators. Our analysis 
will focus first on innovation in water management practices, 
technology, and infrastructure (including examples from Mali, Egypt, 
and India). In the final section of this chapter, we will also address 
key water policy and institutional reforms necessary to create an 
environment in which governments, international institutions, NGOs, and 
private businesses will be encouraged to make investments in irrigation 
infrastructure.
    Begun in 2007, the Alatona Irrigation Project will provide a 
catalyst for the transformation and commercialization of family farms, 
supporting Mali's national development strategy objectives to increase 
the contribution of the rural sector to economic growth and help 
achieve national food security. Specifically, it will increase 
production and productivity, improve land tenure security, modernize 
irrigated production systems and mitigate the uncertainty from 
subsistence rain-fed agriculture, thereby increasing farmers' incomes. 
The Alatona Irrigation Project will introduce innovative agricultural, 
land tenure, credit, and water management practices, as well as policy 
and organizational reforms aimed at realizing the Office du Niger's 
potential to serve as an engine of rural growth for Mali. This project 
seeks to develop 16,000 hectares of newly irrigated lands in the 
Alatona production zone of the Office du Niger, representing an almost 
20% increase of ``drought-proof'' cropland.
    Egypt depends almost entirely on 55.5 billion cubic meters per year 
of water from the Nile River. This allocation represents 95% of the 
available resource for the country. Approximately 85% of the Nile water 
is used for irrigation. Demand for water is growing while the options 
for increasing supply are limited. To respond, the Ministry of Water 
Resources and Irrigation (MWRI) has been implementing an Integrated 
Water Resource Management (IWRM) Action Plan. Its key strategy is to 
improve demand management. The Integration Irrigation Improvement and 
Management Project (IIIMP), a part of MWRI, has been implementing the 
IWRM Action Plan.
    The IIIMP adopted a three-point strategy: (1) proper sizing of the 
improved infrastructure to optimize capital costs; (2) technical 
innovations to increase cost savings and functionality; and (3) 
extension of the improvement package to the whole system (including 
tertiary and on-farm improvements). The IIIMP Project appraisal 
document envisaged (1) an average increase in farmers' annual income of 
approximately 15%, (2) water savings of approximately 22%, and (3) an 
overall economic rate of 20.5%. In the pilot areas where the program 
was implemented, yields increased by 12% to 25%. Net incomes per 
cultivated acre are increasing by 20% to 64% as a result of the 
combined effects of increased productivity and reduction of the 
irrigation costs (depreciation and operations and maintenance of pumps.
    Sugarcane cultivation requires significant water resources, but in 
much of India it has been cultivated using surface irrigation, where 
water use efficiency is very low (35%-40%), owing to substantial 
evaporation and distribution losses.\6\ A recent study of sugarcane 
cultivation in Tamil Nadu, India, has shown that using drip irrigation 
techniques can increase productivity by approximately 54% (30 tons per 
acre) and cut water use by approximately 58% over flood irrigation. 
Unlike surface methods of irrigation, under drip methods, water is 
supplied directly to the root zone of the crops through a network of 
pipes, a system that saves enormous amounts of water by reducing 
evaporation and distribution losses. Since water is supplied only at 
the root of the crops, weed problems are less severe and thus the cost 
required for weeding operations is reduced significantly. The system 
also requires little if any electricity.
    Although new and larger studies are necessary, initial analysis 
suggests that investment in drip irrigation in Indian sugarcane 
cultivation is economically viable even without subsidy and may also be 
applicable in Africa where many farmers have no or limited access to 
electricity-powered irrigation, water resources are increasingly 
threatened by climate change and environmental degradation, and less 
than 4% of the arable land is currently irrigated.
    Further, the present net worth indicates that in many cases farmers 
can recover their entire capital cost of drip irrigation from first-
year income without subsidy. Despite these gains, two impediments must 
be overcome for drip irrigation to be more widely used not just in 
India, but in much of the developing world. First, too few farmers are 
aware of the availability and benefits of drip irrigation systems, 
which should be demonstrated clearly and effectively through a quality 
extension network. Second, despite the quick returns realized by many 
farmers using drip irrigation, the systems require significant capital 
up front. Banks, microcredit institutions, companies, and governments 
will need to consider providing credit or subsidies for the purchase of 
drip irrigation.
    The total cultivated land area of the Common Market for Eastern and 
Southern Africa (COMESA) amounts to some 71.36 million hectares. Of 
this only about 6.48 million hectares are irrigated, representing some 
9% of the total cultivated land area. Besides available land area for 
irrigation, the region possesses enormous water resources and reservoir 
development potential to allow for expansion. Of the world's total of 
467 million hectares of annualized irrigated land areas, Asia accounts 
for 79 percent (370 million hectares), followed by Europe (7%) and 
North America (7%). Three continents--South America (4%), Africa (2%), 
and Australia (1%)--have a very low proportion of global irrigation. 
COMESA could contribute significantly to agricultural food production 
and poverty alleviation through expanding the land under irrigated 
agriculture and water management under rain-fed farming to effect all 
year round crop and livestock production.
    COMESA has recently made assessments through the Comprehensive 
Africa Agriculture Development Programme (CAADP) stocktaking reports 
involving some representative countries with respect to agriculture 
production options and concluded that regional economic growth and food 
security could be accelerated through investment in irrigation and 
agriculture water management. Agriculture water-managed rain-fed yields 
are similar to irrigated yields and always higher than rain-fed 
agriculture yields. This scenario builds a watertight case for 
promoting or expanding irrigated land in COMESA.
    The best solution to poverty and hunger alleviation is to provide 
people with the means to earn income from the available resources they 
have. Small-scale irrigation development coupled with access to long-
term financing, access to markets, and commercial farming expertise by 
producers will go a long way in achieving food security and overall 
economic development. COMESA has created an agency called the Alliance 
for Commodity Trade in Eastern and Southern Africa (ACTESA) to 
implement practical investment actions by engaging public private 
sector partnerships. In the areas of irrigation and agriculture water 
management, COMESA has begun to implement a number of important 
activities, described next.
    Accelerated adoption of appropriate small-scale irrigation 
technologies and improved use and management of agriculture water will 
facilitate increased agricultural production and family incomes. The 
rain-fed land area will require agriculture water management strategies 
such as conservation agriculture, which enhances production. 
Appropriate investment in field systems for irrigation with modest 
investments will help smallholder farmers adopt irrigation technology 
whereas the majority who practice rain-fed agriculture would improve 
agriculture productivity by managing rainwater through systems such as 
conservation agriculture technology. COMESA is embarking on reviewing 
the policy and legal framework in water resources management programs 
including transboundary shared water resources management policies 
under CAADP. This will include actions toward adaptation by member 
states of regional water resources management policies.
    COMESA is working with regional and international organizations 
such as Improved Management of Agriculture Water in Eastern and 
Southern Africa (IMAWESA), East African Community (EAC), Southern 
African Development Coordination (SADC), Intergovernmental Authority 
for Development (IGAD), International Water Management Institute 
(IWMI), and Wetland Action-UK in creating awareness in regional 
sustainable water resources management by creating and strengthening 
water dialogue platform and communication strategies. Through ACTESA, 
COMESA will help develop regional water management information systems 
observation networks so as to enhance mapping for water harvesting 
resources and water utilization in COMESA.
    To realize the benefits of irrigation and agriculture water 
management, COMESA is promoting investment in the following areas: 
reservoir construction for storage of water to command an expansion of 
land area under irrigation by 30% in five years; inland water resources 
management of watershed basins in the COMESA region including, policy 
and legal frameworks in trans-boundary shared water resources 
management, harmonizing shared water resources policies to optimize 
utilization, strengthening regional institutions involved in water 
resources management, and establishment of a regional water resources 
management information system; building capacity and awareness for 
sustainable water resources utilization and management for agricultural 
food production; rapid expansion of terraces for hilly irrigation in 
some member states; and promotion and dissemination of appropriate 
irrigation and agriculture water management technology transfer and 
adoption. These include smallholder irrigation infrastructure.
Energy
    To enhance agricultural development and to make progress in value-
added agro-processing, Africa needs better and more consistent sources 
of energy. Rolling blackouts are routine in much of west, central, and 
eastern Africa, and much of Africa's power generation and transmission 
infrastructure needs repair or replacement. What Africa lacks in 
adequate deployment, however, it makes up for in potential. Africa is 
endowed with hydro, oil, natural gas, solar, geothermal, coal and other 
resources vast enough to meet all its energy needs. Nuclear energy is 
also an option. The hydro potential of the Democratic Republic of the 
Congo is itself enough to provide three times as much power as Africa 
currently consumes.
    The first step to improved power generation and transmission is to 
repair and upgrade Africa's existing energy infrastructure. Many 
African countries are operating at less than half their installed 
potential due to inadequate maintenance and operation. Connecting rural 
areas to national grids can in some cases be cost prohibitive, so 
governments must also look for innovative solutions such as wind, 
solar, biomass, and geothermal to provide power at the small farm 
level. Finally, while countries will undoubtedly look first within 
their own borders for resources, advanced energy planning should also 
consider that the most affordable and reliable power may be in 
neighboring states. Large power generation schemes may also require 
cooperative agreement on resource management and funding from a host of 
African and international sources. Cross-border energy networks could 
help create a common market for energy, spur investment and 
competition, and lead to a more efficient path of enhanced energy 
infrastructure.
    An example of such a regional energy system is the West African 
Power Pool (WAPP). Under an agreement signed by 14 ECOWAS members in 
2000, countries plan to develop energy production facilities and 
interconnect their respective electricity grids. According to the 
agreement, the work would be approached in two phases. ECOWAS estimates 
that 5,600 kilometers of electricity lines connecting segments of 
national grids will be put in place. About US$11.8 billion will be 
needed for the necessary power lines and new generating plants. This 
infrastructure would give the ECOWAS subregion an installed capacity of 
10,000 megawatts and, critically for agro-processing and business 
investment, dramatically increase not just the amount but also the 
reliability of electricity in west Africa.
    The key objectives of the WAPP are to establish a well-functioning, 
cooperative, power-pooling mechanism among national power utilities of 
ECOWAS member states, based on a transparent and harmonized legal, 
policy, regulatory, and commercial framework. This framework would 
promote cross-border exchange of electricity on a risk-free basis; 
assure national power utilities of mutual assistance to avoid a 
regional power system collapse, or rapid restoration of interconnected 
regional power; reduce collective vulnerability of ECOWAS member states 
to drought-induced power supply disruptions; give ECOWAS member states 
increased access to more stable and reliable supplies of electricity 
from lower-cost regional sources of (hydro and gas-fired thermal) power 
generation; and create clear and transparent pricing arrangements for 
cross-border trade to facilitate electricity exchange and trade.
    The WAPP organization has been created to integrate the national 
power system operations into a unified regional electricity market--
with the expectation that such a mechanism would, over the medium to 
long term, assure the citizens of ECOWAS member states a stable and 
reliable electricity supply at affordable costs. This will create a 
level playing field facilitating the balanced development of the 
diverse energy resources of ECOWAS member states for their collective 
economic benefit, through long-term energy sector cooperation, 
unimpeded energy transit, and increased cross-border electricity trade. 
The major sources of electricity under the power pool would be 
hydroelectricity and gas to fuel thermal stations. Hydropower would be 
mainly generated on the Niger (Nigeria), Volta (Ghana), Bafing (Mali), 
and Bandama (Cote d'Ivoire) rivers. The World Bank has committed a 
$350-million line of credit for the development of the WAPP, but a 
billion more is needed in public and private financing.
    Most of the power supply in Africa is provided by the public 
sector. There is growing interest in understanding the ability of 
independent power projects (IPPs) in Africa by evaluating a project's 
ability to produce reliable and affordable power as well as reasonable 
returns on investment.\7\ In the context of their individual markets 
the 40 IPPs under consideration here have played a complementary role 
to state-owned power projects, filling gaps in supply. It was also 
hoped that, once established, these private entities would introduce 
competition into the market.
    Evidence suggests that there is a dichotomy between relatively 
successful IPPs situated mainly in the northern African nations of 
Egypt, Morocco, and Tunisia, and the sub-Saharan examples including 
Ghana, Kenya, Nigeria, and Tanzania, which have been less successful. A 
wide variety of country-level factors including investment climate, 
policy frameworks, power sector planning, bidding processes, and fuel 
prices all impacted outcomes for these various IPPs. Despite their 
private nature, ultimately, it is the perceived balance of commitment 
between sponsors and host-country governments that plays one of the 
largest roles in the outcome of the IPP. A leading indicator of 
imbalance is frequent and substantial contract changes.
    The presence of a favorable climate for investment influenced the 
outcome of the IPPs. In the more successful north African examples, 
Tunisia carried an investment grade rating, while Egypt and Morocco 
were both only one grade below investment grade. In contrast, of those 
nations located in sub-Saharan Africa, none received an investment 
grade rating. The great demand for IPPs in Africa at the time meant 
that those with superior investment profiles were able to attract more 
investors and had a basis for negotiating a more balanced contract.
    Few of the nations in question have established a clear and 
coherent policy framework within which an IPP could sustainably 
operate. The soundest policy frameworks again are found in the north, 
with Egypt, which contains 15 IPPs, being the strongest. This policy 
framework features a clearly defined government agency in the Egyptian 
Electricity Authority, which has authority over the procurement of 
IPPs, the allocation of new generation capacity, and the ability to set 
benchmarks to increase competition among public facilities. Kenya set 
itself apart in this context with the establishment of an independent 
regulator--the Electricity Regulatory Board--which has helped to 
significantly reduce power purchase agreement charges, set tariffs, and 
mediate the working relationship between the public and private 
sectors. Evidence suggests that if a regulator is established prior to 
negotiation of the IPP, and acts in a transparent, fair, and 
accountable manner, this office can have a significantly positive 
effect on the outcomes for the host country and investor.
    A coherent power sector plan follows from a strong policy framework 
and includes setting a reliability standard for energy security, supply 
and demand forecasts, a least-cost plan, and agreements on how new 
generation will be divided between public and private sectors. It is 
equally important that these functions are vested in one empowered 
agency. Failure to meet these goals is apparent in the examples of 
Tanzania (Songo Songo), Kenya (Westmont plant, Iberafrica plant), 
Nigeria (AES Barge), and Ghana, which fast-tracked IPPs to meet 
intermediate power shortages in the midst of drought conditions. The 
results were unnecessary costs and time delays for all, and in the case 
of the Nigerian and Ghanaian facilities, an inability to efficiently 
establish power purchase agreements.
    The main lesson learned here is that without a strong legislative 
foundation and coherent planning, contracts were unlikely to remain 
intact. Instability of contracts was widespread across the cases 
studied, and though they did not necessarily deal a death blow to the 
project, renegotiations always came at a further cost.
Telecommunications
    Access to timely weather, market, and farming best practices 
information is no less important for agricultural development than 
access to transport infrastructure, regular and efficient irrigation, 
and energy. In Africa, as in much of the developing world, innovations 
in telecoms offer the potential to bring real change directly to the 
farm level long before more timely and costly investment in fixed 
infrastructure. Mobile phone penetration rates now exceed those of 
landlines and the industry is growing at an average annual rate of over 
50% in the region. Mobile phone ownership in Africa increased from 54 
million to almost 350 million between 2003 and 2008. Ownership rates 
under-represent actual usage, however, as many small vendors offer 
mobile access for calls or text messages. Even in rural areas, mobile 
penetration rates have now reached close to 42%. Mobile phones are 
becoming increasingly important tools in agricultural innovation, where 
they have been used to transfer and store money, check market prices 
and weather information, and even share farming best practices.
    The case of India's e-Choupal (choupal is Hindi for a gathering 
place) illustrates the increasingly important role telecommunications 
can play in African agricultural innovation.\8\ ITC is one of India's 
leading private companies, with annual revenues of US$2 billion. The 
company has initiated an e-Choupal effort that places computers with 
Internet access in rural farming villages; the e-Choupals serve as both 
a social gathering place for exchange of information and an electronic 
commerce hub. The e-Choupal system has catalyzed rural transformation 
that is helping to alleviate rural isolation, create more transparency 
for farmers, and improve their productivity and incomes. The system has 
also created a highly profitable distribution and product design 
channel for ITC--an e-commerce platform that is also a low-cost 
fulfillment system focused on the needs of rural India.
    A computer, typically housed in a farmer's house, is linked to the 
Internet via phone lines or, increasingly, by a satellite connection, 
and serves an average of 600 farmers in 10 surrounding villages within 
about a five-kilometer radius. Each e-Choupal costs between US$3,000 
and US$6,000 to set up and about US$100 per year to maintain. Using the 
system costs farmers nothing, but the host farmer, called a sanchalak, 
incurs some operating costs and is obligated by a public oath to serve 
the entire community; the sanchalak benefits from increased prestige 
and commissions for all e-Choupal transactions. The farmers can use the 
computer to access daily closing prices on local mandi (a government-
sanctioned market area or yard where farmers sell their crops) as well 
as to track global price trends or find information about new farming 
techniques--either directly or, because many farmers are illiterate, 
via the sanchalak.
    Farmers also use the e-Choupal to order seed, fertilizer, and other 
goods from ITC or its partners, at prices lower than those available 
from village traders; the sanchalak typically aggregates the village 
demand for these products and transmits the order to an ITC 
representative. At harvest time, ITC offers to buy the crop directly 
from any farmer at the previous day's closing price; the farmer then 
transports his crop to an ITC processing center where the crop is 
weighed electronically and assessed for quality. The farmer is then 
paid for the crop and a transport fee. ``Bonus points,'' which are 
exchangeable for products that ITC sells, are given for above-normal 
quality crops.
    Farmers benefit from more accurate weighing, faster processing 
time, prompt payment, and access to information that helps them to 
decide when, where, and at what price to sell. The system is also a 
channel for soil testing services and for educational efforts to help 
farmers improve crop quality. The total benefit to farmers includes 
lower prices for inputs and other goods, higher yields, and a sense of 
empowerment. At the same time, ITC benefits from net procurement costs 
that are about 2.5% lower and more direct control over the quality of 
what it buys. The system also provides direct access to the farmer and 
to information about conditions on the ground, improving planning and 
building relationships that increase its security of supply. The 
company reports that it recovers its equipment costs from an e-Choupal 
in the first year of operation and that the venture as a whole is 
profitable.
    By 2010 there were 6,500 e-Choupals serving more than 4 million 
farmers in nearly 40,000 villages spread over 10 states. ITC is also 
exploring partnering with banks to offer farmers access to credit, 
insurance, and other services that are not currently offered or are 
prohibitively expensive. Moreover, farmers are beginning to suggest--
and in some cases, demand--that ITC supply new products or services or 
expand into additional crops, such as onions and potatoes. Thus, 
farmers are becoming a source of product innovation for ITC.
    By providing a more transparent process and empowering local people 
as key nodes in the system, the e-Choupal system increases trust and 
fairness. Improved efficiencies and potential for better crop quality 
make Indian agriculture more competitive. Despite the undependable 
phone and electrical power infrastructure that sometimes limit hours of 
use, the system also links farmers and their families to the world. 
Some sanchalaks track futures prices on the Chicago Board of Trade as 
well as local mandi prices, and village children have used the 
computers for schoolwork, games, and obtaining academic test results. 
The result is a significant step toward rural development.
    The availability of weather information systems for farmers is also 
emerging as a critical resource. Although advances in irrigation 
infrastructure and technology are lowering farmers' dependency on 
weather, a second avenue to advance agricultural development is more 
accurate and more accessible weather information. To address the gap in 
accurate, timely, and accessible weather information in Africa, the 
Global Humanitarian Forum, Ericsson, World Meteorological Organization, 
Zain, and other mobile operators have developed a public-private 
partnership to (1) deploy up to 5,000 automatic weather stations in 
mobile network sites across Africa and (2) increase dissemination of 
weather information via mobile phones to users and communities--
including remote farmers and fishermen.
    Zain will host the weather equipment at mobile network sites being 
rolled out across Africa, as achieving the 5,000 target will require 
additional operator commitment and external financing. Mobile networks 
provide the necessary connectivity, power, and security to sustain the 
weather equipment. Through its Mobile Innovation Center in Africa, 
Ericsson will also develop mobile applications to help communicate 
weather information developed by national meteorological and 
hydrological services. Mobile operators will maintain the automatic 
weather stations and assist in the transmission of the data to national 
meteorological services. The initial deployment, already begun in Zain 
networks, focuses on the area around Lake Victoria in Kenya, Tanzania, 
and Uganda. The first 19 stations installed will double the weather 
monitoring capacity of the lake region.
Infrastructure and Innovation
    One of the most neglected aspects of infrastructure investments is 
their role in stimulating technological innovation. Development of 
infrastructure in a country is often not enough to create sustained 
economic growth and lifestyle convergence toward that of developed 
countries. Technology learning is very important to a country's 
capacity to maintain current infrastructure and become competitive. In 
the first model of technology transfer, state-owned or privatized 
utility firms couple investment in public infrastructure with 
technological training programs, usually incorporated into a joint 
contract with international engineering firms. This type of capacity 
building lends itself to greater local participation in future 
infrastructure projects both in and out of the country.
    The effectiveness of a comprehensive collaboration with foreign 
companies to facilitate both infrastructure building and technology 
transfer is seen in South Korea's contract with the Franco-British 
Consortium Alstom. The Korean government hoped to develop a high-speed 
train network to link Seoul with Pusan and Mokpo. The importance of the 
infrastructure itself was undeniable--the Korean Train Express (KTX) 
was meant to cross the country, going through a swath of land 
responsible for two-thirds of Korea's economic activity. In 
anticipation of the project, officials projected that by 2011, 120 
million passengers would be using the KTX per year, leading to more 
balanced land development across South Korea.
    However, while the project had the potential to increase economic 
activity and benefit the national industries in general, the project's 
benefits lay significantly in the opportunity ``to train its workforce, 
penetrate a new industrial sector, and potentially take the lead in the 
high-speed train market in Asia.'' \9\ In other words, Korea sought to 
obtain new technologies and the capacity to maintain and operate them. 
Under the contract with Alstom, which was finalized after 20 years of 
discussion, Alstom provided both the high-speed trains and railways 
that would help connect Seoul and Pusan and the training to help South 
Korea build and maintain its own trains.
    From the beginning of negotiations, technology transfer was an 
important factor for the South Korean government. In 1992, bidding 
between Alstom, Siemens (a German group), and Mitsubishi (a Japanese 
group) commenced. After the bids were significantly slashed, Korean 
officials let it be known that in addition to price, financial 
structures and technology transfers would be major criteria during the 
final selection. It was in this category that Alstom successfully 
outbid the other consortia and won the contract, which specified that 
half of all production would occur in Korea, with 34 of the trains to 
be built by Korean firms. This would give Korea both production revenue 
and the experience of building high-speed trains--with the goal of one 
day exporting them. The contract also stipulated that 100% of Alstom's 
TGV (Train a Grande Vitesse) technology would be transferred to the 15 
Korean companies that were to be involved in the project. Such 
technologies include industrial planning, design and development of 
production facilities, welding, manufacturing, assembly and testing 
carried out through operating and maintenance training, access to 
important documents and manuals for technical assistance, and 
maintenance supervision.
    While the overall benefits of technology transfer are clear, more 
technologically advanced countries face some risks. One risk, known as 
the boomerang effect, affects the company that is transferring the 
technology--Alstom in this case. By giving the technological knowledge 
to South Korean companies, Alstom runs the risk of essentially creating 
its own competitor. This risk is especially high in this case because 
Alstom has transferred 100% of its TGV technology and 50% of the 
production to Korea. Low labor costs, weak contractual constraints, and 
Korea's known tendency to disregard intellectual property rights 
increase this risk. Other risks include unexpected shifts in economic 
conditions, currency devaluations, questionable competitive practices, 
hurried local production, lengthy and cumbersome administrative 
procedures, restrictive foreign payment rules, management weaknesses, 
and frail partnership involvement.
    While these risks are indeed significant, they should not deter 
such agreements between countries. There are many ways to decrease such 
risks. For example, to make sure that payments are timely and that 
intellectual property rights are upheld, the company of interest should 
create a detailed contract with large penalties and disincentives for 
any violations.
    Another step that should be taken is to maintain strong research 
and development projects to ensure that one's technology will always be 
superior. A good way to avoid the boomerang effect is to establish 
long-term relationships, such as Alstom established with Korea. A 
similar method of preventing the boomerang effect is to establish 
partnerships with local manufacturers. Finally, Alstom took strides to 
collaborate with established competitors, like the formation of 
EUROTRAIN with Siemens, to increase penetration into new markets.
    And despite the numerous risks, training and technology transfer 
did not result in a loss for Alstom, for benefits included numerous 
cash payments, dividends, and income from giving access to its 
technology, selling equipment parts, and establishing separate ventures 
with Korean companies. Additionally, the project gave the company the 
opportunity to show the exportability of TGV to Asian markets. In 
particular, the reliability of Alstom's products and procedures was 
demonstrated in the partnership, making other countries more likely to 
work with the company. Experience in the Korean market, competitive 
advantages with respect to European countries, and new business 
opportunities were other advantages that increased Alstom's market 
share in Asia. Increased flexibility and experience with international 
markets as well as decentralized management also benefited Alstom. 
Finally, Alstom's technology became the international standard, leading 
to enormous competitive advantages for that company.
    To facilitate the transfer, development, and construction of the 
high-speed railway system, the Korean government created the Korean 
High-Speed Rail Construction Authority (KHRC), whose mandate was to 
construct such systems at home and abroad, to research and find ways to 
improve the technology, and to oversee commercialization along the 
railway line. Issues with the project were soon revealed; after two 
tragedies--the collapse of the Songsu Bridge and of a large store in 
Seoul--Korean officials began to doubt its civil engineering 
capabilities. For this reason, KHRC decided to hire foreign engineers. 
After project delays and other issues, the last section of railway 
track from Taegu to Pusan was canceled and the building of 34 trains 
was postponed. However, after renegotiations, construction recommenced.
    Other issues show the difficulty of such a project collaboration. A 
rift developed between France and South Korea due to a withdrawn 
agreement between two companies. Further, the TGV was unable to 
function in Korea during an unusually cold winter in 1996-1997, drawing 
questions and critiques from the Korean press. An economic crisis, 
which caused an abrupt depreciation of the Korean won against the U.S. 
dollar, made the purchase of goods and services from foreigners more 
expensive. A final rift was created by the election of President Kim 
Dae Jung in 1997, who was a vocal opponent of the KTX project. As seen 
here, exogenous interactions between the countries of interest can 
greatly affect the attempts to collaborate in technological transfer.
    Despite the many risks of international technology transfer, the 
benefits far outweigh the costs. For example, by 2004, 100% of the TGV 
technology was transferred to Korea. Despite initial setbacks, 
ridership has increased greatly at the expense of other modes of 
transportation. More lines are expected to be built, and the success of 
the technology transfer has become apparent through the construction of 
the HSR-350x Korean-made train and the order of 19 KTX-II train sets in 
2006 from Hyundai Rotem. It is claimed that these trains use 87% Korean 
technology. As for Alstom, their success is evident in the numerous 
contracts they have negotiated in the Asian markets.
    In conclusion, the KTX project demonstrates how technology transfer 
can help developing countries to obtain advanced capabilities to build 
and develop infrastructure, leading to increased economic growth and 
productivity. The South Korean example serves as a model for African 
countries and applies to urban and rural projects alike. The lessons 
are particularly important considering the growing interest among 
African countries in investing in infrastructure projects.\10\ While 
African countries will face their own unique issues, the KTX project 
illustrates costs and benefits that should be weighed in making such 
decisions and provides hope for new methods of technological 
dissemination. The tendency, however, is to view infrastructure 
projects largely in terms of their returns on investment and overall 
cost structure.\11\ Their role in technological capacity building is 
rarely considered.\12\ The growing propensity to want to leave 
infrastructure investments to the private sector may perpetuate the 
exclusion of public interest activities such as technological 
learning.\13\
    One of the key aspects of the project was a decision by the 
government to set up the Korea Railroad Research Institute (KRRI). 
Founded in 1996, KRRI is the nation's principal railway research body. 
Its focus is improving the overall national railway system to maintain 
global competitiveness, with the goal of putting Korea among the top 
five leaders in railway technology. It works by bringing together 
experts from academia, industry, and government.
Regional Considerations
    Roads, water facilities, airports, seaports, railways, 
telecommunications networks, and energy systems represent just a 
portion of the web of national and regional infrastructure necessary 
for food security, agricultural innovation, and agriculture-based 
economic development. Countries and regions must create comprehensive 
infrastructure investment strategies that recognize how each area is 
linked to the next, and investments must in many cases pool regional 
resources and cross numerous international borders. Transportation 
infrastructure is critical to move inputs to farms and products to 
market; widespread and efficient irrigation is essential for increasing 
yields and crop quality; energy is a vital input, particularly for 
value-added food processing; and telecoms are critical for the exchange 
of farming, market, and weather information. Alone, however, none of 
these investments will produce sustainable innovation or growth in 
agriculture. National and regional investment strategies will be needed 
to pool resources, share risks, and attract the private actors often 
critical to substantial investments in such ventures.
    It seems obvious that roads would play a critical role in 
agricultural development, but they have often received inadequate 
investment. On-farm innovations are critical, but in many cases they 
depend on inputs that can only be delivered via roads, and they will be 
of very limited use if farmers have no way to reliably move their 
products to markets. Countries looking to improve their roads should 
carefully assess where their competitive advantages lie, identify which 
new or refurbished roads would best capitalize on those advantages, 
ensure that roads are placed within a broader plan for transportation 
infrastructure, and develop pre-construction plans for long-term 
maintenance.
    Large roads and highways have garnered the bulk of capital and 
attention in much of the developing world, but smaller, lower-quality 
rural feeder roads often have significantly higher returns on 
investment--particularly in areas where major highways already exist. 
Learning from the Chinese experience, countries should carefully assess 
the relative return between larger highways and smaller rural-feeder 
roads, selecting the better investment.
    National water policy and programs are notoriously Balkanized into 
fractious agencies and interest groups, often with competing 
objectives. This is a problem that countries across the world face, as 
is evidenced by the small American town of Charlottesville, Virginia. 
Charlottesville has no less than 13 separate water authorities 
representing its roughly 50,000 residents. As we saw with the positive 
example of Egypt (a country with significant water resource pressures 
but a highly advanced water management system), an initial step to 
success is streamlining government regulation of water issues under a 
single national agency, or family of agencies. Water policy and 
programs should be coordinated at the national, not state, level, and 
must also look across borders to neighboring states as many key issues 
in water, including power generation, agricultural diversion, and water 
quality, are often closely linked to key issues up- or downstream.
    Many African states already face water shortages, and the threat of 
global climate change may further stress those limited resources. 
Bringing new water assets online through large irrigation projects is 
important, but those resources are limited; more economical use of 
water is just as if not more important. Central to this goal are 
farming techniques that get ``more dollar per drip.'' As we saw earlier 
with the case of India, drip irrigation can be one solution. To 
overcome the initial capital hurdle, governments, companies, and banks 
could consider subsidizing and/or providing loans for the purchase of 
initial equipment.
    As with water, energy issues often transcend national borders. In 
many cases, the best location to produce or sell power may be outside a 
country's borders. Regional cooperation will be essential for unlocking 
much of Africa's energy generation potential, as many projects will 
require far more investment than any one country can provide and 
involve assets that must span multiple national borders. To pool 
national resources and entice private capital for major energy 
products, regional organizations will need to help create strong, 
binding agreements to provide the necessary confidence not only to 
their member states but also to private companies and investors. The 
ECOWAS-led Western African Power Pool (WAPP) provides a good model for 
replication, but it is also an indicator of the high level of 
commitment and private capital that must be raised to push through 
large, regional power agreements.
    Large power generation and transmission schemes are critical to 
agricultural development but in some cases may prove too lengthy, 
costly, or difficult to have large, timely impacts in remote rural 
areas. One way to complement these larger energy programs is to make 
additional investment in remote rural energy generation at the local or 
even farm level. Renewable technologies including solar, wind, biogas, 
bioethanol, and geothermal can be scaled for farms and small business 
and have the added advantage of requiring minimal transmission 
infrastructure and often a low carbon footprint. To encourage this 
production, governments could consider replicating Tanzania's Rural 
Energy Agency, which is funded by a small tax on sales from the 
national energy utility, as well as partnerships with NGOs, 
foundations, foreign governments, and businesses.
    The transfer of knowledge is nearly as important to agricultural 
innovation as the transfer of physical inputs and farm outputs. 
Telecoms can play a unique role in the transfer of farming best 
practices as well as critical market and weather information. Most of 
Africa's telecom infrastructure is owned by the private sector. As we 
have seen from cases in India, China, and Africa, private companies can 
play a key role in the development of telecoms as a tool for 
agricultural innovation. Governments and regional bodies should work 
with major telecom providers and agribusinesses to form innovative 
partnerships that provide profits to companies and concrete benefits 
such as enhanced farming knowledge transfer and market and weather 
information.
    Mobile phone penetration rates are growing faster in Africa than 
anywhere in the world. Mobile phones and the cell tower networks on 
which they depend provide a unique platform for the collection and even 
more important the dissemination of key information, including farming 
best practices, market prices, and weather forecasts. To reach scale, 
Africa's regional organizations should engage their member states, key 
telecom businesses, and NGOs to harness existing technologies such as 
SMS (and next generation technologies such as picture messaging and 
custom applications for mobiles) to provide farmers with access to key 
agricultural, market, and weather information.
Conclusion
    Infrastructure investment is a critical aspect of stimulating 
innovation in agriculture. It is also one of the areas that can benefit 
from regional coordination. Indeed, the various RECs in Africa are 
already increasing their efforts to rationalize and coordinate 
infrastructure investments. One of the lessons learned from other 
countries is the importance of linking infrastructure investment 
(especially in key areas such as transportation, energy, water, and 
telecommunications) to specific agricultural programs. It has been 
shown that low-quality roads connecting farming communities to markets 
could contribute significantly to rural development. An additional 
aspect of infrastructure investment is the need to use such facilities 
as foundations for technological innovation. One strategic way to 
achieve this goal is to link technical training institutions and 
universities to large-scale infrastructure projects. The theme of 
education, especially higher technical training, is the subject of the 
next chapter.
5  Human Capacity
    Education and human capacity building in Africa have many well-
publicized problems, including low enrollment and completion rates. One 
of the most distressing facts about many African school systems is that 
they often focus little on teaching students to maximize the 
opportunities that are available to them in their own communities; 
rather, they tend to prioritize a set of skills that is less applicable 
to village life and encourages children to aspire to join the waves of 
young people moving to urban areas. For some students, this leads to 
success, but for many more it leads to unfulfilled aspirations, dropout 
rates, and missed opportunities to learn crucial skills that will allow 
them to be more productive and have a better standard of living in 
their villages. It also results in nations passing over a chance to 
increase agricultural productivity, self-sufficiency, and human 
resources among their populations.
Education and Agriculture
    African leaders have the unique opportunity to use the agricultural 
system as a driver for their economies and a source of pride and 
sustainability for their populations. About 36% of all African labor 
potential is used in subsistence agriculture. If that percentage of the 
population could have access to methods of improving their agricultural 
techniques, increasing production, and gaining the ability to transform 
agriculture into an income earning endeavor, African nations would 
benefit in terms of GDP, standard of living, infrastructure, and 
economic stability. One way to accomplish this is to develop systems--
both formal and informal--to improve farmers' skills and abilities to 
create livelihoods out of agriculture rather than simply subsistence.
    These systems start with formal schooling. Schools should include 
agriculture as a formal subject--from the earliest childhood experience 
to agricultural universities. They should consider agriculture an 
important area for investment and work to develop students' 
agricultural and technical knowledge at the primary and secondary 
levels. Universities should also consider agriculture an important 
research domain and devote staff and resources to developing new 
agricultural techniques that make sense for their populations and 
ecosystems. University research needs to stay connected to the farmers 
and their lifestyles to productively foster agricultural growth.
    Decision makers should also look for ways to foster human capacity 
to make agricultural innovations outside of a traditional classroom. A 
variety of models incorporate this idea--from experiential and 
extension models to farmers' field schools, both discussed later in 
this chapter. Rural radio programs that reach out to farming 
communities and networks of farmers' associations spread new 
agricultural knowledge. In fact, there is a resurgence of radio as a 
powerful tool for communication.\1\
    Governments and schools should treat agriculture as a skill to be 
learned, valued, and improved upon from early childhood through adult 
careers instead of as a last resort for people who cannot find the 
resources to move to a city and get an industrial job. Valuing the 
agricultural system and lifestyle and trying to improve it takes 
advantage of Africa's existing systems and capacities. In this way, 
many nations could provide significant benefits for their citizens, 
their economies, and their societies.
    Nowhere is the missed opportunity to build human capacity more 
evident than in the case of women and agriculture in Africa. The 
majority of farmers in Africa are women. Women provide 70%-80% of the 
labor for food crops grown in Africa, an effort without which African 
citizens would not eat. Female farmers make up 48% of the African labor 
force. This work by women is a crucial effort in nations where the 
economy is usually based on agriculture.
    Belying their importance to society and the economy, women have 
traditionally benefited from few of the structures designed to promote 
human capacity and ability to innovate. UNESCO estimates that only 45% 
of women in Africa are literate compared to 70% of men; 70% of African 
women do not complete primary school, and only about 1.5% of women 
achieve higher education. Of all of the disciplines, science and 
agriculture attract the fewest women.
    For example, in Ghana, women account for only 13% of university-
level agriculture students and 17% of scientists.\2\ By not focusing on 
building the capacity of women, African states miss the chance to 
increase the productivity of a large portion of their labor force and 
food production workers. The lack of female involvement in education, 
especially science and agriculture, means there is an enormous 
opportunity to tap into skills and understandings of agricultural 
production that could help lead to more locally appropriate farming 
techniques and more thorough adoption of those techniques.
Gender and Agriculture
    Although nearly 80% of agricultural producers in Africa are women, 
only 69% of female farmers receive visits from agricultural extension 
agents, compared to 97% of male farmers. Of agricultural extension 
agents, only 7% are female. In many places, it is either culturally 
inappropriate or simply uncommon for male extension agents to work with 
female farmers, so existing extension systems miss the majority of 
farmers. Additionally, as the Central American case below demonstrates, 
having extension workers who understand the experience of local farmers 
is central to promoting adoption. An important component of successful 
adoption is including female extension workers and educators in formal 
and informal settings.
    Unequal distribution of education is the other critical factor in 
the misuse of women's contributions in agricultural production. 
Compared to the colonial period and the situation inherited at 
independence, considerable gains have been realized in general and 
female school attendance. Still, many countries have not yet achieved 
even universal primary school attendance. Gender inequality is most 
severe in contexts where general enrollment is lower.
    Furthermore, several countries had a severe setback in the early 
1980s, as their enrollment rates were either stagnant or declining. The 
persistent economic crisis meant that the previously agreed upon 
targets of universal primary enrollment in 1980 and then 2000 could not 
be met. Since the Dakar Conference of 2000 and creation of the 
Millennium Development Goals, new targets have been set for universal 
primary enrollment by 2015. However, at this stage, there is little 
doubt that most countries will not be able to reach this goal. By and 
large, countries with the lowest enrollment ratios from primary to 
higher education levels have the lowest enrollment ratios for their 
female populations.
    African countries have shown considerable vitality in enrollment in 
higher education since the mid-1990s, following the lean years of the 
destructive structural adjustment programs. Nevertheless, African 
countries still have the lowest higher education enrollment in the 
world. Although there are a few exceptions in southern Africa (Lesotho 
is a unique case, where nearly three-fourths of the higher education 
students are females), in most African countries female enrollment is 
lower than that of males. Furthermore, the distribution of higher 
education students by discipline shows consistently lower patterns of 
female representation in science, technology, and engineering.
    Considering African women's cultural heritage and continued central 
role in agriculture, it is a major paradox that their representation is 
so low in tracks where agricultural extension workers and other 
technicians and support staff and agricultural engineers are trained. 
Indeed, if there were any consistency between current educational 
systems and adequate human resource development, there would be at 
least gender parity in all the fields related to agriculture and trade. 
Yet only a few countries, such as Angola and Mozambique, have designed 
and implemented policies encouraging a high representation of females 
in science, including those fields related to agriculture. More 
generally, for both males and females, little effort is made in the 
educational system to promote interest in science in general and 
agriculture in particular.
    It is vital to put more emphasis on involving women in agriculture 
and innovation, as well as helping female farmers build their capacity 
to increase productivity. There are several avenues to reach this goal. 
The first is women's training programs that focus specifically on 
agriculture. Another crucial avenue is emphasizing female participation 
in extension work--both as learners and extension agents, discussed 
later in this chapter.
    The Uganda Rural Development and Training Program (URDT), which is 
establishing the African Rural University for women in the Kabala 
district of Uganda, is an innovative model of a program that focuses on 
building strong female leaders for careers in agriculture and on 
involving the community in every step of agricultural innovation. URDT 
students are fond of quoting the adage: ``If you educate a man, you 
educate an individual. If you educate a woman, you educate a nation.''
    A key component of the program is to view individuals and 
communities holistically and to help people envision the future they 
want and to plan steps to get there. Their programming is tailored to 
locally identified needs that value the communities' lifestyles and 
traditions while allowing adoption of new technologies and improvement 
of production. URDT has had huge success in supporting change in the 
region since their founding as an extension project in 1987. Their 
impact has resulted in better food security, increased educational 
attainment, raised incomes for families across the district, better 
nutrition, and strong female leaders who engage in peace-building 
efforts and community improvements, among others. One driving factor is 
the innovative model of community-university interaction that focuses 
on women and agriculture.
    URDT has a primary and secondary girls' school that focuses on 
developing girls' abilities in a variety of areas, including 
agricultural, business, and leadership skills, and encouraging them to 
bring their knowledge out to the community. At URDT Girls School, 
students engage in ``Back Home'' projects, where they spend some time 
among their families conducting a project that they have designed from 
the new skills they learned at school. Such projects include creating a 
community garden, building drying racks to preserve food in the dry 
season, or conducting hygiene education. Parents come to the school 
periodically to also engage in education and help the girls design the 
Back Home projects. School becomes both a learning experience and a 
productive endeavor; therefore, families are more willing to send 
children, including girls, to school because they see it as relevant to 
improving their lives.
    URDT focuses on agriculture and on having a curriculum that is 
relevant for the communities' needs. They have an experimental farm 
where people can learn and help develop new agricultural techniques, as 
well as a Vocational Skills Institute to work with local artisans, 
farmers, and businessmen who have not had access to traditional 
schooling. There is an innovative community radio program designed to 
share information with the broader community. URDT also runs an 
Appropriate and Applied Technology program that allows people from the 
community to interact with international experts and scientists to 
develop new methods and tools to improve their lives and agricultural 
productivity. A recent example is developing a motorcycle-drawn cart to 
help bring produce to market and improve availability and use of 
produce.
    Governments can draw on this model to create effective learning 
institutions to support agriculture, and particularly women's and 
communities' involvement in it. The three key lessons of the model are 
to make sure that the school is working with and giving back to the 
community by focusing on its needs, which are often based around 
agriculture; to create a holistic program that sees how the community 
and the institution can work together on many interventions--
technology, agriculture, market infrastructure, and education--to 
improve production and the standard of living; and to focus on women 
and girls as a driving force behind agriculture and community change, 
benefiting the whole society.
    The crucial unifying factor is to integrate education at all 
levels, and the research processes of higher education in particular, 
back into the community. This allows the universities to produce 
technologies relevant to rural communities' needs and builds trust 
among the research, education, and farming communities.
Community-Based Agricultural Education
    Uganda is not alone in adopting this model. The government of Ghana 
established the University for Development Studies (UDS) in the 
northern region in 1992. The aim of the university is to bring academic 
work to support community development in northern Ghana (Brong-Ahafo, 
Northern, Upper East, and Upper West Regions). The university includes 
agricultural sciences; medicine and health sciences; applied sciences; 
integrated development studies; and interdisciplinary research. It 
relies on the resources available in the region.
    UDS seeks to make tertiary education and research directly relevant 
to communities, especially in rural areas. It is the only university in 
Ghana required by law to break from tradition and become innovative in 
its mission. It is a multi-campus institution, located throughout 
northern Ghana--a region affected by serious population pressure and 
hence vulnerability to ecological degradation. The region is the 
poorest in Ghana, with a relatively high child malnutrition rate. The 
university's philosophy, therefore, is to promote the study of subjects 
that will help address human welfare improvement.
    The pedagogical approach emphasizes practice-oriented, community-
based, problem-solving, gender-sensitive, and interactive learning. It 
aims to address local socioeconomic imbalances through focused 
education, research, and service. The curricula stress community 
involvement and community dialogue, extension, and practical tools of 
inquiry.
    Students are required to internalize the importance of local 
knowledge and to find effective ways of combining it with science. The 
curricula also include participatory rural appraisal, participatory 
technology development, and communication methodologies that seek to 
strengthen the involvement of the poor in development efforts.
    An important component of the emphasis on addressing sustainable 
development is the third trimester practical field program. The 
university believes that the most feasible and sustainable way of 
tackling underdevelopment is to start with what the people already know 
and understand. This acknowledges the value of indigenous knowledge. 
The field program brings science to bear on indigenous knowledge from 
the outset.
    Under this program, the third trimester of the academic calendar, 
lasting eight weeks, is exclusively for fieldwork. Students live and 
work in rural communities. Along with the people of the community, they 
identify development goals and opportunities and design ways of 
attaining them. The university coordinates with governmental agencies 
and NGOs in the communities for shared learning in the development 
process. The field exposure helps students build up ideas about 
development and helps them reach beyond theory. The impact of this 
innovative training approach is already apparent, with the majority of 
UDS graduates working in rural communities.
Early Agricultural Education
    For children to engage in agriculture and understand it as a part 
of their life where they can build and develop skills and abilities to 
improve their future, it is necessary to continue their exposure to 
agricultural techniques and skills throughout their education. Equally 
important is the need to adapt the educational system to reflect 
changes in the agricultural sector.\3\ Many rural African children will 
have been to the family farm or garden, and done some small work in the 
field, before they ever arrive at school. Children go with their 
mothers into the field from a very young age and so are likely to be 
familiar with local crops and the importance of the natural world and 
agriculture in their lives. Schools can capitalize on this early 
familiarity as a way to keep children engaged in the learning process 
and build on skills that will help them increase their production and 
improve their lives for the future.
School Gardens
    One model to achieve early engagement is by having a school garden. 
Schools all over the world, from the United States and the United 
Kingdom, to Costa Rica and Ecuador, to South Africa and Kenya, use 
school gardens in various guises to educate their students about a set 
of life skills that goes beyond the classroom. School gardens come in 
many forms, from a plot of land in the school courtyard, to the 
children visiting and working in a broader community garden, to 
planting crops in a sack, a tire, or some other vessel. These gardens 
can use as many or as few resources as the community has to devote to 
them. The sack gardens especially require very few resources and can be 
cultivated in schools with little arable land and in urban areas. 
Students can also bring the sack garden model back home to their 
families to improve the family's income and nutrition.
    Labor in the school garden should certainly not replace all other 
activities at the school, but as a complement to the other curriculum 
it can provide a place where students learn important skills and feel 
that they are productive members of their community. Children who 
participate in school gardens learn not only about growing plants, 
food, and trees--and the agricultural techniques that go along with 
this--but also about nutrition, food preparation, responsibility, 
teamwork, and leadership. As students get older, they can also use the 
garden and the produce it generates as a way to learn about marketing, 
economics, infrastructure needs, and organizing a business. Many 
schools have student associations sell their produce in local markets 
to learn about business and generate income.
    School gardens have the added benefit of showing communities that 
the government recognizes agriculture as an important aspect of society 
and not as a secondary endeavor. Schools that provide education in 
gardening often overcome parents' reluctance to send children to 
school, as they teach a set of skills that the parents recognize as 
being important for the community--and parents do not see schooling as 
a loss of the child's potential labor at home. A government can 
increase this impact by involving the community in educational programs 
and curriculum decisions. Promoting buy-in from the community for the 
entire educational process encourages families to enroll more students 
and allows children to learn important skills.
    Also, by valuing agriculture and enabling more productive work in 
the community, school gardens decrease the incentive for large 
migrations to urban areas. This also calms many parents' fears that a 
child who goes to school will leave home and not continue to work on 
the family farm. This emphasis on agriculture benefits both children 
and parents, by giving them access to a formal education and a way to 
increase agricultural productivity.
Semi-Formal Schooling
    Another model that can work to encourage children and young people 
to learn agriculture is a semi-formal schooling model. Here, children 
spend part of the day at school learning math, literacy, and 
traditional subjects, and part of the school day working in a field or 
garden. This second part of the day is a chance to generate some income 
for families as well as to learn new agricultural and marketing 
techniques. Generally, these kinds of programs are for older children 
who have never gone to primary school; they are taught in local 
languages instead of the official English or French of many formal 
school systems. This model can be adapted for adults as well to 
encourage literacy and the development and adoption of new agricultural 
techniques. In South Africa, this model is often referred to as a 
Junior Farmer's Field School, to get young people involved early in the 
experiential process of learning and creating new agricultural 
techniques.
    School gardens, the inclusion of agriculture in the formal 
curriculum, and technical training models are all ways to promote 
children's experience with agriculture and help them develop the skills 
they need to improve their livelihoods into adulthood. These models 
place value on agriculture, the local community, and the process of 
experience to encourage children to learn new skills and engage in the 
natural world in a productive way.
Experiential Learning
    There are several examples of how farmers can play a role in 
experimenting with new innovations, making them feel a sense of 
ownership of related tools and increasing the chance that other farmers 
will use the techniques. These examples also show how innovations work 
in the field and what changes are needed for better results.
    Nonformal educational systems are crucial for reaching the 
population that is past the age for traditional primary schools and for 
encouraging local adoption of new techniques. Even if revolutionary new 
technologies exist at the research level, they can improve economies 
only if farmers use them, so getting information into the hands of 
local farmers, and especially women, is vital to the success of 
research endeavors and should be part of any plan for agricultural 
growth.
    Two of the persistent obstacles to the adoption of new peanut 
varieties are the difficulty of obtaining the seeds and the reluctance 
to use new seeds without being sure how they will grow compared to the 
traditional variety. Farmers want many of the benefits that new seed 
varieties can bring--they typically prefer high-yield, high market 
value, pest-resistant, and high oil-content varieties--but often they 
cannot get the seeds or they are afraid the new seeds will fail. 
Without some guarantee that the new seeds will work, farmers are often 
unwilling to risk planting them, even if they are readily available, 
and these farmers are certainly unwilling to make the substantial 
investment of time and capital that is usually required to seek out and 
acquire new seed varieties. Not many rural farmers have the resources 
to go to the capital city and purchase experimental seed varieties from 
a research institute, and the risk of an unknown variety is often too 
high for a family to take.
    One way of addressing this challenge is to give trial seed packages 
to pilot farmers or members of the local farmers' association to try on 
a portion of their land or on a test plot. This is a variation of the 
early adopters' model, which searches for members of a community who 
are willing and able to take some risk, and who then spread an idea to 
their peers. This strategy addresses both difficulties, since it allows 
for a trial with minimal risk, as well as a local source for new seed. 
Once the pilot farmer or association members grow the new variety of 
seed, they can sell it to their neighbors.
    The International Crops Research Institute for the Semi-Arid 
Tropics (ICRISAT), in partnership with the Common Fund for Commodities 
has developed a trial package for new varieties of peanut in the Sahel 
(tested in Mali, Niger, and Nigeria) and disseminates it through pilot 
farmers and farmers' associations. These farming associations are often 
women's associations, since women traditionally need cash crops to be 
able to meet their families' economic needs but have even less access 
to improved seed varieties than men. In all of the countries, ICRISAT 
provided 17 kilograms of new seed varieties to their pilot farmers, as 
well as training in field management techniques that maximize the yield 
for their crop. The project's agents then asked local farmers to help 
distribute the new seed varieties through the members of their 
associations.\4\
    Although the management techniques were imperfectly applied, and 
there is a cost associated with the new varieties and techniques, 
farmers using the new varieties experienced substantial returns on 
their investment. New varieties were 97% more profitable than 
traditional ones, so farmers earned almost twice as much on their 
investment as they would have with the types of seed already in use.
    This is a story that has repeated itself often over the trials. 
ICRISAT has learned that the people most likely to adopt new peanut 
varieties--and who therefore make good pilot farmers--are those who are 
slightly younger, have smaller family sizes, and have relatively more 
access to resources, such as labor and land. These are the people who 
can afford to take a risk at the beginning, and when that risk pays 
off, they serve as a model for the other farmers in their community. 
They will then also serve as a source of local seed, which is very 
important, since farmers are most likely to use either their own seed 
stocks or stocks available from local markets.
    Through this model, small investments can spread the use of modern 
seed varieties that have much higher yields and are more profitable to 
sell. These higher yields and profits ensure food security, including 
much-needed protein in rural diets, while improving the quality of life 
for the farmer.
    As mentioned earlier, sending extension workers--either from 
governments or NGOs--into the field is a common practice that can be 
more or less effective, depending on who the extension agents are and 
how they handle the situation in the villages. Extension agents who are 
the peers of local villagers and practice the lessons they teach in a 
way that the other farmers can observe are usually the most effective.
    Many countries in Africa have a variety of ethnic groups and 
regional subgroups who have different habits, speak different 
languages, and have different resources.
    The further removed an extension agent is from the population with 
which he or she works--by barriers of language, socioeconomic status, 
gender, education, or tradition--the more difficult it is to convince 
people to adopt the technique. There is a tendency for people to decide 
that the idea is appropriate for someone like the extension agent, but 
not someone like themselves, even if they think that the idea is a good 
one. The comment, ``That may be how that group does it, but it could 
never work in our village'' is a common one for formal educators who 
come from a city or a different population subgroup. However, if the 
teacher is a peer, it is harder to make the distinction between their 
success and the potential success of each village farmer.
    Governments can use the peer educator or farmer-to-farmer method to 
help spread information and new agricultural innovations across their 
entire rural population. By funding a few formal extension workers who 
train and help support a large network of peer educators, a government 
can reach most or all of the rural population, even if the groups are 
segregated by language, ethnicity, geography, or traditional farming 
techniques. Thus, a relatively small investment can have huge impacts 
on a country's agricultural processes and therefore on food security 
and the national economy.
    Farmer Field Schools (FFS) provide a way for communities to test a 
new technique and adapt it to their own specific needs. Many 
agricultural technologies need to be adapted to local contexts once 
they leave the lab to ensure that they are practical for farmers and 
that people can adopt them into their current agricultural practices. 
The FFSs also allow for easier dissemination of new information because 
peers, as opposed to outsiders, are the teachers. This model also 
develops community ownership by encouraging local participation in new 
processes and leads to better adoption among participants.\5\
    Local farmers participating in FFSs are often selected through 
local leadership structures or village farming associations. They plant 
one plot using the techniques that they currently use and a second plot 
with the new technology. At the end of the growing season, the farmers 
then come together to compare the costs, revenues, and profits between 
the old way and the new technology. In this way, farmers can see what 
works for them and can adapt the new method as seems appropriate during 
the growing season. Farmers also become invested in the process and 
have reason to believe that it will work for them.
    Any organization--private or public--can start a Farmers' Field 
School. The resources needed are access to the new technology, be it a 
seed variety, a new fertilizer, or a new irrigation technique; a few 
extension agents to train a cadre of local farmers to spread the 
innovation; and a few follow-up visits to monitor the process and help 
villages interpret the results. These results should then move up to 
the national level to inform state policy and research. The following 
is an example of how an FFS can be used to address a specific problem.
    Striga, often called witchweed, is a plant that grows in millet, 
sorghum, and other cereal fields across West Africa and causes a myriad 
of problems.\6\ It can reduce crop yields between 5% and 80%, reduce 
soil fertility, and erode soil, all of which decrease the durability 
and profitability of rainy season-based agricultural systems. A single 
weed can produce more than 200,000 seeds, which remain viable in the 
soil for up to 10 years, making the plant very hard to eradicate. There 
are places where Striga infestation means that farmers lose money on 
every cereal crop they plant and are unable to feed their families or 
earn a living.
    Nevertheless, there is a solution. In 2007, the International Crop 
Research Institute for the Semi-Arid Tropics (ICRISAT), the 
International Fund for Agricultural Development, and several European 
agricultural research organizations partnered with the Tominion 
Farmers' Union in Mali to implement a project that uses an integrated 
management system combining intercropping with beans or peanuts, 
reduced numbers of seeds per hole planted, and periodic weeding to 
control Striga. Using the FFS model, a few agricultural experts trained 
75 local farmers to train their peers in integrated management 
techniques. These farmers then trained 300 others, and implemented the 
test plot procedure for their areas.
    The results are impressive. Striga plants decreased, crop yields 
and profits increased, and many farmers decided to implement the 
process in their own fields. Farmers discovered that it was necessary 
for them to conduct three cycles of weeding rather than the two that 
the project originally recommended. This change has been formally 
adopted into the integrated management system. With these three weeding 
cycles, the incidence of Striga in the field went to zero in the test 
plots. Profits per hectare increased from $47 to $276, an improvement 
of nearly 500%. In some cases, villages went from a loss to a profit on 
their fields. The return on investment more than tripled, so while 
there was a slightly increased cost of the new methods, they more than 
paid for themselves. Many of the farmers involved in the 2007 study 
used the new methods in their own fields in 2008, and spread the 
message about the new techniques to their neighbors. This encouraged an 
enabling environment for the adoption of new technologies.
    Another model is that of radio education--mentioned in the URDT 
case above--where extension education sessions are recorded in the 
appropriate local languages and played periodically on the radio. For 
many rural communities with low access to television and low literacy, 
this can be a crucial way to spread information to local farmers, 
especially if done in conjunction with another model, like the 
technical training or extension models that allow farmers to ask 
follow-up questions.
Innovation in Higher Agricultural Education
    America's land-grant colleges pioneered agricultural growth by 
combining research, education, and extension services. The preeminent 
role of universities as vehicles of community development is reflected 
in the U.S. land-grant system.\7\ The system not only played a key role 
in transforming rural America but also offered the world a new model 
for bringing knowledge to support community development. This model has 
found expression in a diversity of institutional innovations around the 
world. While the land-grant model is largely associated with 
agriculture, its adaptation to industry is less recognized. 
Universities such as the Massachusetts Institute of Technology (MIT) 
and parts of Stanford University owe their heritage to the land-grant 
system.\8\ The drift of the land-grant model to other sectors is not 
limited to the United States. The central mission of using higher 
education to stimulate community development is practiced around the 
world in a variety of forms.
    There are three models for entrepreneurial education in Brazil that 
have advanced to different stages of creating an ``entrepreneurial 
university.'' \9\ The Pontifical Catholic University of Rio de Janeiro, 
the Federal University of Itajuba, and the Federal University of Minas 
Gerais have all started to include entrepreneurship in the educational 
experience of their students. This experience often complements and 
coordinates with private sector initiatives, and in some cases 
companies fund parts of the curriculum. The interaction between 
academia, government, and industry allows for a broader approach and 
for a shifting of program goals.
    The lessons from these three schools are that flexibility in 
curricula and the openness to partnering with other organizations--
especially industry--allow universities to develop successful 
entrepreneurship programs that provide employment opportunities for 
their students as well as a chance to experience the culture of 
starting a business. The stimuli that lead universities to these 
activities might be an external change--lack of funding from the 
government--or an internal decision to shift focus. An institution that 
is more flexible, whose staff supports the change in a more unified 
way, is more likely to make the change toward becoming an 
``entrepreneurial university,'' which allows students to focus on not 
just having business know-how and the ability to work for or with large 
companies, but also on how to create jobs and opportunities for 
themselves and their peers. Universities must have the autonomy and the 
flexibility to adopt these programs as well as the ability to build 
networks with local actors. Ultimately, this will contribute to the 
nation's development.
    African countries would be better served by looking critically at 
these variants and adapting them to their conditions. These 
institutional adaptations often experience opposition from advocates of 
incumbent university models. Arguments against the model tend to focus 
on the claim that universities that devote their time to practical work 
are not academic enough. As a result, a hierarchy exists that places 
such institutions either at the lower end of the academic ladder or 
simply dismisses them as vocational colleges.
    The land-grant model is being reinvented around the world to 
address such challenges. One of the most pioneering examples in 
curriculum reform is EARTH University in Costa Rica, which stands out 
as one of the first sustainable development universities in the 
world.\10\ It was created in 1990 through a US$100 million endowment 
provided by the U.S. Agency for International Development (USAID) and 
the Kellogg Foundation. Its curriculum is designed to match the 
realities of agribusiness.\11\ The university dedicates itself to 
producing a new generation of agents of change who focus on creating 
enterprises rather than seeking jobs.
    EARTH University emerged in a context that mirrors today's Africa: 
economic stagnation, high unemployment, ecological decay, and armed 
conflict. Inspired by the need for new attitudes and paradigms, EARTH 
University is a nonprofit, private, international university dedicated 
to sustainable agricultural education in the tropics. It was launched 
as a joint effort between the private and public sectors in the United 
States and Costa Rica. The Kellogg Foundation provided the original 
grant for a feasibility study at the request of a group of Costa Rican 
visionaries. Based on the study, USAID provided the initial funding for 
the institution. The original mission of the university was to train 
leaders to contribute to the sustainable development of the humid 
tropics and to build a prosperous and just society. Located in the 
Atlantic lowlands of Costa Rica, EARTH University admits about 110 
students a year and has a total student population of about 400 from 24 
countries (mainly in Latin America and the Caribbean) and faculty from 
22 countries. Through its endowment, the university provides all 
students with 50% of the cost of tuition, room, and board.
    In addition, the university provides scholarships to promising 
young people of limited resources from remote and marginalized regions. 
Nearly 80% of the students receive full or partial scholarship support. 
All students live on campus for four intensive years.
    EARTH University has developed an innovative, learner-centered, and 
experiential academic program that includes direct interaction with the 
farming community.\12\ Its educational process stresses the development 
of attitudes necessary for graduates to become effective agents of 
change. They learn to lead, identify with the community, care for the 
environment, and be entrepreneurial. They are committed to lifelong 
learning. There are four activities in particular within the curriculum 
that embodies EARTH University's experiential approach to learning.
Learning from Work Experience and Community Service
    The first is the Work Experience activity, which is taken by all 
first-, second-, and third-year students and continues in the fourth 
year as the Professional Experience course. In the first and second 
years, students work in crop, animal, and forestry production modules 
on EARTH University's 3,300-hectare farm. In the first year, the work 
is largely a routine activity and the experience centers on the 
acquisition of basic skills, work habits, and general knowledge and 
familiarity with production. In the second year, the focus changes to 
management strategies for these same activities. Work Experience is 
later replaced with Professional Experience. In this course students 
identify work sites or activities on campus that correspond with their 
career goals. Students are responsible for contacting the supervisors 
of the campus operations, requesting an interview, and soliciting 
``employment.'' Upon agreement, supervisors and students develop a 
joint work plan that the student implements, dedicating a minimum of 10 
hours per week to the ``job.'' The second activity is an extension of 
the Work Experience course. Here third-year students work on an 
individual basis with small, local producers on their farms. They also 
come together in small groups under the Community Outreach program that 
is integral to the learning system. Community outreach is used to 
develop critical professional skills in students, while at the same 
time helping to improve the quality of life in nearby rural 
communities. The third-year internship program emphasizes experiential 
learning. The 15-week internship is required for all students in the 
third trimester of their third year of study. It is an opportunity for 
them to put into practice all they have learned during their first 
three years of study. For many of them it is also a chance to make 
connections that may lead to employment after graduation. The 
international character of the institution allows many students the 
opportunity to follow their interests, even when they lead to 
internship destinations other than in their home country.
Sharpening Entrepreneurial Skills
    The fourth activity is the Entrepreneurial Projects Program. EARTH 
University's program promotes the participation of its graduates in the 
private sector as a critical means by which the institution can achieve 
its mission of contributing to the sustainable development of the 
tropics. The development of small and medium-sized enterprises (SMEs) 
is a powerful way to create new employment and improve income 
distribution in rural communities. For this reason, the university 
stresses the development of an entrepreneurial spirit and skills. 
Courses in business administration and economics combined with 
practical experience prepare the students to engage in business 
ventures upon graduation.
    This course provides students the opportunity to develop a business 
venture from beginning to end during their first three years at EARTH 
University. Small groups of four to six students from different 
countries decide on a relevant business activity. They conduct 
feasibility studies (using financial, social, and environmental 
criteria), borrow money from the university, and implement the venture. 
This includes marketing and selling the final product. After repaying 
their loan, with interest, the group shares the profits. This 
entrepreneurial focus has permeated all aspects of the university's 
operations and prepared students to become job creators and agents of 
change rather than job seekers. About 17% of the university's 1,100 
graduates run their own businesses. The university also manages its own 
profitable agribusiness, which has resulted in strong relationships 
with the private sector. When the university acquired its campus, it 
decided to continue operating the commercial banana farm located on the 
property. Upon taking over the farm, the university implemented a 
series of measures designed to promote more environmentally sound and 
socially responsible production approaches.
Going Global
    EARTH University has internationalized its operations. It signed an 
agreement with U.S.-based Whole Foods Market to be the sole distributor 
of bananas in their stores. The university also sells other 
agricultural products to the U.S. market. This helps to generate new 
income for the university and for small farmers while providing an 
invaluable educational opportunity for the students and faculty. In 
addition to internships, students have access to venture capital upon 
graduation. The university uses part of the income to fund sustainable 
and organic banana and pineapple production research. Over the years 
the university has worked closely with African institutions and leaders 
to share its experiences. Following nearly seven years of study through 
workshops, discussions, training courses, and site visits, African 
participants agreed to the importance of reforms in their own 
university systems, especially through the creation of new universities 
along the lines of the EARTH model. The case of EARTH University is one 
of many examples around the world involving major collaborative efforts 
between the United States and east African countries to bring 
scientific and technical knowledge to improve welfare through 
institutional innovations. Such experiences, and those of U.S. land-
grant universities, offer a rich fund of knowledge that should be 
harnessed for Africa's agricultural development and economic growth.
    Such models show how to focus agricultural training as a way to 
improve practical farming activities. Ministries of sustainable 
agriculture and farming enterprises in east African countries should be 
encouraged to create entrepreneurial universities, polytechnics, and 
high schools that address agricultural challenges. Such colleges could 
link up with counterparts in developed or emerging economies as well as 
institutions providing venture capital and start to serve as incubators 
of rural enterprises. Establishing such colleges will require reforming 
the curriculum, improving pedagogy, and granting greater management 
autonomy. They should be guided by the curiosity, creativity, and risk-
taking inclination of farmers.
Policy Lessons
    The challenges facing African agriculture will require fundamental 
changes in the way universities train their students. It is notable 
that most African universities do not specifically train agriculture 
students to work on farms in the same way medical schools train 
students to work in hospitals. Part of the problem arises from the 
traditional separation between research and teaching, with research 
carried out in national research institutes and teaching in 
universities. There is little connection between the two in many 
African countries. This needs to radically change so that agricultural 
education can contribute directly to the agricultural sector.
    A number of critical measures are needed at the regional and 
national levels to achieve this goal.\13\ The first should be to 
rationalize existing agricultural institutions by designating some 
universities as hubs in key agricultural clusters. For example, 
universities located in proximity to coffee production sites should 
develop expertise in the entire value chain of the coffee industry. 
This could be applied to other crops as well as livestock and 
fisheries. Such universities could be designed around existing national 
research institutes that would acquire a training function as part of a 
regional rationalization effort. Such dedicated universities would not 
have monopoly over specific crops but should serve as opportunities for 
learning how to connect higher education to the productive sector.
    Internally, the universities should redefine their academic foci to 
adjust to the changes facing Africa. This can be better done through 
continuous interaction among universities, farmers, businesses, 
government, and civil society organizations. Governance systems that 
allow for such continuous feedback to universities will need to be put 
in place.
    The reform process will need to include specific measures. First, 
universities need a clear vision and strategic planning for training 
future agricultural leaders with a focus on practical applications.\14\ 
Such plans should include comprehensive road maps on how to best 
recruit, retain, and prepare future graduates. These students should be 
prepared in partnership with key stakeholders.
    Second, universities need to improve their curricula to make them 
relevant to the communities in which they are located. More important, 
they should serve as critical hubs in local innovation systems or 
clusters. The community focus, however, will not automatically result 
in local benefits without committed leadership and linkages with local 
sources of funding.\15\ The recent decision by Moi University in 
western Kenya to acquire an abandoned textile mill and revive it for 
teaching purposes is an example of such an opportunity.
    Third, universities should give students more opportunities to gain 
experience outside the classroom. This can be done through traditional 
internships and research activities. But the teaching method could also 
be adjusted so that it is experiential and capable of imparting direct 
skills. More important, such training should also include the 
acquisition of entrepreneurial skills.
    Fourth, continuous faculty training and research are critical for 
maintaining high academic standards. Universities should invest more in 
undergraduate agricultural educators to promote effective research and 
teaching and to design new courses.
    Finally, it is important to establish partnerships among various 
institutions to support and develop joint programs. These partnerships 
should pursue horizontal relationships and open networking to generate 
more synergy and collaboration, encourage sharing of resources, and 
foster the exchange of students and faculty. This can be done through 
regional exchanges that involve the sharing of research facilities and 
other infrastructure.
    Providing tangible rewards and incentives to teachers for exemplary 
teaching raises the profile of teaching and improves education. In 
addition, establishing closer connections and mutually beneficial 
relationships among all stakeholders (academia and industry, including 
private and public institutions, companies, and sectors) should 
generate further opportunities for everyone.
Lifelong Learning through the Private Sector
    The roles of the private and public sector in lifelong learning 
opportunities are illustrated by the case of Peru's relatively high-
tech asparagus industry.\16\ Both public and private programs offer 
industry-specific training for employees and build on the skills that 
many workers get from experience in the formal education sector. Those 
working at the managerial level tend to receive training from La 
Molina--the national agricultural university. There is a tension 
between private and public sector training, as hiring managers tend to 
perceive graduates of private education as being of higher quality, 
although the public sector is able to produce more graduates and 
therefore better meet the industry demand for workers. Ultimately, the 
best arrangement is some combination of public and private sector 
education and training, as Peru has high secondary and tertiary school 
enrollment compared to many other Latin American countries.
    Asparagus exporting requires a high level of skill because of the 
need to keep the asparagus under controlled conditions and package it 
in appropriate weights. The success of this industry relies upon 
investment in long-term learning for employees. There is a great 
emphasis on on-the-job training, whereby employees learn a specific set 
of job-related skills. In addition, there are both private and public 
vocational training programs for adults. Employers give consistently 
better reviews to those workers who receive on-the-job training or who 
complete the private sector training programs than to those who 
graduate from government-run programs. Students are willing to pay for 
private training because the curriculum and schedule are more flexible, 
and they allow the students to continue their employment, in contrast 
to the more rigid structure in public institutions. These private 
institutions also generally include an internship--which serves as both 
student training and a relatively low-cost way for employers to recruit 
skilled students.
    Nevertheless, these programs are not without problems; they produce 
fewer students than the industry needs, and they rely on employees 
having at least primary or some secondary education, largely as a 
result of Peru's relatively high levels of enrollment in secondary 
schools.
    A high proportion of managers graduate from La Molina with degrees 
in agronomy or engineering. La Molina not only trains many of the 
skilled workers in management and agronomic skills, but it also 
conducts much of the research that the industry uses to have its crops 
meet international export standards. La Molina also conducts technology 
transfer with countries like the United States and Israel to adapt new 
techniques to local realities.
    There are several training models to help farmers and plant workers 
acquire the skills they need. First are the private models of on-the-
job training, which range from informal mentoring in the first two 
weeks of work to Frio Aereo's (a consortium of 10 partners that is 
concerned with managing the cold chain) formalized internship program 
and weekly training sessions during the slower seasons. Second are 
private universities such as Universidad Privada Antenor Orrego that 
train technicians and managers; there are also public institutions with 
similar goals, whose graduates tend to be less valued by employers. 
Additionally, there is a public sector youth training program that aims 
to help young graduates become successful agricultural entrepreneurs. 
Finally, there is El Centro de Transferencia de Tecnologia a 
Universitarios, which uses holistic approaches to develop agricultural 
entrepreneurs, either by giving students plots of land that they must 
pay for over several years, or working with small farmers who already 
own land. The model that works with smallholders requires an investment 
of about US$33,000 per farmer.
    Private sector initiatives have so far been more successful at 
training older workers in the necessary techniques. However, much of 
the system depends on workers having initial basic public education, as 
well as the managerial expertise and public goods that La Molina 
provides. Successful training for high-skill industries requires a 
combination of private sector initiatives and a solid foundation of 
public education and research.
Conclusion
    The current gaps in educational achievement and the lack of 
infrastructure in many African school systems are an opportunity for 
governments to adopt more community-driven models that prioritize 
education in a holistic way that improves community involvement, child 
achievement, agricultural production, and the standard of living for 
rural populations. Acknowledging that agriculture is both a valued 
traditional lifestyle and a huge potential driver of economic growth, 
and changing educational programming to respect these goals, will go a 
long way toward encouraging basic education and improving people's 
lives.
    No new agricultural technology, however cutting-edge and effective, 
can improve the situation if people are unable to access it and use it. 
Farmers need to have the capacity to adopt and understand new 
technologies, and the system needs to develop to meet their needs and 
to enable them. Since most of the farmers in Africa are women, an 
important component of these systems will be including women in all 
parts of the process: education, capacity building, and technology 
innovation.
6  Entrepreneurship
    The creation of agricultural enterprises represents one of the most 
effective ways to stimulate rural development. This chapter will review 
the efficacy of the policy tools used to promote agricultural 
enterprises, with a particular focus on the positive, transformative 
role that can be played by the private sector. Inspired by such 
examples, this chapter will end by exploring ways in which African 
countries, subregional, and regional bodies can create incentives that 
stimulate entrepreneurship in the agricultural sector. The chapter will 
take into account new tools such as information and communication 
technologies and the extent to which they can be harnessed to promote 
entrepreneurship.
Agribusiness and development
    Economic change entails the transformation of knowledge into goods 
and services through business enterprises. In this respect, creating 
links between knowledge and business development is the most important 
challenge facing agricultural renewal in east African countries. The 
development of small and medium-sized enterprises (SMEs) has been an 
integral part of the development of all industrialized economies. This 
holds true in Africa. Building these enterprises requires development 
of pools of capital for investment; of local operational, repair, and 
maintenance expertise; and of a regulatory environment that allows 
small businesses to flourish. Africa must review its incentive 
structures to promote these objectives.\1\
    A range of government policy structures is suitable for creating 
and sustaining enterprises--from taxation regimes and market-based 
instruments to consumption policies and changes in the national system 
of innovation. Policy makers also need to ensure that educational 
systems provide adequate technical training. They need to support 
agribusiness and technology incubators, export processing zones, and 
production networks as well as sharpen the associated skills through 
agribusiness education.
    Banks and financial institutions also play key roles in fostering 
technological innovation and supporting investment in homegrown 
domestic businesses. Unfortunately, their record in promoting 
technological innovation in Africa has been poor. Capital markets have 
played a critical role in creating SMEs in other developed countries. 
Venture capitalists not only bring money to the table; they also help 
groom small and medium-sized start-ups into successful enterprises. 
Venture capital in Africa, however, barely exists outside of South 
Africa and needs to be introduced and nurtured.
    Much of the effort to promote venture capital in developing 
countries has been associated with public sector initiatives whose 
overall impact is questionable.\2\ One of the possible explanations for 
the high rate of failure is that many of these initiatives are not 
linked to larger strategies to create local innovation systems. Venture 
capital is only one enabling species in a complex innovation 
ecosystem.\3\ It does not exist in an institutional or geographical 
vacuum and appears to obey the same evolutionary laws as other aspects 
of innovation systems.\4\ It is therefore important to look at examples 
of geographical, technological, and market aspects of venture capital. 
The legal elements needed to create institutions are only a minor part 
of the challenge.
    One critical starting point is ``knowledge prospecting,'' which 
involves identifying existing technologies and using them to create new 
businesses. African countries have so far been too isolated to benefit 
from the global stock of technical knowledge. They need to make a 
concerted effort to leverage expertise among their nationals residing 
in other countries. Such diasporas can serve as links to existing know-
how, establish links to global markets, train local workers to perform 
new tasks, and organize the production process to produce and market 
more knowledge-intensive, higher value added agricultural products.
    Advances in communications technologies and the advent of lower-
cost high-speed Internet will also reduce this isolation dramatically. 
The laying of new fiber-optic cables along the coasts of Africa and, 
potentially, the use of lower-latency satellite technology can 
significantly reduce the price of international connectivity and will 
enable African universities and research institutions to play new roles 
in rural development. The further development of Internet exchange 
points (ISPs) in east Africa where they do not currently exist is also 
important. ISPs enable Internet traffic to be exchanged locally, rather 
than transverse networks located outside the continent, improving the 
experience of users and lowering the cost to provide service.
    Much is already known about how to support business development. 
The available policy tools include direct financing via matching 
grants, taxation policies, government or public procurement policies, 
advance purchase arrangements, and prizes to recognize creativity and 
innovation. These can be complemented by simple ways to promote rural 
innovation that involve low levels of funding, higher local commitments 
and consistent long-term government policy.
    For example, China's mission-oriented ``Spark Program,'' created to 
popularize modern technology in rural areas, had spread to more than 
90% of the country's counties by 2005. The program helped to improve 
the capability of young rural people by upgrading their technological 
skills, creating a nationwide network for distance learning, and 
encouraging rural enterprises to become internationally competitive. 
The program was sponsored by the Minister of Science and Technology.\5\
    There is growing evidence that the Chinese economic miracle is a 
consequence of the rural entrepreneurship that started in the 1980s. 
This contradicts classical interpretations that focus on state-led 
enterprises as well as receptiveness to foreign direct investment. The 
creation of millions of township and village enterprises (TVEs) in 
provinces such as Zhejiang, Anhui, and Hunan played a key role in 
stimulating rural industrialization.\6\
    Over the past 60 years, China has experimented extensively with 
policies and programs to encourage the growth of rural enterprises that 
provide isolated agricultural areas with key producer inputs and access 
to post-harvest, value-added food processing. Despite the troubled 
early history, by 1995 China's TVEs had helped bring about a revolution 
in Chinese agriculture and had evolved to account for approximately 25% 
of China's GDP, 66% of all rural economic output, and more than 33% of 
China's total export earnings.\7\
    Most of the TVEs have become private enterprises and focus in areas 
outside agricultural inputs or food processing. Agricultural support 
from TVEs remains relevant, however, particularly as a model by which 
other countries may be able to increase farmers' access to key inputs 
such as fertilizers and equipment, as well as value-added processing of 
raw agricultural products.
    With few rural-urban connecting roads and weak distribution 
systems, the Chinese government moved to resolve these agricultural 
input and post-harvest processing constraints by creating new 
enterprises in rural areas. China's initial rural enterprise strategy 
therefore focused on the so-called five small industries that it deemed 
crucial to agricultural growth: chemical fertilizer, cement, energy, 
iron and steel, and farm machinery. With strong backward linkages 
between these rural enterprises and Chinese farmers, agricultural 
development in China grew substantially in the late 1970s and 1980s 
through farmland capital construction, chemical fertilization, and 
mechanization.
    This expansion in agricultural productivity, coupled with high 
population growth, led to a surplus of labor and a scarcity of 
farmland. As a consequence, China's rural enterprises increasingly 
shifted from supplying agricultural producer inputs to labor-intensive 
consumer goods, for domestic and (after 1984 market reforms) 
international markets. From the mid-1980s to the 1990s, China's TVEs 
saw explosive growth in these areas while they continued to supply 
agricultural producers with access to key inputs, new technologies, and 
food processing services. In 1993, 8.1% of total TVE economic output 
came from food processing, while chemicals (including fertilizer) 
accounted for 10%, building materials 12%, and equipment (including for 
farms) 18%.
    The most successful TVEs were those with strong links to urban and 
peri-urban industries with which they could form joint ventures and 
share technical information; those in private ownership; and those with 
a willingness to shift from supplying producer inputs for farmers to 
manufacturing consumer goods for both domestic and international 
markets.
    China's experience with rural enterprises confirms that they may 
provide a mechanism through which developing states can enhance rural 
access to key agricultural inputs such as fertilizers and 
mechanization, as well as value-added post-harvest food processing. 
Rural enterprises may make the most sense in areas where farm-to-market 
roads cannot be easily established to achieve similar backward and 
forward linkages. In addition to sparking agricultural productivity and 
growth, rural enterprises may also help provide employment for farm 
laborers displaced by agricultural mechanization. By keeping workers 
and economic activity in rural areas, China has helped expand rural 
markets, limit rural-urban migration, and create conditions under which 
it is easier for the government to provide key social services such as 
health care and education.
    Despite the fact that TVEs enjoyed government support through 
financing and technical assistance, they enjoyed a degree of autonomy 
in their operations. The emergence of rural markets in China not only 
contributed to prosperity in agricultural communities, but it also 
provided the impetus for the modernization of the economy as a 
whole.\8\ Furthermore, the TVEs also became a foundation for creating 
entrepreneurial leadership and building managerial and organizational 
capacity.\9\
    Such entrepreneurial initiatives will succeed in the absence of 
consistent and long-term policy guidance on the one hand, and autonomy 
of action on the part of farmers and entrepreneurs, on the other hand. 
The latter is particularly critical because a large part of economic 
growth entails experimentation and learning. Neither of these can take 
place unless farmers and associated entrepreneurs have sufficient 
freedom to act. In other words, development has to be viewed as an 
expression of human potentialities and not a product of external 
interventions.
The Seed Industry
    The seed sector in sub-Saharan Africa is dominated by informal 
supply systems with farm-saved seeds accounting for approximately 80% 
of planted seeds. Improving smallholder farmers' access to new high-
yielding varieties and hybrid crops requires better coordinated 
marketing efforts and expanded distribution systems. Because of their 
small size and market orientation, small to medium-sized emerging seed 
companies have a potential competitive advantage in meeting the needs 
of smallholder farmers. Emerging seed companies--the nexus of publicly 
supported agricultural biotechnology and newly created market 
opportunities for the private sector--can promote food security and 
welfare improvement within economically disadvantaged rural 
communities.\10\
    However, these emerging domestic companies have limited financial 
and managerial resources and are often hampered by complex and 
bureaucratic legal frameworks. As infants in the industry, small to 
medium-sized domestic seed companies need short-term assistance, 
especially in establishing a solid financial base and developing 
management capacity.
    Maize is a staple in southern and eastern Africa, yet the amount of 
produce and the acreage of maize have not increased much over the 
years, even though the number of grain producers has quadrupled. 
However, the seed sector faces major challenges. Although less 
monopolized now, the seed sector in a majority of African countries is 
far from being efficient. The seed industry suffers from five levels of 
bottlenecks, producing an adverse effect on the maize seed value chain 
across the region. The first bottleneck is government political and 
technical policies. Import procedures, for instance, are cumbersome 
enough in Tanzania to dissuade seed import while in Zimbabwe, during 
the economic crisis, the government banned seed exports.\11\
    Second, establishing a seed company has a high initial cost, 
requiring access to credit; the company also needs qualified manpower. 
Third, the production of seed suffers from a lack of adequate and 
adapted input, from expensive production costs and lack of production 
credit, and from poor weather and unfavorable land policies. Fourth, 
poor infrastructure in the value chain, such as poor retail networks or 
sales points, jeopardize marketing and access to the farmers. Last, 
farmers tend to have low demand for seeds.
Millet and Sorghum Production in India
    Millions of small-scale farmers in India live in harsh environments 
where rainfall is limited and irrigation and fertilizer are 
unavailable.\12\ In these harsh areas, many farmers have long grown 
sorghum and pearl millet--hardy crops that can thrive in almost any 
soil and survive under relatively tough conditions. Production from 
these crops was low, however, and so were returns to farmers, until 
improved, higher-producing varieties were developed and distributed 
starting in the 1970s. Since then, a succession of more productive and 
disease-resistant varieties has raised farmers' yields and improved the 
livelihoods of about six million millet-growing households and three 
million sorghum-growing households. Although public funding was the key 
to developing this improved genetic material, it has been private seed 
companies that have helped ensure that these gains were spread to, and 
realized by, the maximum number of Indian farmers.
    The success and sustainability of these improved varieties resulted 
from interventions by the Indian government and the international 
community, as well as the increasing inclusion of private industry and 
market-based solutions in seed sale and distribution. Three key 
interventions include increased investments in crop improvements during 
the 1970s; the development of efficient seed systems with a gradual 
inclusion of the private sector in the 1980s; and the liberalization of 
the Indian seed industry in the late 1990s. By allowing farmers to grow 
the same amount of millet or sorghum using half as much land, these 
improved varieties have made it possible for farmers to shift farmland 
to valuable cash crops and thereby raise their incomes. Our analysis 
will focus on the key role played by the last of these three 
innovations, the establishment of a private seed industry.
Government Investment in Research
    The first advances in millet and sorghum research in India resulted 
from the efforts of a range of government institutions. These programs 
organized government research and in many locations tested for improved 
characteristics of hybrids and varieties--through state agricultural 
universities, research institutes, and experiment stations. Joint 
efforts by these institutions resulted in the release of a succession 
of pearl millet hybrids offering yield advantages. Since the mid-1960s, 
average grain yields have nearly doubled, even though much of the 
production of millet has shifted to more marginal production 
environments. Production of pearl millet in India currently stands at 
nine million tons, and hybrids are grown in more than half of the total 
national pearl millet area of 10 million hectares.
Cultivating the Seed Industry
    At the beginning of the Green Revolution, the Indian government and 
key state governments decided that state extension services and 
emerging private seed companies could not distribute enough seed to 
allow for the large-scale adoption of new varieties. The government 
decided to create state seed corporations, the first of which evolved 
out of the G. B. Pant University of Agriculture and Technology in 
Pantnagar. This corporation then became a model for the National Seed 
Corporation and other state seed corporations.
    The Indian government, with the financial support of the World Bank 
and technical assistance from the Rockefeller Foundation, financed the 
development of state seed corporations in most major Indian states in 
the 1960s. Gradually, these state seed corporations replaced state 
departments of seed production and formed the nascent foundations of a 
formal seed industry. Often, formal seed industries are taken for 
granted, especially in industrial countries, where agriculture is 
extremely productive. But in India, as in many other countries, seed 
industries are still emerging. The problem stems from the limited 
profitability of seeds. When farmers are able to plant and save seeds 
from one season to the next without losing much in terms of yield and 
output, there is little need for them to purchase new seeds--and little 
opportunity for seed producers to sell new seeds.
    It is only when commercial seeds offer clear advantages in terms of 
quality and performance that farmers become more willing to purchase 
them. When improvements are bred into a crop, for example, farmers must 
buy or otherwise gain access to the improved seed to realize the 
benefits of breeding. Farmers must also buy seeds to realize the full 
benefits of hybrids, the yields of which tend to drop when grain from 
harvests is saved and planted in the next season. But seed industries 
do not emerge simply by themselves. The right rules and regulations 
must be in place to encourage private investment in the industry and to 
limit the role of the public sector where it is a less-efficient 
purveyor of seed to farmers. In India, this institutional framework for 
the development of a seed industry emerged with the Indian Seed Act in 
1966. The nascent Indian seed industry was heavily regulated under the 
act, however, with limited entry and formation of large private firms--
domestic or foreign. Private seed imports for both commercial and 
research purposes were restricted or banned, ostensibly to protect 
smallholders from predatory corporate practices.
Emergence of the Private Seed Industry
    Since the 1970s, the private sector has played an ever-increasing 
role in developing improved varieties of millet and sorghum and 
distributing them to farmers through innovative partnerships with 
public sector agencies. In 1971, India began deregulating the seed 
sector, relaxing restrictions on seed imports and private firms' entry 
into the seed market. This change, combined with a new seed policy in 
1988, spurred enormous growth in private sector seed supplies in India. 
Currently, the Indian market for agricultural seed is one of the 
biggest in the world.
    Sorghum and pearl millet breeding by private companies began around 
1970, when four companies had their own sorghum and pearl millet 
breeding programs. By 1985 this number had grown to 10 companies. In 
1981, a private company developed and released the first hybrid pearl 
millet. One major reason for the spurt in private sector growth was the 
strong public sector research on sorghum and millet. International 
agricultural research centers such as the International Crops Research 
Institute for the Semi-Arid Tropics (ICRISAT) exchanged breeding 
material with public and private research institutions. National 
agricultural research centers such as the Indian Council of 
Agricultural Research (ICAR) and agricultural universities provided 
breeder seed not only to the national and state seed corporations but 
also to private seed companies to be multiplied and distributed through 
their company outlets, farmer cooperatives, and private dealers. For 
private firms, public institutions like ICRISAT, ICAR, and state 
universities provided invaluable genetic materials, essentially free of 
charge.
    Today, more than 60 private seed companies supply improved pearl 
millet to small-scale farmers and account for 82% of the total seed 
supply, while more than 40 companies supply improved sorghum, 
accounting for 75% of supply. Many of these companies benefit not only 
from the availability of public research on improved pearl millet and 
sorghum but also from innovative partnerships that specifically aim to 
disseminate new materials to the private sector. The most recognized of 
these partnerships is ICRISAT's hybrid consortia, developed in 2000-01. 
Private companies pay a membership fee to ICRISAT to receive 
nonexclusive access to hybrid parent lines that they can then use for 
the development and marketing of their own seed products. Although no 
single company has a monopoly over an individual line--all companies 
can use them for their own purposes as they choose--the market is 
currently large enough to allow all companies to compete for the 
smallholder's business.
    The ultimate beneficiaries of this public-private system are the 
millions of small-scale farmers who grow sorghum and millet. Public 
research agencies contribute genetic materials and scientific expertise 
to improve crop varieties when the incentives for private sector 
involvement are limited. Then, private companies take on the final 
development of new varieties and seed distribution--tasks to which they 
are often better suited than are public agencies. In this way, the 
benefits of crop improvements are delivered directly to farmers, who 
find them worthwhile enough to support financially.
    All three elements of the Indian intervention to improve sorghum 
and pearl millet hybrids were important. First, the investments in 
public sector plant-breeding and crop-management research were made by 
the national government, state governments, and international 
agricultural research centers. When hybrids of sorghum and millet were 
first being developed, all three of these groups contributed genetic 
material that benefited farmers directly and provided the basis for 
private researchers to develop new varieties. Second, the government 
invested in seed production in public and private institutions. The 
Indian government and state governments, with the help of donors, made 
major investments in government seed corporations that multiplied the 
seeds of not only wheat, rice, and maize, but also pearl millet and 
sorghum. Seed laws were written and enforced to allow small private 
sector seed companies to enter the seed business and make profits. The 
government also provided training for people involved in the seed 
industry in both public and private institutions.
    Third, and most important, India liberalized the seed sector 
starting in the mid-1980s. Instead of allowing state seed corporations 
to become regional monopolies, the government opened the doors to 
investment by large Indian firms and allowed foreign direct investment 
in the sector. This change, coupled with continuing investments in 
public plant breeding and public-private partnerships, has continued to 
provide private firms with a steady stream of genetic materials for 
developing proprietary hybrids. India also benefits from a seed law 
that allows companies to sell truthfully labeled seed without having to 
go through costly and time-consuming certification and registration 
processes for new hybrids and varieties. The result is a vibrant and 
sustainable supply of seed of new cultivars that are drought tolerant 
and resistant to many pests and diseases.
Africa's Seeds of Development Program
    The Seeds of Development Program (SODP) is designed to improve 
access to appropriate, good quality, and competitively priced crop 
seeds for low-income smallholder farmers in east and southern Africa. 
This has been achieved by focused management training for over 30 small 
to medium-sized local seed companies in the region such as Vitoria 
Seeds in Uganda, Freshco Seeds in Kenya, Kamano Seeds in Zambia, 
Qualita in Mozambique, and Seed Tech in Malawi. Utilizing a grant from 
the UK Department for International Development (DFID), which was 
issued in 2006, SODP aims to achieve the purpose through two main 
outputs. The first output is to increase the scale of the program by 
enrolling additional participants from countries already involved in 
SODP and, in addition, bringing new countries into the program. The 
second output is to increase the scope of the program through widening 
program activities.\13\
    SODP management training is showing results, with SODP companies 
selling seed around 20% cheaper than their larger competitors. SODP 
networking is also providing new ways of doing business and 
opportunities for partnerships across countries. The link with the 
Alliance for a Green Revolution in Africa has proved useful for some of 
the companies. In the proposed follow-up SODP program, a major focus of 
development will be facilitating effective alliances between the two 
main SODP fellow categories (full service seed companies and seed 
traders) to enable each to exploit their niche within the smallholder 
market for seed.
    SODP is an innovative program, valued by its participants. 
Performance indicators are impressive--maize seed sales up by 54% 
between 2006 and 2007; full-time employment up by 19%; and sales 
revenue up by 35%. Company sales data also show that the bulk of sales 
(more than 80%) go to smallholder farmers. By offering a wider variety 
of seeds, including higher-yielding, disease- and drought-resistant 
varieties, and other inputs such as fertilizers, SODP companies help 
smallholder farmers increase food security for their families and 
communities. The evidence available shows that SODP members are 
producing and selling seed to smallholders at significantly lower 
prices than their larger-scale competitors.
Food Processing
    Transformations in the food processing sectors of developing 
countries are increasingly seen as strategic from the point of view of 
export earnings, domestic industry restructuring, and citizens' 
nutrition and food security.\14\ The widespread adoption by developing 
countries of export-led growth strategies has drawn attention to the 
economic potential of their food processing sectors, particularly in 
the light of the difficulties faced by many traditional primary 
commodity export markets. Food processing can be understood as post-
harvest activities that add value to the agricultural product prior to 
marketing. In addition to the primary processing of food ingredients, 
it includes, therefore, final food production on the one hand and the 
preparation and packaging of fresh products. To better understand the 
role of food processing in African agricultural development, this 
chapter will examine several cases of successful African food 
processing start-ups as well as the role new technologies (particularly 
radio and video) can play in teaching farmers how to add value with 
post-harvest processing.
Homegrown Company, Ltd., Kenya
    Homegrown Company, Ltd., is a success story of production and 
export of packaged horticulture produce from Kenya. The company 
ventured into Kenya in 1982 and focused on the processing and export of 
vegetables to the UK market. The business strategy has been the 
production and packaging of produce at source so that it can be 
exported ready for the market outlet without further packaging abroad. 
To ensure the desired quality and supply of fresh produce, it was 
important for Homegrown to enter into partnerships with local farmers 
to complement its own production. Through this partnership the company 
is able to source about 25% of the total requirement from contracted 
farmers, and in some cases such as French beans, 100% of the total 
requirement.\15\
    All farmers supplying to the Homegrown Company, Ltd., have a supply 
contract. The contract is explicit in terms of the commodity to be 
supplied, the period of supply, and the desired quality and quantity to 
be supplied. This implies that farmers on contract are able to work out 
their production schedules and put in place the necessary inputs to 
meet the contract quantities and quality. By implication also, farmers 
agree to follow the recommended crop husbandry so as to maintain the 
required quality. This contractual arrangement was initiated by the 
company as a strategy for achieving optimal resource use in the export 
of fresh produce from Kenya. Through this strategy, the company has its 
own nucleus of farm production units to meet a certain level of its 
requirements and a network of farmers contracted to provide the 
balance. Contracts entered with farmers for the supply of various types 
of fresh farm produce explicitly indicate the price as well as other 
quality dimensions that are important for delivery of the desired 
produce.
    By entering into a supply contract, farmers enjoy the benefits of 
an assured market for their farm produce while at the same time 
benefiting from the fact that their farming activity risk is minimized 
by the certainty with which their production decisions are made. 
Farmers enjoy an assured price for the various grades of farm produce 
that they deliver to the contracting company. Due to the relative 
involvement of the contractor in the production process, farmers are 
supplied with the latest farming technology, such as the latest crop 
varieties and crop husbandry techniques. This has been particularly 
notable in the production of garden peas. The provision of technical 
extension by the contractor has played a key role in ensuring that 
farmers are able to optimize their production in terms of quality and 
quantity. Homegrown Company, Ltd., also supplies fertilizers, and agro-
chemicals on credit to those farmers who need material credit so they 
can produce the expected quantities and qualities.
Sampa Jimini Cooperative Cashew Processing Society, Ghana
    Sampa Jimini Cooperative Cashew Processing Society, located in 
Brong-Ahafo, was established in 1994 with the help of Technoserve, an 
American NGO. There are 18 workers, including one factory manager and 
two assistants. Membership of the Sampa Processing Society is 55. The 
society has elected executives and operates on the guidelines of a 
cooperative. In 1994, two processing societies were formed. The 
Department of Cooperatives provided the requisite training on the 
operation and management of the societies. In 1995, Technoserve 
sponsored training in processing in Nigeria and helped with the 
acquisition of equipment. Processing started in the year 2000.\16\
    Four tons of raw nuts were processed into 1.14 tons of kernel. 
Between 2001 and 2002, 15 tons of raw nuts were purchased and 
processed. The kernels are sold to Golden Harvest Company, Ltd., in 
Accra. In 2002, the buyer started experiencing problems with the 
marketing of the kernels, which has affected prompt payment to the 
Society. As a result, the Society has looked for other marketing 
outlets such as the Indian community in Tamale and other sales outlets 
in Accra.
    Vertical and horizontal farm-agribusiness linkages existed in 
cashew nut production. These linkages, however, were informal with no 
written contracts. Four types of linkages were functional at the time 
of the study: between farmers and the processing society; between 
society and Technoserve for business development services and technical 
advice; between the processing society and Golden Harvest Company, 
Ltd., for final processing; and between Golden Harvest and Technoserve 
for business development services, training, and technical advice. 
Farmers supply the processing society with raw nuts for processing. The 
processing society in turn educates the farmers on the best treatment 
and drying practices to get good nuts that attract a premium price. 
Technoserve encouraged the formation of the farmers' association and 
the processing society, organized training on cooperative organization, 
and introduced the society to financial institutions.
    The linkage between the processing society and the marketing 
company has also been facilitated by Technoserve to ensure a ready 
market for the society's products. The connection is strengthened by 
the fact that the processing society owns 60 million shares of Golden 
Harvest, which in return provides training and information on 
international market developments. There were no contractual 
agreements. Technoserve played a significant role in establishing the 
connections observed in this case by introducing the concept of value 
addition by sponsoring training programs. Technoserve initiated all the 
linkages with the marketing firms and the other government institutions 
such as the Department of Cooperatives.
Blue Skies Agro-Processing Company, Ghana
    Blue Skies Agro-processing Company, Ltd., is located about 25 km 
from Accra.\17\ The company processes fresh fruits for supermarkets in 
some European markets. Fruits processed include pineapple, mangoes, 
watermelon, passion fruit, and pawpaw. While most fruit is procured in 
Ghana, supply gaps are filled by imports from South Africa, Egypt, 
Kenya, Brazil, and the UK. The company started with 38 workers and has 
since increased the workforce to 450, 60% of whom are permanent staff. 
The processed products of the company conform to the standards of the 
European Retailer Partnership Good Agricultural Practices (EUREGAP). In 
the last four years the company has grown tremendously, expanding its 
processing facilities. Through good extension services and training of 
farmers, coupled with higher price offers, the company rapidly 
increased its processing capacity from 1 ton per week to about 35 tons 
per week. Blue Skies is known to pay its farmers promptly and also to 
offer a higher price per kilogram of pineapple.
    Farmers receive technical training and advice from the processing 
company free of charge to ensure that their produce meets the company's 
quality standards. Committed and loyal farmers can also purchase inputs 
and equipment interest free. Only farmers who are EUREPGAP certified 
are obliged to sell to the company because of the investment the 
company makes in getting farmers certified. There is a ready market for 
Blue Skies' products in the EU market. The company is committed to 
supplying products on time and in the right quantities to supermarkets. 
To help its farmers, Blue Skies provides its dedicated farmers with 
credit and has worked to improve road infrastructure near farms and 
enhance access by company trucks.
Communication Technology in Food Processing
    Conventional media, radio, and video are powerful, accessible, and 
relevant forces of agricultural innovation and transformation in 
Africa. Two-thirds of rural women creatively applied ideas illustrated 
by videos demonstrating improved food processing techniques compared to 
less than 20% who attended training workshops in Cotonou, Benin. The 
power of radio and video programming is not adequately recognized and 
accorded sufficient attention by Africa's policy makers, stifling the 
potential of these media to unleash farmer innovations. Farmers' 
innovations are often shaped by capital limitations and mainly rely on 
locally available resources, of which knowledge is key.
    Video provides a powerful, low-cost medium for farmer-to-farmer 
extension and for exposing rural communities to new ideas and 
practices. A recent study examined the impacts of educational videos 
featuring early adopting farmers demonstrating the use of new 
technologies and techniques.\18\ The study found that when women 
watched videos featuring fellow farmers demonstrating new techniques, 
they showed better learning and understanding of the technology and 
creatively applied its central ideas. Innovation levels of 72% were 
recorded in villages where videos were used to introduce women to 
improved rice processing techniques. This can be compared to 19% 
innovation among farmers who attended training workshops. When women 
who had attended training workshops watched the videos, the innovations 
increased to 92%.
    Watching videos spurred greater innovation than did conventional 
farmer training techniques. Notably high levels of creativity (67%) 
were recorded among women who did not have access to the rice 
processing technology featured in the video. The adaptations by Benin 
women to improve rice processing after having watched the video 
illustrate the power of video to quickly stimulate creativity among 
rural people, who are often seen as much more passive technology 
consumers. Besides being more powerful, video may also be able to reach 
more people than conventional training workshops. Drawing lessons from 
a similar rural learning initiative undertaken in Bangladesh, the 
Africa Rice Center with a wide range of partners is using local 
language videos to train farmers on various facets of rice production 
and processing in Benin, Ethiopia, Gambia, Ghana, Nigeria, and Senegal, 
among other countries.
    By 2009, the rice videos had been translated into 30 African 
languages and were being used by more than 400 community-based 
organizations across Africa to strengthen their own capacity in rice 
technologies.\19\ The videos, which are disseminated through mobile 
cinema vans or local organizations, have been viewed by about 130,000 
farmers across Africa, reaching three times as many farmers as face-to-
face farmer training workshops. Partner organizations in various 
countries are combining the videos with radio programming to reinforce 
the lessons and knowledge.
    In Guinea, one radio station, Radio Guinee Maritime, has aired 
interviews with farmers involved in this program reaching some 800,000 
listeners, an experience that has been replicated in Gambia, Nigeria, 
and Uganda. To effectively capitalize on the potential of radio and 
video technologies in Africa, proponents advise broadening the 
dissemination of innovations beyond those developed by the traditional 
research and extension systems to include localized farmer innovations 
also.
Social Entrepreneurship and Local Innovations
    Social enterprises are emerging as major economic players 
worldwide.\20\ Their role in African agriculture is growing. An example 
of such an initiative is the One Acre Fund, a nonprofit organization 
based in Bungoma (western Kenya) that provides farmers with the tools 
they need to improve their harvests and feed their families.\21\ Life-
changing agricultural technologies already exist in the world; One Acre 
Fund's primary focus is on how to distribute these technologies in a 
``farmer-usable'' way, and how to get farmers to permanently adopt 
these technologies. One Acre Fund currently serves 23,000 farm families 
(with 115,000 children in those families) in Kenya and Rwanda.
    From the beginning, One Acre Fund talked to farmers to understand 
what they need to succeed: finance, farm inputs, education, and access 
to markets. One Acre Fund offers a service model that addresses each of 
these needs. When a farmer enrolls with One Acre Fund, she joins as 
part of a group of 6 to 12 farmers. She receives an in-kind loan of 
seed and fertilizer, which is guaranteed by her group members. One Acre 
Fund delivers this seed and fertilizer to a market point within two 
kilometers of where she lives and a field officer provides in-field 
training on land preparation, planting, fertilizer application, and 
weeding. These trainings are standardized across One Acre Fund's entire 
operation and include interactive exercises, simple instructions, and 
group modeling of agriculture techniques. For instance, after a field 
officer teaches a group of farmers how to use a planting string to 
space rows of crops, he asks them to model the technique in the field 
so that he can offer immediate feedback.
    Over the course of the season, the field officer monitors the 
farmer's fields. At the end of the season, he trains her on how to 
harvest and store her crop. One Acre Fund also offers a harvest buy-
back program that farmers can participate in if they choose. Final loan 
repayment is several weeks after harvest--98% of farmers repay their 
loans.
    Before joining One Acre Fund, many farmers in Kenya were harvesting 
five bags of maize from half an acre of land. After joining One Acre 
Fund, their harvests typically increase to 12 to 15 bags of maize from 
the same half acre of land. This represents a doubling in farm profit 
per planted acre--twice as much income from the same amount of land.
    The field officer is the most important part of the One Acre Fund 
service model. These field officers are typically recruited from the 
communities in which they work. One Acre Fund consciously chooses not 
to hire university-educated horticulturists for its field staff (like 
most NGOs) because most of the information farmers need to know is 
encapsulated in a few simple lessons. The Fund prefers to employ down-
to-earth, hardworking staff--many of whom are farmers themselves--who 
have strong leadership potential within their own communities.
    One Acre Fund's field officers each work with roughly 120 farmers, 
and they visit each of their farmers on a weekly or biweekly basis. At 
these meetings, they conduct trainings, check germination rates, 
troubleshoot problems in the field, and collect repayment. Over the 
course of the season, One Acre Fund's field officers cultivate a strong 
bond with their farmers. They respect the feedback their farmers give 
them about farming techniques and One Acre Fund's program. In turn, One 
Acre Fund farmers have a deep appreciation for how knowledgeable their 
field officers are and how hard they work to serve their customers. 
Many farmers call their field officers ``teacher.''
    Local innovations represent one of Africa's least recognized 
assets. For more than 20 years India's Honey Bee Network and Society 
for Research and Initiatives for Sustainable Technologies and 
Institutions have been scouting for innovations developed by artisans, 
children, farmers, women, and other community actors. They have built a 
database of more than 10,000 innovations.\22\
    To further the work, India's Department of Science and Technology 
created the National Innovation Foundation (NIF) in 2000. Its aim is 
``providing institutional support in scouting, spawning, sustaining and 
scaling up grassroots green innovations and helping their transition to 
self supporting activities.'' NIF has so far filed over 250 patent 
applications for the ideas in India, of which 35 have been granted. 
Another seven applications have been filed in the United States of 
which four have been granted.
    To facilitate the commercialization and wider application of the 
innovations, NIF works with institutions such as the Grassroots 
Innovations Augmentation Network, which serves as a business incubator. 
Some of the objectives of the Honey Bee Network are now part of the 
work of the Prime Minister's National Innovation Council. Africa's 
diversity in agricultural and ecological practices offers unique 
opportunities for creative responses to local challenges. Such 
responses form a foundation upon which to supplement formal 
institutions with entrepreneurial activities driven by local 
innovations.
Conclusions
    Despite strong growth in the private seed sector in Africa over the 
last decade, most of Africa's millions of small-scale farmers lack easy 
access to affordable, high-quality seeds. Seed policies and regulations 
currently differ across African countries, limiting opportunities for 
trade and collaboration. However, efforts are under way to develop 
regional trading blocs in the seed industry. For example, across the 14 
Southern Africa Development Community (SADC) countries, seed industry 
stakeholders have been formulating a single policy document to enable 
companies to move seed and breeding material across national borders, 
register varieties more easily, and market their products regionally. A 
parallel initiative is under way for East African Community (EAC) 
countries. These efforts need to be finalized in east and southern 
Africa, replicated across all Africa's subregional organizations, and 
complemented by parallel efforts in the African Union.
    Like the formation of African seed companies, the creation and 
spread of value-added food processing enterprises could help African 
farmers retain a higher portion of the profits from the materials they 
produce. Food processing could also help reduce the threat of hunger by 
increasing the number of protein- and vitamin-rich products provided by 
the local market, as well as improve local incomes by tapping into 
international markets to get much needed export revenues from 
agriculture. Unlike the situation with seeds, growth in food processing 
will require fewer changes in government and regional policies. The key 
change will need to come in the areas of capital, so it is easier for 
individuals and companies to invest in the infrastructure, equipment, 
and training necessary to enter the food processing industry.
7  Governing Innovation
    African countries are increasingly focusing on promoting regional 
economic integration as a way to stimulate economic growth and expand 
local markets. Considerable progress has been made in expanding 
regional trade through regional bodies such as the Common Market for 
Eastern and Southern Africa (COMESA) and the East African Community 
(EAC). There are six other such Regional Economic Communities (RECs) 
that are recognized by the African Union as building blocks for pan-
African economic integration. So far, regional cooperation in 
agriculture is in its infancy and major challenges lie ahead. This 
chapter will explore the prospects of using regional bodies as agents 
of agricultural innovation through measures such as regional 
specialization. The chapter will examine ways to strengthen the role of 
the RECs in promoting innovation. It adopts the view that effective 
regional integration is a learning process that involves continuous 
institutional adaptation.\1\
    Through extensive examples of initiatives at the national or cross-
border levels, this chapter provides cases for regional collaboration 
or scaling up national programs to regional programs. Africa's RECs 
have convening powers that position them as valuable vehicles. That is, 
they convene meetings of political leaders at the highest level, and 
these leaders take decisions that are binding on the member states; the 
member states then regularly report on their performance regarding 
these decisions. Such meetings provide good platforms for sharing 
information and best practices. Africa's RECs have established and 
continue to designate centers of excellence in various areas. COMESA, 
for instance, has established reference laboratories for animal and 
plant research in Kenya and Zambia. Designation of centers of 
excellence for specific aspects of agricultural research will greatly 
assist specialization within the RECs and put to common use the 
knowledge from the expertise identified in the region.
Regional Innovation Communities
    Regional integration is a key component of enabling agricultural 
innovation because it dismantles three barriers to development: ``weak 
national economies; a dependence on importing high-value or finished 
goods; and a reliance on a small range of low-value primary exports, 
mainly agriculture and natural resources.'' \2\
    Physical infrastructure creates a challenge for many African 
countries but also presents an opportunity for the RECs to collaborate 
on mutually beneficial projects. In many parts of Africa, poor road 
conditions prevent farmers from getting to markets where they could 
sell their excess crops profitably. Poor road conditions include the 
lack of paved roads, the difficulty of finding transportation into 
market centers, and the high cost of having to pay unofficial road fees 
to either customs officials or other agents on the roads. These 
difficulties become more extreme when farmers have to get their crops 
across international borders to reach markets where sales are 
profitable.
    The inability to sell crops, or being forced to sell them at a loss 
because of high transportation costs, prevents farmers from making 
investments that would increase the quantity and quality of their 
production, since any increase will not add to their own well-being, 
and the excess crops may go to waste. This is a problem where national 
governments and regional cooperation offer the best solution. Regional 
bodies, with representation from all of the concerned countries, are 
placed to address the needs for better subregional infrastructure and 
standardization of customs fees at only a few locations.
    Having countries come together to address problems of regional 
trade, and particularly including representatives from both the private 
and public sectors, allows nations to identify and address the barriers 
to trade. The governments are now working together to address the 
transportation problem and to standardize a regional system of 
transport and import taxes that will reduce the cost of transporting 
goods between nations. This new cooperation will allow the entire 
region to increase its food security by capitalizing on the different 
growing seasons in different countries and making products available in 
all areas for longer periods of time, not just the domestic season. 
Such cooperation also provides African farmers with access to 
international markets that they did not have before, since it allows 
them to send their goods to international ports, where they can then 
sell them to other nations.
    Regional economic bodies provide a crucial mechanism for 
standardizing transport procedures and giving farmers a chance to earn 
money selling their products. This cooperation works best when it 
happens both between countries and between the private and public 
sectors. Having multiple actors involved allows for better information, 
more comprehensive policy making, and the inclusion of many 
stakeholders in the decision-making process. Governments and private 
actors should strengthen their participation in regional bodies and use 
those groups to address transportation issues, market integration, and 
infrastructure problems.
    Facilitating regional cooperation is emerging as a basis for 
diversifying economic activities in general and leveraging 
international partnerships in particular.\3\ Many of Africa's 
individual states are no longer viable economic entities; their future 
lies in creating trading partnerships with neighboring countries. 
Indeed, African countries are starting to take economic integration 
seriously.\4\ For example, the re-creation of the EAC is serving not 
only as a mechanism for creating larger markets but also is promoting 
peace in the region. Economic asymmetry among countries often is seen 
as a source of conflict.\5\ However, the inherent diversity serves as 
an incentive for cooperation.
Emerging Regional Research Cooperation Trends
    The original Organisation of African Unity (OAU) was transformed 
and restructured to form the African Union (AU) with a stronger mandate 
to ensure the socioeconomic development of the continent. The 
secretariats of the AU Commission and the New Partnership for Africa's 
Development (NEPAD) were divided into departments that reflect 
development priorities of the AU. For example, both have offices of 
agriculture and science and technology (S&T). The AU Commission takes 
responsibility for formulating common policies and programs of the AU 
and presents them for approval by heads of state and government. NEPAD, 
on the other hand, spearheads the implementation of approved policies 
and programs.
    In 2006, heads of state and government approved the Consolidated 
Plan for African Science and Technology, which is both a policy and a 
program document for the promotion of S&T in Africa. Since then the AU 
Commission's Department of Human Resources, Science, and Technology has 
mobilized participation of member states in a specialized ministerial 
structure that advises AU heads of states and government on matters 
related to S&T. The NEPAD office of S&T managed the implementation of 
the research program that consisted of flagship programs covering 
themes such as biosciences, biodiversity, biotechnology, energy, water, 
material sciences, information and communication technology, space 
science, and mathematics.
    Of the flagship programs, the biosciences program is the most 
advanced in that it has five regional programs that were developed 
bottom-up by scientists in the regions. The program has attracted loyal 
sponsors and some programs are at a stage of transforming their results 
into promising products. For example, Southern Africa Network for 
Biosciences (SANBio), which had identified HIV/AIDS as one of its 
priorities, has been conducting research into the validation of 
traditional medicines for affordable treatment of HIV/AIDS and HIV-
related opportunistic infections. The study obtained very encouraging 
results. Two peptides with anti-HIV activity have been isolated and 
currently the study is focusing on developing this lead into a herbal 
medicine that could benefit HIV/AIDS patients.
    Other regions have equally advanced programs that are derived from 
regional interests. However valuable as these programs appear, they 
have not captured the interest of governments and local industry enough 
to leverage local investment. For example, the SANBio program runs on 
the basis of Finnish and South African funding. This is a major 
limitation to growth of the programs. An analysis of the problem seems 
to reveal that the NEPAD science and technology program is bedeviled by 
its isolation from the local economy--the biosciences-related industry 
that has both government and related industry vested interests backed 
by local investment. At this stage, based on the absence of investment 
in the program, the NEPAD science and technology effort seems divorced 
from the African reality even though it is framed around African S&T-
related problems.
    Various research and development programs are being carried out in 
each of the networks created under NEPAD, such as Biosciences Eastern 
and Central Africa Network (BecANet), West African Biosciences Network 
(WABNet), and North Africa Biosciences Network (NABNet). Research 
programs at SANBio include technology transfer to local communities, 
especially women, for producing mushrooms using affordable local 
resources and research in aquaculture systems involving use of plastic 
sheeting as covers to improve productivity of pond environments for 
increased fish growth.
    BecANet has implemented three flagship and five competitive grant 
projects in the areas of banana, sorghum, bovine and human 
tuberculosis, teff, cassava, sweet potatoes, and tsetse and 
trypanosomiasis. The BecANet hub hosted at least 24 research projects 
on crops and livestock. The research on trypanosomiasis led to the 
discovery of a compound that could be used to produce a drug for 
treating sleeping sickness. This compound was subsequently patented. 
The results from the work on tracking bush meat in Kenya using DNA 
techniques at the BecANet hub suggest that bush meat, as whole meat, is 
not sold within Nairobi, but outside the city. This type of study has 
wider implications for food recall and traceability in Africa.
    WABNet has implemented a flagship project on the inventory and 
characterization of West African sorghum genetic resources. This 
project conducted a germplasm collection expedition during which 45 new 
sorghum accessions were collected from 15 districts including (Upper 
West Region), Bawku (Upper East Region), and Tamale (Northern Region) 
of Ghana by November 2009. In Ghana, for example, 245 accessions of 
sorghum were at a risk of being lost as a result of deteriorating 
storage conditions in the gene banks. This project was instrumental in 
recovering about 100 of these accessions. This project had to therefore 
refocus its objectives on the new collections and on those that had 
been recovered from the banks. Sorghum nutritional enhancement through 
mutagenesis and genomics is inducing mutagenesis through irradiation, 
with the aim of producing new varieties of sorghum that could be higher 
yielding and more nutritionally enhanced. Trials on this aspect of the 
project are still ongoing.
    NABNet carried out a flagship project on production of elite 
biofortified North African barley genotypes tolerant to biotic and 
abiotic stresses. In addition, the network is implementing the 
following research projects: multidisciplinary investigation of the 
genetic risk factors of type II diabetes and its complications in North 
Africa; biotechnological approaches to protect date palm against major 
plagues in North Africa; and production of Bt bioinsecticides useful 
for biological control of the phytopathogenic insects and human disease 
vectors.
    Within SANBio, through support from the governments of Finland and 
South Africa, NEPAD African Biosciences Initiative (NEPAD/ABI) is 
establishing a bioinformatics center at the University of Mauritius and 
an indigenous knowledge systems center at the University of North West 
in South Africa. These centers will enhance capacity building in these 
domains in southern Africa.
    Through the support of the government of Canada and International 
Livestock Research Institute (ILRI), laboratories at ILRI have been 
upgraded offering opportunities to African scientists to carry out 
cutting-edge biosciences research at the BecANet hub. As the facilities 
became fully operational by the end of 2009, it is expected that there 
will be an increase in the number of projects being carried out in 2010 
onward. The infrastructure upgraded at the BecANet hub can support 
research in bioinformatics, diagnostics, sequencing, genotyping, 
molecular breeding, and genetic engineering of crops, livestock, and 
wild animals and plants.
    Within WABNet, NEPAD/ABI has established and furnished offices in 
Dakar and Senegal and a biotechnology laboratory at the University of 
Ouagadougou in Burkina Faso. These facilities will enhance 
coordination, research, and development in the region.
    Networking is viewed as an essential component for accelerating 
capacity building and collaborative research efforts among institutions 
involved in biosciences in Africa. More endowed biosciences 
institutions are being linked to less endowed ones in all the regions 
of the continent. Over the years, thematic research teams have been 
established, such as ones for improving banana production; for 
validation of herbal remedies, bioinformatics, fisheries, and 
aquaculture; and for cereal improvement, just to mention a few. A more 
important development is that thematic networks are now running across 
regional and international boundaries and broadening the scope for 
participating international research programs.\6\
    For example, the trypanosomiasis and tsetse fly research network 
consists of institutions and researchers in the SANBio and BecANet 
countries. Networking has provided opportunities for young men and 
women to access training facilities in several countries and 
subregions. A total of 20 students from post-conflict countries of the 
Democratic Republic of the Congo, Sudan, Congo Brazzaville, and Burundi 
are now training for postgraduate qualifications in Kenya and Uganda.
    The COMESA region is home to some of Africa's most important 
fisheries resources. These include, among others, marine systems in the 
western Indian Ocean, the southeastern Atlantic, the Mediterranean, and 
the vast freshwater systems of the Nile, Congo, and Zambezi Basins and 
the Great Lakes found within them. Taken together, COMESA member states 
have access to a coastline of some 14,418 kilometers, a continental 
shelf of about 558,550 square kilometers, and a total Exclusive 
Economic Zone area of about 3.01 million square kilometers, as well as 
inland waters of about 394,274 square kilometers.
    COMESA has identified aquaculture as a priority growth area for 
achieving the objectives and targets of the Comprehensive Africa 
Agriculture Development Programme (CAADP) to significantly contribute 
to food and nutrition security in the region. In September 2008, member 
states agreed on the outline of a COMESA Fisheries and Aquaculture 
Strategy to enable COMESA to scale up their coordinating and 
facilitative role.
    COMESA in partnership with Lake Victoria Fisheries Organization is 
implementing a program that seeks to maximize economic benefits and 
financial returns on processed Nile perch through innovation and 
development of sophisticated value-added products. Currently, with 
decreasing levels of Nile perch, fish processing establishments are 
operating well below capacity, sometimes as low as 20% capacity. To 
remain competitive, companies are seeking to transform by-products or 
fish fillet waste into high-value products for export through use of 
innovative processes and production methods.
    Three companies are supported by COMESA to achieve this. 
Interventions have focused on two areas. First, they support companies 
to develop new products through piloting of new recipes, processes, and 
production methods while utilizing new or improved technologies. 
Second, they help fish processing companies to assess food safety 
aspects of new products developed from fish wastes and the application 
of appropriate quality assurance and food safety systems based on the 
Hazard Analysis and Critical Control Point (HACCP) system to address 
the associated risks. The HACCP is a food and pharmaceutical safety 
approach that addresses physical, chemical, and biological hazards as a 
preventive measure rather than inspection of finished products.\7\
    The results are encouraging. One company successfully launched 
frozen fish burgers and established HACCP-based food safety systems 
that are compliant with EU requirements. As a result, the company has 
accessed high-value markets in the European Community (EC).
    Another product development innovation in the fisheries sector is 
using Nile perch skin as a raw material for exotic leather products. 
This has been picked up by COMESA, which has developed a value chain 
sector strategy for leather and leather products, part of which is now 
being implemented under a Canadian-funded Programme for Building 
African Capacity for Trade. A key issue for the region's 
competitiveness is innovation in new products and markets for leather 
products rather than continuing to export raw hides and skins. The fish 
skin niche market that was identified started in Uganda, at the Crane 
Shoes factory in Kampala. The use of fish skin began as the factory 
sought new markets and alternatives to leather to compete with Chinese 
imports. The key question, however, is how to support the industry to 
achieve long-term sustainability, which may require a rare form of 
aquaculture for the Nile perch, which is becoming a rare species in 
Lake Victoria.
    An investment study on Uganda's fish and fish farming industry 
identified a number of policy measures that are being put in place in 
order to benefit from the fisheries sector. These include a tripartite 
Lake Victoria Environment Management Project established to ensure 
improved productivity of Lake Victoria; support for the Aquaculture 
Research and Development Institute at Kajjansi; provision of resources 
to upgrade landing sites and quality control laboratories to meet 
international standards; and provision of resources to strengthen the 
Uganda National Bureau of Standards and Inspectorate section of the 
Fisheries Department.
Fostering the Culture of Innovation
Improving the Governance of Innovation
    Promoting a growth-oriented agenda will require adjustments in the 
structure and functions of government at the regional, national, and 
local levels. Issues related to science, technology, and innovation 
must be addressed in an integrated way at the highest possible levels 
in government. There is therefore a need to strengthen the capacity of 
presidential offices to integrate science, technology, and innovation 
in all aspects of government. In 2010 no African head of state or 
government had a chief scientific adviser.
    The intensity and scope of coordination needed to advance 
agricultural innovation exceeds the mandate of any one ministry or 
department. As noted elsewhere, Malawi addressed the challenge of 
coordination failure by presidential control of agricultural 
responsibilities. The need for high-level or executive coordination of 
agricultural functions is evident when one takes into account the 
diverse entities that have direct relevance to any viable programs. 
Roads are important for agriculture, yet they fall under different 
ministries that may be more concerned with connecting cities than rural 
areas. Similarly, ministries responsible for business development may 
be focusing on urban areas where there is a perception of short-term 
returns to investment. The point here is not to enter the debate on the 
so-called urban bias.\8\
    The main point is to highlight the importance of strategic 
coordination and alignment of the functions of government to reflect 
contemporary economic needs. Aligning the various organs of government 
to focus on the strategic areas of economic efforts requires the use of 
political capital. In nearly all systems of government such political 
capital is vested in the chief executive of a country, either the 
president or the prime minister depending on the prevailing 
constitutional order. It would follow from this reasoning that 
presidents or prime ministers should have a critical agricultural 
coordination role to perform. They can do so by assuming the position 
of minister or by heading a body charged with agricultural innovation. 
The same logic also applies for the RECs.
    The dominant thinking is to create ``science and innovation desks'' 
in the RECs. Such desks will mirror the functions of the science and 
technology ministries at the national level. It is notable that 
currently no African leaders are supported by effective mechanisms that 
provide high-level science, technology, and engineering advice. The 
absence of such offices (with proper terms of reference, procedures, 
legislative mandates, and financial resources) hampers the leaders' 
ability to keep abreast of emerging technological trends and to make 
effective decisions. Rapid scientific advancement and constant changes 
in the global knowledge ecology require African leaders at all levels 
(heads of RECs, presidents, or prime ministers and heads of key local 
authorities such as states or cities) to start creating institutions 
for science advice. In 2010 COMESA led the way by adopting decisions on 
science, technology, and innovation along these lines (see Appendix 
II). Agricultural innovation could be the first beneficiary of informed 
advice from such bodies.
    Bringing science, technology, and engineering to the center of 
Africa's economic renewal will require more than just political 
commitment; it will take executive leadership. This challenge requires 
concept champions, who in this case will be heads of state spearheading 
the task of shaping their economic policies around science, technology, 
and innovation. So far, most African countries have failed to develop 
national policies that demonstrate a sense of focus to help channel 
emerging technologies into solving developmental problems. They still 
rely on generic strategies dealing with ``poverty alleviation'' without 
serious consideration of the sources of economic growth.
    One of the central features of executive guidance is the degree to 
which political leaders are informed about the role of science, 
technology, and engineering in development. Advice on science, 
technology, and innovation must be included routinely in policy making. 
An appropriate institutional framework must be created for this to 
happen. Many African cabinet structures are merely a continuation of 
the colonial model, structured to facilitate the control of local 
populations rather than to promote economic transformation.
    Advisory structures differ across countries. In many countries, 
science advisers report to the president or prime minister, and 
national scientific and engineering academies provide political leaders 
with advice. Whatever structure is adopted, the advising function 
should have some statutory mandate to advise the highest levels of 
government. It should have its own operating budget and a budget for 
funding policy research. The adviser should have access to good and 
credible scientific or technical information from the government, 
national academies, and international networks. The advisory processes 
should be accountable to the public and be able to gauge public opinion 
about science, technology, and innovation.
    Successful implementation of science, technology, and innovation 
policy requires civil servants with the capacity for policy analysis--
capacity that most current civil servants lack. Providing civil 
servants with training in technology management, science policy, and 
foresight techniques can help integrate science, technology, and 
innovation advice into decision making. Training diplomats and 
negotiators in science, technology, and engineering also can increase 
their ability to discuss technological issues in international forums.
    African countries have many opportunities to identify and implement 
strategic missions or programs that promote growth through investments 
in infrastructure, technical training, business incubation, and 
international trade. For example, regional administrators and mayors of 
cities can work with government, academia, industry, and civil society 
to design missions aimed at improving the lives of their residents. 
Universities located in such regions and cities could play key roles as 
centers of expertise, incubators of businesses, and overall sources of 
operational outreach to support private and public sector activities. 
They could play key roles in transferring technology to private 
firms.\9\
    Similar missions could be established in rural areas. These 
missions would become the organizing framework for fostering 
institutional interactions that involve technological learning and 
promote economies of scale. In this context, missions that involve 
regional integration and interaction should be given priority, 
especially where they build on local competencies.
    This approach can help the international community isolate some 
critical elements that are necessary when dealing with such a diverse 
set of problems as conservation of forests, provision of clean drinking 
water, and improving the conditions of slum dwellers. In all these 
cases, the first major step is the integration of environmental 
considerations into development activities.
Reforming the Structures of Innovation Governance
    The RECs offer a unique opportunity for Africa to start rethinking 
the governance of innovation so that the region can propel itself to 
new frontiers and run its development programs in an enlightened manner 
that reflects contemporary challenges and opportunities. The focus of 
improvements in governance structures should be at least in four 
initial areas: a high-level committee on science, innovation, 
technology, and engineering; regional science, technology, and 
engineering academies; an office of science, technology, and 
innovation; and a graduate school of innovation and regional 
integration.
    Committee on science, innovation, technology, and engineering: The 
committee will be a high-level organ of each REC that will report 
directly to the councils of ministers and presidential summits. Its 
main functions should be to advise the respective REC on all matters 
pertaining to science, technology, engineering, and innovation. The 
functions should include, but not be limited to, regional policies that 
affect science, technology, engineering, and innovation. It shall also 
provide scientific and technical information needed to inform and 
support public policy on regional matters in areas of the competence of 
the RECs (including economy, infrastructure, health, education, 
environment, security, and other topics).
    For such a body to be effective, it will need to draw its 
membership from a diversity of sectors including government, industry, 
academia, and civil society. The members shall serve for a fixed term 
specified at the time of appointment. Within these sectors, 
representation should reflect the fact that science, technology, 
engineering, and innovation are not limited to a few ministries or 
departments but cover the full scope of the proper functioning of 
society.
    The committee should meet as needed to respond to information 
requests by chief executive, councils of ministers, or the summits. To 
meet this challenge, the committee should solicit information from a 
broad spectrum of stakeholders in the research community, private 
sector, academia, national research institutes, government departments, 
local government, development partners, and civil society 
organizations. The committee's work can be facilitated through working 
groups or task forces set up to address specific issues.
    The committee's work will be supported by the Office of Science, 
Innovation, Technology, and Engineering headed by a director who also 
serves as the Chief Science, Innovation, Technology and Engineering 
Adviser to the chief executive. A national analogue of such a committee 
is India's National Innovation Council that was established in 2010 by 
the Prime Minister to prepare a roadmap for the country's Decade of 
Innovation (2010-2020). The aim of the council is to develop an Indian 
innovation model that focuses on inclusive growth and the creation of 
institutional networks that can foster inclusive innovation. The 
council will promote the creation of similar bodies at the sectoral and 
state levels.\10\
    Regional academies of science, innovation, technology, and 
engineering: African countries have in recent years been focusing on 
creating or strengthening their national academies of science and 
technology. So far 16 African countries (Cameroon, Egypt, Ethiopia, 
Ghana, Kenya, Madagascar, Mauritius, Morocco, Mozambique, Nigeria, 
Senegal, South Africa, Sudan, Tanzania, Uganda, and Zimbabwe) have 
national academies. There is also the nongovernmental African Academy 
of Sciences (AAS).
    It is notable that despite Africa's growing emphasis on investing 
in infrastructure, only one African country (South Africa) has an 
academy devoted to promoting engineering. Most of the others seek to 
recognize engineers through regular scientific academies, but their 
criteria for selection tend to focus on publications and not practical 
achievements. A case can be made on the need to expand the role of 
academies in providing advice on engineering-related investments.
    The creation of regional academies of science, innovation, 
technology, and engineering will go a long way in fostering the 
integration of the various fields and disciplines so that they can help 
to foster regional integration and development.\11\ The main objectives 
of such academies would be to bring together leaders of the various 
regions in science, innovation, technology, and engineering to promote 
excellence in those fields. Their priorities would be to strengthen 
capabilities, inspire future generations, inform public debates, and 
contribute to policy advice.
    The fellows of the academies will be elected through a rigorous 
process following international standards adopted by other academies. 
Their work and outputs should also follow the same standards used by 
other academies. The academies should operate on the basis of clear 
procedures and should operate independently. They may from time to time 
be asked to conduct studies by the RECs but they should also initiate 
their own activities, especially in areas such as monitoring 
scientific, technological, and engineering trends worldwide and keeping 
the RECs informed about their implications for regional integration and 
development. Unlike the committee, the academies will operate 
independently and their advisory functions are only a part of a larger 
agenda of advancing excellence in science, innovation, technology, and 
engineering.
    As part of their public education mission, the academies could 
collaborate with groups such as the Forum for Agricultural Research in 
Africa, an umbrella organization that brings together and forges 
coalitions of leading stakeholders in agricultural research and 
development in Africa. If needed, specialized regional academies of 
agriculture could be created to serve the sector. Such agricultural 
academies could benefit from partnerships with similar organizations in 
countries such as China, India, Sweden, and Vietnam. The proposed 
academies will need to work closely with existing national academies 
and AAS.
    Office of science, innovation, technology, and engineering: The 
RECs will need to create strong offices within their secretariats to 
address issues related to science, innovation, technology, and 
engineering. The bulk of the work of such offices will be too 
coordinate advisory input as well as serve as a link between the 
various organs of the RECs and the rest of the world. The head of the 
office will have two main functions. First, the person will serve as 
the chief adviser to the various organs of the RECs (through the chief 
executive). In effect, the person will be the assistant to the chief 
executive on science, innovation, technology, and engineering. Second, 
the person will serve as director of the office and be its 
representative when dealing with other organizations. In this role the 
director will be a promoter of science, innovation, technology, and 
engineering whereas in the first role the person will serve as an 
internal adviser.
    For such an office to be effective, it will need to be adequately 
funded and staffed. It can draw from the personnel of other 
departments, academies, or organizations to perform certain duties. In 
addition to having adequate resources, the office will need to develop 
transparent procedures on how it functions and how it relates to other 
bodies. It is imperative that the functions of the office be restricted 
to the domain of advice and it should not have operational 
responsibilities, which belong to the national level.
    School of regional integration: The need to integrate science and 
innovation in regional development will require the creation of human 
capacity needed to manage regional affairs. So far, the RECs rely 
heavily on personnel originally trained to manage national affairs. 
There are very few opportunities for training people in regional 
integration. Ideally, there should be a graduate African School of 
Regional Integration to undertake research, professional training, and 
outreach on how to facilitate regional integration. Such a school could 
function either as a stand-alone institution or in conjunction with 
existing universities. A combination of the two where an independent 
school serves as a node in a network of graduate education in regional 
integration is also an option.
    The school could focus on providing training on emerging issues 
such as science and innovation. It can do so through short executive 
courses, graduate diplomas, and degree programs. There is considerable 
scope for fostering cooperation between such a school and well-
established schools of government and public policy around the world. 
The theme of regional integration is a nascent field with considerable 
prospects for growth. For this reason it would not be difficult to 
promote international partnerships that bring together regional and 
international expertise.
    The school could also serve as depository of knowledge gained in 
the implementation of regional programs. Staff from the RECs could 
serve as adjunct faculty and so could join it as full-time professors 
of the practice of regional integration. The school could also work 
with universities in the region to transfer knowledge, curricula, and 
teaching methods to the next generation of development practitioners. 
The area of agricultural innovation would be ideal for the work of such 
a school and a network of universities that are part of the regional 
innovation system.
Funding Innovation
    One of the key aspects of technological development is funding. 
Financing technological innovation should be considered in the wider 
context of development financing. Lack of political will is often cited 
as a reason for the low level of financial support for science, 
technology, and innovation in Africa. But a large part of the problem 
can be attributed to tax and revenue issues that fall outside the scope 
of science and technology ministries.\12\ For example, instruments such 
tax credits that have been shown to increase intensity of research and 
development activities are unlikely to work in policy environments 
without a well-functioning tax regime.\13\ Other instruments such as 
public procurement can play a key role in stimulating innovation, 
especially among small and medium-sized enterprises (SMEs).\14\
    Currently, Africa does not have adequate and effective mechanisms 
for providing support to research. Many countries have used a variety 
of models, including independent funds such as the National Science 
Foundation in the United States and the National Research Fund of South 
Africa. Others have focused on ensuring that development needs guide 
research funding and, as such, have created specific funding mechanisms 
under development planning ministries. While this approach is not a 
substitute for funding to other activities, it distinguishes between 
measures designed to link technology to the economy from those aimed at 
creating new knowledge for general learning. What is critical, however, 
is to design appropriate institutional arrangements and to support 
funding mechanisms that bring knowledge to bear on development.
    Creating incentives for domestic mobilization of financial 
resources as a basis for leveraging external support would be 
essential. Other innovations in taxation, already widespread around the 
world, involve industry-wide levies to fund research, similar to the 
Malaysian tax mechanism to fund research. Malaysia imposed cesses on 
rubber, palm oil, and timber to fund the Rubber Research Institute, the 
Palm Oil Research Institute, and the Forestry Research Institute. A tax 
on tea helps fund research on and marketing of tea in Sri Lanka. Kenya 
levies a tax on its tea, coffee, and sugar industries, for example, to 
support the Tea Research Foundation, the Coffee Research Foundation, 
and the Kenya Sugar Board.
    These initiatives could be restructured to create a funding pool to 
cover common areas. Reforming tax laws is an essential element in the 
proposed strategy. Private individuals and corporations need targeted 
tax incentives to contribute to research funds and other technology-
related charitable activities. This instrument for supporting public 
welfare activities is now widely used in developing countries. It 
arises partly because of the lack of experience in managing charitable 
organizations and partly because of the reluctance of finance 
ministries to grant tax exemptions, fearing erosion of their revenue 
base.
    The enactment of a foundation law that provides tax and other 
incentives to contributions to public interest activities, such as 
research, education, health, and cultural development, would promote 
social welfare in general and economic growth in particular. Other 
countries are looking into using national lotteries as a source of 
funding for technological development. Taxes on imports could also be 
levied to finance innovation activities, although the World Trade 
Organization may object to them. Another possibility is to impose a tax 
of 0.05% or 0.1% of the turnover of African capital markets to 
establish a global research and development fund, as an incentive for 
them to contribute to sustainable development.
    Other initiatives could simply involve restructuring and redefining 
public expenditure. By integrating research and development activities 
into infrastructure development, for example, African governments could 
relax the public expenditure constraints imposed by sectoral budgetary 
caps. Such a strategy has the potential to unlock substantial funds for 
research and development in priority areas. But this strategy requires 
a shift in the budgetary philosophy of the international financial 
institutions to recognize public expenditures on research and 
development as key to building capabilities for economic growth.
    Financing is probably one of the most contentious issues in the 
history of higher education. The perceived high cost of running 
institutions of higher learning has contributed to the dominant focus 
on primary education in African countries. But this policy has 
prevented leaders from exploring avenues for supporting higher 
technical education.
    Indeed, African countries such as Uganda and Nigeria have 
considered new funding measures including directed government 
scholarships and lowering tuition for students going into the sciences. 
Other long-term measures include providing tax incentives to private 
individuals and firms that create and run technical institutes on the 
basis of agreed government policy. Africa has barely begun to utilize 
this method as a way to extend higher technical education to a wider 
section of society. Mining companies, for example, could support 
training in the geosciences. Similarly, agricultural enterprises could 
help create capacity in business.
    Institutions created by private enterprises can also benefit from 
resident expertise. Governments, on the other hand, will need to 
formulate policies that allow private sector staff to serve as faculty 
and instructors in these institutions. Such programs also would provide 
opportunities for students to interact with practitioners in addition 
to the regular faculty.
    Much of the socially responsible investment made by private 
enterprises in Africa could be better used to strengthen the 
continent's technical skill base. Additional sources of support could 
include the conversion of the philanthropic arms of various private 
enterprises into technical colleges located in Africa.
    Governmental and other support will be needed to rehabilitate and 
develop university infrastructures, especially information and 
communications facilities, to help them join the global knowledge 
community and network with others around the world. Such links will 
also help universities tap into their experts outside the country. 
Higher technical education should also be expanded by creating 
universities under line ministries as pioneered by telecom universities 
such as the Nile University (Egypt), the Kenya Multimedia University, 
and the Ghana Telecoms University College. Other line ministry 
institutions such as the Digital Bridge Institute in Nigeria are also 
considering becoming experiential universities with strong links with 
the private sector.
    Governments and philanthropic donors could drive innovation through 
a new kind of technology contest.\15\ One approach is to offer 
proportional ``prize rewards'' that would modify the traditional 
winner-take-all approach by dividing available funds among multiple 
winners in proportion to measured achievement.\16\ This approach would 
provide a royalty-like payment for incremental success.\17\
    Promoting innovation for African farmers has proven especially 
challenging, due to a wide variety of technological and institutional 
obstacles. A proportional-prize approach is particularly suited to help 
meet the needs of African farmers. For that purpose a specific way 
should be devised to implement prize rewards, to recognize and reward 
value creation from new technologies after their adoption by African 
farmers.
    In summary, the effectiveness of innovation funding depends on 
choosing the right instrument for each situation--and perhaps, in some 
situations, developing a new instrument that is specifically suited to 
the task. Prizes are distinctive in that they are additional and 
temporary sources of funding, they are used when needed to elicit 
additional effort, and they can reveal the most successful approaches 
for reaching a particular goal. For this reason, a relatively small 
amount of funding in a well-designed prize program can help guide a 
much larger flow of other funds, complementing rather than replacing 
other institutional arrangements.
    Available evidence suggests that investments in agricultural 
research require long-term sustained commitment. This is mainly because 
of the long time lags associated with such investments, ranging from 15 
to 30 years taking into account the early phases of research.\18\ Part 
of the time lag, especially in areas such as biotechnology, is 
accounted for by delays in regulatory approvals or the high cost of 
regulation. This is true even in cases where products have already been 
approved and are in use in technology pioneering countries.\19\ These 
long time lags are also an expression of the fact that the economic 
systems co-evolve with technology and the process involves adjustments 
in existing institutions.\20\
Joining the Global Knowledge Ecology
Leveraging Africa's Diasporas
    Much of the technological foundation needed to stimulate African 
development is based on ideas in the public domain (where property 
rights have expired). The challenge lies in finding ways to forge 
viable technology alliances.\21\ In this regard, intellectual property 
offices are viewed as important sources of information needed for 
laying the basis for technological innovation.\22\ While intellectual 
property protection is perceived as a barrier to innovation, the 
challenges facing Africa lie more in the need to build the requisite 
human and institutional capability to use existing technologies. Much 
of this can be achieved though collaboration with leading research 
firms and product development.\23\ This argument may not hold in regard 
to emerging fields such as genomics and nanotechnology.
    One of the concerns raised about investing in technical training in 
African countries is the migration of skilled manpower to 
industrialized countries.\24\ The World Bank has estimated that 
although skilled workers account for just 4% of the sub-Saharan labor 
force, they represent some 40% of its migrants.\25\ Such studies tend 
to focus on policies that seek to curb the so-called brain drain.\26\ 
But they miss the point. The real policy challenge for African 
countries is figuring out how to tap the expertise of those who migrate 
and upgrade their skills while out of the country, not engage in futile 
efforts to stall international migration.\27\ The most notable case is 
the Taiwanese diaspora, which played a crucial role in developing the 
country's electronics industry.\28\ This was a genuine partnership 
involving the mobility of skills and capital.
    Countries such as India have understudied this model and come to 
the conclusion that one way to harness the expertise is to create a new 
generation of ``universities for innovation'' that will seek to foster 
the translation of research into commercial products. In 2010 India 
unveiled a draft law that will provide for the establishment of such 
universities. The law grew out India's National Knowledge Commission, a 
high-level advisory body to the Prime Minister aimed at transforming 
the country into a knowledge economy.\29\
    A number of countries have adopted policy measures aimed at 
attracting expatriates to participate in the economies of their 
countries of origin. They are relying on the forces of globalization 
such as connectivity, mobility, and interdependence to promote the use 
of the diaspora as a source of input into national technological and 
business programs. These measures include investment conferences, the 
creation of rosters of experts, and direct appeals by national leaders. 
It is notable that expatriates are like any other professionals and are 
unlikely to be engaged in their countries of origin without the 
appropriate incentives. Policies or practices that assume that these 
individuals owe something to their countries of origin are unlikely to 
work.
    Considerable effort needs to be put in fostering atmosphere of 
trust between the ex-patriates and local communities. In addition, 
working from a common objective is critical, as illustrated in the case 
of the reconstruction of Somaliland. In this inspirational example, 
those involved in the Somaliland diaspora were able to invoke their 
competence, networks, and access to capital to establish the University 
of Hargeisa that has already layed a critical role in building the 
human resource base needed for economic development. The achievement is 
even more illustrative when one considers the fact that the university 
was built after the collapse of Somalia.\30\ Similar efforts involving 
the Somali diaspora in collaboration with King's College Hospital in 
London have contributed significantly to the health care sector in 
Somaliland.\31\ There are important lessons in this case that can 
inform the rest of Africa. The initial departure of nations to acquire 
knowledge and skills in other countries represents a process of 
upgrading their skills and knowledge through further training. But 
returning home without adequate opportunities to deploy the knowledge 
earned may represent the ultimate brain drain. A study of Sri Lankan 
scientists in diaspora has shown that further studies ``was the major 
reason for emigration, followed by better career prospects. Engineering 
was the most common specialization, followed by chemistry, agricultural 
sciences and microbiology/biotechnology/molecular biology. If their 
demands are adequately met, the majority of the expatriates were 
willing to return to Sri Lanka.'' \32\
Strengthening Science, Technology, and Engineering Diplomacy
    The area of science, technology, and engineering diplomacy has 
become a critical aspect of international relations.\33\ Science is 
gaining in prominence as a tool fostering cooperation and resolving 
disputes among nations.\34\ Much of the leadership is provided by 
industrialized countries. For example, the United States has launched a 
program of science envoys which is adding a new dimension to U.S. 
foreign policy.\35\ This diplomatic innovation is likely to raise 
awareness of the importance of science, technology, and engineering in 
African countries.
    Ministries of foreign affairs have a responsibility in promoting 
international technology cooperation and forging strategic alliances. 
To effectively carry out this mandate, these ministries need to 
strengthen their internal capability in science, technology, and 
innovation. To this end, they will need to create offices dealing 
specifically with science, technology, and engineering, working in 
close cooperation with other relevant ministries, industry, academia, 
and civil society. Such offices could also be responsible for engaging 
and coordinating expatriates in Africa's technology development 
programs.
    There has been growing uncertainty over the viability of 
traditional development cooperation models. This has inspired the 
emergence of new technology alliances involving the more advanced 
developing countries.\36\ For example, India, Brazil, and South Africa 
have launched a technology alliance that will focus on finding 
solutions to agricultural, health, and environmental challenges. In 
addition, more developing countries are entering into bilateral 
partnerships to develop new technologies. Individual countries such as 
China and Brazil are also starting to forge separate technology-related 
alliances with African countries. Brazil, for example, is increasing 
its cooperation with African countries in agriculture and other 
fields.\37\ In addition to establishing a branch of the Brazilian 
Agricultural Research Corporation (EMBRAPA) in Ghana, the country has 
also created a tropical agricultural research institute at home to 
foster cooperation with African countries.
    Significant experiments are under way around the world to make 
effective use of citizens with scientific expertise who are working 
abroad. The UK consulate in Boston is engaged in a truly pioneering 
effort to advance science, technology, and engineering diplomacy. 
Unlike other consulates dealing with regular visa and citizenship 
issues, the consulate is devoted to promoting science, technology, and 
engineering cooperation between the UK and the United States while also 
addressing major global challenges such as climate change and 
international conflict.
    In addition to Harvard University and MIT, the Boston area is home 
to more than 60 other universities and colleges, making it the de facto 
intellectual capital of the world. Switzerland has also converted part 
of its consulate in Boston into a focal point for interactions between 
Swiss experts in the United States and their counterparts at home. 
Swissnex was created in recognition of the importance of having 
liaisons in the area, which many consider the world's leading knowledge 
center, especially in the life sciences. These developments are 
changing the way governments envision the traditional role of science 
attaches, with many giving them more strategic roles.\38\
    In another innovative example, the National University of Singapore 
has established a college at the University of Pennsylvania to focus on 
biotechnology and entrepreneurship. The complementary Singapore-
Philadelphia Innovators' Network (SPIN) serves as a channel and link 
for entrepreneurs, investors, and advisers in the Greater Philadelphia 
region and Singapore. The organization seeks to create opportunities 
for international collaboration and partnerships in the area.
    India, on the other hand, has introduced changes in its immigration 
policy, targeting its citizens working abroad in scientific fields to 
strengthen their participation in development at home. Such approaches 
can be adopted by other developing countries, where the need to forge 
international technology partnerships may be even higher, provided 
there are institutional mechanisms to facilitate such engagements.\39\ 
The old-fashioned metaphor of the ``brain drain'' should to be replaced 
by a new view of ``global knowledge flows.'' \40\
    But even more important is the emerging interest among 
industrialized countries to reshape their development cooperation 
strategies to reflect the role of science, technology, and innovation 
in development. The UK Department for International Development (DFID) 
took the lead in appointing a chief scientist to help provide advice to 
the government on the role of innovation in international development, 
a decision that was later emulated by USAID.\41\ Japan has launched a 
program on science and technology diplomacy that seeks to foster 
cooperation with developing countries on the basis of its scientific 
and technological capabilities.\42\ Similarly, the United States has 
initiated efforts to place science, technology, and innovation at the 
center of its development cooperation activities.\43\ The initiative 
will be implemented through USAID as part of the larger science and 
technology diplomacy agenda of the U.S. government.\44\
    South Korea is another industrialized country that is considering 
adopting a science and innovation approach to development cooperation. 
These trends might inspire previous champions of development such as 
Sweden to consider revamping their cooperation programs. These efforts 
are going to be reinforced by the rise of new development cooperation 
models in emerging economies such India, Brazil, and China. India is 
already using its strength in space science to partner with African 
countries. Brazil, on the other hand, positioning itself as a leading 
player in agricultural cooperation with African countries, is seeking 
to expand the activities of the Brazilian Development Cooperation 
Agency.
    China's cooperation with Africa is increasingly placing emphasis on 
science, technology, and engineering. It is a partner in 100 joint 
demonstration projects and postdoctoral fellowships, which include 
donations of nearly US$22,000 worth of scientific equipment. China has 
offered to build 50 schools train 1,500 teachers and principals as well 
as train 20,000 professionals by 2012. The country will increase its 
demonstration centers in Africa to 20, send 50 technical teams to the 
continent, and train 2,000 African agricultural personnel. Admittedly, 
these numbers are modest given the magnitude of the challenge, but they 
show a shift toward using science, technology, and engineering as tools 
for development cooperation.\45\
Harmonization of Regional Integration Efforts
    When the heads of state and government of the Common Market for 
Eastern and Southern Africa (COMESA), the East African Community (EAC), 
and the Southern African Development Community (SADC) met in Kampala on 
October 22, 2008, they conveyed in their communique a palpable sense of 
urgency in calling for the establishment of a single free trade area 
covering the 26 countries of COMESA, EAC, and SADC. These are 26 of the 
54 countries that make up the continent of Africa. The political 
leaders requested the secretariats of the three organizations to 
prepare all the legal documents necessary for establishing the single 
free trade area (FTA) and to clearly identify the steps required--
paragraph 14 of the communique. In November 2009 the chief executives 
of the three secretariats cleared the documents for transmission to the 
member states for consideration in preparing for the next meeting of 
the Tripartite Summit. The main document is the draft agreement 
establishing the Tripartite Free Trade, with its 14 annexes covering 
various complementary areas that are necessary for effective 
functioning of a regional market. There is a report explaining the 
approach and the modalities. The main proposal is to establish the FTA 
on a tariff-free, quota-free, exemption-free basis by simply combining 
the existing FTAs of COMESA, EAC, and SADC. It is expected that by 
2012, none of these FTAs will have any exemptions or sensitive lists. 
However, there is a possibility that a few countries might wish to 
consider maintaining a few sensitive products in trading with some big 
partners, and for this reason, provision has been made for the 
possibility of a country requesting permission to maintain some 
sensitive products for a specified period of time.
    To have an effective tripartite FTA, various complementary areas 
have been included. The FTA will cover promotion of customs cooperation 
and trade facilitation; harmonization and coordination of industrial 
and health standards; combating of unfair trade practices and import 
surges; use of peaceful and agreed dispute settlement mechanisms; 
application of simple and straightforward rules of origin that 
recognize inland transport costs as part of the value added in 
production; and relaxation of restrictions on movement of 
businesspersons, taking into account certain sensitivities.
    It will also seek to liberalize certain priority service sectors on 
the basis of existing programs; promote value addition and 
transformation of the region into a knowledge-based economy through a 
balanced use of intellectual property rights and information and 
communications technology; and develop the cultural industries. The 
tripartite FTA will be underpinned by robust infrastructure programs 
designed to consolidate the regional market through interconnectivity 
(facilitated, for instance, by all modes of transport and 
telecommunications) and to promote competitiveness (for instance, 
through adequate supplies of energy).
    Regarding the steps required, or the road map, the proposal is that 
there should be a preparatory period for consultations at the national, 
regional, and tripartite level from early 2010 to June 2011. Member 
states will use this period to carefully work out the legal and 
institutional framework for the single FTA using the draft documents as 
a basis. It is expected that each organization will discuss the 
tripartite documents, and, through the tripartite meetings at various 
levels, will deliberate and reach concrete recommendations. By June 
2011, there should be a finalized agreement establishing the Tripartite 
FTA, ready for signature in July 2011. When signed, member states will 
have about six months (up to December 2011) to finalize their domestic 
processes for approving the agreement (for instance, ratification) and 
for establishing the required institutions and adopting the relevant 
customs and other documentation and instruments. It is proposed that 
once this process ends, the Tripartite FTA should be launched in 
January 2012. Throughout the preparatory period, strong sensitization 
programs will be mounted for the public and private sectors and all 
stakeholders including parliamentarians, business community, teaching 
institutions, civil society, and development partners.
    The main benefit of the Tripartite FTA is that it will be a much 
larger market, with a single economic space, than any one of the three 
regional economic communities and as such will be more attractive to 
investment and large-scale production. Estimates are that exports among 
the 26 tripartite countries increased from US$7 billion in 2000 to 
US$27 billion in 2008, and imports grew from US$9 billion in 2000 to 
US$32 billion in 2008. This phenomenal increase was in large measure 
spurred by the free trade area initiatives of the three organizations. 
Strong trade performance, when well designed--for instance, by 
promoting small and medium-scale enterprises that produce goods or 
services--can assist the achievement of the core objectives of 
eradicating poverty and hunger, promoting social justice and public 
health, and supporting all-round human development. Besides, the 
tripartite economic space will help to address some current challenges 
resulting from multiple membership by advancing the ongoing 
harmonization and coordination initiatives of the three organizations 
to achieve convergence of programs and activities, and in this way will 
greatly contribute to the continental integration process. And as they 
say, the more we trade with each other, the less likely we are to 
engage in war, for our swords will be plowshares.
Harmonization of Regulations
    The need to enhance the use of science, technology, and engineering 
in development comes with new risks. Africa has not had a favorable 
history with new technologies. Much of its history has been associated 
with the use of technology as tools of domination or extraction.\46\ 
The general mood of skepticism toward technology and the long history 
of exclusion created a political atmosphere that focused excessively on 
the risks of new technologies. This outlook has been changing quite 
radically as Africa enters a new era in which the benefits of new 
technologies to society are widely evident. These trends are reinforced 
by political shifts that encourage great social inclusion.\47\ It is 
therefore important to examine the management of technological risks in 
the wider social context even if the risk assessment tools that are 
applied are technical.
    The risks associated with new technologies need to be reviewed on a 
case-by-case basis and should be compared with base scenarios, many of 
which would include risks of their own. In other words, deciding not to 
adopt new technologies may only compound the risks associated with the 
status quo. Such an approach would make risk management a knowledge-
based process. This would in turn limit the impact of popular 
tendencies that prejudge the risks of technologies based on their 
ownership or newness.
    Ownership and newness may have implications for technological risks 
but they are not the only factors that need to be considered. 
Fundamentally, decisions on technological risks should take into 
account the impacts of incumbent technologies or the absence of any 
technological solutions to problems.
    One of the challenges facing African countries is the burden of 
managing technological risks through highly fragmented systems in 
contiguous countries. The growing integration of African countries 
through the RECs offers opportunities to rationalize and harmonize 
their regulatory activities related to agricultural innovation.\48\
    This is already happening in the medical sector. The African 
Medicines Regulatory Harmonization (AMRH) initiative was established to 
assist African countries and regions to respond to the challenges posed 
by medicine registration, as an important but neglected area of 
medicine access. It seeks to support African Regional Economic 
Communities and countries in harmonizing medicine registration.
    COMESA, in collaboration with the Association for Strengthening 
Agricultural Research in Eastern and Central Africa (ASARECA) and other 
implementing partners, has engaged in the development of regionally 
harmonized policies and guidelines through the Regional Agricultural 
Biotechnology and Biosafety Policy in Eastern and Southern Africa 
(RABESA) initiative since 2003. The COMESA harmonization agenda--now 
implemented through its specialized agency the Alliance for Commodity 
Trade in Eastern and Central Africa (ACTESA)--was initiated to provide 
mechanisms for wise and responsible use of genetically modified 
organisms (GMOs) in commercial planting, trade, and emergency food 
assistance.
    The draft policies and guidelines are expected to be endorsed soon 
by its policy organ. The guidelines seek the establishment of a COMESA 
biosafety and centralized GMO risk assessment desk, with standard 
operating procedures. ACTESA has established a biotechnology program to 
coordinate biotechnology--and biosafety-related activities and provide 
guidance in the region. The COMESA panel of experts on biotechnology 
has been established to provide technical assistance in policy 
formulation and GMO risk assessment.
    The establishment of the World Trade Organization (WTO) in 1995 and 
the coming into force of a multilateral trading system backed by 
legally binding trade agreements placed fresh challenges on WTO member 
states, particularly African countries that were already struggling 
with trade liberalization and globalization that encouraged the free 
movement of humans, animals, food, and agricultural products across 
borders.
    Specifically, the agreement on sanitary and phytosanitary measures 
(SPS) required governments to apply international standards and 
establish science-based legal and regulatory systems to manage health 
and environmental risks associated with food and agricultural products. 
International standards to derive legislation and regulations for SPS 
management include risk analysis and use of the HACCP) system. The 
production of food products involves complex production and processing 
methods. For many African governments, this required new skills to 
conduct scientific risk analysis along the food chain as food products 
interact with plant and animal diseases, pests, biological hazards such 
as pathogenic microorganisms, and naturally occurring hazards such as 
aflatoxins. Risk analysis requires scientific skills and innovation 
that go beyond conventional training; if not done properly, this risk 
analysis will result in weak SPS systems, which in turn may result in 
nontariff barriers in regional and global markets.
    COMESA, within its mandate of regional economic integration, 
recognizes the need to support member states in resolving nontariff 
barriers that constrain markets and stifle the integration of food 
products into regional and global value chains, as an innovative 
strategy to promote market access to regional and international trade.
    In 2005, COMESA commissioned a project to support member states in 
their efforts to address SPS barriers by improving and harmonizing SPS 
measures and food safety systems among member states. Country-level 
focal points were provided to facilitate and initiate the harmonization 
process and training was provided on how to establish national and 
regional surveillance systems. A second step involved the establishment 
of regional reference laboratories for food safety and animal and plant 
health. Initial training was provided for key laboratory personnel, and 
guidelines for regional harmonization of SPS measures and the use of 
reference laboratories were developed. COMESA will now present the 
harmonization guidelines to its Technical Committee on Agriculture for 
regional approval and adoption.
    The primary aim of harmonizing medicine registration is to improve 
public health, by increasing timely access to safe and efficacious 
medicines of good quality for the treatment of priority diseases. 
Access will be improved by reducing the time it takes for priority 
essential medicines to be registered in-country (including the time 
needed for industry to prepare their registration application or 
dossier) and so potentially the time taken for essential therapies to 
reach patients in need (depending on funding and distribution 
mechanisms). This will include capacity building to ensure transparent, 
efficient, and competent regulatory activities (assessment of 
registration dossiers and related inspections) that are able to assure 
the quality, safety, and efficacy of registered medicines. The AMRH 
initiative approach seeks to support the RECs and countries to 
harmonize medicine registration using existing political structures and 
building on existing plans and commitments.
    The AMRH initiative was the outcome of NEPAD) and the Pan-African 
Parliament, which was hosted in collaboration with consortium partners 
and attracted representation from nine of the continent's Regional 
Economic Communities (RECs) and over 40 national medicine regulatory 
authorities (NMRA). This provided a strong endorsement for the 
consensus plan that emerged and hence the approach that RECs and NMRAs 
are now adopting.
    The AU Summit approved the Pharmaceutical Manufacturing Plan for 
Africa in 2007, which specifically recognizes the need for African 
countries to strengthen their medicine regulatory systems by pooling 
their resources to achieve public health policy priorities.
    Such systems are vital to assuring the quality, safety, and 
efficacy of locally manufactured products and their positive 
contribution to public health. Moreover, the success of domestic 
production will partly depend on intra-regional and intra-continental 
trade to create viable market sizes. Currently, trade in 
pharmaceuticals is hampered by disparate regulatory systems, which 
create technical barriers to the free movement of products manufactured 
in Africa (and beyond)--and has negative consequences for timely 
patient access to high-quality essential medicines.
    Several RECs have already supported harmonization of medicine 
registration by developing common pharmaceutical policies and 
operational plans--backed by high-level political commitments and 
mandates. For example, in east Africa under the provisions of Chapter 
21 (Article 118) of the EAC treaty, medicine registration harmonization 
is an explicit policy priority. Likewise, in southern Africa, ministers 
of health have approved the SADC Pharmaceuticals Business Plan, with 
explicit goals to harmonize medicine registration.
    However, implementation of these policies and plans has suffered 
from a lack of financial and technical resources and has not progressed 
significantly. Moreover, RECs continue to work largely in isolation. 
Coordination is needed to avoid duplication of effort and ensure 
consistent approaches, especially given that more than three-quarters 
of African countries belong to two or more RECs. Following commencement 
of the AMRH initiative, several RECs submitted summary project 
proposals describing their high-level plans for harmonization of 
medicine registration.
    Following their review, the consortium actively partnered with four 
REC groupings (EAC, Economic Community of Central African States, 
ECOWAS, the West African Monetary Union and SADC) to support them in 
strengthening and moderately expanding their proposals. In the first 
instance, this involved written feedback from the consortium followed 
by a visit from a NEPAD delegation to explain the consortium's feedback 
and agree on a timeline for next steps. Given the importance of NMRA 
consultations and ownership, NEPAD has also made some funding available 
for RECs and their constituent NMRAs to jointly ensure that their 
proposals reflect their shared vision for harmonized medicine 
registration.
Conclusion
    Promoting a growth-oriented agenda will entail adjustments in the 
structure and functions of government. More fundamentally, issues 
related to science, technology, and innovation will need to be 
addressed in an integrated way at the highest level possible in 
government. Bringing science, technology, and engineering to the center 
of Africa's economic renewal will require more than just political 
commitment; it will take executive leadership. This challenge requires 
concept champions who in this case will be heads of state spearheading 
the task of shaping their economic policies around science, technology, 
and innovation.
    So far, most African countries have not developed national policies 
that demonstrate a sense of focus to help channel emerging technologies 
into solving developmental problems. They still rely on generic 
strategies dealing with ``poverty alleviation,'' without serious 
consideration of the sources of economic growth. There are signs of 
hope though. NEPAD's Ministerial Forum on Science and Technology played 
a key role in raising awareness among African's leaders of the role of 
science, technology, and engineering in economic growth.
    An illustration of this effort is the decision of the African Union 
(AU) and NEPAD to set up a high level African Panel on Modern 
Biotechnology to advise the AU, its member states, and its various 
organs on current and emerging issues associated with the development 
and use of biotechnology. The panel's goal is to provide the AU and 
NEPAD with independent and strategic advice on biotechnology and its 
implications for agriculture, health, and the environment. It focuses 
on intra-regional and international regulation of the development and 
application of genetic modification and its products.
    Regarding food security in particular, Africa's RECs have tried to 
develop regional policies and programs to allow member states to work 
collectively. ECOWAS and COMESA, for instance, building on CAADP, have 
elaborated regional compacts to guide member states in formulating 
their national CAADP compacts. This comes at a time when experience 
from the six COMESA national CAADP compacts so far concluded show that 
there are key cross-border challenges that need a regional approach. 
Twenty-six African nations had signed CAADP compacts by June 2010, 
compounding the need for regional strategies.
    Thus, there is a need for a larger regional market to support 
investment in agricultural products and harmonization of standards 
across the region. This will help address challenges such sanitary and 
phytosanitary measures that affect the quality and marketability of 
agricultural products; management of transboundary resources such as 
water bodies and forests; building of regional infrastructure; 
promotion of collaborative research; monitoring of key commitments of 
member states, particularly the one on earmarking 10% of the national 
budget for the agriculture sector. A key pillar of CAADP relates to 
agricultural research and innovation. Africa's RECs have a critical 
role to play under this pillar, through supporting regional research 
networks and prioritizing agricultural research in regional policies. 
Experience sharing at the regional level, and the resulting research 
communities, will greatly enrich individual research.
8  Conclusions and the Way Ahead
    A new economic vision for Africa's agricultural transformation--
articulated at the highest level of government through Africa's 
Regional Economic Communities (RECs)--should be guided by new 
conceptual frameworks that define the continent as a learning society. 
This shift will entail placing policy emphasis on emerging 
opportunities such as renewing infrastructure, building human 
capabilities, stimulating agribusiness development, and increasing 
participation in the global economy. It also requires an appreciation 
of emerging challenges such as climate change and how they might 
influence current and future economic strategies.
Climate Change, Agriculture, and Economy
    As Africa prepares to address its agricultural challenges, it is 
now confronted with new threats arising from climate change. 
Agricultural innovation will now have to be done in the context of a 
more uncertain world in which activities such as plant and animal 
breeding will need to be anticipatory.\1\ According to the World Bank, 
warming ``of 2C could result in a 4 to 5 percent permanent reduction 
in annual income per capita in Africa and South Asia, as opposed to 
minimal losses in high-income countries and a global average GDP loss 
of about 1 percent. These losses would be driven by impacts in 
agriculture, a sector important to the economies of both Africa and 
South Asia.'' \2\ Sub-Saharan Africa is dominated by fragile 
ecosystems. Nearly 75% of its surface area is dry land or desert. This 
makes the continent highly vulnerable to droughts and floods. 
Traditional cultures cope with such fragility through migration. But 
such migration has now become a source of insecurity in parts of 
Africa. Long-term responses will require changes in agricultural 
production systems.\3\
    The continent's economies are also highly dependent on natural 
resources. Nearly 80% of Africa's energy comes from biomass and over 
30% of its GDP comes from rain-fed agriculture, which supports 70% of 
the population. Stress is already being felt in critical resources such 
as water supply. Today, 20 African countries experience severe water 
scarcity and another 12 will be added in the next 25 years. Economic 
growth in regional hubs is now being curtailed by water shortages.
    The drying up of Lake Chad (shared by Nigeria, Chad, Cameroon, and 
Niger) is a grim reminder that rapid ecological change can undermine 
the pursuit for prosperity. The lake's area has decreased by 80% over 
the last 30 years, with catastrophic impacts to local communities. 
Uncertainty over water supply affects decisions in other areas such as 
hydropower, agriculture, urban development, and overall land-use 
planning. This is happening at a time when Africa needs to switch to 
low-carbon energy sources.
    Technological innovation will be essential for enabling agriculture 
to adapt to a different climate. Meeting the dual challenges of 
expanding prosperity and adapting to climate change will require 
greater investment in the generation and diffusion of new technologies. 
Basic inputs such as provision of meteorological data could help 
farmers to adapt to climate change by choosing optimal planting 
dates.\4\ The task ahead for policy makers will be to design climate-
smart innovation systems that shift economies toward low-carbon 
pathways. Economic development is an evolutionary process that involves 
adaptation to changing economic environments.
    Technological innovation is implicitly recognized as a key aspect 
of adaptation to climate change. For example, the Intergovernmental 
Panel on Climate Change (IPCC) defines adaptation as ``Adjustment in 
natural or human systems in response to actual or expected climatic 
stimuli or their effects, which moderates harm or exploits beneficial 
opportunities.'' \5\ It views the requisite adaptive capacity as the 
ability ``to moderate potential damages, to take advantage of 
opportunities, or to cope with the consequences.'' \6\ Technological 
innovation is used in society in a congruent way to respond to economic 
uncertainties. What is therefore needed is to develop analytical and 
operational frameworks that would make it easier to incorporate 
adaptation to climate change in innovation strategies used to expand 
prosperity.
    Innovation systems are understood to mean the interactive process 
involving key actors in government, academia, industry, and civil 
society to produce and diffuse economically useful knowledge into the 
economy. The key elements of innovation include the generation of a 
variety of avenues, their selection by the market environment, and the 
emergence of robust socioeconomic systems. This concept can be applied 
to adaption to climate change in five critical areas: managing natural 
resources; designing physical infrastructure; building human capital, 
especially in the technical fields; fostering entrepreneurial 
activities; and governing adaptation as a process of innovation.
    Economic development is largely a process by which knowledge is 
applied to convert natural resources into goods and services. The 
conservation of nature's variety is therefore a critical aspect of 
leaving options open for future development. Ideas such as 
``sustainable development'' have captured the importance of 
incorporating the needs of future generations into our actions. 
Adaptive strategies will therefore need to start with improved 
understanding of the natural resource base. Recent advances in earth 
observation and related geospatial science and technology have 
considerably increased the capacity of society to improve its 
capabilities for natural resource management. But improved 
understanding is only the first step.
    The anticipated disruptive nature of climate change will demand 
increased access to diverse natural assets such as genetic resources 
for use in agriculture, forestry, aquaculture, and other productive 
activities. For example, the anticipated changes in the growing season 
of various crops will require intensified crop breeding.\7\ But such 
breeding programs will presuppose not only knowledge of existing 
practices but also the conservation of a wider pool of genetic 
resources of existing crops and breeds and their wild relatives to cope 
with shifts in agricultural production potential.\8\ This can be done 
through measures such as seed banks, zoos, and protected areas. Large 
parts of Africa may have to switch from crop production to livestock 
breeding.\9\ Others may also have to change from cultivating cereals to 
growing fruits and vegetables as projected in other regions of the 
world.\10\ Other measures will include developing migration corridors 
to facilitate ecosystem integrity and protect human health--through 
surveillance and early warning systems.
    Such conservation efforts will also require innovation in regional 
institutional coordination, expanded perspectives of space and time, 
and the incorporation of climate change scenarios in economic 
development strategies.\11\ Building robust economies requires the 
conservation of nature's variety. These efforts will need to be 
accompanied by greater investment in the generation of knowledge 
associated with natural resources. Advances in information and 
communication capabilities will help the international community to 
collect, store, and exchange local knowledge in ways that were not 
possible in the past. The sequencing of genomes provides added capacity 
for selective breeding of crops and livestock suited to diverse 
ecologies. Technological advancement is therefore helping to augment 
nature's diversity and expand adaptive capabilities.
    Climate change is likely to affect existing infrastructure in ways 
that are not easy to predict. For example, road networks and energy 
sources in low-lying areas are likely to be affected by sea level rise. 
A recent study of Tangier Bay in Morocco projects that sea level rise 
will have significant impact on the region's infrastructure facilities 
such as coastline protection, the port, railway lines, and the 
industrial base in general.\12\
    Studies of future disruptions in transportation systems reveal 
great uncertainties in impact depending on geographical location.\13\ 
These uncertainties are likely to influence not only investment 
decisions but also the design of transportation systems. Similarly, 
uncertainty over water supply is emerging as a major concern demanding 
not only integrated management strategies but also improved use of 
water-related technologies.
    Other measures include the need to enhance water supply--such as 
linking reservoirs, building new holding capacity in reservoirs, and 
injecting early snowmelt into groundwater reservoirs. Similarly, 
coastal areas need to be protected with natural vegetation or seawalls. 
In effect, greater technical knowledge and engineering capabilities 
will need to be marshaled to design future infrastructure in light of 
climate change.\14\ This includes the use of new materials arising from 
advances in fields such as nanotechnology.
    Protecting human populations from the risks of climate change 
should be one of the first steps in seeking to adapt to climate change. 
Concern over human health can compound the sense of uncertainty and 
undermine other adaptive capabilities. Indeed, the first step in 
building resilience is to protect human populations against 
disease.\15\ Many of the responses needed to adapt health systems to 
climate change will involve practical options that rely on existing 
knowledge.\16\
    Others, however, will require the generation of new knowledge. 
Advances in fields such as genomics are making it possible to design 
new diagnostic tools that can be used to detect the emergence of new 
infectious diseases. These tools, combined with advances in 
communications technologies, can be used to detect emerging trends in 
health and provide health workers with early opportunities to 
intervene. Furthermore, convergence in technological systems is 
transforming the medical field. For example, the advent of hand-held 
diagnostic devices and video-mediated consultation are expanding the 
prospects of telemedicine and making it easier for isolated communities 
to be connected to the global health infrastructure.\17\ Personalized 
diagnostics is also becoming a reality.\18\
    Adapting to climate change will require significant upgrading of 
the knowledge base of society. Past failure to adapt from incidences of 
drought is partly explained by the lack of the necessary technical 
knowledge needed to identify trends and design responses.\19\ The role 
of technical education in economic development is becoming increasingly 
obvious. Similarly, responding to the challenges of climate will 
require considerable investment in the use of technical knowledge at 
all levels in society.
    One of the most interesting trends is the recognition of the role 
of universities as agents of regional economic renewal.\20\ Knowledge 
generated in centralized urban universities is not readily transferred 
to regions within countries. As a result, there is growing interest in 
decentralizing the university system itself.\21\ The decentralization 
of technical knowledge to a variety of local institutions will play a 
key role in enhancing local innovation systems that can help to spread 
prosperity through climate-smart strategies.
    The ability to adapt to climate change will not come without 
expertise. But expertise is not sufficient unless it is used to 
identify, assess, and take advantage of emerging opportunities through 
the creation of new institutions or the upgrading of existing ones. 
Such entrepreneurial acts are essential both for economic development 
and adaptation to climate change. Economic diversification is critical 
in strengthening the capacity of local communities to adapt to climate 
change.
    For example, research on artisan fisheries has shown that the 
poorest people are not usually the ones who find it hardest to adapt to 
environmental shocks. It is often those who have become locked in 
overly specialized fishery practices.\22\ Technological innovation 
aimed at promoting diversification of entrepreneurial activities would 
not only help to improve economic welfare, but it would also help 
enhance the adaptive capabilities of local communities. But such 
diversification will need to be complemented by other measures such as 
flexibility, reciprocity, redundancy, and buffer stocks.\23\
    Promoting prosperity and creating robust economies that can adapt 
to climate change should be a central concern of leaders around the 
world. Political turmoil in parts of Africa is linked to recent climate 
events.\24\ The implications of climate change for governance, 
especially in fragile states, has yet to receive attention.\25\ 
Governments will need to give priority to adaption to climate change as 
part of their economic development strategies. But they will also need 
to adopt approaches that empower local communities to strengthen their 
adaptive capabilities. Traditional governance practices such as 
participation will need to be complemented by additional measures that 
enhance social capital.\26\
    The importance of technological innovation in adaptation strategies 
needs to be reflected in economic governance strategies at all levels. 
It appears easier to reflect these considerations in national economic 
policies. However, similar approaches also need to be integrated into 
global climate governance strategies, especially through the adoption 
of technology-oriented agreements.\27\
    On the whole, an innovation-oriented approach to climate change 
adaptation will need to focus largely on expanding the adaptive 
capacity of society though the conservation of nature's variety, 
construction of robust infrastructure, enhancement of human 
capabilities, and promotion of entrepreneurship. Fundamentally, the 
ability to adapt to climate change will possibly be the greatest test 
of our capacity for social learning. Regional integration will provide 
greater flexibility and geographical space for such learning. 
Furthermore, promoting local innovation as part of regional strategies 
will contribute to the emergence of more integrated farming 
systems.\28\
    Throughout, this book has highlighted the role that RECs can have 
as a collective framework for harnessing national initiatives and 
sharing best practices drawn from the region and beyond. Africa's RECs, 
as well as the African Union at the continental level, have programs 
for food security, and for science, technology, and engineering. The 
challenge, as highlighted, relates to putting existing knowledge within 
the region and beyond to the service of the people of Africa on the 
ground, through clear political and intellectual leadership and an 
effective role for innovators. Further, there is a challenge of how 
best to utilize the existing regional policy making and monitoring and 
evaluation structures in promoting innovation and tackling the 
challenges of food security.
    The current global economic crisis and rising food prices are 
forcing the international community to review their outlook for human 
welfare and prosperity. Much of the current concern on how to foster 
development and prosperity in Africa reflects the consequences of 
recent neglect of sustainable agriculture and infrastructure as drivers 
of development. Sustainable agriculture has, through the ages, served 
as the driving force behind national development. In fact, it has been 
a historical practice to use returns from investment in sustainable 
agriculture to stimulate industrial development. Restoring it to its 
right place in the development process will require world leaders to 
take a number of bold steps.
    Science and innovation have always been the key forces behind 
agricultural growth in particular and economic transformation in 
general. More specifically, the ability to add value to agricultural 
produce via the application of scientific knowledge to entrepreneurial 
activities stands out as one of the most important lessons of economic 
history. Reshaping sustainable agriculture as a dynamic, innovative, 
and rewarding sector in Africa will require world leaders to launch new 
initiatives that include the following strategic elements.
    Bold leadership driven by heads of state in Africa, supported by 
those of developed and emerging economies, is needed to recognize the 
real value of sustainable agriculture in the economy of Africa. High-
level leadership is essential for establishing national visions for 
sustainable agriculture and rural development, championing of specific 
missions for lifting productivity and nutritional levels with 
quantifiable targets, and the engagement of cross-sectoral ministries 
in what is a multisector process.
    Sustainable agriculture needs to be recognized as a knowledge-
intensive productive sector that is mainly carried out in the informal 
private economy. The agricultural innovation system has to link the 
public and private sectors and create close interactions between 
government, academia, business, and civil society. Reforms will need to 
be introduced in knowledge-based institutions to integrate research, 
university teaching, farmers' extension, and professional training, and 
bring them into direct involvement with the production and 
commercialization of products.
    Policies have to urgently address affordable access to 
communication services for people to use in their everyday lives, as 
well as broadband Internet connectivity for centers of learning such as 
universities and technical colleges. This is vital to access knowledge 
and trigger local innovations, boosting rural development beyond 
sustainable agriculture. It is an investment with high returns. 
Improving rural productivity also requires significant investments in 
basic infrastructure including transportation, rural energy, and 
irrigation. There will be little progress without such foundational 
investments.
    Fostering entrepreneurship and facilitating private sector 
development has to be highest on the agenda to promote the autonomy and 
support needed to translate opportunity into prosperity. This has to be 
seen as an investment in itself, with carefully tailored incentives and 
risk-sharing approaches supported by government.
Entrepreneurial Leadership
    It is not enough for governments to simply reduce the cost of doing 
business. Fostering agricultural renewal will require governments to 
function as active facilitators of technological learning. Government 
actions will need to reflect the entrepreneurial character of the 
farming community; they too will need to be entrepreneurial.\29\ 
Leadership will also need to be entrepreneurial in character.\30\ 
Moreover, addressing the challenge will require governments to adopt a 
mission-oriented approach, setting key targets and providing support to 
farmers to help them meet quantifiable goals. A mission-oriented 
approach will require greater reliance on executive coordination of 
diverse departmental activities.
    Fostering economic renewal and prosperity in Africa will entail 
adjustments in the structure and functions of government. More 
fundamentally, issues related to agricultural innovation must be 
addressed in an integrated way at the highest possible levels in 
government. There is therefore a need to strengthen the capacity of 
presidential offices to integrate science, technology, and innovation 
in all sustainable agriculture-related aspects of government. Moreover, 
such offices will also need to play a greater role in fostering 
interactions between government, business, academia, and civil society. 
This task requires champions.
    One of the key aspects of executive direction is the extent to 
which leaders are informed about the role of science and innovation in 
agricultural development. Systematic advice on science and innovation 
must be included routinely in policy making.\31\ Such advisers must 
have access to credible scientific or technical information drawing 
from a diversity of sources including scientific and engineering 
academies. In fact, the magnitude of the challenge for regions like 
Africa is so great that a case could be made for new academies 
dedicated to agricultural science, technology, and innovation.
    Science, technology, and engineering diplomacy has become a 
critical aspect of international relations. Ministries of foreign 
affairs in African countries have a responsibility to promote 
international technology cooperation and forge strategic alliances on 
issues related to sustainable agriculture. To effectively carry out 
this task, foreign ministries need to strengthen their internal 
capability in science and innovation.
Toward a New Regional Economic Vision
    Contemporary history informs us that the main explanation for the 
success of the industrialized countries lies in their ability to learn 
how to improve performance in a diversity of social, economic, and 
political fields. In other words, the key to their success was their 
focus on practical knowledge and the associated improvements in skills 
needed to solve problems. They put a premium on learning based on 
historical experiences.\32\
    One of the most reassuring aspects of a learner's strategy is that 
every generation receives a legacy of knowledge that it can harness for 
its own use. Every generation blends the new and the old and thereby 
charts its own development path, making debates about innovation and 
tradition irrelevant. Furthermore, discussions on the impact of 
intellectual property rights take on a new meaning if one considers the 
fact that the further away you are from the frontier of research, the 
larger is your legacy of technical knowledge. The challenge therefore 
is for Africa to think of research in adaptive terms, and not simply 
focus on how to reach parity with the technological front-runners. 
Understanding the factors that help countries to harness available 
knowledge is critical to economic transformation.
    The advancement of information technology and its rapid diffusion 
in recent years could not have happened without basic telecommunication 
infrastructure. In addition, electronic information systems, which rely 
on telecommunications infrastructure, account for a substantial 
proportion of production and distribution activities in the secondary 
and tertiary sectors of the economy. It should also be noted that the 
poor state of Africa's telecommunications infrastructure has hindered 
the capacity of the region to make use of advances in fields such as 
geographical information sciences in sustainable development.
    The emphasis on knowledge is guided by the view that economic 
transformation is a process of continuous improvement in productive 
activities. In other words, government policy should be aimed at 
enhancing performance, starting with critical fields such as 
agriculture, while recognizing interdisciplinary linkages.
    This type of improvement indicates a society's capacity to adapt to 
change through learning. It is through continuous improvement that 
nations transform their economies and achieve higher levels of 
performance. Using this framework, with government functioning as a 
facilitator for economic learning, agribusiness enterprises will become 
the locus of learning, and knowledge will be the currency of change.
    Some African countries already possess the key institutional 
components they need to become players in the knowledge economy. The 
emphasis, therefore, should be on realigning the existing structures 
and creating necessary new ones where they do not exist and promoting 
interactions between key players in the economy. More specifically, the 
separation between government, industry, and academia stands out as one 
of the main sources of inertia and waste in Africa's knowledge-based 
institutions.\33\ The challenge is not simply creating institutions, 
but creating systems of innovation in which emphasis is placed on 
economic learning through interactions between actors in the society.
    A key role of Africa's RECs is to provide the regional framework 
for all stakeholders to act in a coordinated manner, share best 
practices, encourage peer review of achievements and setbacks by key 
players, and pool resources for the greater good of the region and 
Africa at large. The policy organs of the RECs, including the 
presidents and sectoral ministers, provide appropriate frameworks for 
the public and private sector to formulate innovative policies; and 
given the multidisciplinary and multi-sectoral nature of the 
initiatives, the higher policy organs at the level of heads of state 
and government, and at the level of joint ministerial meetings, provide 
a unique role for the RECs as vehicles for promoting regional 
collaboration and for the elaboration and implementation of key policy 
initiatives.
    Africa has visions for socioeconomic development at the national, 
regional, and continental level. Science, technology, engineering, and 
innovation are critical pillars of any socioeconomic development vision 
in our time. At the three levels, the visions do not coherently 
interact because the continental policies are not necessarily 
coordinated with the policies the member states adopt and implement in 
the context of the RECs, and national policy making is at times totally 
divorced from the regional and continental processes and frameworks.
    However, there are case studies of how some RECs have tried to 
address this dilemma, which could constitute best practices for 
implementation of regional policies at the national level and for 
elaboration of regional policies on the basis of practical realities in 
the member states. In the East African Community (EAC), each member 
state has agreed to establish a dedicated full-scale ministry 
responsible for EAC affairs. This means that EAC affairs are 
organically integrated into the national government structure of the 
member states. There is need for a coherent approach to formulation and 
implementation of regional policies at the national level, drawing on 
the collective wisdom and clout that RECs provide in tackling key 
national and regional challenges, particularly those related to the 
rapid socioeconomic transformation of Africa.
                               Appendix I
Regional Economic Communities (RECS)
    The modern evolution of Africa's economic governance can be traced 
to the 1980 Lagos Plan of Action for the Development of Africa and the 
1991 Abuja Treaty that established the African Economic Community 
(AEC). The treaty envisaged Regional Economic Communities (RECs) as the 
building blocks for the AEC. It called on member states to strengthen 
existing RECs and provided timeframes for creating new ones where they 
did not exist. Eight RECs have been designated by the African Union as 
the base for Africa's economic integration.
Arab Maghreb Union (AMU)
    The first Conference of Maghreb Economic Ministers in Tunis in 1964 
established the Conseil Permanent Consultatif du Maghreb between 
Algeria, Libya, Morocco, and Tunisia. Its aim was to coordinate and 
harmonize the development plans of the four countries, foster intra-
regional trade, and coordinate relations with the European Union. 
However, the plans never came to fruition. The first Maghreb Summit, 
held in Algeria in 1988, decided to set up the Maghreb High Commission. 
In 1989 in Marrakech the Treaty establishing the AMU was signed. The 
main objectives of AMU are to ensure regional stability and enhance 
policy coordination and to promote the free movement of goods and 
services. The five member countries have a total population of 85 
million people and a GDP of US$500 billion. The headquarters of AMU are 
in Rabat-Agdal, Morocco. Unlike the other RECs, AMU has no relations 
with the African Economic Community (AEC) and has not yet signed the 
Protocol on Relations with the AEC. Morocco is not a member of the AU. 
The AMU, however, been designated by the African Union as a pillar of 
the AEC.
Common Market for Eastern and Southern Africa (COMESA)
    The Common Market for Eastern and Southern Africa was founded in 
1993 as a successor to the Preferential Trade Area for Eastern and 
Southern Africa (PTA), which was established in 1981. Its vision is to 
``be a fully integrated, internationally competitive regional economic 
community with high standards of living for all its people ready to 
merge into an African Economic Community.'' Its mission is to ``achieve 
sustainable economic and social progress . . . through increased co-
operation and integration in all fields of development particularly in 
trade, customs and monetary affairs, transport, communication and 
information, technology, industry and energy, gender, agriculture, 
environment and natural resources.'' COMESA formally succeeded the PTA 
in 1994. The establishment of COMESA fulfilled the requirements of the 
PTA to become a common market. COMESA has 19 member states with a 
population of 410 million with a total GDP of over US$360 million. It 
has an annual import bill of about US$152 billion and an export bill of 
over US$157 billion. COMESA forms a major market place for both 
internal and external trading. Its headquarters are in Lusaka, Zambia.
Community of Sahel-Saharan States (CEN-SAD)
    The Community of Sahel-Saharan States was established in 1998 
following the conference of leaders and heads of states held in Tripoli 
by Libya, Burkina Faso, Mali, Niger, Chad, and Sudan. Twenty-two more 
countries have joined the community since then. Its goal is to 
strengthen peace, security, and stability and achieve global economic 
and social development. CEN-SAD has signed partnership agreements with 
numerous regional and international organizations to collaborate on 
political, cultural, economic, and social issues. Two of its main areas 
of work are security and environmental management, which include its 
flagship project to create the Great Green Wall of trees across the 
Sahel. CEN-SAD member states have launched periodic international 
sporting and cultural festivals. The first CEN-SAD Games were held in 
Niamey, Niger, in 2009. Thirteen nations competed in Under-20 sports 
(athletics, basketball, judo, football, handball, table tennis, and 
traditional wrestling) and six fields of cultural competition (song, 
traditional creation and inspiration dancing, painting, sculpture, and 
photography). The second CEN-SAD Games are scheduled to take place in 
2011 in N'Djamena, Chad.
East African Community (EAC)
    The East African Community was created in 1967. It collapsed in 
1977 due to political differences and was revived in 1996 when the 
Secretariat of the Permanent Tripartite Commission for East African 
Cooperation was set up at the EAC headquarters in Arusha, Tanzania. In 
1997 the East African heads of state started the process of upgrading 
the agreement that set up the commission into a treaty. In 1999 they 
signed the treaty reestablishing the East African Community (EAC). The 
objectives of EAC are to develop policies and programs aimed at 
widening and deepening cooperation on political, economic, social, and 
cultural fields, research and technology, defense, security, and legal 
and judicial affairs. Its members are now Kenya, Uganda, Tanzania, 
Rwanda, and Burundi with a population of 130 million and a GDP of over 
US$80 billion. The EAC has an operating customs union and launched its 
common market in July 2010. Its roadmap includes a common currency and 
the creation of a single state. In addition to its secretariat, the EAC 
has a judiciary and a legislature made of representatives from member 
states.
Economic Community of Central African States (ECCAS)
    At a summit meeting in December 1981, the leaders of the Central 
African Customs and Economic Union agreed in principle to form a wider 
economic community of Central African states. ECCAS was established on 
October 18, 1983, by the union members and the members of the Economic 
Community of the Great Lakes States (Burundi, Rwanda, and the then 
Zaire) as well as Sao Tome and Principe. Angola remained an observer 
until 1999, when it became a full member. ECCAS aims ``to promote and 
strengthen harmonious cooperation and balanced and self-sustained 
development in all fields of economic and social activity, particularly 
in the fields of industry, transport and communications, energy 
agriculture, natural resources, trade, customs, monetary and financial 
matters, human resources, tourism, education, further training, 
culture, science and technology and the movement of persons.'' ECCAS 
began functioning in 1985 but has been inactive since 1992 because of 
financial difficulties (nonpayment of membership fees) and the conflict 
in the Great Lakes area. Its 11 member states have a total population 
of 125 million and a GDP of US$180 billion. Its headquarters are in 
Libreville, Gabon.
Economic Community of West African States (ECOWAS)
    The idea for a West African community goes back to President 
William Tubman of Liberia, who made the call in 1964. An agreement was 
signed between Cote d'Ivoire, Guinea, Liberia, and Sierra Leone in 
February 1965, but this came to nothing. In April 1972 Nigerian and 
Togolese leaders relaunched the idea, drew up proposals, and toured 12 
countries, soliciting their plan from July to August 1973. A 1973 
meeting in Lome studied a draft treaty. A treaty setting up the 
Economic Community of West African States was signed in 1975 by 15 
countries. Its mission is to promote economic integration in all fields 
of economic activity, particularly industry, transport, 
telecommunications, energy, agriculture, natural resources, commerce, 
monetary and financial questions, and social and cultural matters. 
ECOWAS members signed a nonaggression protocol in 1990, building on two 
earlier agreements of 1978 and 1981. They also signed a Protocol on 
Mutual Defense Assistance in 1981 that provided for the creation of an 
Allied Armed Force of the Community. ECOWAS has 15 members, a 
population of about 270 million and an estimated GDP of US$380 billion. 
Its head offices are in Abuja, Nigeria.
Intergovernmental Authority for Development (IGAD)
    The Intergovernmental Authority on Drought and Development (IGADD) 
was formed in 1986 with a very narrow mandate to deal with drought and 
desertification. IGADD later became the accepted vehicle for regional 
security and political dialogue among its members. In the mid-1990s 
IGADD decided to transform the organization into a fully-fledged 
regional political, economic, development, trade, and security entity. 
In 1996 the Agreement Establishing the Intergovernmental Authority on 
Development was adopted. Its transition to economic issues is reflected 
in its first objective, to promote ``joint development strategies and 
gradually harmonize macroeconomic policies and programs in the social, 
technological and scientific fields.'' More specifically, IGAD seeks to 
``harmonize policies with regard to trade, customs, transport, 
communications, agriculture, and natural resources, and promote free 
movement of goods, services, and people and the establishment of 
residence.'' In recent years IGAD has been working on environmental 
security, given the links between conflict and natural resources among 
its members. It has also continued to work on drought and 
desertification. IGAD has seven members with a total population of 190 
million and a GDP of US$230 billion. It is headquartered in Djibouti 
City, Djibouti.
Southern African Development Community (SADC)
    The Southern African Development Community started as Frontline 
States whose objective was political liberation of Southern Africa. 
SADC was preceded by the Southern African Development Coordination 
Conference (SADCC), which was formed in Lusaka, Zambia, in 1980. The 
concept of a regional economic cooperation in Southern Africa was first 
discussed at a meeting of the Frontline States foreign ministers in 
1979 in Gaborone, Botswana. The meeting led to an international 
conference in Arusha, Tanzania, which in turn led to the Lusaka Summit 
held in 1980. The SADC Treaty and Declaration signed in Windhoek, 
Namibia, transformed SADCC into SADC. The treaty set out to ``promote 
sustainable and equitable economic growth and socio-economic 
development that will ensure poverty alleviation with the ultimate 
objective of its eradication, enhance the standard and quality of life 
of the people of Southern Africa and support the socially disadvantaged 
through regional integration.'' One way set out to achieve this goal is 
to ``promote the development, transfer and mastery of technology.'' The 
organization's 15 member states have a total population of 240 million 
and a GDP of US$750 billion. Its head offices are in Gaborone, 
Botswana.
                              Appendix II
Decisions of the 2010 COMESA Summit on Science and Technology for 
        Development
    Every year the Common Market for Eastern and Southern Africa 
(COMESA) chooses a theme to guide its activities for regional 
integration. The theme for the 2010 COMESA Summit held in Swaziland was 
``Harnessing Science and Technology for Development.'' The Chairman of 
COMESA for this year, His Majesty King Mswati III of the Royal Kingdom 
of Swaziland, stressed the need for concrete initiatives on science, 
technology, and innovation that can lead to tangible results for the 
region. In his address to the summit, he underscored the critical 
importance of science and technology and made some concrete proposals. 
He proposed the establishment of technology parks, the creation of an 
Information and Communication Technology (ICT) Training and Skills 
Development Fund, and the elaboration of a common ICT curriculum for 
COMESA to introduce young people to ICT at an early age. He undertook 
to do everything possible to ensure that the science and technology 
programs are implemented as agreed.
    The Council of Ministers, at their meeting, reached concrete 
decisions, which the summit fully endorsed. The deliberations in 
Council are set out below.
Report of the Twenty Eighth Meeting of the COMESA Council of Ministers, 
        Ezulwini, Kingdom of Swaziland, 27-28 August 2010
    The Council received a video recorded presentation from Calestous 
Juma, a Kenyan national who is a Professor of Development Practice at 
Harvard Kennedy School. Building on a paper circulated for the meeting 
as the background document for the agenda item on harnessing science 
and technology, the presentation underscored the importance of science 
and technology for development and provided a historical perspective to 
cycles of technological revolutions over the years, as well as a 
critical discussion of contemporary issues that Africa faces in 
pursuing its development priorities, suggesting concrete ways forward, 
with examples, on key issues. Copies of the presentation will be made 
available to delegations.
    The presentation made the following recommendations for 
establishing an institutional framework for harnessing science and 
technology in COMESA:

  <bullet> Creating a high-level committee of science, technology and 
        innovation;

  <bullet> Establishing offices of science, technology and innovation 
        at the highest level of Government in the Member States and at 
        the Secretariat to support the Governments of the Member States 
        and the Secretary General respectively;

  <bullet> Promoting regional academies of science, technology and 
        engineering;

  <bullet> Establishing an Innovation Award for outstanding 
        accomplishment; and

  <bullet> Setting up a professional or graduate school of regional 
        integration.

    In considering these recommendations, Council urged Member States 
to establish this institutional framework at the national level. 
Furthermore, the Secretariat should have an Advisory Office on Science 
and Technology.
    In addition, the presentation made specific recommendations on 
harnessing science and technology in the region in specific areas, 
including the following, which Council, in its deliberations, noted 
were only examples of a wide array of possible initiatives:

  <bullet> Available cost effective technology for promoting access to 
        medical facilities particularly in rural areas should be 
        utilised by Member States as appropriate, such as ultrasound 
        technology and health-services that can be facilitated by 
        mobile telephony;

  <bullet> In the area of education, innovative initiatives for 
        promoting access to education material, such as the [One Laptop 
        per Child] project, currently in use worldwide, including in 
        Rwanda, should be championed by COMESA Member States;

  <bullet> In the life sciences, COMESA should utilise available 
        information generated through the decoding and annotation of 
        various genomes, to apply it in various areas such as 
        developing crops that are adapted to the geographical 
        conditions of the region;

  <bullet> Noting that the available stock of technological knowledge 
        increases exponentially, doubling every 12 months, and to take 
        advantage of rapidly reducing costs of technological products, 
        COMESA needs to develop mechanisms for harnessing relevant 
        available technological knowledge worldwide; but for this to be 
        possible, mechanisms should be put in place for developing the 
        technical capacity to know and absorb the available knowledge 
        worldwide in order to be able to apply it as appropriate in 
        dealing with challenges that face the region in key priority 
        areas such as agriculture, infrastructure, information and 
        communications, public health, clean energy and water, 
        environmental protection, and trade and economics. In 
        particular, there is need to mobilise and organise the region's 
        scientists and engineers and encourage incremental innovation 
        by individuals and SMEs;

  <bullet> In the area of telecommunications, the various undersea and 
        land cable networks for connecting up Africa and connecting 
        Africa to the rest of the world should be utilised by Member 
        States and stakeholders including the private sector, bearing 
        in mind that Africa has significantly contributed financially 
        to installing them; and

  <bullet> COMESA should utilise the wireless broad band access that is 
        going to be delivered in the tropics around the world by the 
        set of 16 satellites being launched.

The Council welcomed the presentation and commended the Secretariat for 
arranging the presentation from such a brilliant son of Africa. The 
Council extensively deliberated the presentation and adopted Decisions. 
In terms of the way forward regarding the institutional framework, the 
Council noted the need for inter-ministerial coordination in order to 
avoid uncoordinated approaches, and in this regard, the vital 
importance of overarching executive leadership at a high level of 
Government. At the level of the Secretariat, if the Office of Advisor 
on Science and Technology is set up, it should be structured in a 
manner that ensures mainstreaming of science and technology in all the 
other programs and that avoids a silo approach, and it should have the 
primary objective of assisting Member States in their science and 
technology programs.
Decisions
    The Council adopted the recommendations of the presentation and 
underscored the importance of mainstreaming science and technology in 
all COMESA programs and of adopting a cost effective approach that does 
not financially overburden the Member States and the Secretariat.
    Furthermore, the Council urged Member States to:

  <bullet> Promote the commercialisation of research and development, 
        and put in place initiatives for improvement and 
        standardisation of traditional products, innovating them into 
        products that can be commercialised;

  <bullet> Consider using biotechnology in the cropping sector in order 
        to increase the outputs in the region, working with partners 
        such as ECA and NEPAD, and taking into account the enormous 
        biodiversity in the region;

  <bullet> Dedicate at least 1% of the Gross Domestic Product to 
        research and development, in line with the target set within 
        the framework of the African Union;

  <bullet> Consider adopting initiatives for promoting and utilising 
        nano technology and science, given its application in various 
        key areas such as medical treatment resulting from much higher 
        levels of precision;

  <bullet> Put in place concrete mechanisms for leveraging science and 
        technology to address the key priorities in the region;

  <bullet> Establish data bases for identifying individuals with the 
        right profiles that can assist the implementation of science 
        and technology initiatives in COMESA;

  <bullet> Harmonise and coordinate their policy frameworks on science 
        and technology at the COMESA level; and

  <bullet> Elaborate and adopt master plans and blue prints for 
        leveraging technological knowledge, for harnessing science and 
        technology, and for mobilising the required resources.

    Council decided also that:

  <bullet> Member States should consider establishing Science and 
        Technology Committees and Advisory Office at the highest level 
        of Government;

  <bullet> The Secretariat should establish an Office of Advisor on 
        Science and Technology; and

  <bullet> An Annual Innovation Award should be established to 
        recognise outstanding accomplishment.

    Broad Band Wireless Interactive System

    Regarding a Broad Band Wireless Interactive System, the Council 
received a PowerPoint presentation, which was presented to the Fourth 
Meeting of the Ministers of Infrastructure at its meeting, 29-30 July 
2010. The Report of that Meeting, reference CS/ID/MIN/IV/2, in 
paragraphs 384 to 388, provides the deliberations by the Infrastructure 
Ministers and a recommendation on this matter.

    Recommendation

    The Council noted the deliberations of the Infrastructure Ministers 
on this matter and endorsed the recommendation that pilot projects be 
developed to deploy the COBIS system in selected COMESA Member States 
following which when successfully implemented can be expanded for 
region-wide deployment.
Directives of the COMESA Heads of State and Government on Harnessing 
        Science and Technology
    The Heads of State and Government as well deliberated this matter 
of harnessing science and technology and listened to the video 
presentation of Professor Calestous Juma. They directed as follows, 
endorsing the Decisions of the Ministers:
    Member States should:

  <bullet> Where possible, pool resources and combine efforts to 
        establish common science and technology parks;

  <bullet> Promote the commercialisation of research and development, 
        and put in place initiatives for improvement and 
        standardisation of traditional products, innovating them into 
        products that can be commercialised;

  <bullet> Consider using biotechnology in the cropping sector in order 
        to increase the outputs in the region, working with partners 
        such as ECA and NEPAD, and taking into account the enormous 
        biodiversity in the region;

  <bullet> Dedicate at least 1% of the Gross Domestic Product to 
        research and development, in line with the target set within 
        the framework of the African Union;

  <bullet> Consider adopting initiatives for promoting and utilising 
        nanotechnology and science, given its application in various 
        key areas such as medical treatment resulting from much higher 
        levels of precision;

  <bullet> Develop a common curriculum in ICT that enables COMESA 
        citizens to be exposed to ICT at an early age;

  <bullet> Create a central fund that will concentrate on availing 
        financial resources towards funding programs for ICT training 
        and skills development;

  <bullet> Establish data bases for identifying individuals with the 
        right profiles that can assist the implementation of science 
        and technology initiatives in COMESA;

  <bullet> Harmonise and coordinate their policy frameworks on science 
        and technology at the COMESA level; and

  <bullet> Elaborate and adopt master plans and blue prints for 
        leveraging technological knowledge, for harnessing science and 
        technology, and for mobilising the required resources.

    In addition:

  <bullet> Member States should consider establishing Science and 
        Technology Committees and Advisory Offices at the highest level 
        of Government;

  <bullet> The Secretariat should establish an Office of Advisor on 
        Science and Technology;

  <bullet> An Annual Innovation Award should be established to 
        recognise outstanding accomplishment; and

  <bullet> Member States should adopt a policy for harnessing science 
        and technology.

    Furthermore, the Heads of State and Government endorsed the COMESA 
Policy on Intellectual Property Rights and Cultural Industries as 
adopted by the Ministers.
                                 Notes
Introduction
    1. B. wa Mutharika, ``Feeding Africa through New Technologies: Let 
Us Act Now'' (Acceptance Speech on Election of the Chairman of the 
Assembly of the African Union, Addis Ababa, January 31, 2010). As wa 
Mutharika explained: ``I firmly believe that if we could agree that 
food security at the Africa level is a priority, then other priorities 
such as climate change, ICT, transport and infrastructure development 
would also become a necessity to enhance flow of information, movement 
of people, goods and services including the production and supply of 
agricultural inputs within and among nations, regions and the continent 
at large. I therefore propose that we consider investing in the 
construction of infrastructure to support food security. We need to 
build food storage facilities, new roads, railways, airlines, shipping 
industries as well as develop inter-state networks to ensure that we 
can move food surplus to deficit areas more efficiently and more 
cheaply.''
    2. C.P. Reij and E.M. Smaling, ``Analyzing Successes in Agriculture 
and Land Management in Sub-Saharan Africa: Is Macro-Level Gloom 
Obscuring Micro-Level Change?'' Land Use Policy 25, no. 3 (2008): 410-
20.
    3. Discussions on the role of innovation in development often 
ignore the role of engineering in development. For more details, see C. 
Juma, ``Redesigning African Economies: The Role of Engineering in 
International Development'' (Hinton Lecture, Royal Academy of 
Engineering, London, 2006); P. Guthrie, C. Juma, and H. Sillem, eds., 
Engineering Change: Towards a Sustainable Future in the Developing 
World. London: Royal Academy of Engineering, 2008.
    4. H.T. Vesala and K.M. Vesala, ``Entrepreneurs and Producers: 
Identities of Finnish Farmers in 2001 and 2006,'' Journal of Rural 
Studies 26, no. 1 (2010): 21-30.
    5. The African Union (AU) recognizes the following RECs as the 
continent's economic integration building blocks: Community of Sahel 
Sahara States (CEN-SAD); Arab Maghreb Union (AMU); Economic Community 
of Central African States (ECCAS); Common Market of Eastern and 
Southern Africa (COMESA); Southern African Development Community 
(SADC); Intergovernmental Authority for Development (IGAD); Economic 
Community of West African States (ECOWAS); the East African Community 
(EAC). For descriptions, see Appendix I.
    6. B. Gavin, ``The Euro-Mediterranean Partnership: An Experiment in 
North-South-South Integration,'' Intereconomics 40, no. 6 (2005): 353-
60.
    7. A. Aghrout, ``The Euro-Maghreb Economic Partnership: Trade and 
Investment Issues,'' Journal of Contemporary European Studies 17, no. 3 
(2009): 353-67.
    8. A.-N. Cherigui et al., ``Solar Hydrogen Energy: The European-
Maghreb Connection--A New Way of Excellence for Sustainable 
Development,'' International Journal of Hydrogen Energy 34, no. 11 
(2009): 4934-40.
    9. K. Kausch, ``The End of the `Euro-Mediterranean Vision,' '' 
International Affairs 85, no. 5 (2009): 963-75.
    10. C. Juma and I. Serageldin, Freedom to Innovate: Biotechnology 
in Africa's Development. Addis Ababa: African Union and New Partnership 
for Africa's Development, 2007.
    11. C. Juma and I. Serageldin, Freedom to Innovate: Biotechnology 
in Africa's Development. Addis Ababa: African Union and New Partnership 
for Africa's Development, 2007, 116-17.
    12. Royal Society of London. Reaping the Benefits: Science and the 
Sustainable Intensification of Global Agriculture. London: Royal 
Society of London 2009.
    13. E. Kraemer-Mbula and W. Wamae, eds., Innovation and the 
Development Agenda. Paris: Organisation for Economic Co-operation and 
Development, 2010.
Chapter 1
    1. U. Lele, ``Structural Adjustment, Agricultural Development and 
the Poor: Some Lessons from the Malawian Experience,'' World 
Development 18, no. 9 (1990): 1207-19.
    2. D.E. Sahn and J. Arulpragasam. ``The Stagnation of Smallholder 
Agriculture in Malawi: A Decade of Structural Adjustment,'' Food Policy 
16, no. 3 (1991): 219-34.
    3. V. Quinn, ``A History of the Politics of Food and Nutrition in 
Malawi: The Context of Food and Nutritional Surveillance,'' Food Policy 
19, no. 3 (1994): 255-71.
    4. G. Denning et al., ``Input Subsidies to Improve Smallholder 
Maize Productivity in Malawi: Toward an African Green Revolution,'' 
PLoS Biology 7, no. 1 (2009): e1000023.
    5. B. wa Mutharika, ``Capitalizing on Opportunity'' (paper 
presented at the World Economic Forum on Africa, Cape Town, South 
Africa, June 4, 2008).
    6. B. Chinsinga, Reclaiming Policy Space: Lessons from Malawi's 
Fertilizer Subsidy Programme. London: Future Agricultures, 2007.
    7. F. Ellis, Fertiliser Subsidies and Social Cash Transfers: 
Complementary or Competing Instruments for Reducing Vulnerability to 
Hunger? Johannesburg, South Africa: Regional Hunger and Vulnerability 
Programme, 2009.
    8. H. Ndilowe, personal communication, Embassy of Malawi, 
Washington, DC, 2009.
    9. G. Denning et al., ``Input Subsidies to Improve Smallholder 
Maize Productivity in Malawi: Toward an African Green Revolution,'' 
PLoS Biology 7, no. 1 (2009): e1000023.
    10. D.C. Chibonga, personal communication, National Smallholder 
Farmers' Association, Malawi, 2009.
    11. D.C. Chibonga, personal communication, National Smallholder 
Farmers' Association, Malawi, 2009.
    12. C.P. Timmer, ``Agriculture and Economic Development,'' Handbook 
of Agricultural Economics 2 (2002): 1487-1546.
    13. P. Pingali, ``Agricultural Growth and Economic Development: A 
View through the Globalization Lens,'' Agricultural Economics 37, no. 1 
(2007): 1-12.
    14. D. Byerlee, A. de Janvy, and E. Sadoulet, ``Agriculture for 
Development: Toward a New Paradigm,'' Annual Review of Resource 
Economics 1, no.1 (2009): 15-35.
    15. P. Pingali, ``Agriculture Renaissance: Making `Agriculture for 
Development' Work in the 21st Century,'' Handbook of Agricultural 
Economics 4 (2010): 3867-94.
    16. M. Tiffen, ``Transition in Sub-Saharan Africa: Agriculture, 
Urbanization and Income Growth,'' World Development 31, no. 8 (2003): 
1343-66.
    17. P. Gollin, ``Agricultural Productivity and Economic Growth,'' 
Handbook of Agricultural Economics 4 (2010): 3825-66.
    18. For a comprehensive review of food-related debates, see R. 
Paarlberg, Food Politics: What Everyone Needs to Know. New York: Oxford 
University Press, 2010.
    19. R. Evenson and D. Gollin, ``Assessing the Impact of the Green 
Revolution, 1960-2000,'' Science 300, no. 5620 (2003): 758-62.
    20. R. Evenson and D. Gollin, ``Assessing the Impact of the Green 
Revolution, 1960-2000,'' Science 300, no. 5620 (2003): 758-62.
    21. This is clearly articulated in InterAcademy Council, Realizing 
the Promise and Potential of African Agriculture. Amsterdam: 
InterAcademy Council, 2004.
    22. P. Hazell, ``An Assessment of the Impact of Agricultural 
Research in South Asia since the Green Revolution,'' Handbook of 
Agricultural Economics 4 (2010): 3469-3530.
    23. World Bank, World Development Report, 2008. Washington, DC: 
World Bank, 2008, 27.
    24. World Bank, World Development Report, 2008. Washington, DC: 
World Bank, 2008, 29.
    25. World Bank, World Development Report, 2008. Washington, DC: 
World Bank, 2008, 40-41.
    26. World Bank, World Development Report, 2008. Washington, DC: 
World Bank, 2008, 53.
    27. World Bank, World Development Report, 2008. Washington, DC: 
World Bank, 2008, 27.
    28. Organization for Economic Cooperation and Development, 
``Agriculture, Food Security and Rural Development for Growth and 
Poverty Reduction: China's Agricultural Transformation--Lessons for 
Africa and its Development Partners.'' Summary of discussions by the 
China-DAC Study Group, Bamako, Mali, April 27-28, 2010.
    29. United Nations Economic Commission for Africa and African 
Union, Economic Report on Africa 2009: Developing African Agriculture 
through Regional Value Chains. Addis Ababa: United Nations Economic 
Commission for Africa and African Union, 2009.
    30. UNEP-UNCTAD Task Force on Capacity Building on Trade, 
Environment and Development, Organic Agriculture and Food Security in 
Africa. Geneva: United Nations Conference on Trade and Development, 
2008.
    31. United Nations Economic Commission for Africa and African 
Union, Economic Report on Africa 2009: Developing African Agriculture 
through Regional Value Chains. Addis Ababa: United Nations Economic 
Commission for Africa and African Union, 2009.
    32. E. Fabusoro et al., ``Forms and Determinants of Rural 
Livelihood Diversification in Ogun State,'' Journal of Sustainable 
Agriculture 34, no. 4 (2010): 417-38.
    33. United Nations Economic Commission for Africa and African 
Union, Economic Report on Africa 2009: Developing African Agriculture 
through Regional Value Chains. Addis Ababa: United Nations Economic 
Commission for Africa and African Union, 2009.
    34. R. Paarlberg, Starved for Science: How Biotechnology Is Being 
Kept Out of Africa. Cambridge, MA: Harvard University Press, 2008.
    35. United Nations Economic Commission for Africa and African 
Union, Economic Report on Africa 2009: Developing African Agriculture 
through Regional Value Chains. Addis Ababa: United Nations Economic 
Commission for Africa and African Union, 2009.
    36. R. Roxburgh et al., Lions on the Move: The Progress and 
Potential of African Economies. Washington, DC: McKinsey Global 
Institute, 2010.
    37. R. Roxburgh et al., Lions on the Move: The Progress and 
Potential of African Economies. Washington, DC: McKinsey Global 
Institute, 2010.
    38. R. Roxburgh et al., Lions on the Move: The Progress and 
Potential of African Economies. Washington, DC: McKinsey Global 
Institute, 2010.
    39. D. Deininger et al., Rural Land Certification in Ethiopia: 
Process, Initial Impact, and Implications for Other African Countries. 
Washington, DC: World Bank, 2007.
    40. H. Binswanger-Mkhize and A. McCalla, ``The Changing Context and 
Prospects for Agricultural and Rural Development in Africa,'' Handbook 
of Agricultural Economics 4 (2010): 3582-83.
    41. P. D. Williams and J. Haacke, ``Security Culture, Transnational 
Challenges and the Economic Community of West African States,'' Journal 
of Contemporary African Studies 26, no. 2 (2008): 119-23.
    42. OECD, African Economic Outlook 2010: Public Resource 
Mobilization and Aid. Paris: Organisation for Economic Cooperation and 
Development, 2010.
    43. EAC, Agriculture and Rural Development Strategy for the East 
African Community. Arusha, Tanzania: East African Community, 2006.
    44. EAC, Agriculture and Rural Development Strategy for the East 
African Community. Arusha, Tanzania: East African Community, 2006.
    45. T. Persson and G. Tabellini, ``The Growth Effect of Democracy: 
Is It Heterogeneous and How Can It Be Estimated?'' In Institutions and 
Economic Performance, ed. E. Helpman. Cambridge, MA: Harvard University 
Press, 2008.
    46. L.E. Fulginiti, ``What Comes First, Agricultural Growth or 
Democracy?'' Agricultural Economics 41, no. 1 (2010): 15-24.
    47. R. Nelson, ``What Enables Rapid Economic Progress: What Are the 
Needed Institutions?'' Research Policy 37, no.1 (2008): 1.
    48. D. Restuccia, D. T. Yang, and X. Zhu, ``Agriculture and 
Aggregate Productivity,'' Journal of Monetary Economics 55, no. 2 
(2008): 234-50.
Chapter 2
    1. J. Schwerin and C. Werker, ``Learning Innovation Policy Based on 
Historical Experience,'' Structural Change and Economic Dynamics 14, 
no. 4 (2004): 385-404.
    2. C. Freeman and F. Louca, As Time Goes By: From the Industrial 
Revolution to the Information Revolution. Oxford: Oxford University 
Press, 2001; J. Fegerberg et al., eds., The Oxford Handbook of 
Innovation. Oxford: Oxford University Press, 2005.
    3. T. Ridley, Y.-C. Lee, and C. Juma, ``Infrastructure, Innovation 
and Development,'' International Journal of Technology and 
Globalisation 2, no. 3 (2006): 268-78; D. Rouach and D. Saperstein, 
``Alstom Technology Transfer Experience: The Case of the Korean Train 
Express (KTX),'' International Journal of Technology Transfer and 
Commercialisation 3, no. 3 (2004): 308-23.
    4. B. Oyelaran-Oyeyinka and K. Lal, ``Learning New Technologies by 
Small and Medium Enterprises in Developing Countries,'' Technovation 
26, no. 2 (2006): 220-31.
    5. C. Juma, ``Redesigning African Economies: The Role of 
Engineering in International Development'' (Hinton Lecture, Royal 
Academy of Engineering, London, 2006).
    6. D. King, ``Governing Technology and Growth.'' In Going for 
Growth: Science, Technology and Innovation in Africa, ed. C. Juma. 
London: Smith Institute, 2005, 112-24.
    7. C. Juma, ``Reinventing African Economies: Technological 
Innovation and the Sustainability Transition'' (paper presented at the 
6th John Pesek Colloquium on Sustainable Agriculture, Iowa State 
University, Ames, Iowa, USA, 2006).
    8. A.D. Alene, ``Productivity Growth and the Effects of R&D in 
African Agriculture,'' Agricultural Economics 41, nos. 3-4 (2010): 223-
38.
    9. W.A. Masters, ``Paying for Prosperity: How and Why to Invest in 
Agricultural R&D for Development in Africa,'' Journal of International 
Affairs 58, no. 2 (2005): 35-64.
    10. H. Jikun and S. Rozelle, ``Technological Change: Rediscovering 
the Engine of Productivity Growth in China's Rural Economy,'' Journal 
of Development Economics 49, no. 2 (1996): 337-69.
    11. S. Fan, L. Zhang, and X. Zhang, ``Reforms, Investment, and 
Poverty in Rural China,'' Economic Development and Cultural Change 5, 
no. 2 (2004): 395-422.
    12. G. Conway and J. Waage, Science and Innovation for Development. 
London: UK Collaborative on Development Sciences, 2010, 37.
    13. J.C. Acker and I.M. Mbiti, Mobile Phones and Economic 
Development in Africa. Washington, DC: Center for Global Development, 
2010.
    14. G. Conway and J. Waage, Science and Innovation for Development. 
London: UK Collaborative on Development Sciences, 2010, 37.
    15. G. Conway and J. Waage, Science and Innovation for Development. 
London: UK Collaborative on Development Sciences, 2010, 37.
    16. W. Jack and T. Suri, Mobile Money: The Economics of M-PESA. 
Cambridge, MA: Sloan School, Massachusetts Institute of Technology, 
2009.
    17. I. Mas, ``The Economics of Branchless Banking,'' Journal of 
Monetary Economics 4, no. 2 (2009): 57-76.
    18. M.L. Rilwani and I.A. Ikhuoria, ``Precision Farming with 
Geoinformatics: A New Paradigm for Agricultural Production in a 
Developing Country,'' Transactions in GIS 10, no. 2 (2006): 177-97.
    19. R. Chwala, personal communication, Survey Settlements and Land 
Records Department, State of Karnataka, 2009.
    20. I. Potrykus, ``Nutritionally Enhanced Rice to Combat 
Malnutrition Disorders of the Poor,'' Nutrition Reviews 61, Supplement 
1 (2003): 101-4.
    21. C. James, Global Status of Commercialized Biotech/GM Crops: 
2009. ISAAA Brief No. 41. Ithaca, NY: International Service for the 
Acquisition of Agri-biotech Applications.
    22. C. James, Global Status of Commercialized Biotech/GM Crops: 
2009. ISAAA Brief No. 41. Ithaca, NY: International Service for the 
Acquisition of Agri-biotech Applications.
    23. C. James, Global Status of Commercialized Biotech/GM Crops: 
2009. ISAAA Brief No. 41. Ithaca, NY: International Service for the 
Acquisition of Agri-biotech Applications.
    24. C. Pray, ``Public-Private Sector Linkages in Research and 
Development: Biotechnology and the Seed Industry in Brazil, China and 
India,'' American Journal of Agricultural Economics 83, no. 3 (2001): 
742-47.
    25. R. Kaplinsky et al., ``Below the Radar: What Does Innovation in 
Emerging Economies Have to Offer Other Low-income Countries?'' 
International Journal of Technology Management and Sustainable 
Development 8, no. 3 (2009): 177-97. Indian entrepreneurs have figured 
ways of doing more with less based on the principles of affordability 
and sustainability: C.P. Prahalad and R.A. Mashelkar, ``Innovation's 
Holy Grain,'' Harvard Business Review, July-August (2010): 1-10.
    26. J.D. Glover and J.P. Reganold, ``Perenial Grains: Food Security 
for the Future,'' Issues in Science and Technology 26, no. 2 (2010): 
41-47.
    27. C. James, Global Status of Commercialized Biotech/GM Crops: 
2009. ISAAA Brief No. 41. Ithaca, NY: International Service for the 
Acquisition of Agri-biotech Applications.
    28. A.M. Showalter et al., ``A Primer for Using Transgenic 
Insecticidal Cotton in Developing Countries,'' Journal of Insect 
Science 9 (2009): 1-39.
    29. D. Zilberman, H. Ameden, and M. Qaim, ``The Impact of 
Agricultural Biotechnology on Yields, Risks, and Biodiversity in Low-
Income Countries,'' Journal of Development Studies 43, no. 1 (2007): 
63-78.
    30. C.E. Pray et al., ``Five Years of Bt Cotton in China--The 
Benefits Continue,'' Plant Journal 31, no. 4 (2000): 423-30.
    31. R. Falkner, ``Regulating Biotech Trade: The Cartagena Protocol 
on Biosafety,'' International Affairs 76, no. 2 (2000): 299-313.
    32. L.R. Ghisleri et al., ``Risk Analysis and GM Foods: Scientific 
Risk Assessment,'' European Food and Feed Law Review 4, no. 4 (2009): 
235-50.
    33. T. Bernauer, Genes, Trade, and Regulation: The Seeds of 
Conflict in Food Biotechnology. Princeton, NJ: Princeton University 
Press, 2003. Most of the studies on the risks of agricultural 
biotechnology tend to focus on unintended negative impacts. But 
evidence of unintended benefits is emerging. See, for example, W.D. 
Hutchison et al., ``Areawide Suppression of European Corn Borer with Bt 
Maize Reaps Savings to Non-Bt Maize Growers,'' Science 330, no. 6001 
(2010): 222-25.
    34. C.E. Pray et al., ``Costs and Enforcement of Biosafety 
Regulations in India and China,'' International Journal of Technology 
and Globalization 2, nos. 1-2 (2006): 137-57; C.E. Pray, P. Bengali, 
and B. Ramaswami, ``The Cost of Regulation: The India Experience,'' 
Quarterly Journal of International Agriculture 44, no. 3 (2005): 267-
89.
    35. R. Paarlberg, Starved for Science: How Biotechnology Is Being 
Kept Out of Africa. Cambridge, MA: Harvard University Press, 2008, 2.
    36. E. van Kleef et al., ``Food Risk Management Quality: Consumer 
Evaluations of Past and Emerging Food Safety Incidents,'' Health, Risk 
and Society 11, no. 2 (2009): 137-63.
    37. L.J. Frewer et al., ``What Determines Trust in Information 
about Food-related Risks? Underlying Psychological Constructs,'' Risk 
Analysis 16, no. 4 (1996): 473-85.
    38. P. Jackson, ``Food Stories: Consumption in the Age of 
Anxiety,'' Cultural Geographies 17, no. 2 (2010): 147-65.
    39. S. Lieberman and T. Gray, ``The World Trade Organization's 
Report on the EU's Moratorium on Biotech Products: The Wisdom of the US 
Challenge to the EU in the WTO,'' Global Environmental Politics 8, no. 
1 (2008): 33-52.
    40. N. Zerbe, ``Feeding the Famine? American Food Aid and the GMO 
Debate in Southern Africa,'' Food Policy 29, no. 6 (2004): 593-608.
    41. I. Cheyne, ``Life after the Biotech Products Dispute,'' 
Environmental Law Review 10, no. 1 (2008): 52-64.
    42. E.J. Morris, ``The Cartagena Protocol: Implications for 
Regional Trade and Technology Development in Africa,'' Development 
Policy Review 26, no. 1 (2008): 29-57.
    43. D. Wield, J. Chataway, and M. Bolo, ``Issues in the Political 
Economy of Agricultural Biotechnology,'' Journal of Agrarian Change 10, 
no. 3 (2010): 342-66.
    44. J.O. Adeoti and A.A. Adekunle, ``Awareness of and Attitudes 
towards Biotechnology and GMOs in Southwest Nigeria: A Survey of People 
with Access to Information,'' International Journal of Biotechnology 9, 
no. 2 (2007): 209-30.
    45. E.J. Morris, ``The Cartagena Protocol: Implications for 
Regional Trade and Technology Development in Africa,'' Development 
Policy Review 26, no. 1 (2008): 29-57.
    46. C. Bett, J.O. Ouma, and H. Groote, ``Perspectives on 
Gatekeepers in the Kenya Food Industry toward Genetically Modified 
Food,'' Food Policy 35, no. 4 (2010): 332-40.
    47. D.L. Kleinman, A.J. Kinchy, and R. Autry, ``Local Variations or 
Global Convergence in Agricultural Biotechnology Policy? A Comparative 
Analysis,'' Science and Public Policy 36, no. 5 (2009): 361-71.
    48. J. Keeley, ``Balancing Technological Innovation and 
Environmental Regulation: An Analysis of Chinese Agricultural 
Biotechnology Governance,'' Environmental Politics 15, no. 2 (2000): 
293-309.
    49. National Research Council. Impact of Genetically Engineered 
Crops on Farm Sustainability in the United States. Washington, DC: 
National Academies Press, 2010.
    50. G. Conway and J. Waage, Science and Innovation for Development. 
London: UK Collaborative on Development Sciences, 2010, 54.
    51. T. Fleischer and A. Grunwald, ``Making Nanotechnology 
Developments Sustainable: A Role for Technology Assessment?'' Journal 
of Cleaner Production 16, nos. 8-9 (2008): 889-98.
    52. G. Conway and J. Waage, Science and Innovation for Development. 
London: UK Collaborative on Development Sciences, 2010, 53.
    53. S. Louis and D. Alcorta, personal communication, Dais Analytic 
Corporation, Odessa, Florida, USA (2010).
    54. J. Perkins, Geopolitics and the Green Revolution: Wheat, Genes, 
and the Cold War. New York: Oxford University Press, 1997.
    55. B. Bell, Jr. and C. Juma, ``Technology Prospecting: Lessons 
from the Early History of the Chile Foundation.'' International Journal 
of Technology and Globalisation 3, nos. 2-3 (2007): 296-314.
    56. K. Kastenhofer, ``Do We Need a Specific Kind of Technoscience 
Assessment? Taking the Convergence of Science and Technology 
Seriously,'' Poiesis Prax 7, nos. 1-2 (2010): 37-54.
    57. W. Russell et al., ``Technology Assessment in Social Context: 
The Case for a New Framework for Assessing and Shaping Technological 
Development,'' Impact Assessment and Project Appraisal 28, no. 2 
(2010): 109-16.
    58. L. Pellizoni, ``Uncertainty and Participatory Democracy,'' 
Environmental Values 12, no. 2 (2003): 195-224.
    59. A. Hall, ``Embedding Research in Society: Development 
Assistance Options for Agricultural Innovation in a Global Knowledge 
Economy,'' International Journal of Technology Management and 
Sustainable Development 8, no. 3 (2008): 221-35.
Chapter 3
    1. G.E. Glasson et al., ``Sustainability Science Education in 
Africa: Negotiating Indigenous Ways of Living with Nature in the Third 
Space,'' International Journal of Science Education 32, no. 1 (2010): 
125-41.
    2. S.W. Omamo and J.K. Lynam, ``Agricultural Science and Technology 
Policy in Africa,'' Research Policy 32, no. 9 (2003): 1681-94.
    3. J. Fagerberg, ``Introduction: A Guide to the Literature.'' In 
The Oxford Handbook of Innovation, ed. J. Fagerberg, D. Mowery, and R. 
Nelson. Oxford: Oxford University Press, 2005, 1-26.
    4. J. Sumberg, ``Systems of Innovation Theory and the Changing 
Architecture of Agricultural Research in Africa,'' Food Policy 30, no. 
1 (2005): 21-41.
    5. A. Hall, W. Janssen, E. Pehu, and R. Rajalahti, Enhancing 
Agricultural Innovation: How to Go Beyond Strengthening Research 
Systems. Washington, DC: World Bank, 2006.
    6. A. Hall, W. Janssen, E. Pehu, and R. Rajalahti, Enhancing 
Agricultural Innovation: How to Go Beyond Strengthening Research 
Systems. Washington, DC: World Bank, 2006.
    7. D.J. Spielman et al., ``Developing the Art and Science of 
Innovation Systems Enquiry: Alternative Tools and Methods, and 
Applications to Sub-Saharan African Agriculture,'' Technology in 
Society 31, no. 4 (2009): 399-405.
    8. J.O. Adeoti and O. Olubamiwa, ``Toward an Innovation System in 
the Traditional Sector: The Case of the Nigerian Cocoa Industry,'' 
Science and Public Policy 36, no. 1 (2009): 15-31.
    9. J.O. Adeoti, S.O. Odekunle, and F.M. Adeyinka, Tackling 
Innovation Deficit: An Analysis of University-Firm Interaction in 
Nigeria. Ibadan, Nigeria: Evergreen, 2010.
    10. For more details, see J. Adeoti and O. Olubamiwa, ``Toward an 
Innovation System in the Traditional Sector: The Case of the Nigerian 
Cocoa Industry,'' Science and Public Policy 36, no. 1 (2009): 15-31.
    11. M. Gagne et al., ``Technology Cluster Evaluation and Growth 
Factors: Literature Review,'' Research Evaluation 19, no. 2 (2010): 82-
90.
    12. M.S. Gertler and T. Vinodrai, ``Life Sciences and Regional 
Innovation: One Path or Many?'' European Planning Studies 17, no. 2 
(2009): 235-61.
    13. M.E. Porter, ``Clusters and the New Economics of Competition,'' 
Harvard Business Review 76, no. 6 (1998): 77-90.
    14. Z. Yingming, Analysis of Industrial Clusters in China. Boca 
Raton, Florida, USA: CRC Press, 2010.
    15. This case study draws heavily from G. Wu, T. Tu and S. Gu, 
``Innovation System and Transformation of the Agricultural Sector in 
China, with the Case of Shouguang City'' (paper presented to the 
Globelics Conference on Innovation and Development, Rio de Janeiro, 
November 3-6, 2003); S. Gu, ``The Emergence and Development of the 
Vegetable Sector in China,'' Industry and Innovation 26, nos. 4-5 
(2009): 499-524.
    16. D. Dalohoun, A. Hall, and P. Mele, ``Entrepreneurship as Driver 
of a `Self-Organizing System of Innovation': The Case of NERICA in 
Benin,'' International Journal of Technology Management and Sustainable 
Development 8, no. 2 (2009): 87-101.
    17. M. Dermastia, ``Slovenia.'' In Business Clusters: Promoting 
Enterprise in Central and Eastern Europe, ed. OECD. Paris: Organization 
for Economic Cooperation and Development, 2005.
    18. P. Maskell, ``Towards a Knowledge-Based Theory of the 
Geographical Cluster,'' Industrial and Corporate Change 10, no. 4 
(2001): 921.
    19. S. Breschi and F. Malerba. ``The Geography of Innovation and 
Economic Clustering: Some Introductory Notes,'' Industrial and 
Corporate Change 10, no. 4 (2001): 817.
    20. B. Orlove et al., ``Indigenous Climate Change Knowledge in 
Southern Uganda,'' Climatic Change 100, no. 2 (2010): 243-65.
    21. J.F. Martin et al., ``Traditional Ecological Knowledge (TEK): 
Ideas, Inspiration, and Design for Ecological Engineering,'' Ecological 
Engineering 36, no. 7 (2010): 839-49.
    22. G. Glasson et al., ``Sustainability Science Education in 
Africa: Negotiating Indigenous Ways of Living with Nature in the Third 
Space,'' International Journal of Science Education 32, no. 1 (2010): 
125-41.
    23. E. Ostrom, Understanding Institutional Diversity. Princeton, 
NJ: Princeton University Press, 2005.
    24. Z. Xiwei and Y. Xiangdong, ``Science and Technology Policy 
Reform and Its Impact on China's National Innovation System,'' 
Technology in Society 29, no. 3 (2007): 317.
    25. Z. Xiwei and Y. Xiangdong, ``Science and Technology Policy 
Reform and Its Impact on China's National Innovation System,'' 
Technology in Society 29, no. 3 (2007): 321.
    26. X. Liu and T. Zhi, ``China Is Catching Up in Science and 
Innovation: The Experience of the Chinese Academy of Sciences,'' 
Science and Public Policy 37, no. 5 (2010): 331-42.
    27. Z. Xiwei and Y. Xiangdong, ``Science and Technology Policy 
Reform and Its Impact on China's National Innovation System,'' 
Technology in Society 29, no. 3 (2007): 322.
    28. M.A. Lopes and P.B. Arcuri, The Brazilian Agricultural Research 
for Development (ARD) System (paper presented at the International 
Workshop on Fast Growing Economies' Role in Global Agricultural 
Research for Development [ARD], Beijing, China, February 8-10, 2010).
Chapter 4
    1. E.B. Barrios, ``Infrastructure and Rural Development: Household 
Perceptions on Rural Development,'' Progress in Planning 70, no. 1 
(2008): 1-44.
    2. P.R. Agenor, ``A Theory of Infrastructure-led Development,'' 
Journal of Economic Dynamics and Control 34, no. 5 (2010): 932-50.
    3. R.G. Teruel and Y. Kuroda, ``Public Infrastructure and 
Productivity Growth in Philippine Agriculture, 1974-2000,'' Journal of 
Asian Economics 16, no. 3 (2005): 555-76; P.-R. Agenor and B. Moreno-
Dodson, Public Infrastructure and Growth: New Channels and Policy 
Implications. Washington, DC: World Bank, 2006.
    4. S. Fan and X. Zhang, ``Public Expenditure, Growth and Poverty 
Reduction in Rural Uganda,'' Africa Development Review 20, no. 3 
(2008): 466-96.
    5. S. Fan and C. Chan-Kang, Road Development, Economic Growth, and 
Poverty Reduction in China. Washington, DC: International Food Policy 
Research Institute, 2005.
    6. A. Narayanamoorthy, ``Economics of Drip Irrigation in Sugarcane 
Cultivation: Case Study of a Farmer from Tamil Nadu,'' Indian Journal 
of Agricultural Economics 60, no. 2 (2005): 235.
    7. The rest of this section is based on K.N. Gratwick and A. 
Eberhard, ``An Analysis of Independent Power Projects in Africa: 
Understanding Development and Investment Outcomes,'' Development Policy 
Review 26, no. 3 (2008): 309-38.
    8. K. Annamalai and S. Rao, ITC's e-Choupal and the Profitable 
Rural Transformation. Washington, DC: World Resource Institute (WRI), 
Michigan Business School, and UNC Kenan Flagler Business School.
    9. This section draws heavily from D. Rouach and D. Saperstein, 
``Alstom Technology Transfer Experience: The Case of the Korean Train 
Express (KTX),'' International Journal of Technology Transfer and 
Commercialisation 3, no. 3 (2004): 308-23.
    10. T.E. Mutambara, ``Regional Transport Challenges with the South 
African Development Community and Their Implications for Economic 
Integration and Development,'' Journal of Contemporary African Studies 
27, no. 4 (2009): 501-25.
    11. E. Calitz and J. Fourie, ``Infrastructure in South Africa: Who 
Is to Finance and Who Is to Pay?'' Development Southern Africa 27, no. 
2 (2010): 177-91.
    12. K. Putranto, D. Stewart, and G. Moore, ``International 
Technology Transfer and Distribution of Technology Capabilities: The 
Case of Railway Development in Indonesia,'' International Journal of 
Technology Transfer and Commercialisation 3, no. 3 (2003): 43-53.
    13. R. Shah and R. Batley, ``Private-Sector Investment in 
Infrastructure: Rationale and Causality for Pro-poor Impacts,'' 
Development Policy Review 27, no. 4 (2009): 397-417.
Chapter 5
    1. A. Pinkerton and K. Dodds, ``Radio Geopolitics: Broadcasting, 
Listening and the Struggle for Acoustic Space,'' Progress in Human 
Geography 33, no. 1 (2009): 10-27.
    2. N.T. Assie-Lumumba, Empowerment of Women in Higher Education in 
Africa: The Role and Mission of Research. Paris: United Nations 
Educational, Scientific and Cultural Organization, 2006.
    3. M. Slavik, ``Changes and Trends in Secondary Agricultural 
Education in the Czech Republic,'' International Journal of Educational 
Development 24, no. 5 (2004): 539-45.
    4. J. Ndjeunga et al., Early Adoption of Modern Groundnut Varieties 
in West Africa. Hyderabad, India: International Crops Research in Semi-
Arid Tropics, 2008.
    5. G. Feder, R. Murgai, and J. Quizon, ``Sending Farmers Back to 
School: The Impact of Farmer Field Schools in Indonesia,'' Review of 
Agricultural Economics 26, no. 1 (2004): 45-62.
    6. P. Woomer, M. Bokanga, and G. Odhiambo, `` Striga Management and 
the African Farmer,'' Outlook on Agriculture 37, no. 4 (2008): 277-82.
    7. G. McDowell, Land-Grant Universities and Extension into the 21st 
Century: Renegotiating or Abandoning a Social Contract. Ames: Iowa 
State University Press, 2001.
    8. H. Etzkowitz, ``The Evolution of the Entrepreneurial 
University,'' International Journal of Technology and Globalisation 1, 
no. 1 (2004): 64-77.
    9. M. Almeida, ``Innovation and Entrepreneurship in Brazilian 
Universities,'' International Journal of Technology Management and 
Sustainable Development 7, no. 1 (2008): 39-58.
    10. W.J. Mitsch et al., ``Tropical Wetlands for Climate Change 
Research, Water Quality Management and Conservation Education on a 
University Campus in Costa Rica,'' Ecological Engineering 34, no. 4 
(2008): 276-88.
    11. The details on EARTH University are derived from C. Juma, 
``Agricultural Innovation and Economic Growth in Africa: Renewing 
International Cooperation,'' International Journal of Technology and 
Globalisation 4, no. 3 (2008): 256-75.
    12. M. Miller, M.J. Mariola, and D.O. Hansen, ``EARTH to Farmers: 
Extension and the Adoption of Environmental Technologies in Humid 
Tropics of Costa Rica,'' Ecological Engineering 34, no. 4 (2008): 349-
57.
    13. National Research Council, Transforming Agricultural Education 
for a Changing World. Washington, DC: National Academies Press, 2009.
    14. A. deGrassi, ``Envisioning Futures of African Agriculture: 
Representation, Power, and Socially Constituted Time,'' Progress in 
Development Studies 7, no. 2 (2007): 79-98.
    15. D.E. Leigh and A.M. Gill, ``How Well Do Community Colleges 
Respond to the Occupational Training Needs of Local Communities? 
Evidence from California,'' New Directions for Community Colleges 2009, 
no. 146 (2009): 95-102.
    16. M. Carnoy and T. Luschei, ``Skill Acquisition in `High Tech' 
Export Agriculture: A Case Study of Lifelong Earning in Peru's 
Asparagus Industry,'' Journal of Education and Work 21, no. 1 (2008): 
1-23.
Chapter 6
    1. M. Pragnell, ``Agriculture, Business and Development,'' 
International Journal of Technology and Globalisation 2, nos. 3-4 
(2006): 289-99.
    2. J. Lerner, Boulevard of Broken Dreams: Why Public Efforts to 
Boost Entrepreneurship and Venture Capital Have Failed--and What to Do 
About It. Princeton, NJ: Princeton University Press, 2009.
    3. A. Zacharakis, D.A. Shepherd, and J.A. Coombs, ``The Development 
of Venture-Capital-Backed Internet Companies: An Ecosystem 
Perspective,'' Journal of Business Venturing 18, no. 2 (2003): 217-31.
    4. G. Avnimelech, A. Rosiello, and M. Teubal, ``Evolutionary 
Interpretation of Venture Capital Policy in Israel, Germany, UK and 
Scotland,'' Science and Public Policy 37, no. 2 (2010): 101-12.
    5. Y. Huang, Capitalism with Chinese Characteristics: 
Entrepreneurship and the State. New York: Cambridge University Press, 
2008.
    6. Y. Huang, Capitalism with Chinese Characteristics: 
Entrepreneurship and the State. New York: Cambridge University Press, 
2008.
    7. Z. Zhang, ``Rural Industrialization in China: From Backyard 
Furnaces to Township and Village Enterprises,'' East Asia 17 no. 3 
(1999): 61-87.
    8. S. Rozelle, J. Huang, and L. Zhang, ``Emerging Markets, Evolving 
Institutions, and the New Opportunities for Growth in China's Rural 
Economy,'' China Economic Review 13, no. 4 (2002): 345-53.
    9. H. Chen and S. Rozelle, ``Leaders, Managers, and the 
Organization of Township and Village Enterprises in China,'' Journal of 
Development Economics 60, no. 2 (1999): 529-57.
    10. N. Minot et al., ``Seed Development Programs in Sub-Saharan 
Africa: A Review of Experiences'' (paper prepared for the Rockefeller 
Foundation, Nairobi, 2007).
    11. A.S. Langyituo et al., ``Challenges of the Maize Seed Industry 
in Eastern and Southern Africa: A Compelling Case for Private-Public 
Intervention to Promote Growth,'' Food Policy 35, no. 4 (2010): 323-31.
    12. C.E. Pray and L. Nagarajan, Pearl Millet and Sorghum 
Improvement in India. Washington, DC: International Food Policy 
Research Institute, 2009.
    13. M. Blackie, ``Output to Purpose Review: Seeds of Development 
Programme (SODP)'' (paper commissioned by the UK Department for 
International Development, London, August 7, 2008).
    14. J. Wilkinson, ``The Food Processing Industry, Globalization and 
Development Economics,'' Journal of Agricultural and Development 
Economics 1, no. 2 (2004): 184-201.
    15. A. Dannson et al., Strengthening Farm-Agribusiness Linkages in 
Africa: Summary Results of Five Country Studies in Ghana, Nigeria, 
Kenya, Uganda and South Africa. Rome: Food and Agriculture Organization 
of the United Nations, 2004.
    16. A. Dannson et al., Strengthening Farm-Agribusiness Linkages in 
Africa: Summary Results of Five Country Studies in Ghana, Nigeria, 
Kenya, Uganda and South Africa. Rome: Food and Agriculture Organization 
of the United Nations, 2004.
    17. A. Dannson et al., Strengthening Farm-Agribusiness Linkages in 
Africa: Summary Results of Five Country Studies in Ghana, Nigeria, 
Kenya, Uganda and South Africa. Rome: Food and Agriculture Organization 
of the United Nations, 2004.
    18. E. Zossou et al., ``The Power of Video to Trigger Innovation: 
Rice Processing in Central Benin,'' International Journal of 
Agricultural Sustainability 7, no. 2 (2009): 119-29.
    19. P. Van Mele, J. Wanvoeke, and E. Zossou, ``Enhancing Rural 
Learning, Linkages, and Institutions: The Rice Videos in Africa,'' 
Development in Practice 20, no. 3 (2010): 414-421.
    20. J. Kerlin, ``A Comparative Analysis of the Global Emergence of 
Social Enterprise,'' Voluntas: International Journal of Voluntary and 
Nonprofit Organizations 21, no. 2 (2010): 162-79.
    21. The rest of this section is based on S. Hanson, personal 
communication, Bungoma, Kenya, One Acre Fund.
    22. A. Gupta, personal communication, Society for Research and 
Initiatives for Sustainable Technologies and Institutions, Ahmedabad, 
India, 2010.
Chapter 7
    1. M. Farrell, ``EU Policy Towards Other Regions: Policy Learning 
in the External Promotion of Regional Integration,'' Journal of 
European Public Policy 16, no. 8 (2009): 1165-84.
    2. C. Juma and I. Serageldin, Freedom to Innovate: Biotechnology in 
Africa's Development. Addis Ababa: African Union and New Partnership 
for Africa's Development, 2007, 20.
    3. C. Juma, C. Gitta, and A. DiSenso, ``Forging New Technological 
Alliances: The Role of South-South Cooperation,'' Cooperation South 
Journal (2005): 59-71.
    4. Commission for Africa, Our Common Interest: Report of the 
Commission for Africa. London: Commission for Africa, 2005.
    5. Y.H. Kim, ``The Optimal Path of Regional Economic Integration 
between Asymmetric Countries in the North East Asia,'' Journal of 
Policy Modeling 27, no. 6 (2005): 673-87.
    6. C. Wagner, The New Invisible College: Science for Development. 
Washington, DC: Brookings Institution, 2008.
    7. T. Paster, The HACCP Food Safety Training Manual. Hoboken, NJ: 
John Wiley & Sons, 2007.
    8. G. Jones and S. Corbridge, ``The Continuing Debate about Urban 
Bias: The Thesis, Its Critics, Its Influence and Its Implications for 
Poverty-Reduction Strategies,'' Progress in Development Studies 10, no. 
1 (2010): 1-18.
    9. L.M. Povoa and M.S. Rapini, ``Technology Transfer from 
Universities and Public Research Institutes to Firms in Brazil: What Is 
Transferred and How the Transfer Is Carried Out,'' Science and Public 
Policy 37, no. 2 (2010): 147-59.
    10. S. Pitroda, personal communication, New Delhi: National 
Innovation Council (2010).
    11. C. Juma and Y.-C. Lee, Innovation: Applying Knowledge in 
Development. London: Earthscan, 2005, 140-58.
    12. A. Sindzingre, ``Financing the Developmental State: Tax and 
Revenue Issues,'' Development Policy Review 25, no. 5 (2007): 615-32.
    13. N. Bloom, R. Griffith, and J. Van Reenen, ``Do R&D Tax Credits 
Work? Evidence from a Panel of Countries 1979-1997,'' Journal of Public 
Economics 85, no. 1 (2002): 1-31.
    14. B. Aschhoff and W. Sofka, ``Innovation on Demand--Can Public 
Procurement Drive Market Success of Innovation?'' Research Policy 38, 
no. 8 (2009): 1235-47.
    15. McKinsey & Company, ``And the Winner Is . . . '': Capturing the 
Promise of Philanthropic Prizes. McKinsey & Company, 2009. http://
www.mckinsey.com/App_Media/Reports/SSO/And_the_winner_is.pdf.
    16. W.A. Masters and B. Delbecq, Accelerating Innovation with Prize 
Rewards. Washington, DC: International Food Policy Research Institute, 
2008.
    17. T. Cason, W. Masters, and R. Sheremeta, ``Entry into Winner-
Take-All and Proportional-Prize Contests: An Experimental Study,'' 
Journal of Public Economics 94, nos. 9-10 (2010): 604-11.
    18. Philip G. Pardey and P. Pingali, ``Reassessing International 
Agricultural Research for Food and Agriculture'' (report prepared for 
the Global Conference on Agricultural Research for Development [GCARD], 
Montpellier, France, March 28-31, 2010); J.M. Alston, M.A. Andersen, 
J.S. James, and P.G. Pardey, Persistence Pays: U.S. Agricultural 
Productivity Growth and the Benefits from Public R&D Spending. New 
York: Springer, 2010.
    19. R.E. Just, J.M. Alston, and D. Zilberman, eds., Regulating 
AgriculturalBiotechnology: Economics and Policy. New York: Springer-
Verlag, 2006.
    20. W.B. Arthur, The Nature of Technology: What It Is and How It 
Evolves. New York: Free Press, 2009.
    21. D. Archibugi and C. Pietrobelli, ``The Globalisation of 
Technology and Its Implications for Developing Countries,'' 
Technological Forecasting and Social Change 70, no. 9 (2003): 861-83.
    22. Y. Chen and T. Puttitanum, ``Intellectual Property Rights and 
Innovation in Developing Countries,'' Journal of Development Economics 
78, no. 2 (2005): 474-93.
    23. C.E. Pray and N. Anwar, ``Supplying Crop Biotechnology to the 
Poor: Opportunities and Constraints,'' Journal of Development Studies 
43, no. 1 (2007): 192-217.
    24. S. Redding and P. Schott, ``Distance, Skill Deepening and 
Development: Will Peripheral Countries Ever Get Rich?'' Journal of 
Development Economics 72, no. 2 (2003): 515-541.
    25. C. Ozden and M. Schiff, eds., International Migration, 
Remittances and the Brain Drain. Washington, DC: World Bank, 2005.
    26. S. Carr, I. Kerr, and K. Thorn, ``From Global Careers to Talent 
Flow: Reinterpreting `Brain Drain,' '' Journal of World Business 40, 
no. 4 (2005): 386-98.
    27. O. Stark, ``Rethinking the Brain Drain,'' World Development 32, 
no. 1 (2004): 15-22.
    28. A. Saxenian, ``The Silicon Valley-Hsinchu Connection: Technical 
Communities and Industrial Upgrading,'' Industrial and Corporate Change 
10, no. 4 (2001): 893-920.
    29. National Knowledge Commission, Report to the Nation, 2006-2009. 
New Delhi: National Knowledge Commission, Government of India.
    30. M. MacGregor, Y.F. Adam, and S.A. Shire, ``Diaspora and 
Development: Lessons from Somaliland,'' International Journal of 
Technology and Globalisation 4, no. 3 (2008): 238-55.
    31. A. Leather et al., ``Working Together to Rebuild Health Care in 
Post-Conflict Somaliland,'' Lancet 368, no. 9541 (2006): 1119-25.
    32. M. Anas and S. Wickremasinghe, ``Brain Drain of the Scientific 
Community of Developing Countries: The Case of Sri Lanka,'' Science and 
Public Policy 37, no. 5 (2010): 381.
    33. N. Fedoroff, ``Science Diplomacy in the 21st Century,'' Cell 
136, no. 1 (2009): 9-11.
    34. E. Chalecki, ``Knowledge in Sheep's Clothing: How Science 
Informs American Diplomacy,'' Diplomacy and Statecraft 19, no. 1 
(2008): 1-19.
    35. A.H. Zewail, ``Science in Diplomacy,'' Cell 141, no. 2 (2010): 
204-7.
    36. T. Shaw, A. Cooper, and G. Chin, ``Emerging Powers and Africa: 
Implications for/from Global Governance,'' Politikon 36, no.1 (2009): 
27-44.
    37. A. de Freitas Barbosa, T. Narciso, and M. Biancalana, ``Brazil 
in Africa: Emerging Power in the Continent?'' Politikon 36, no.1 
(2009): 59-86.
    38. F. El-Baz, ``Science Attaches in Embassies,'' Science 329, no. 
5987 (July 2, 2010): 13.
    39. B. Seguin, et al., ``Scientific Diasporas as an Option for 
Brain Drain: Re-circulating Knowledge for Development,'' International 
Journal of Biotechnology 8, nos. 1-2 (2006): 78-90.
    40. R.L. Tung, ``Brain Circulation, Diaspora, and International 
Competitiveness,'' European Management Journal 26, no. 5 (2008): 298-
304.
    41. House of Commons Science and Technology Committee, The Use of 
Science in UK International Development Policy, Vol. 1. London: 
Stationery Office Limited, 2004.
    42. T. Yakushiji, ``The Potential of Science and Technology 
Diplomacy,'' Asia-Pacific Review 16, no.1 (2009): 1-7.
    43. National Research Council, The Fundamental Role of Science and 
Technology in International Development: An Imperative for the US 
Agency for International Development. Washington, DC: National 
Academies Press, 2006.
    44. D.D. Stine, Science, Technology, and American Diplomacy: 
Background and Issues for Congress. Washington, DC: Congressional 
Research Service, Congress of the United States.
    45. K. King, ``China's Cooperation in Education and Training with 
Kenya: A Different Model?'' International Journal of Educational 
Development 30, no. 5 (2010): 488-96.
    46. R.A. Austen and D. Headrick. ``The Role of Technology in the 
African Past,'' African Studies Review 26, nos. 3-4 (1983): 163-84.
    47. S.E. Cozzens, ``Distributive Justice in Science and Technology 
Policy,'' Science and Public Policy 34, no. 2 (2007): 85-94.
    48. J. Mugwagwa, ``Collaboration in Biotechnology Governance: Why 
Should African Countries Worry about Those among Them that Are 
Technologically Weak?'' International Journal of Technology Management 
and Sustainable Development 8, no. 3 (2009): 265-79.
Chapter 8
    1. P.K. Thornton et al., ``Special Variation of Crop Yield Response 
to Climate Change in East Africa,'' Global Environmental Change 19, no. 
1 (2009): 54-65.
    2. World Bank, World Development Report 2010: Development and 
Climate Change. Washington, DC: World Bank, 2010, 5.
    3. E. Bryan et al., ``Adaptation to Climate Change in Ethiopia and 
South Africa: Options and Constraints,'' Environmental Science and 
Policy 12, no. 4 (2009): 413-26.
    4. P. Laux et al., ``Impact of Climate Change on Agricultural 
Productivity under Rainfed Conditions in Cameroon--a Method to Improve 
Attainable Crop Yields by Planting Date Adaptation,'' Agricultural and 
Forest Meteorology 150, no. 9 (2010): 1258-71.
    5. W.N. Adger et al., ``Assessment of Adaptation Practices, 
Options, Constraints and Capacity.'' In Climate Change 2007: Impacts, 
Adaptation and Vulnerability. Contribution of Working Group II to the 
Fourth Assessment Report of the Intergovernmental Panel on Climate 
Change, ed. M.L. Parry. Cambridge: Cambridge University Press, 2007, 
869.
    6. W.N. Adger et al., ``Assessment of Adaptation Practices, 
Options, Constraints and Capacity.'' In Climate Change 2007: Impacts, 
Adaptation and Vulnerability. Contribution of Working Group II to the 
Fourth Assessment Report of the Intergovernmental Panel on Climate 
Change, ed. M.L. Parry. Cambridge: Cambridge University Press, 2007, 
869.
    7. M. Burke, D. Lobell, and L. Guarino, ``Shifts in African Crop 
Climates by 2050, and the Implications for Crop Improvement and Genetic 
Resources Conservation,'' Global Environmental Change 19, no. 3 (2009): 
317-25.
    8. M. Burke, D. Lobell, and L. Guarino, ``Shifts in African Crop 
Climates by 2050, and the Implications for Crop Improvement and Genetic 
Resources Conservation,'' Global Environmental Change 19, no. 3 (2009): 
317-25.
    9. P.G. Jones and P K. Thornton, ``Croppers to Livestock Keepers: 
Livelihood Transitions to 2050 in Africa due to Climate Change,'' 
Environmental Science and Policy 12, no. 4 (2009): 427-37.
    10. S.N. Seo and R. Mendelsohn, ``An Analysis of Crop Choice: 
Adapting to Climate Change in South American Farms,'' Ecological 
Economics 67, no. 1 (2008): 109-16.
    11. N. Heller and E. Zavaleta, ``Biodiversity Management in the 
Face of Climate Change: A Review of 22 Years of Recommendations,'' 
Biological Conservation 142, no. 1 (2009): 14-32.
    12. M. Snoussi et al., ``Impacts of Sea-level Rise on the Moroccan 
Coastal Zone: Quantifying Coastal Erosion and Flooding in the Tangier 
Bay,'' Geomorphology 107, nos. 1-2 (2009): 32-40.
    13. M. Koetse and P. Rietveld, ``The Impact of Climate Change and 
Weather on Transport: An Overview of Empirical Findings,'' 
Transportation Research Part D: Transport and Environment 14, no. 3 
(2009): 205-21.
    14. National Academy of Engineering, Grand Challenges for 
Engineering. Washington, DC: National Academies Press, 2008.
    15. M. Keim, ``Building Human Resilience: The Role of Public Health 
Preparedness and Response as an Adaptation to Climate Change,'' 
American Journal of Preventive Medicine 35, no. 5 (2008): 508-16.
    16. K. Ebi and I. Burton, ``Identifying Practical Adaptation 
Options: An Approach to Address Climate Change-related Health Risks,'' 
Environmental Science and Policy 11, no. 4 (2008): 359-69.
    17. Y. Pappas and C. Seale, ``The Opening Phase of Telemedicine 
Consultations: An Analysis of Interaction,'' Social Science and 
Medicine 68, no. 7 (2009): 1229-37.
    18. T. Richmond, ``The Current Status and Future Potential of 
Personalized Diagnostics: Streamlining a Customized Process,'' 
Biotechnology Annual Review 14 (2008): 411-22.
    19. T. Deressa et al., ``Determinants of Farmers' Choice of 
Adaptation Methods to Climate Change in the Nile Basin of Ethiopia,'' 
Global Environmental Change 19, no. 2 (2009): 248-55.
    20. J. Youtie, and P. Shapira, ``Building an Innovation Hub: A Case 
Study of the Transformation of University Roles in Regional 
Technological and Economic Development,'' Research Policy 37, no. 8 
(2008): 1188-1204.
    21. W. Hong. ``Decline of the Center: The Decentralizing Process of 
Knowledge Transfer of Chinese Universities from 1985 to 2004,'' 
Research Policy 37, no. 4 (2008): 580-95.
    22. S. Coulthard, ``Adapting to Environmental Change in Artisanal 
Fisheries--Insights from a South Indian Lagoon,'' Global Environmental 
Change 18, no. 3 (2008): 479-89.
    23. H. Osbahr et al., ``Effective Livelihood Adaptation to Climate 
Change Disturbance: Scale Dimensions of Practice in Mozambique,'' 
Geoforum 39, no. 6 (2008): 1951-64.
    24. J. Comenetz and C. Caviedes, ``Climate Variability, Political 
Crises, and Historical Population Displacements in Ethiopia,'' Global 
Environmental Change Part B: Environmental Hazards 4, no. 4 (2002): 
113-27.
    25. C.S. Hendrix and S.M. Glaser, ``Trends and Triggers: Climate, 
Climate Change and Civil Conflict in Sub-Saharan Africa,'' Political 
Geography 26, no. 6 (2007): 695-715.
    26. M. Pelling and C. High, ``Understanding Adaptation: What Can 
Social Capital Offer Assessments of Adaptive Capacity?'' Global 
Environmental Change Part A 15, no. 4 (2005): 308-19.
    27. H. de Coninck et al., ``International Technology-oriented 
Agreements to Address Climate Change,'' Energy Policy 36, no. 1 (2008): 
335-56.
    28. S.N. Seo. ``Is an Integrated Farm More Resilient against 
Climate Change? A Micro-econometric Analysis of Portfolio 
Diversification in African Agriculture,'' Food Policy 35, no. 1 (2010): 
32-40.
    29. N. von Tunzelmann, ``Historical Coevolution of Governance and 
Technology in the Industrial Revolutions,'' Structural Change and 
Economic Dynamics 14, no. 4 (2003): 365-84.
    30. M. Mintrom and P. Norman, ``Policy Entrepreneurship and Policy 
Change,'' Policy Studies Journal 37, no. 4 (2009): 649-67.
    31. Science and Technology Committee, House of Commons, Scientific 
Advice, Risk and Evidence Based Policy Making. London: Stationery 
Office, 2006.
    32. J. Schwerin and C. Werker, ``Learning Innovation Policy based 
on Historical Experience,'' Structural Change and Economic Dynamics 14, 
no. 4 (2003): 385-404.
    33. B. Oyelaran-Oyeyinka and L.A. Barclay, ``Human Capital and 
Systems of Innovation in African Development,'' African Development 
Review 16, no. 1 (2004): 115-38.

                                 Index *
------------------------------------------------------------------------------------------------------------------------------------------------
Abeokuta, University of Agriculture  COMESA Summit and, 227, 229, 231
 (UNAAB), 54-56
ACTESA (Alliance for Commodity         genomes and, 36, 44
 Trade in Eastern and Southern         GM crops and, 36-43, 60, 172, 198
 Africa), 94-95, 198
African Academy of Sciences (AAS),     innovation and, 54, 79, 170-72,
 181-82                                 188, 190, 192, 198, 202
African Economic Community (AEC),
 xv, 219-20
African Medicines Regulatory         Black Sigatoka fungus, 36
 Harmonization (AMRH), 197, 200-201  Blue Skies Agro-processing Company,
                                      Ltd., 159-60
African Rural University, 118        Boston, Mass., 192
African Union (AU), xiii, 165, 219-  Brazil, 15, 57
 20
  COMESA Summit and, 229, 231          entrepreneurship and, 131, 159
  on continental integration, xv,      innovation and, 81-82, 191, 193
   xxiii
  economic-agricultural linkages     Brazilian Agricultural Research
   and, 18, 20                        Corporation (EMBRAPA), 81-82, 191
    Eighth Summit of, xviii-xix
  innovation and, xix, 166, 169-70,  BRS (Banque Regionale de
   200, 202                           Solidarite), 67-68
  technology and, xvii, xix, 211,    BSS-Societe Industrielle pour la
   229, 231                           Production du Riz
Africa Rice Center, 161                (BSS-SIPRi), 67-68
agribusiness, 11, 72                 Burkina Faso, 37, 172, 221
  education and, 132, 135            bush meat, 171
  future and, 204, 215               businesses, business, xv-xvi
  infrastructure and, 87, 112          clusters and, 62, 70-74
agricultural extensions, 212           education and, xviii, 54-59, 115,
  education and, 117-19, 127-30         118-20, 123, 131-32, 134-35, 137-
                                        40
  entrepreneurship and, 150, 159-      future and, 206, 212, 214, 216
   60, 162
agricultural knowledge information     infrastructure and, xv, 91, 93,
 system (AKIS), 52-53                   97, 105-7, 109, 111
agriculture                            innovation and, xxi, 50-52, 54-
                                        59, 77-80, 82, 170, 174, 176,
                                        178, 180, 185-86, 195-96, 206,
                                        212
  in future, xviii, 204-17             technology and, 25, 30, 32, 48-49
  state of, 11-15                      See also entrepreneurship
  trends in renewal of, 15-17        CAADP (Comprehensive Africa
                                      Agriculture Develop-
airports, 87-89, 109                   ment Programme), 18, 94-95, 173-
                                        74, 203
Alatona Irrigation Project, 91-92    Cartagena Protocol on Biosafety, 39
Alliance for Commodity Trade in      cashews, 157-59
 Eastern and Southern Africa         Cassava Flash Dryer Project, 56-59
 (ACTESA), 94-95, 198
Alstom, 104-8                        CEN-SAD (Community of Sahel-Saharan
                                      States), 220-
AMRH (African Medicines Regulatory     21
 Harmonization), 197, 200-201        Central Bank of Nigeria (CBN), 61
AppLab, 31                           Centro de Transferencia de
Arab Maghreb Union (AMU), 219-20      Tecnologia a Universitarios, El,
                                      140
Asia, 67                             Charlottesville, Va., 110
  economic-agricultural linkages     China, 3
   and, 8-9, 12, 14
  future and, 204-5                    economic-agricultural linkages
                                        in, 9-11
  Green Revolution in, xx, 8, 23       entrepreneurship in, 144-47
  infrastructure and, 94, 105, 107-    infrastructure of, 87, 89-90,
   8                                    110, 112
asparagus, 139                         innovation and, 77-81, 175, 182,
                                        191, 193
AU. See African Union                  Shouguang vegetable cluster in,
                                        64-66
bananas                                technology and, 28, 38, 45-46,
                                        191, 193
  education and, 135-36              CIMMYT (International Centre for
  innovation and, 171, 173            the Improvement of Maize and
                                      Wheat), 37-38, 47
  technology and, 35-36              climate change, xiii-xiv, xx, 1, 12
banks, 61                              entrepreneurship and, 210-11
  clusters and, 67-68, 74              future and, 204-11
  infrastructure and, 93, 102, 111     infrastructure and, xxii, 84, 93,
                                        110, 208, 211
  technology and, 31, 33, 143          innovation and, 74, 191, 205-7,
                                        209-11
Banque Regionale de Solidarite         technology and, 205-6, 208-10
 (BRS), 67-68
barley, 172                          clusters, xviii, xxi, 62-74, 82-83
beans, 129                             education and, 62, 66, 68-70, 73-
                                        74, 137-38
  entrepreneurship and, 156, 164       policy implications for
                                        development of, 72-74
  infrastructure and, 87-88            in small economies, 69-72
Benin, 18                            cocoa, 10, 16
  entrepreneurship and, 160-61         innovation system for, 59-62
  rice cluster in, 66-69             Cocoa Research Institute of Nigeria
                                      (CRIN), 59-60
Bhoomi Project, 33                   coffee, 10, 17, 86, 137, 184-85
bioinformatics, 44, 172-73           committees on science, innovation,
biosafety, 39, 41-42, 198             technology, and engineering, 179-
                                      81, 226
biosciences, 170-73                  Common Market for Eastern and
Biosciences Eastern and Central       Southern Africa (COMESA), xv-xvi,
 Africa Network                       xxiii
  (BecANet), 171-73                    economic-agricultural linkages
                                        and, 14, 18, 20
biotechnology, xvii, 24, 33, 35-44,    infrastructure and, 20, 93-96,
 148                                    227, 230
* Editor's note: The page numbers
 printed here are for informational
 purposes only. They correspond to
 the page numbers for the book, The
 New Harvest, and not for the page
 numbers of this hearing.
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
Common Market (continued)              education and, xix, 4-7, 10, 12-
innovation and, 166-67, 173-75,         13, 21, 121, 123, 125-28, 132,
 177, 194-96, 198-                      136, 141, 209, 214, 216
    99, 202-3, 225-26, 228-29, 231     entrepreneurship and, 142, 145-
                                        48, 162, 210, 212
  mission of, 220                      future and, 204-6, 209-17
  2010 Summit of, 225-32               human capacity and, 12-13, 116-17
communication, 68, 73                  infrastructure and, 8, 10, 12,
  COMESA Summit and, 227-28             15, 18-21, 85-87, 89, 91-92, 94,
                                        98, 104-9, 215
  education and, 115, 121, 212         innovation and, xvii-xviii, xxi,
  entrepreneurship and, xxiii, 142,     50-51, 53, 55, 59-60, 75-77, 79,
   144, 160-61                          82, 166-70, 173, 176-77, 179,
  future and, 207-9, 212-13             184-85, 188-90, 195-96, 199,
                                        202, 206, 210, 212, 216
  infrastructure and, 95, 186          integration and, xviii, 19-20,
  innovation and, 180, 186-87, 195      26, 49, 79, 85, 166, 169, 199
  and missions and objectives of       linkages between agriculture and,
  RECs, 220, 222-24                     xiv-xv, xvii-xviii, xx, 1-22,
                                        51, 86
  technology and, xvi, xxi, xxiii,     and missions and objectives of
   23-24, 29-34, 48, 63, 142, 170,      RECs, xviii, 219-24
   186, 195, 207-9, 225, 227           technology and, xiv, xviii-xix,
                                        2, 9, 12-16, 18-19, 22,
  See also telecommunications          25-26, 30, 33, 35-37, 40, 43, 47,
                                        49, 69, 184, 188,
Community of Sahel-Saharan States       202, 206, 210, 212, 215, 227
 (CEN-SAD), 220-21                     See also Regional Economic
competition, 12, 221                    Communities; socioeconomic
                                        issues
  clusters and, 72-74                ECOWAS. See Economic Community of
  entrepreneurship and, 145, 148,     West African States
   153, 155
  infrastructure and, 85, 97-99,       education, 113-41, 222
   103-4, 106-7, 109-10
  innovation and, 80, 171, 174-75,     business and, xviii, 54-59, 115,
   195                                  118-20, 123, 131-32,
Comprehensive Africa Agriculture        134-35, 137-40
 Development Programme (CAADP), 18,    clusters and, 62, 66, 68-70, 73-
 94-95, 173-74, 203                     74, 137-38
Congo, Democratic Republic of the,     COMESA Summit and, 226-27, 231
 96, 173
conservation, 17, 95, 179              community relevance of, 114-15,
  future and, 206-7, 211                119-28, 130-31, 133-34, 138, 141
Consolidated Plan for African          early, 117, 119, 122-25
 Science and Technology, 169           economic-agricultural linkages
corn, 42-43                             and, 4-7, 10, 12-13, 21
Costa Rica, 123, 132-33                entrepreneurship and, 131-36,
Cote d'Ivoire, 18, 21, 222              138, 140, 143-45, 147, 150, 152-
                                        54, 156, 158-65, 213-14
infrastructure and, 88, 98             future and, 206, 209, 211-14, 216
cotton, 28, 86                         infrastructure and, 85-86, 88-89,
  technology and, 36-38, 42-43          102-6, 108-9, 113, 120, 123,
                                        138, 141, 186
CRIN (Cocoa Research Institute of      innovation and, xxi, 50-59, 61-
 Nigeria), 59-60                        62, 77, 81, 115-16, 118, 120-22,
crop quality, 36                        125, 129-33, 136, 138, 172-73,
  entrepreneurship and, 156-57, 159     178-80, 182-87, 189-93, 196,
                                        206, 209, 212
  infrastructure and, 102-3, 109       international issues and, 120,
                                        132-36
  innovation and, 55-56, 67, 72-73,    land-grant model in, 130-32, 136
   168, 203
culture, 118, 185, 205, 232            practical experience and, 115,
  clusters and, 63, 68, 73              121-22, 124-30, 133-34, 140
  economic-agricultural linkages       reforms in, xxi-xxii, 50, 132,
   and, 10, 21                          136-38, 212
  of innovation, 175-83                research and, xix, xxii, 77-81,
                                        115, 120-21, 125-26,
  and missions and objectives of        129-30, 136-38, 140-41
   RECs, 221-22
date palms, 172                        secondary, 119, 136, 139-40
Department for International           semi-formal, 124-25
 Development (DFID), 3, 154, 192-93    technology and, xix-xx, xxiii, 24-
                                        25, 34, 44, 49, 52,
Development of Humane Action (DAHN)     58, 116, 118-21, 125, 128-30,
 Foundation, 76                          136, 140-41, 156,
                                        186-87, 209, 213, 226-27, 231
  diabetes, 172                        in universities, xix, 113, 117-
                                        18, 120-23, 130-39,
Dias Analytic Corporation, 46           144, 150, 152, 163, 178-79, 183,
EARTH University, 132-36                 186-87, 189-90,
                                        192, 209, 212, 226
East African Common Market, xiv-xv     women and, xxii, 116-20, 125-26,
                                        141
East African Community (EAC), xv-      See also human capacity, human
 xvi, xxiii, 95                         resources
  COMESA Summit and, 229, 231        Egypt, 3, 14, 159
  economic-agricultural linkages       infrastructure of, 91-92, 98-99,
   and, 21-22                           110
  innovation and, 166, 169, 194-96,    technology and, 27, 37, 41, 180-
   201                                  81, 187
  mission and functions of, xv, 221- 863 Program, 79
   22
e-Choupals, 101-3                    EMBRAPA (Brazilian Agricultural
                                      Research Corpora-
Economic Community of Central          tion), 81-82, 191
 African States (ECCAS), 222         employment, 114
Economic Community of West African     clusters and, 67, 70-71, 73-74
 States (ECOWAS), xv-xvii              and innovation, 201-3
  and economic-agricultural            economic-agricultural linkages
   linkages, 20-21                      and, 2, 5, 7, 10-11, 14-15, 21
  and infrastructure, 97-98, 111
  mission and functions of, xv, 222-   education and, xxii, 131-32, 134-
   23                                   35, 139-41
economics, economy, xvii-xxi, 114-     entrepreneurship and, 144, 147,
 17                                     155, 159
  clusters and, 64, 67-72, 74          infrastructure and, 85-86, 106
  crises in, xx, 1, 7-8, 15-17, 86,    technology and, 30-31, 43
   107, 117, 148, 211
  diversification of, 10, 19, 48,    energy, 25
   57, 89, 210, 214
  innovation and, 55, 80, 188, 190     crises in, 7, 16-17
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
energy (continued)                   foundation laws, 185
  future and, 205, 208, 213          France, 68, 104, 107
  infrastructure and, 85-86, 90,     Freedom to Innovate, xvii
   93, 96-100, 103, 109, 111, 113    free trade areas (FTAs), xv, 194-96
  innovation and, 79, 170, 195       Frio Aero's, 140
  and missions and objectives of     Fundacion Chile, 48
   RECs, 220, 223
  renewable, xvi, 96, 111, 205       gender, gender differences, 220
  technology and, xvi, 26, 45-46,      economic-agricultural linkages
   227                                  and, 5, 7, 86
engineering. See technology            in human capacity, 116-18, 121,
                                        127
entrepreneurship, xiv, xviii, 142-     See also women
 65
  clusters and, 66, 68-69            genetically modified (GM) crops, 36-
                                      43, 60, 172, 198
  development support for, 143-48,     See also biotechnology
   150-55
  economic-agricultural linkages     genomes, 36, 44
   and, 13, 22
  education and, 131-36, 138, 140,   geography, xxi, 23-24, 33, 82, 128,
   143-45, 147, 150, 152-54, 156,     143, 227
   158-65, 213-14                      clusters and, 63, 69-71
  in food processing, 155-62         Ghana
  future and, 210-14                   economic-agricultural linkages
                                        in, 16-18
  innovation and, xxii-xxiii, 22,      education in, 116, 120-22, 187
   143-44, 151-52, 160-62, 192,        entrepreneurship and, 157-61
   210, 213
  seeds and, 147-55, 162, 164-65       infrastructure of, 87-88, 98, 100
  SMEs and, 134-35, 142-43             innovation and, 171, 180-81, 187,
                                        191
  social, 162-64                     globalism. See international issues
environment, xx, 210                 Godilogo Farm, Ltd., 56-58
  clusters and, 72-74                Golden Harvest Company, Ltd., 158-
                                      59
  economic-agricultural linkages     Google, 31
   and, 6, 8, 14, 16
  education and, 133, 135            governments, government, xvi
  infrastructure and, 85, 93           clusters and, 62-70, 72-74, 82
  innovation and, 179, 191, 198,       COMESA Summit and, 226, 228, 230-
   202                                  32
  and missions and objectives of       economic-agricultural linkages
   RECs, 220-21, 223-24                 and, 2-4, 9-10, 13, 18, 20, 22
  technology and, xxii, 26, 38-40,     education and, xviii, 25, 115,
   42-45, 48, 227                       120, 122-24, 127-28, 131, 137,
    See also climate change             139, 141, 186, 216
Ericsson, 103                          entrepreneurship and, xxiii, 143-
Ethiopia, 8-9, 17-18, 161, 180-81       45, 147-49, 153-54, 159, 165,
                                        213-14
Europe, xvi-xvii, 3, 69, 129, 159,     future and, 206, 210, 212-17
 174, 219
  infrastructure and, 94, 106-7        infrastructure and, 86, 90-91,
  technology and, 37-40, 47             96, 99, 109-12, 168, 145, 154
farmers' associations, 115, 126,       innovation and, xxi, 50-52, 57-
 128, 158                               60, 62, 75, 78-81, 83, 168-70,
farm firms, 53                          172, 175-78, 180, 183-87, 189-
FDIs (foreign direct investments),      93, 196, 198-99, 202, 206, 210,
 xvi, 8, 15, 20, 32,                    212-14, 216
  185                                  technology and, xix, 25, 32-33,
                                        39, 48-49, 202, 210,
fertilizers, 67, 102, 129               213-14, 226, 228, 230-32
  economic-agricultural linkages     Grassroots Innovations Augmentation
   and, 3, 8-9, 13-14                 Network, 164
  entrepreneurship and, 145-46,      green beans, 87-88
   149, 155, 157, 162
fish, fisheries, 137                 greenhouse gases, 8
  future and, 207, 210               Green Revolution, xiii, xx-xxi,
                                      150, 155
flash drying, 56-59                    economic-agricultural linkages
                                        and, 5-6, 8
flash drying, 56-59                    technology and, 23, 47
food                                 Hargeisa, University of, 189-90
  as aid, 2, 40-41, 198              Hazard Analysis and Critical
  contamination of, 39-40, 44         Control Point (HACCP), 174
  preparation of, 123, 156           health, health care, 121, 137
  prices of, xviii, xx, 1-7, 16-17,    clusters and, 62, 72-74
   41-43, 101-3, 112, 157-59, 211      COMESA Summit and, 227, 229, 231
  processing and packaging of,         economic-agricultural linkages
   xviii, 7, 54, 56-62, 65, 91,         and, 1, 6-7, 15, 21
   109, 145-46, 155-62, 165            entrepreneurship and, 147, 149,
                                        154-55
  shortages in, xiv, xx, 23, 41        future and, 207-9
  staples and, 12, 57, 148             infrastructure and, 85-88, 90,
                                        209
food security, xiii, xviii, xx, 211    innovation and, 170-72, 179, 185,
                                        190-91, 194-202
  economic-agricultural linkages       technology and, 25, 31-32, 34-36,
   and, 1-6, 9, 11, 20-22               39, 44-47, 209, 227, 229, 231
  education and, 119, 127-28         HIV/AIDS, 12, 87, 170
  entrepreneurship and, 148, 155     Homegrown Company, Ltd., 156-57
  infrastructure and, 87, 91, 94,    Honey Bee Network, 163-64
   102, 109
  innovation and, 57, 65-66, 68,     human capacity, human resources,
   168, 173-74, 199, 202-3            xiv, xix, 85, 114-41, 222
  technology and, 35, 39-40            clusters and, 72-74, 82-83
foreign direct investments (FDIs),     economic-agricultural linkages
 xvi, 8, 15, 20, 32, 145, 154           and, 12-13
                                       future and, 204, 211
forests, 8, 35, 179, 207               gender in, 116-18, 121, 127
Forum for Agricultural Research in     innovation and, 82, 183, 188,
 Africa, 182                            190, 196
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
human capacity, human resources        regulation and, 78-79, 188, 197-
 (continued)                            202
  technology and, 26, 188              research and, xiv, xxi, 50-62, 77-
  See also education                    82, 167, 169-75, 178, 180, 182-
                                        85, 188-89, 198, 203
hunger, xiii, 94, 165, 196             self-organizing, 66-69
  economic-agricultural linkages       technology and, xiv-xv, xvii, xix-
   and, 3, 5-7, 11, 16, 18              xxii, 9, 19, 22-28, 33, 51-54,
                                        56-58, 71, 75, 77-82, 104, 141,
                                        143,
ICRISAT (International Crops             169-72, 174-93, 195-99, 202,
 Research Institute for the Semi-       205-6, 210, 212, 214, 216, 228-
 Arid Tropics), 126-27, 129, 152-53     29, 231
IGAD (Intergovernmental Authority      traditional community structures
 for Development), 95, 223-24           in, 74-76
                                       in university-industrial linkages
                                        (UILs), 54-59
IIIMP (Integration Irrigation          See also clusters
 Improvement and Management          insecticides, 37-38, 42-43
 Project), 92
IITA (International Institute of     integrated management systems, 129-
 Tropical Agriculture), 55-58         30
ILRI (International Livestock        Integration Irrigation Improvement
 Research Institute), 172             and Management Project (IIIMP), 92
incomes, 28-29, 38, 64, 115          Intergovernmental Authority for
  economic-agricultural linkages      Development (IGAD), 95, 223-24
   and, 5-7, 9, 11, 16
  education and, 119, 123-24, 126,   International Centre for the
   129-30, 135-36                     Improvement of Maize and Wheat
  entrepreneurship and, 149, 154-     (CIMMYT), 37-38, 42
   55, 165
  future and, 204-5                  International Crops Research
  infrastructure and, 86, 88, 91-     Institute for the Semi-Arid
   95, 101                            Tropics (ICRISAT), 126-27, 129,
                                      152-53
  innovation and, 78, 80, 82         International Institute of Tropical
                                      Agriculture (IITA),
independent power projects (IPPs),     55-58
 98-100
India                                international issues, 3, 221
  Department of Science and            clusters and, 65-66, 70-71, 73-
   Technology, 164                      74, 83
  entrepreneurship in, 149-54          economic-agricultural linkages
                                        and, 5, 10, 15, 20
  infrastructure of, 91-93, 101-3,     education and, 120, 132-36
   110-12
  innovation and, 6, 75-76, 163-64,    entrepreneurship and, 144, 146,
   180, 182, 189, 191-93                149, 152-55, 159, 165
  technology and, 33, 37, 44, 191-     future and, 204-5, 207-9, 212,
   93                                   214
  Vayalagam system of, 75-76           infrastructure and, 85, 87-88,
                                        91, 97-98, 104, 106-9,
infrastructure, xiv-xvi, xxi-xxii,      111, 167-68, 186, 209
 25-26, 115
  clusters and, 62, 72, 74             innovation and, xiv, 75, 167-69,
  COMESA Summit and, 227, 230           173, 175, 178-79, 182-83, 185-
                                        86, 188-93, 198-200, 202-3
  definition of, 84                    technology and, 40, 44, 47, 53,
                                        188-90, 214
  development and, 84-104            International Livestock Research
                                      Institute (ILRI), 172
  economic-agricultural linkages     Internet, 32-33, 48, 65, 101, 144,
   and, 8, 10, 12, 15, 18-21          212
                                     investments, xviii
  education and, 85-86, 88-89, 102-    clusters and, 69, 72, 74
   6, 108-9, 113, 120, 123, 138,       economic-agricultural linkages
   141, 186                             and, 1-2, 4, 8, 10-12, 16-17, 19-
  enablement of, 84-113                 20
  entrepreneurship and, 148, 160,      education and, 115, 125-28, 130,
   165                                  138-40
  future and, 204, 208-9, 211, 213,    entrepreneurship and, 143, 145,
   215                                  149-51, 153-54,
  innovation and, xxi, 85, 87, 91-      159, 165, 213
   92, 100-101, 104-9, 112-13, 167-    foreign direct (FDI), xvi, 8, 15,
   68, 172, 178-79, 181, 185-86,        20, 32, 145, 154
   195, 203                            future, 205, 207-9, 211, 213
  regional considerations and, 87-     infrastructure and, xiv, 19, 25,
   88, 91, 95-98, 109-12, 168, 203      85-87, 89-91, 93-95, 97-100,
                                        104, 108-13, 168, 178, 181, 208,
                                        213
  technology and, xxii, 26, 31, 33,    innovation and, 54, 61, 78-80,
   84-85, 91, 94-96, 104-8, 112-13,     168, 170, 175-76, 178, 181, 186-
   208, 227, 230                        89, 192, 196, 203
innovation, innovation systems, xiv-   technology and, 25-28, 32-34, 39-
 xxiii, 50-83                           40, 52, 186, 189, 205, 209
  for cocoa, 59-62
  COMESA Summit and, 225-26, 228-    IPPs (independent power projects),
   29, 231                            98-100
  concept of, 50-54                  irrigation, xiii, 25, 67, 76, 129,
                                      149, 213
  definition of, 51                    economic-agricultural linkages
                                        and, 4, 7-8, 12-14
  economic-agricultural linkages       infrastructure and, 86, 90-96,
   and, xvii, 6, 9, 18-19, 22           100, 103, 110-11
                                     ITC, 101-2
  education and, xxi, 50-59, 61-62,  Junior Farmer's Field School, 124
   77, 81, 115-16, 118, 120-22,      Kenya, 8, 18, 221, 226
   125, 129-33, 136, 138, 172-73,      education in, 123, 138, 187
   178-80, 182-87, 189-93, 196,
   206, 209, 212
  entrepreneurship and, xxii-xxiii,    entrepreneurship and, 154, 156-
   22, 143-44, 151-52, 160-62, 192,     57, 159, 162-63
   210, 213                            infrastructure of, 87, 98-100,
                                        104
  fostering culture of, 175-83         innovation and, 167, 171, 173,
                                        180-81, 184-85
  funding for, xxii-xxiii, 183-88      technology in, 30, 36-37
  future and, 204-7, 209-14, 216     knowledge
  governance of, xiv, 166-203          clusters and, 62-63, 69-74, 82-83
  infrastructure and, xxi, 85, 87,     COMESA Summit and, 227, 229, 231
   91-92, 100-101, 104-9, 112-13,      economic-agricultural linkages
   167-68, 172, 178-79, 181, 185-       and, 14, 18-19, 22
   86, 195, 203                        entrepreneurship and, xiv, 142,
                                        144, 160-61, 212
  knowledge and, xxi, 50-53, 59,       future and, 206-9, 211-16
   62, 74-76, 83, 172, 177, 183-84,    human capacity and, 115, 119,
   186, 188-93, 195, 197, 206, 212-     121, 130
   13
  local variations in, 50-51           infrastructure and, 84, 91, 112
  reforms and, 50, 76-82, 179-83,      innovation and, xxi, 50-53, 59,
   185                                  62, 74-76, 83, 172,
  regional issues and, 166-75, 179-      177, 183-84, 186, 188-93, 195,
   83, 194-96, 199-200, 202-3, 211      197, 206, 212-13
                                       technology and, xvii, xxi-xxii,
                                        14, 19, 22-27, 29, 32,
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
knowledge, technology and            National Innovation Foundation
 (continued)                          (NIF), 164
    34, 44, 47-48, 63, 71, 208-9,    natural resources, xvi, 16, 24, 29,
   212, 215, 227, 229, 231            85, 167
                                       clusters and, 72-73
  See also education                   future and, 205-7
Korea, North, 28                       and missions and objectives of
                                        RECs, 220, 222-24
Korea, South, 28-29, 38, 193         NEPAD. See New Partnership for
                                      Africa's Develop-
  infrastructure of, 104-9             ment
La Molina University, 139-41         NERICA (New Rices for Africa), 66-
                                      68
land policy, land records, 17-18,    Nestle Nigeria, 54-56
 33, 91, 104, 148, 205
Latin America, xvii, 14, 94, 133,    networks, networking, 30, 186
 139
  Green Revolution in, xx, 23          clusters and, 63, 65, 69-72
leaders, leadership                    education and, 131-32, 138, 183
  economic-agricultural linkages       entrepreneurship and, 143-45, 157
   and, 1-4, 11, 18, 22
  education and, 119, 123, 128, 132-   innovation and, 54, 59, 173, 178,
   33, 136-38                           180, 183, 189-90
  entrepreneurship and, 22, 147,     New Partnership for Africa's
   163, 213-14                        Development (NEPAD), 18
  future and, 210-14
  innovation and, xix, 61, 75-76,      and COMESA Summit, 229, 231
   167, 176-78, 186, 189-90, 194,      and innovation, 169-70, 172, 200-
   202, 211-12                          202
  technology and, xix, 33, 42, 202,    and technology, xvii, 229, 231
   228
learning. See education              New Rices for Africa (NERICA), 66-
                                      68
Lesotho, 117-18                      Nigeria, 8, 18, 41, 44, 54-62, 126,
                                      205, 222-23
life sciences, 26, 62, 192, 227        cocoa innovation system in, 59-62
livestock, 12, 74, 94, 137             entrepreneurship in, 158, 161
  future and, 204, 207-8               governing innovation in, 180-81,
                                        186-87
  innovation and, 171-72               infrastructure of, 98, 100
  technology and, 35, 38-39, 43, 46-   UILs in, 54-59
   47
Maghreb countries, xvi-xvii, 219-20  North Africa Biosciences Network
                                      (NABNet), 171-72
MaIN OnE, 32                         nutrition, 3, 155, 212
maize, 28, 57                          education and, 119, 123
  economic-agricultural linkages       innovation and, 171-74
   and, 2, 4, 9
  entrepreneurship and, 148, 153,    offices of science, innovation,
   155, 163-64                        technology, and engineering, 182,
  technology and, 36-38, 41           191, 222, 228-29, 231
  economic-agricultural linkages     oilseed, 28-29
   in, 2-4, 22
Malawi, xiii, 18, 154, 176           One Acre Fund, 162-64
Malaysia, 184                        One Laptop per Child (OLPC)
                                      Foundation, 34
  Mali, 18, 221                      Optolab Card, 47
  education in, 126, 129             PADRO (Projet d'Appui au
  infrastructure of, 87-89, 91-92,    Developpement Rural de l'Oueme),
   98                                 67-68
malnutrition, xiii, 6, 35, 121       partnerships, 140, 221
Maputo Declaration, 4, 13              education and, 129, 137-38
markets, marketing, xiv, xix,          entrepreneurship and, 151-52, 155-
 xxiii, 222                             56, 161
  clusters and, 64-65, 70, 73          infrastructure and, 106-8, 112
  economic-agricultural linkages       innovation and, 77-78, 83, 169,
   and, 7-8, 10, 12-14, 18-22           180, 182-83, 189, 191-94, 198
  education and, 120, 123-25, 127,   peanuts, 125-27, 129
   135
  entrepreneurship and, 143-44, 146- Peru, education in, 139-41
   49, 152-53, 155-60, 162, 165      pest control, 13, 67
  infrastructure and, 85-90, 94, 97-   technology and, 35, 38, 42-45
   98, 100-101, 105-7, 109, 112-13,  pharmaceuticals, 44, 197, 200-201
   120, 148, 167-68
  innovation and, 57, 60, 82-83,     Philadelphia, Pa., 192
   166, 169, 174-75, 184-85, 195-    Philippines, 38, 47, 85-86
   96, 199-200, 203, 206
  technology and, 30-31, 43          PICPE (Presidential Initiative on
                                      Cassava Production
mechanization, 13-14, 145-47           and Export), 57-59
migration, 10, 71, 114, 124, 147     pilot farmers, 126-27
  future and, 205, 207               planting pits, 34
  innovation and, 188-90, 192        policy environments, 83, 91, 184
millet, 129, 149-53                  planting pits, 34
mobile phones, 30-31, 33, 37, 82,      clusters and, 68, 70
 100-101, 103-4, 112
Moi University, 138                    economic-agricultural linkages
                                        and, 16-20
Monsanto, 37-38                      pollution, 45, 65-66
Morocco, xvi, 98-99, 180-81, 208,    ports, 74, 87, 109, 168, 208
 219-20
Mozambique, 12, 85, 118, 154, 180-   potatoes, 41, 57, 102
 81
Mswati III, King of the Royal        poverty, xiii, xviii, 121, 210
 Kingdom of Swaziland, 225             clusters and, 64, 71
MTN Business, 33                       economic-agricultural linkages
MTN Uganda, 31                          and, 3, 5-7, 9-10, 12, 15-17, 21-
                                        22
NABNet (North Africa Biosciences       infrastructure and, 86-90, 94
 Network), 171-72
NanoClear, 46                          innovation and, 53-54, 59, 177,
                                        196, 202
nanotechnology, xvii, 24, 33, 45-    Presidential Initiative on Cassava
 47, 188, 208, 229, 231               Production and Export (PICPE), 57-
national agricultural research        59
 system (NARS), 52-53
National Export Promotion Council    Projet d'Appui au Developpement
 (NEPC), 60-61                        Rural de l'Oueme (PADRO), 67-68
National Innovation Council, 164
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
radio                                Sahel, 126, 220-21
  education and, 115, 120, 130, 156  Sampa Jimini Cooperative Cashew
  entrepreneurship and, 156, 160-62   Processing Society, 157-59
railways, 87-88, 104-9, 208          SANBio (Southern Africa Network for
Raw Material Research and             Biosciences), 170-73
 Development Council (RMRDC), 56,    sanitation, 25, 46, 91, 198, 203
 58-59
RECs. See Regional Economic          school gardens, 122-25
 Communities
reforms, 27-28, 146                  schools of regional integration,
                                      182-83, 226
  economic-agricultural linkages     science. See technology
   and, xix, 10, 17-18
  in education, xxi-xxii, 50, 132,   Seacom, 32
   136-38, 212
  infrastructure and, 85-86, 90-91   seeds, 102, 207
  innovation and, 50, 76-82, 179-      clusters and, 64, 66-68
   83, 185
  technology and, xx, 28               economic-agricultural linkages
                                        and, 3, 9, 15
regional academies of science,         education and, 125-27, 129
 innovation, technology, and           entrepreneurship and, 147-55,
 engineering, 179-82, 214, 226          162, 164-65
Regional Economic Communities          innovation and, 55-56
 (RECs)
  cooperation and merging of, xv-      technology and, 37, 39
   xvi, xviii-xix, xxiii, 197        Seeds of Development Program
                                      (SODP), 154-55
  economic-agricultural linkages     Seldon Laboratories, 45-46
   and, 11, 14, 19-21
  future and, 204, 211, 216-17       Shouguang vegetable cluster, 64-66
  infrastructure and, xvi, 112, 167  Siemens, 105-6
  innovation and, xiv, 77, 166-67,   Singapore-Philadelphia Innovators'
   176-77, 179, 181-83, 197, 200-     Network (SPIN), 192
   203, 216
  missions and objectives of, xv-    Slovenia, 69-71
   xvi, xviii, xxiii, 219-24         small and medium-sized enterprises
  technology and, 49, 211, 216        (SMEs), xviii, 25, 228
regional issues, xiv-xix               and clusters, 70-71
  clusters and, 73-74, 82-83           and entrepreneurship, 134-35, 142-
                                        43
  COMESA summit and, 226, 229          and innovation, 184, 196
  economic-agricultural linkages     socioeconomic issues, 224
   and, 18-22
  education and, 119, 121, 127,        clusters and, 67-68
   133, 137-38, 211
  entrepreneurship and, 142, 165       education and, 121, 127
  future and, 205, 207, 211, 216-17    future and, 206, 216-17
  infrastructure and, 87-88, 91, 95-   innovation and, 53, 55, 169, 206
   98, 109-12, 168, 203              Society for Research and
                                      Initiatives for Sustainable
  innovation and, 166-75, 179-83,      Technologies and Institutions,
   194-96, 199-200, 202-3, 211        163-64
                                     SODP (Seeds of Development
                                      Program), 154-55
  integration in, xiv-xviii, xxiii,  soil, xiii, 8, 17, 102, 129, 149
   19-20, 49, 166-67, 179, 181-83,     technology and, 34-35
   194-97, 199
  technology and, 42, 226, 229       Somaliland, 189-90
regulations, regulation, 12          Songhai, 67-68
  clusters and, 68, 73-74, 82        sorghum
  entrepreneurship and, 143, 151-      entrepreneurship and, 149-53
   52, 164
  infrastructure and, xvi, 89, 91,     innovation and, 171-72
   97, 99, 110
  innovation and, 78-79, 188, 197-   South Africa, 3, 8, 32-33
   202
  and merging of RECs, xvi, xxiii      education and, 123-24, 172
  technology and, 33-34, 38-44, 198-   entrepreneurship and, 143, 159
   99, 202
research, xviii-xix, xxi-xxii, 221     technology and, 36-37, 170, 172,
                                        180-81, 184, 191
  clusters and, 62, 68-71, 73-74     Southern Africa Network for
  COMESA Summit and, 229-31           Biosciences (SANBio), 170-73
  economic-agricultural linkages     Southern African Development
   and, 5-7, 10, 12, 18-19            Community (SADC), 95
                                       entrepreneurship and, 164-65
  education and, xix, xxii, 77-81,     innovation and, 194-96, 201
   115, 120-21, 125-26, 129-30, 136-   mission and objectives of, xv-
   38, 140-41                           xvi, xxiii, 224
  entrepreneurship and, 144, 150-    soybeans, 28, 38
   53, 162, 164
  future and, 210, 212, 215            innovation and, 54-56
  infrastructure and, xiv, 84-86,      technology and, 42-43
   106-7, 109
  innovation and, xiv, xxi, 50-62,   Spark Program, 144-45
   77-82, 167, 169-75, 178, 180,     SPIN (Singapore-Philadelphia
   182-85, 188-89, 198, 203           Innovators' Network),
  technology and, 24, 26-29, 32,       192
   35, 38, 44-46, 48-49, 52, 215,    Sri Lanka, 184, 190
   229-31
rice, 12, 28-29                      Striga, 129-30
  in Benin cluster, 66-69            sugar, sugarcane
  entrepreneurship and, 153, 161       infrastructure and, 92-93
  technology and, 28, 35, 44, 47       innovation and, 184-85
RMRDC (Raw Material Research and     supply contracts, 156-57
 Development Council), 56, 58-59     Swissnex, 192
roads                                Syngenta Corporation, 66
  entrepreneurship and, 145-46, 160  Taiwan, 29, 189
  infrastructure and, 74, 85-90,     Tanzania, 37, 148, 180-81, 221, 224
   109-10, 113, 208
  innovation and, 167, 176             infrastructure of, 98, 100, 104,
                                        111
Rwanda, 18, 162, 221-22, 227         taxes
  technology and, 45-46                clusters and, 65, 74
SADC. See Southern African             economic-agricultural linkages
 Development Community                  and, 17, 21
Safaricom, 33                          entrepreneurship and, xxii-xxiii,
                                        143-44
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
taxes (continued)                    Twain, Mark, 1-2
  infrastructure and, 99, 111        UDS (University for Development
                                      Studies), 120-22
  innovation and, 184-86, 194, 199   Uganda, 31, 46, 221
technology, xiii-xxiii, 22-54          banana production in, 36
  accessibility of, 34, 52-53          economic-agricultural linkages
                                        in, 17-18
  advances in, 23-49                   education in, 118-20, 130
  clusters and, 62-63, 65-66, 68-      entrepreneurship in, 154, 161
   69, 71-72
  COMESA Summit on, 225-32             infrastructure of, 86-87, 104
  communication and, xvi, xxi,         innovation in, 173, 175, 181, 186
   xxiii, 23-24, 29-34, 48, 63,      Uganda Rural Development and
   142, 170, 186, 195, 207-9, 225,    Training Program (URDT), 118-20,
   227                                130
  diplomacy and, 190-93, 214
  economics and, xiv, xviii-xix, 2,  UILs (university-industry
   9, 12-16, 18-19, 22, 25-26, 30,    linkages), 54-59
   33, 35-37, 40, 43, 47, 49, 69,    UNAAB (University of Agriculture
   184, 188, 202, 206, 210, 212,      Abeokuta)--Nestle Soyabean
   215, 227                           Popularization and Production
  education and, xix-xx, xxiii, 25,   Project, 54-56
   34, 44, 49, 52, 58, 116, 118-21,  United Kingdom, 13, 76, 104, 123,
   125, 128-30, 136, 140-41, 156,     190-93
   186-87, 209, 213, 226-27, 231       DFID of, 3, 154, 192-93
  entrepreneurship and, xxiii, 142-    entrepreneurship and, 154, 156,
   46, 153, 156-57, 160-62, 164,        159
   210, 213                            technology and, 39, 191-93
  future and, 205-16                 United Nations, 39-40, 46, 116
  infrastructure and, xxii, 26, 31,  United States, xvii, 38, 157
   33, 84-85, 91, 94-96, 104-8, 112-   education and, 122-23, 130-32,
   13, 208, 227, 230                    135-36, 140
  innovation and, xiv-xv, xvii, xix-   infrastructure and, 31, 89
   xxii, 9, 19, 22-28, 33, 51-54,      innovation and, 184, 190-93
   56-58, 71, 75, 77-82, 104, 141,     technology and, 36, 40-43, 45-46,
   143, 169-72, 174-93, 195-99,         190-93
   202, 205-6, 210, 212, 214, 216,   United States Agency for
   228-29, 231                        International Development
  integration and, xvii, 19, 79,       (USAID), 3, 132, 193
   175-76, 178
  international issues and, 40, 44,  universities and research
   47, 53, 188-90, 214                institutes (URIs), 77-81
  and missions and objectives of     University for Development Studies
   RECs, 220-24                       (UDS), 120-22
  mobile, 30-34, 37, 82, 100-101,    university-industry linkages
   103-4, 112                         (UILs), 54-59
  monitoring of, 47-48               URDT (Uganda Rural Development
  platform, 24, 29-47                 Training Program), 118-20, 130
  prospecting and, 47-48             value chains, xviii, xxii
  research and, 24, 26-29, 32, 35,     clusters and, 70-71
   38, 44-46, 48-49, 52, 215, 229-     economic-agricultural linkages
   31                                   and, 14-15, 18
Technoserve, 157-59                    infrastructure and, 91, 148
telecommunications, 25, 187, 215,      innovation and, 83, 174-75, 199
 223, 228
  clusters and, 71, 74               Vayalagams, 75-76
  infrastructure and, 86, 100-104,   venture capital, 62, 143
   109, 112-13
  innovation and, 82, 187, 195       video, 156, 160-62
  mobile phones in, 30-31, 33, 37,   vitamin A deficiency, 35
   82, 100-101, 103-4, 112           Vredeseilanden (VECO), 67-68
text messaging, 31-32                WABNet (West African Biosciences
                                      Network), 171-72
Tominion Farmers' Union, 129         wa Mutharika, Bingu, xiii, 2-4, 22
Torch Program, The, 79               Wang Leyi, 65
township and village enterprises     WAPP (West African Power Pool), 97-
 (TVEs), 145-47                       98, 111
trade, xv-xviii, 24-25, 27, 227      water
  clusters and, 64-65, 67, 73          future and, 205, 208
  economic-agricultural linkages       infrastructure and, 86, 90-96,
   and, 6-7, 9-10, 12, 15, 17, 19-      100, 103, 109-11, 113
   21                                  innovation and, 75-76, 170, 179
  education and, 139-40                technology and, 25, 45-46, 227
  entrepreneurship and, 143, 145,      See also irrigation
   148, 151-52, 155-57, 159, 164-65  Watson, James, 44
  infrastructure and, 85-88, 91,     weather, xiii, 12
   98, 102, 105
  innovation and, xviii, 59-61, 82,    drought and, 36-37, 41, 92, 97,
   167-69, 174-75, 178, 185, 194-       100, 154-55, 205,
   96, 198, 200-201                     209, 223-24
  and missions and objectives of       entrepreneurship and, 148-49
   RECs, 219-20, 222-24                infrastructure and, 92, 97, 100-
                                        101, 103-4, 109, 112
technology and, 25, 38, 40, 42         and missions and objectives of
                                        RECs, 223-24
transportation, xviii, 15              See also climate change
  clusters and, 65, 72               weeds, 35, 93, 162
  economic-agricultural linkages       education and, 129-30
   and, 8-9, 12-13, 20
  future and, 208, 213                 herbicides and, 39, 42-43, 45, 67
  infrastructure and, 84-85, 87-90,  West African Biosciences Network
   100, 102-3, 108, 110, 113          (WABNet), 171-72
                                     West African Power Pool (WAPP), 97-
                                      98, 111
  innovation and, 167-68, 195        wheat, 9, 12, 28-29, 38, 47, 153
  and missions and objectives of     Whole Foods Market, 135
   RECs, xvi, 220, 222-24            W.K. Kellogg Foundation, 132
  technology and, 26, 30-31          women, xx, 71, 171
Tripartite Free Trade Area (FTA),      economic-agricultural linkages
 xv, 194-96                             and, 16-17, 86
trypanosomiasis, 171, 173              education and, xxii, 116-20, 125-
                                        26, 141
tsetse flies, 171, 173                 entrepreneurship and, 160-61
Tunde Group, 67-68                   World Bank, 3, 98, 150, 188, 204-5
Tunisia, xvi, 98-99, 219-20          World Trade Organization (WTO), 39-
                                      41, 185, 198
TVEs (township and village           Zain, 103-4
 enterprises), 145-47
------------------------------------------------------------------------


                            Index--continued
------------------------------------------------------------------------------------------------------------------------------------------------
Zambia, 18, 41, 154, 167, 220, 224
Zimbabwe, 8, 41, 148, 181
------------------------------------------------------------------------

                                  <all>

</pre></body></html>
